No. 20-1114
IN THE

Supreme Court of the United States
THE AMERICAN HOSPITAL ASSOCIATION, et al.,
Petitioners,
v.
XAVIER BECERRA, in his official capacity as the
Secretary of Health and Human Services, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the District of Columbia
Circuit
JOINT APPENDIX
DONALD B. VERRILLI, JR.
Munger, Tolles & Olson LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, DC 20001
Donald.Verrilli@mto.com
(202) 220-1100

BRIAN FLETCHER
Acting Solicitor General
Department of Justice
Washington, D.C. 20530
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record for
Petitioners

Counsel of Record for
Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: February 10, 2021
CERTIORARI GRANTED: July 2, 2021

i
TABLE OF CONTENTS
Page
Relevant Docket Entries, United States
District Court for the District of Columbia,
American Hospital Association v. Azar, No.
18-CV-02084 ............................................................ 1
Relevant Docket Entries, United States Court
of Appeals for the District of Columbia
Circuit, American Hospital Association v.
Azar, No. 19-5198 .................................................. 23
Medicare Program: Hospital Outpatient
Prospective Payment and Ambulatory
Surgical Center Payment Systems and
Quality Reporting Programs, 82 Fed. Reg.
52,356 (Nov. 13, 2017) (excerpts) ......................... 29
Medicare Program: Changes to Hospital
Outpatient Prospective Payment and
Ambulatory Surgical Center Payment
Systems and Quality Reporting Programs,
83 Fed. Reg. 58,818 (Nov. 21, 2018)
(excerpts) ............................................................. 146
42 U.S.C. 1395l ......................................................... 212

1
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Docket No. 18-2084
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Plaintiffs
v.
ALEX M. AZAR, II, ET AL.,
Defendants
RELEVANT DOCKET ENTRIES
Date
Filed
9/5/2018

Docket
Docket Text
Number
1
COMPLAINT against
ALEX M. AZAR II, DEPARTMENT OF
HEALTH AND HUMAN
SERVICES (Filing fee
$ 400 receipt number
0090-5672969) filed by
FLETCHER HOSPITAL,
INC., EASTERN MAINE
HEALTHCARE SYSTEMS, AMERICAN HOSPITAL ASSOCIATION,
AMERICA’S ESSENTIAL
HOSPITALS, ASSOCIATION OF AMERICAN
MEDICAL COLLEGES,
HENRY FORD HEALTH
SYSTEM. (Attachments:

2
Date
Filed

Docket
Number

Docket Text
# 1 Summons Alex M.
Azar II, # 2 Summons
U.S. Department of
Health and Human Services, # 3 Civil Cover
Sheet) (Schultz, William)
(Entered: 09/05/2018)

9/5/2018

2

MOTION for Preliminary
Injunction and Permanent
Injunction by AMERICA’S
ESSENTIAL HOSPITALS, AMERICAN HOSPITAL ASSOCIATION,
ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, EASTERN
MAINE HEALTHCARE
SYSTEMS, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM (Attachments:
# 1 Memorandum in Support, # 2 Exhibit Index,
# 3 Exhibit A, # 4 Exhibit
B-1, # 5 Exhibit B-2, # 6
Exhibit C, # 7 Exhibit D,
# 8 Exhibit E, # 9 Exhibit
F, # 10 Exhibit G, # 11 Exhibit H, # 12 Exhibit I,
# 13 Exhibit J, # 14 Exhibit K, # 15 Exhibit L,
# 16 Exhibit M, # 17 Exhibit N, # 18 Exhibit O,

3
Date
Filed

Docket
Number

Docket Text
# 19 Exhibit P, # 20 Exhibit Q, # 21 Exhibit R,
# 22 Exhibit S, # 23 Exhibit T, # 24 Exhibit U,
# 25 Exhibit V, # 26 Exhibit W, # 27 Exhibit X,
# 28 Text of Proposed Order) (Schultz, William).
Added MOTION for Permanent Injunction on
9/12/2018 (znmw). (Entered: 09/05/2018)
* * *

9/14/2018

14

MOTION to Dismiss by
ALEX M. AZAR II, DEPARTMENT OF
HEALTH AND HUMAN
SERVICES (Attachments:
# 1 Exhibit, # 2 Exhibit,
# 3 Text of Proposed Order) (Sandberg, Justin)
(Entered: 09/14/2018)

9/14/2018

15

RESPONSE re MOTION
for Preliminary Injunction
and Permanent Injunction
MOTION for Permanent
Injunction filed by ALEX
M. AZAR II, DEPARTMENT OF HEALTH AND
HUMAN SERVICES. (Attachments: # 1 Exhibit,
# 2 Exhibit) (Sandberg,

4
Date
Filed

Docket
Number

Docket Text

9/26/2018

16

RESPONSE re MOTION
to Dismiss and Reply in
Support of Motion for Preliminary and Permanent
Injunction filed by AMERICA’S ESSENTIAL HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, EASTERN
MAINE HEALTHCARE
SYSTEMS, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM. (Attachments:
# 1 Supplemented Exhibit
L, # 2 Supplemented Exhibit N, # 3 Supplemented
Exhibit P, # 4 Supplemented Exhibit R, # 5 Exhibit Y) (Marcus, Ezra)
(Entered: 09/26/2018)

9/26/2018

18

REPLY to opposition to
motion re MOTION for
Preliminary Injunction
and Permanent Injunction
MOTION for Permanent
Injunction filed by AMERICA’S ESSENTIAL HOSPITALS, AMERICAN

Justin) (Entered:
09/14/2018)

5
Date
Filed

Docket
Number

Docket Text
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, EASTERN
MAINE HEALTHCARE
SYSTEMS, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM. (See Docket Entry 16 to view document)
(tth) (Entered: 10/01/2018)
* * *

10/9/2018

19

NOTICE of Administrative Decision by AMERICA’S ESSENTIAL HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, EASTERN
MAINE HEALTHCARE
SYSTEMS, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM (Attachments:
# 1 EAJR Ruling) (Marcus, Ezra) (Entered:
10/09/2018)

10/10/2018 20

REPLY to opposition to
motion re 14 MOTION to
Dismiss filed by ALEX M.
AZAR II, DEPARTMENT

6
Date
Filed

Docket
Number

Docket Text
OF HEALTH AND HUMAN SERVICES. (Sandberg, Justin) (Entered:
10/10/2018)
* * *

23

NOTICE of Administrative Decisions by AMERICA’S ESSENTIAL HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH (Attachments: # 1 Supplemented
Exhibit I, # 2 Supplemented Exhibit J) (Marcus, Ezra) (Entered:
12/03/2018)

12/27/2018 24

ORDER denying Defendants’ Motion to Dismiss;
granting Plaintiffs’ Motion
for a Permanent Injunction; and denying as moot
Plaintiffs’ Motion for a
Preliminary Injunction.
See document for details.
Signed by Judge Rudolph
Contreras on December

12/3/2018

7
Date
Filed

Docket
Number

12/27/2018 25

Docket Text
27, 2018. (lcrc3) (Entered:
12/27/2018)
MEMORANDUM OPINION denying Defendants’
Motion to Dismiss; granting Plaintiffs’ Motion for a
Permanent Injunction;
and denying as moot
Plaintiffs’ Motion for a
Preliminary Injunction.
See document for details.
Signed by Judge Rudolph
Contreras on December
27, 2018. (lcrc3) (Entered:
12/27/2018)
* * *

1/9/2019

28

NOTICE OF SUPPLEMENTAL AUTHORITY
by AMERICA’S ESSENTIAL HOSPITALS,
AMERICAN HOSPITAL
ASSOCIATION, ASSOCIATION OF AMERICAN
MEDICAL COLLEGES,
FLETCHER HOSPITAL,
INC., HENRY FORD
HEALTH SYSTEM,
NORTHERN LIGHT
HEALTH (Attachments:
# 1 USCA Order) (Marcus,
Ezra) (Entered:
01/09/2019)

8
Date
Filed

Docket
Number

Docket Text

1/31/2019

31

MEMORANDUM by
ALEX M. AZAR II,
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES. (Attachments: # 1 Declaration)
(Sandberg, Justin) (Entered: 01/31/2019)

1/31/2019

32

MEMORANDUM by
AMERICA’S ESSENTIAL
HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH. (Attachments: # 1 Exhibit A)
(Marcus, Ezra) (Entered:
01/31/2019)

* * *

* * *
2/7/2019

33

Unopposed MOTION for
Leave to File Amicus Curiae Brief by FEDERATION OF AMERICAN
HOSPITALS (Attachments: # 1 Exhibit A Amicus Brief, # 2 Text of

9
Date
Filed

Docket
Number

2/7/2019

34

2/8/2019

Docket Text
Proposed Order) (Carroll,
Kelly) (Entered:
02/07/2019)
Unopposed MOTION for
Leave to File Supplemental Complaint by
AMERICA’S ESSENTIAL
HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH (Attachments: # 1 Exhibit A, # 2
Exhibit B, # 3 Exhibit C,
# 4 Exhibit D, # 5 Text of
Proposed Order) (Marcus,
Ezra) (Entered:
02/07/2019)
MINUTE ORDER granting Unopposed Motion for
Leave to File Amicus Curiae Brief. It is hereby
ORDERED that the Amicus Curiae brief attached
to the motion (ECF No.
33-1) is DEEMED FILED.
SO ORDERED. Signed by
Judge Rudolph Contreras
on February 8, 2019.

10
Date
Filed

Docket
Number

Docket Text
(lcrc3) (Entered:
02/08/2019)
MINUTE ORDER granting Plaintiffs’ Unopposed
Motion for Leave to File
Supplemental Complaint.
It is hereby ORDERED
that Exhibit C to Plaintiffs’ motion (ECF No. 343) is deemed filed and
served as the operative
pleading in this case. SO
ORDERED. Signed by
Judge Rudolph Contreras
on February 8, 2019.
(lcrc3) (Entered:
02/08/2019)

2/8/2019

2/8/2019

38

AMICUS BRIEF by FEDERATION OF AMERICAN HOSPITALS.
(znmw) (Entered:
02/20/2019)

2/8/2019

39

SUPPLEMENTAL COMPLAINT against ALEX M.
AZAR II, UNITED
STATES DEPARTMENT
OF HEALTH AND HUMAN SERVICES filed by
FLETCHER HOSPITAL,
INC., AMERICA’S ESSENTIAL HOSPITALS,
ASSOCIATION OF
AMERICAN MEDICAL

11
Date
Filed

Docket
Number

Docket Text

2/11/2019

35

MOTION for Permanent
Injunction by AMERICA’S
ESSENTIAL HOSPITALS, AMERICAN HOSPITAL ASSOCIATION,
ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH (Attachments: # 1 Text of Proposed Order)(Schultz, William) (Entered:
02/11/2019)

2/14/2019

36

RESPONSE Regarding
Appropriate Remedy filed
by ALEX M. AZAR II,
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES. (Sandberg,
Justin) (Entered:
02/14/2019)

COLLEGES, AMERICAN
HOSPITAL ASSOCIATION, NORTHERN
LIGHT HEALTH,
HENRY FORD HEALTH
SYSTEM.(znmw) (Entered: 02/20/2019)

12
Date
Filed
2/14/2019

Docket
Docket Text
Number
37
SUPPLEMENTAL MEMORANDUM to re Order
on Motion for Preliminary
Injunction,, Order on Motion for Permanent Injunction,, Order on Motion
to Dismiss, filed by
AMERICA’S ESSENTIAL
HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH. (Dotzel,
Margaret) (Entered:
02/14/2019)

2/21/2019

40

MOTION for Leave to File
Amicus Curiae Brief of
the Federation of American Hospitals in Response
to Defendants Opposition
Brief on Remedy by FEDERATION OF AMERICAN HOSPITALS. (Attachments: # 1 Exhibit A FAH Response Brief, # 2
Text of Proposed Order)
(Carroll, Kelly) (Entered:
02/21/2019)

13
Date
Filed
2/22/2019

Docket
Docket Text
Number
41
NOTICE OF APPEAL TO
DC CIRCUIT COURT by
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES, ALEX M.
AZAR II. Fee Status: No
Fee Paid. Parties have
been notified. (Sandberg,
Justin) (Entered:
02/22/2019)

2/22/2019

42

Partial MOTION to Dismiss , Partial MOTION to
Dismiss for Lack of Jurisdiction by ALEX M. AZAR
II, UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES. (Attachments: # 1 Text of Proposed Order) (Sandberg,
Justin) (Entered:
02/22/2019)

2/22/2019

43

Memorandum in opposition to re MOTION for
Permanent Injunction
filed by ALEX M. AZAR
II, UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES. (Sandberg,
Justin) (Entered:
02/22/2019)

14
Date
Filed

Docket
Number

Docket Text

2/26/2019

45

REPLY to opposition to
motion re MOTION for
Permanent Injunction
filed by AMERICA’S ESSENTIAL HOSPITALS,
AMERICAN HOSPITAL
ASSOCIATION, ASSOCIATION OF AMERICAN
MEDICAL COLLEGES,
FLETCHER HOSPITAL,
INC., HENRY FORD
HEALTH SYSTEM,
NORTHERN LIGHT
HEALTH. (Marcus, Ezra)
(Entered: 02/26/2019)

2/26/2019

46

Memorandum in opposition to re Partial MOTION to Dismiss Partial
MOTION to Dismiss for
Lack of Jurisdiction filed
by AMERICA’S ESSENTIAL HOSPITALS,
AMERICAN HOSPITAL
ASSOCIATION, ASSOCIATION OF AMERICAN
MEDICAL COLLEGES,
FLETCHER HOSPITAL,
INC., HENRY FORD
HEALTH SYSTEM,
NORTHERN LIGHT
HEALTH. (Marcus, Ezra)
(Entered: 02/26/2019)

* * *

15
Date
Filed

Docket
Number

Docket Text

3/15/2019

47

NOTICE Of Motion to
Stay Appeal by AMERICA’S ESSENTIAL HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH. (Attachments: # 1 Exhibit
Motion to Hold Appeal in
Abeyance) (Schultz, William) (Entered:
03/15/2019)

3/27/2019

48

ORDER of USCA as to
Notice of Appeal to DC
Circuit Court filed by
ALEX M. AZAR II,
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES; USCA Case
Number 19-5048. (zrdj)
(Entered: 04/01/2019)

5/06/2019

49

ORDER granting in part
and denying in part motion for permanent injunction; granting motion for

* * *

16
Date
Filed

Docket
Number

Docket Text

5/06/2019

50

MEMORANDUM OPINION granting in part and
denying in part motion for
permanent injunction;
granting motion for leave
to file; denying motion to
dismiss: See document for
details. Signed by Judge
Rudolph Contreras on
5/6/19. (lcrc1) (Entered:
05/06/2019)

5/10/2019

51

MOTION for a Firm Date
by which Defendants
Must Propose a Remedy ,
MOTION to Expedite Response Deadline by
AMERICA’S ESSENTIAL
HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH. (Attachments: # 1 Text of

leave to file; denying motion to dismiss: See document for details. Signed
by Judge Rudolph Contreras on 5/6/19. (lcrc1) (Entered: 05/06/2019)

17
Date
Filed

Docket
Number

Docket Text
Proposed Order, # 2 Text
of Proposed Order) (Marcus, Ezra) (Entered:
05/10/2019)
* * *

5/31/2019

53

RESPONSE re MOTION
for a Firm Date by which
Defendants Must Propose
a Remedy MOTION to Expedite Response Deadline
filed by ALEX M. AZAR
II, UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES. (Sandberg,
Justin) (Entered:
05/31/2019)

6/3/2019

54

MOTION for Entry of Final Judgment, MOTION
for Reconsideration of
May 6, 2019 Order, MOTION to Expedite Briefing
by ALEX M. AZAR II,
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES. (Attachments: # 1 Text of Proposed Order) (Sandberg,
Justin) (Entered:
06/03/2019)

18
Date
Filed
6/4/2019

Docket
Number

6/4/2019

55

Docket Text
MINUTE ORDER: Upon
consideration of Defendants’ Motion for Reconsideration, Entry of Final
Judgment, and Expedited
Briefing, it is hereby ORDERED that the motion
for expedited consideration is GRANTED. It is
FURTHER ORDERED
that Plaintiffs shall file
their response brief to Defendants’ motion by no
later than June 11, 2019.
SO ORDERED. Signed by
Judge Rudolph Contreras
on June 4, 2019. (lcrc3)
(Entered: 06/04/2019)
REPLY to opposition to
motion re MOTION for a
Firm Date by which Defendants Must Propose a
Remedy MOTION to Expedite Response Deadline
filed by AMERICA’S ESSENTIAL HOSPITALS,
AMERICAN HOSPITAL
ASSOCIATION, ASSOCIATION OF AMERICAN
MEDICAL COLLEGES,
FLETCHER HOSPITAL,
INC., HENRY FORD
HEALTH SYSTEM,
NORTHERN LIGHT

19
Date
Filed

Docket
Number

Docket Text

6/7/2019

56

RESPONSE re MOTION
for Entry of Final Judgment MOTION for Reconsideration of May 6, 2019
Order MOTION to Expedite Briefing filed by
AMERICA’S ESSENTIAL
HOSPITALS, AMERICAN
HOSPITAL ASSOCIATION, ASSOCIATION OF
AMERICAN MEDICAL
COLLEGES, FLETCHER
HOSPITAL, INC.,
HENRY FORD HEALTH
SYSTEM, NORTHERN
LIGHT HEALTH. (Marcus, Ezra) (Entered:
06/07/2019)

6/10/2019

57

REPLY to opposition to
motion re MOTION for
Entry of Final Judgment
MOTION for Reconsideration of May 6, 2019 Order
MOTION to Expedite
Briefing filed by ALEX M.
AZAR II, UNITED
STATES DEPARTMENT
OF HEALTH AND HUMAN SERVICES. (Sandberg, Justin) (Entered:
06/10/2019)

HEALTH. (Marcus, Ezra)
(Entered: 06/04/2019)

20
Date
Filed

Docket
Number

7/10/2019

Docket Text
* * *
Minute Entry for proceedings held before Judge Rudolph Contreras: Status
Conference held on
7/10/2019. Parties inform
the court of the status of
this action. (Court Reporter: Patricia Kaneshiro
Miller.) (tj) (Entered:
07/10/2019)

7/10/2019

58

ORDER granting Defendants’ Motion for Entry of
Final Judgment and denying as moot Plaintiffs’ Motion for a Firm Date. See
document for details.
Signed by Judge Rudolph
Contreras on July 10,
2019. (lcrc3) Modified on
7/10/2019 (lcrc3). Modified
on 7/10/2019 (lcrc3). (Entered: 07/10/2019)

7/10/2019

59

MEMORANDUM OPINION granting Defendants’
Motion for Entry of Final
Judgment and denying as
moot Plaintiffs’ Motion for
a Firm Date. See document for details. Signed
by Judge Rudolph Contreras on July 10, 2019.

21
Date
Filed

Docket
Number

7/11/2019

60

Docket Text
(lcrc3) (Entered:
07/10/2019)
NOTICE OF APPEAL TO
DC CIRCUIT COURT by
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES, ALEX M.
AZAR II. Fee Status: No
Fee Paid. Parties have
been notified. (Sandberg,
Justin) (Entered:
07/11/2019)
* * *

7/15/2019

USCA Case Number 195198 for Notice of Appeal
to DC Circuit Court filed
by ALEX M. AZAR II,
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES. (zrdj) (Entered: 07/16/2019)

10/26/2020

MANDATE of USCA as to
Notice of Appeal to DC
Circuit Court filed by
ALEX M. AZAR, II,
UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES, Notice of Appeal to DC Circuit Court

22
Date
Filed

Docket
Number

Docket Text
filed by ALEX M. AZAR,
II, UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN
SERVICES ; USCA Case
Number 19-5048 Consolidated with 19-5198. (Attachments: # 1 USCA
Judgment) (zrdj) (Entered: 10/27/2020)

23
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Docket No. 19-5198
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Plaintiffs-Appellees
v.
ALEX AZAR, II, ET AL.,
Defendants-Appellants
RELEVANT DOCKET ENTRIES
DATE

PROCEEDINGS
* * *

7/15/2019

NOTICE OF APPEAL [1797187] seeking review of a decision by the U.S.
District Court in 1:18-cv-02084-RC
filed by Mr. Alex Michael Azar, II and
HHS. Appeal assigned USCA Case
Number: 19-5198. [19-5198] [Entered:
07/15/2019 02:59 PM]
* * *

7/23/2019

STATEMENT OF ISSUES [1798573]
filed by Mr. Alex Michael Azar, II and
HHS [Service Date: 07/23/2019] [195198] (Myron, Laura) [Entered:
07/23/2019 02:52 PM]
* * *

7/24/2019

MOTION [1798888] to expedite case,
to establish briefing schedule filed by

24
DATE

PROCEEDINGS
America’s Essential Hospitals, American Hospital Association, Association
of American Medical Colleges,
Fletcher Hospital, Inc., Henry Ford
Health System and Northern Light
Health (Service Date: 07/24/2019 by
CM/ECF NDA) Length Certification:
2,410 words. [19-5198] (Schultz, William) [Entered: 07/24/2019 05:09 PM]
* * *

9/3/2019

APPELLANT BRIEF [1804789] filed
by Mr. Alex Michael Azar, II and HHS
in 19-5198, 19-5048 [Service Date:
09/03/2019] Length of Brief: 8,774
words. [19-5198, 19-5048] (Myron,
Laura) [Entered: 09/03/2019 08:05
PM]

9/3/2019

JOINT APPENDIX [1804790] filed by
Mr. Alex Michael Azar, II and HHS in
19-5198, 19-5048. [Volumes: 1] [Service Date: 09/03/2019 ] [19-5198, 195048] (Myron, Laura) [Entered:
09/03/2019 08:22 PM]

9/10/2019

AMICUS FOR APPELLANT BRIEF
[1805870] filed by Federation of
American Hospitals in 19-5198, 195048 [Service Date: 09/10/2019]
Length of Brief: 3,568 Words. [195198, 19-5048]--[Edited 09/11/2019 by
JAD--MODIFIED PARTY FILER]
(London, Andrew) [Entered:
09/10/2019 01:54 PM]

25
DATE

PROCEEDINGS
* * *

9/11/2019

CORRECTED AMICUS FOR APPELLANT BRIEF [1806058] filed by Federation of American Hospitals in 195198, 19-5048 [Service Date:
09/11/2019] Length of Brief: 3,568
Words. [19-5198, 19-5048) (London,
Andrew) [Entered: 09/11/2019 02:39
PM]

9/24/2019

APPELLEE BRIEF [1807851] filed by
America’s Essential Hospitals, American Hospital Association, Association
of American Medical Colleges,
Fletcher Hospital, Inc., Henry Ford
Health System and Northern Light
Health in 19-5198, 19-5048 [Service
Date: 09/24/2019] Length of Brief:
12,411 words. [19-5198, 19-5048]
(Schultz, William) [Entered:
09/24/2019 02:47 PM]
* * *

10/15/2019 CORRECTED APPELLANT REPLY
BRIEF [1810886] filed by HHS and
Mr. Alex Michael Azar, II in 19-5048,
19-5198 [Service Date: 10/15/2019]
Length of Brief: 4,800 words. [195048, 19-5198] (Myron, Laura) [Entered: 10/15/2019 04:38 PM]
* * *

26
DATE
11/8/2019

PROCEEDINGS
ORAL ARGUMENT HELD before
Judges Srinivasan, Millett and Pillard. [19-5048, 19-5198] [Entered:
11/13/2019 10:36 AM]

11/12/2019 LETTER [1815284] pursuant to FRAP
28j advising of additional authorities
filed by Mr. Alex Michael Azar II and
HHS in 19-5048, 19-5198 [Service
Date: 11/12/2019] [19-5048, 19-5198]
(Klein, Alisa) [Entered: 11/12/2019
02:16 PM]
11/14/2019 LETTER [1815803] pursuant to FRAP
28j advising of additional authorities
filed by America’s Essential Hospitals,
American Hospital Association, Association of American Medical Colleges,
Fletcher Hospital, Inc., Henry Ford
Health System and Northern Light
Health in 19-5048, 19-5198 [Service
Date: 11/14/2019] [19-5048, 19-5198]
(Schultz, William) [Entered:
11/14/2019 01:09 PM]
11/15/2020 TRANSCRIPT [1816110] of oral argument [19-5048, 19-5198] [Entered:
11/15/2019 03:58 PM]
7/31/2020

PER CURIAM JUDGMENT
[1854491] filed that the judgment of
the District Court appealed from in
these causes be reversed, for the reasons in the accompanying opinion. Before Judges: Srinivasan, Millett and
Pillard. [19-5048, 19-5198] [Entered:
07/31/2020 10:47 AM]

27
DATE
7/31/2020

PROCEEDINGS
OPINION [1854504] filed (Pages: 30)
for the Court by Judge Srinivasan,
OPINION DISSENTING IN PART
(Pages: 12) by Judge Pillard. [19-5048,
19-5198] [Entered: 07/31/2020 10:54
AM]

7/31/2020

CLERK’S ORDER [1854508] filed
withholding issuance of the mandate.
[19-5048, 19-5198] [Entered:
07/31/2020 10:56 AM]
* * *

9/14/2020

PETITION [1861298] for rehearing en
banc filed by Appellees America’s Essential Hospitals, American Hospital
Association, Association of American
Medical Colleges, Fletcher Hospital,
Inc., Henry Ford Health System and
Northern Light Health in 19-5048, 195198 [Service Date: 09/14/2020 by
CM/ECF NDA] Length Certification:
3896. [19-5048, 19-5198] (Verrilli,
Donald) [Entered: 09/14/2020 02:07
PM]

9/14/2020

NOTICE [1861303] to substitute
party filed by Fletcher Hospital, Inc.
in 19-5048, 19-5198 [Service Date:
09/14/2020] [19-5048, 19-5198] (Verrilli, Donald) [Entered: 09/14/2020
02:14 PM]

10/16/2020 PER CURIAM ORDER, En Banc,
[1866841] filed denying appellees’ petition for rehearing en banc [1861298-

28
DATE

PROCEEDINGS
2] Before Judges: Srinivasan, Henderson, Rogers, Tatel, Garland, Millett,
Pillard, Wilkins, Katsas, Rao* and
Walker. [19-5048, 19-5198] (Circuit
Judge Rao did not participate in this
matter) [Entered: 10/16/2020 04:45
PM]

10/26/2020 MANDATE ISSUED to Clerk, U.S.
District Court. [19-5048, 19-5198]
[Entered: 10/26/2020 03:03 PM]

29
[82 Fed. Reg. 52,356 (Nov. 13, 2017)]
DEPARTMENT OF HEALTH AND
HUMAN SERVICES
Centers for Medicare & Medicaid Services
42 CFR Parts 414, 416, and 419
[CMS–1678–FC]
RIN 0938-AT03
Medicare
Program:
Hospital
Outpatient
Prospective Payment and Ambulatory Surgical
Center Payment Systems and Quality Reporting
Programs
AGENCY: Centers for Medicare & Medicaid Services
(CMS), HHS.
ACTION: Final rule with comment period.
SUMMARY: This final rule with comment period
revises the Medicare hospital outpatient prospective
payment system (OPPS) and the Medicare ambulatory
surgical center (ASC) payment system for CY 2018 to
implement changes arising from our continuing
experience with these systems. In this final rule with
comment period, we describe the changes to the
amounts and factors used to determine the payment
rates for Medicare services paid under the OPPS and
those paid under the ASC payment system. In
addition, this final rule with comment period updates
and refines the requirements for the Hospital
Outpatient Quality Reporting (OQR) Program and the
ASC Quality Reporting (ASCQR) Program.

30
DATES:
Effective date: This final rule with comment period
is effective on January 1, 2018, unless otherwise
noted.
* * *
Alphabetical List of Acronyms Appearing in
This Federal Register Document
AHA

American Hospital Association

AMA

American Medical Association

AMI

Acute myocardial infarction

APC

Ambulatory Payment Classification

API

Application programming interface

APU

Annual payment update

ASC

Ambulatory surgical center

ASCQR Ambulatory
Reporting

Surgical

ASP

Average sales price

AUC

Appropriate use criteria

AWP

Average wholesale price

Center

Quality

BBA
Balanced Budget Act of 1997, Public Law
105–33
BBRA
Medicare, Medicaid, and SCHIP [State
Children’s Health Insurance Program] Balanced
Budget Refinement Act of 1999, Public Law 106–
113
BIPA
Medicare, Medicaid, and SCHIP Benefits
Improvement and Protection Act of 2000, Public
Law 106–554
BLS

Bureau of Labor Statistics

31
CAH

Critical access hospital

CAHPS Consumer Assessment
Providers and Systems
CAP

of

Healthcare

Competitive Acquisition Program

C–APC Comprehensive
Classification

Ambulatory

Payment

CASPER Certification and Survey Provider Enhanced
Reporting
CAUTI

Catheter-associated urinary tract infection

CBSA

Core-Based Statistical Area

CCM

Chronic care management

CCN

CMS Certification Number

CCR

Cost-to-charge ratio

CDC

Centers for Disease Control and Prevention

CED

Coverage with Evidence Development

CERT

Comprehensive Error Rate Testing

CFR

Code of Federal Regulations

CI

Comment indicator

CLABSI Central Line [Catheter] Associated Blood
Stream Infection
CLFS

Clinical Laboratory Fee Schedule

CMHC

Community mental health center

CMS

Centers for Medicare & Medicaid Services

CoP

Condition of participation

CPI–U Consumer
Consumers

Price

Index for

All

Urban

32
CPT
Current
Procedural
Terminology
(copyrighted by the American Medical Association)
CR

Change request

CRC

Colorectal cancer

CSAC

Consensus Standards Approval Committee

CT

Computed tomography

CV

Coefficient of variation

CY

Calendar year

DFO

Designated Federal Official

DME

Durable medical equipment

DMEPOS Durable Medical Equipment, Prosthetic,
Orthotics, and Supplies
DOS

Date of service

DRA
Deficit Reduction Act of 2005, Public Law
109–171
DSH

Disproportionate share hospital

EACH

Essential access community hospital

EAM

Extended assessment and management

ECD

Expanded criteria donor

EBRT

External beam radiotherapy

ECG

Electrocardiogram

ED

Emergency department

EDTC
Emergency
communication

department

EHR

Electronic health record

E/M

Evaluation and management

ESRD

End-stage renal disease

transfer

33
ESRDQIP End-Stage Renal
Improvement Program

Disease

Quality

FACA
Federal Advisory Committee Act, Public
Law 92–463
FDA

Food and Drug Administration

FFS

[Medicare] Fee-for-service

FY

Fiscal year

GAO

Government Accountability Office

GI

Gastrointestinal

GME

Graduate medical education

HAI

Healthcare-associated infection

HCAHPS
Hospital Consumer Assessment
Healthcare Providers and Systems

of

HCERA Health Care and Education Reconciliation
Act of 2010, Public Law 111–152
HCP

Health care personnel

HCPCS Healthcare
System

Common

Procedure

Coding

HCRIS

Healthcare Cost Report Information System

HCUP

Healthcare Cost and Utilization Project

HEU

Highly enriched uranium

HHQRP Home Health Quality Reporting Program
HHS

Department of Health and Human Services

HIE

Health information exchange

HIPAA Health
Insurance
Portability
and
Accountability Act of 1996, Public Law 104–191
HOP

Hospital Outpatient Payment [Panel]

34
HOPD

Hospital outpatient department

HOPQDRP Hospital Outpatient
Reporting Program

Quality

Data

HPMS

Health Plan Management System

IBD

Inflammatory bowel disease

ICC

Interclass correlation coefficient

ICD

Implantable cardioverter defibrillator

ICD–9–CM International Classification of Diseases,
Ninth Revision, Clinical Modification
ICD–10 International Classification of Diseases,
Tenth Revision
ICH

In-center hemodialysis

ICR

Information collection requirement

IDTF

Independent diagnostic testing facility

IGI

IHS Global, Inc.

IHS

Indian Health Service

I/OCE

Integrated Outpatient Code Editor

IOL

Intraocular lens

IORT

Intraoperative radiation treatment

IPFQR Inpatient
Reporting

Psychiatric

Facility

Quality

IPPS
[Hospital] Inpatient Prospective Payment
System
IQR

[Hospital] Inpatient Quality Reporting

IRF

Inpatient rehabilitation facility

IRFQRP Inpatient Rehabilitation Facility Quality
Reporting Program

35
IT

Information technology

LCD

Local coverage determination

LDR

Low dose rate

LTCH

Long-term care hospital

LTCHQR
Long-Term
Reporting
MAC

Care

Hospital

Quality

Medicare Administrative Contractor

MACRA Medicare Access and CHIP Reauthorization
Act of 2015, Public Law 114–10
MAP

Measure Application Partnership

MDH

Medicare-dependent, small rural hospital

MedPAC Medicare Payment Advisory Commission
MEG

Magnetoencephalography

MFP

Multifactor productivity

MGCRB Medicare Geographic Classification Review
Board
MIEA–TRHCA
Medicare
Improvements
and
Extension Act under Division B, Title I of the Tax
Relief Health Care Act of 2006, Public Law 109–
432
MIPPA Medicare Improvements for Patients and
Providers Act of 2008, Public Law 110–275
MLR

Medical loss ratio

MMA
Medicare Prescription Drug, Improvement,
and Modernization Act of 2003, Public Law 108–
173
MMEA Medicare and Medicaid Extenders Act of
2010, Public Law 111–309

36
MMSEA Medicare, Medicaid, and SCHIP Extension
Act of 2007, Public Law 110–173
MPFS

Medicare Physician Fee Schedule

MR

Medical review

MRA

Magnetic resonance angiography

MRgFUS
Magnetic Resonance
Focused Ultrasound
MRI

Image

Magnetic resonance imaging

MRSA Methicillin-Resistant
Aureus
MS–DRG
group

Guided

Medicare

severity

Staphylococcus
diagnosis-related

MSIS

Medicaid Statistical Information System

MUC

Measure under consideration

NCCI

National Correct Coding Initiative

NEMA National
Association

Electrical

Manufacturers

NHSN

National Healthcare Safety Network

NOTA

National Organ and Transplantation Act

NOS

Not otherwise specified

NPI

National Provider Identifier

NQF

National Quality Forum

NQS

National Quality Strategy

NTIOL

New technology intraocular lens

NUBC

National Uniform Billing Committee

OACT

[CMS] Office of the Actuary

37
OBRA
Omnibus Budget Reconciliation Act of 1996,
Public Law 99–509
O/E

Observed to expected event

OIG

[HHS] Office of the Inspector General

OMB

Office of Management and Budget

ONC
Office of the National Coordinator for Health
Information Technology
OPD

[Hospital] Outpatient Department

OPPS
[Hospital] Outpatient Prospective Payment
System
OPSF

Outpatient Provider-Specific File

OQR

[Hospital] Outpatient Quality Reporting

OT

Occupational therapy

PAMA Protecting Access to Medicare Act of 2014,
Public Law 113–93
PCHQR PPS-Exempt
Reporting

Cancer

Hospital

Quality

PCR

Payment-to-cost ratio

PDC

Per day cost

PDE

Prescription Drug Event

PE

Practice expense

PHP

Partial hospitalization program

PHSA

Public Health Service Act, Public Law 96–88

PN

Pneumonia

POS

Place of service

PPI

Producer Price Index

PPS

Prospective payment system

38
PQRI

Physician Quality Reporting Initiative

PQRS

Physician Quality Reporting System

QDC

Quality data code

QIO

Quality Improvement Organization

RFA

Regulatory Flexibility Act

RHQDAPU Reporting Hospital Quality Data for
Annual Payment Update
RTI

Research Triangle Institute, International

RVU

Relative value unit

SAD

Self-administered drug

SAMS

Secure Access Management Services

SCH

Sole community hospital

SCOD

Specified covered outpatient drugs

SES

Socioeconomic status

SI

Status indicator

SIA

Systems Improvement Agreement

SIR

Standardized infection ratio

SNF

Skilled nursing facility

SRS

Stereotactic radiosurgery

SRTR

Scientific Registry of Transplant Recipients

SSA

Social Security Administration

SSI

Surgical site infection

TEP

Technical Expert Panel

TOPs

Transitional Outpatient Payments

VBP

Value-based purchasing

WAC

Wholesale acquisition cost

39
Table of Contents
I. Summary and Background
A. Executive Summary of This Document
1. Purpose
2. Summary of the Major Provisions
3. Summary of Costs and Benefits
B. Legislative and Regulatory Authority for the
Hospital OPPS
C. Excluded OPPS Services and Hospitals
D. Prior Rulemaking
* * *
V. OPPS Payment Changes for Drugs, Biologicals, and
Radiopharmaceuticals
* * *
7. Alternative Payment Methodology for Drugs
Purchased Under the 340B Program
a. Background
b. OPPS Payment Rate for 340B Purchased Drugs
c. Summaries of Public Comments Received and
Our Responses
d. Summary of Final Policies for CY 2018
e. Comment Solicitation on Additional 340B
Considerations
* * *
XVIII. Economic Analyses
* * *

40
a. Estimated Effects of OPPS Changes in This
Final Rule With Comment Period
(1) Limitations of Our Analysis
(2) Estimated Effects of OPPS Changes to Part B
Drug Payment on 340B Eligible Hospitals Paid
Under the OPPS
(3) Estimated Effects of OPPS Changes on
Hospitals
* * *
I. Summary and Background
A. Executive Summary of This Document
1. Purpose
In this final rule with comment period, we are
updating the payment policies and payment rates for
services furnished to Medicare beneficiaries in
hospital outpatient departments (HOPDs) and
ambulatory surgical centers (ASCs) beginning
January 1, 2018. Section 1833(t) of the Social Security
Act (the Act) requires us to annually review and
update the payment rates for services payable under
the Hospital Outpatient Prospective Payment System
(OPPS). Specifically, section 1833(t)(9)(A) of the Act
requires the Secretary to review certain components of
the OPPS not less often than annually, and to revise
the groups, relative payment weights, and other
adjustments that take into account changes in medical
practices, changes in technologies, and the addition of
new services, new cost data, and other relevant
information and factors. In addition, under section
1833(i) of the Act, we annually review and update the
ASC payment rates. We describe these and various
other statutory authorities in the relevant sections of
this final rule with comment period. In addition, this

41
final rule with comment period updates and refines
the requirements for the Hospital Outpatient Quality
Reporting (OQR) Program and the ASC Quality
Reporting (ASCQR) Program.
2. Summary of the Major Provisions
* * *
• 340B Drug Pricing: We are changing our current
Medicare Part B drug payment methodology for 340B
hospitals that we believe will better, and more
appropriately, reflect the resources and acquisition
costs that these hospitals incur. These changes will
lower drug costs for Medicare beneficiaries for drugs
acquired by hospitals under the 340B Program. For
CY 2018, we are exercising the Secretary’s authority
to adjust the applicable payment rate as necessary for
separately payable drugs and biologicals (other than
drugs on pass-through payment status and vaccines)
acquired under the 340B Program from average sales
price (ASP) plus 6 percent to ASP minus 22.5 percent.
Rural sole community hospitals (SCHs), children’s
hospitals, and PPS-exempt cancer hospitals are
excluded from this payment adjustment in CY 2018.
In addition, in this final rule with comment period, we
are establishing two modifiers to identify whether a
drug billed under the OPPS was purchased under the
340B Program—one for hospitals that are subject to
the payment reduction and another for hospitals not
subject to the payment reduction but that acquire
drugs under the 340B Program.
* * *
D. Prior Rulemaking
On April 7, 2000, we published in the Federal
Register a final rule with comment period (65 FR
18434) to implement a prospective payment system for

42
hospital outpatient services. The hospital OPPS was
first implemented for services furnished on or after
August 1, 2000. Section 1833(t)(9)(A) of the Act
requires the Secretary to review certain components of
the OPPS, not less often than annually, and to revise
the groups, relative payment weights, and other
adjustments that take into account changes in medical
practices, changes in technologies, and the addition of
new services, new cost data, and other relevant
information and factors.
Since initially implementing the OPPS, we have
published final rules in the Federal Register
annually to implement statutory requirements and
changes arising from our continuing experience with
this system. These rules can be viewed on the CMS
Web site
at: https://www.cms.gov/Medicare/
Medicare-Fee-for-Service-Payment/Hospital
OutpatientPPS/Hospital-Outpatient-Regulationsand-Notices.html.
* * *
In the CY 2018 OPPS/ASC proposed rule (82 FR
33712), we estimated a 1.4 percent adjustment to
nondrug OPPS payment rates as a result of the
proposed payment adjustment to separately payable
nonpass-through drugs purchased under the 340B
Program. As part of that proposed policy, we noted
that our adjustment in the final rule could potentially
change as a result of changes such as updated data,
modifications to the estimate methodology, and other
factors. Applying the final payment policy for drugs
purchased under the 340B Program, as described in
section V.B.7. of this final rule with comment period,
results in an estimated reduction of approximately
$1.6 billion in separately paid OPPS drug payments.
To ensure budget neutrality under the OPPS after

43
applying this alternative payment methodology for
drugs purchased under the 340B Program, we applied
an offset of approximately $1.6 billion into the OPPS
conversion factor, which results in a final adjustment
of 1.0319 to the OPPS conversion factor.
As a result of these finalized policies, the OPD fee
schedule increase factor for the CY 2018 OPPS is 1.35
percent (which is 2.7 percent, the estimate of the
hospital inpatient market basket percentage increase,
less the 0.6 percentage point MFP adjustment, and
less the 0.75 percentage point additional adjustment).
For CY 2018, we are using a conversion factor of
$78.636 in the calculation of the national unadjusted
payment rates for those items and services for which
payment rates are calculated using geometric mean
costs; that is, the OPD fee schedule increase factor of
1.35 percent for CY 2018, the required wage index
budget neutrality adjustment of approximately
0.9997, the cancer hospital payment adjustment of
1.0008, the adjustment for drugs purchased under the
340B Program of 1.0319, and the adjustment of 0.2
percentage point of projected OPPS spending for the
difference in the pass-through spending and outlier
payments that result in a conversion factor for CY
2018 of $78.636.
* * *
2. Payment for Drugs and Biologicals Without PassThrough Status That Are Not Packaged
a. Payment for Specified Covered Outpatient Drugs
(SCODs) and Other Separately Payable and Packaged
Drugs and Biologicals
Section 1833(t)(14) of the Act defines certain
separately payable radiopharmaceuticals, drugs, and
biologicals and mandates specific payments for these

44
items. Under section 1833(t)(14)(B)(i) of the Act, a
“specified covered outpatient drug” (known as a
SCOD) is defined as a covered outpatient drug, as
defined in section 1927(k)(2) of the Act, for which a
separate APC has been established and that either is
a radiopharmaceutical agent or is a drug or biological
for which payment was made on pass-through basis on
or before December 31, 2002.
Under section 1833(t)(14)(B)(ii) of the Act, certain
drugs and biologicals are designated as exceptions and
are not included in the definition of SCODs. These
exceptions are—
• A drug or biological for which payment is first
made on or after January 1, 2003, under the
transitional pass-through payment provision in
section 1833(t)(6) of the Act.
• A drug or biological for which a temporary
HCPCS code has not been assigned.
• During CYs 2004 and 2005, an orphan drug (as
designated by the Secretary).
Section 1833(t)(14)(A)(iii) of the Act requires that
payment for SCODs in CY 2006 and the subsequent
years be equal to the average acquisition cost for the
drug for that year as determined by the Secretary,
subject to any adjustment for overhead costs and
taking into account the hospital acquisition cost
survey data collected by the Government
Accountability Office (GAO) in CYs 2004 and 2005,
and later periodic surveys conducted by the Secretary
as set forth in the statute. If hospital acquisition cost
data are not available, the law requires that payment
by equal to payment rates established under the
methodology described in section 1842(o), section
1847A, or section 1847B of the Act, as calculated and

45
adjusted by the Secretary as necessary. We refer to
this alternative methodology as the “statutory
default.” Most physician Part B drugs are paid at
ASP+6 percent in accordance with section 1842(o) and
section 1847A of the Act.
Section 1833(t)(14)(E)(ii) of the Act provides for an
adjustment in OPPS payment rates for SCODs to take
into account overhead and related expenses, such as
pharmacy services and handling costs. Section
1833(t)(14)(E)(i) of the Act required MedPAC to study
pharmacy overhead and related expenses and to make
recommendations to the Secretary regarding whether,
and if so how, a payment adjustment should be made
to compensate hospitals for overhead and related
expenses. Section 1833(t)(14)(E)(ii) of the Act
authorizes the Secretary to adjust the weights for
ambulatory procedure classifications for SCODs to
take into account the findings of the MedPAC study. 17
It has been our policy since CY 2006 to apply the
same treatment to all separately payment drugs and
biologicals, which includes SCODs, and drugs and
biologicals that are not SCODs. Therefore, we apply
the payment methodology in section 1833(t)(14)(A)(iii)
of the Act to SCODs, as required by the statute, but we
also apply it to separately payable drugs and
biologicals that are not SCODs, which is a policy
determination rather than a statutory requirement. In
the CY 2018 OPPS/ASC proposed rule (82 FR 33630),
we proposed to apply section 1833(t)(14)(A)(iii)(II) of
the Act to all separately payable drugs and biologicals,
Medicare Payment Advisory Committee. June 2005 Report to
the Congress. Chapter 6: Payment for pharmacy handling costs
in hospital outpatient departments. Available at: http://
www.medpac.gov/docs/default-source/reports/June05_ch6.pdf?
sfvrsn=0.
17

46
including SCODs. Although we do not distinguish
SCODs in this discussion, we note that we are
required to apply section 1833(t)(14)(A)(iii)(II) of the
Act to SCODs, but we also are applying this provision
to other separately payable drugs and biologicals,
consistent with our history of using the same payment
methodology for all separately payable drugs and
biologicals.
For a detailed discussion of our OPPS drug
payment policies from CY 2006 to CY 2012, we refer
readers to the CY 2013 OPPS/ASC final rule with
comment period (77 FR 68383 through 68385). In the
CY 2013 OPPS/ASC final rule with comment period
(77 FR 68386 through 68389), we first adopted the
statutory default policy to pay for separately payable
drugs and biologicals at ASP+6 percent based on
section 1833(t)(14)(A)(iii)(II) of the Act. We continued
this policy of paying for separately payable drugs and
biologicals at the statutory default for CY 2014, CY
2015, CY 2016, and CY 2017 (81 FR 79673).
b. CY 2018 Payment Policy
In the CY 2018 OPPS/ASC proposed rule (82 FR
33630), for CY 2018, we proposed to continue our
payment policy that has been in effect from CY 2013
to present and pay for separately payable drugs and
biologicals at ASP+6 percent in accordance with
section 1833(t)(14)(A)(iii)(II) of the Act (the statutory
default). We proposed that the ASP+6 percent
payment amount for separately payable drugs and
biologicals requires no further adjustment and
represents the combined acquisition and pharmacy
overhead payment for drugs and biologicals. We also
proposed that payments for separately payable drugs
and biologicals are included in the budget neutrality
adjustments, under the requirements in section

47
1833(t)(9)(B) of the Act, and that the budget neutral
weight scalar is not applied in determining payments
for these separately paid drugs and biologicals.
We note that we proposed, as specified below, to
pay for separately payable, nonpass-through drugs
acquired with a 340B discount at a rate of ASP minus
22.5 percent. We refer readers to the full discussion of
this proposal in section V.B.7. of the proposed rule and
this final rule with comment period.
Comment: Numerous commenters supported CMS’
proposal to continue to pay for separately payable
drugs and biologicals based on the statutory default
rate of ASP+6 percent.
Response: We thank commenters for their support.
After consideration of the public comments we
received, we are finalizing our proposal, without
modification, to pay for separately payable drugs and
biologicals at ASP+6 percent based on section
1833(t)(14)(A)(iii)(II) of the Act (the statutory default).
The ASP+6 percent payment amount for separately
payable drugs and biologicals requires no further
adjustment and represents the combined acquisition
and pharmacy overhead payment for drugs and
biologicals for CY 2018. In addition, we are finalizing
our proposal that payment for separately payable
drugs and biologicals be included in the budget
neutrality adjustments, under the requirements of
section 1833(t)(9)(B) of the Act, and that the budget
neutral weight scalar is not applied in determining
payment of these separately paid drugs and
biologicals. We refer readers to section V.B.7. of the
final rule with comment period for the final payment
policy for drugs acquired with a 340B discount.

48
We note that separately payable drug and
biological payment rates listed in Addenda A and B to
this final rule with comment period (available via the
Internet on the CMS Web site), which illustrate the
final CY 2018 payment of ASP+6 percent for
separately payable nonpass-through drugs and
biologicals and ASP+6 percent for pass-through drugs
and biologicals, reflect either ASP information that is
the basis for calculating payment rates for drugs and
biologicals in the physician’s office setting effective
October 1, 2017, or WAC, AWP, or mean unit cost from
CY 2016 claims data and updated cost report
information available for this final rule with comment
period. In general, these published payment rates are
not the same as the actual January 2018 payment
rates. This is because payment rates for drugs and
biologicals with ASP information for January 2018
will be determined through the standard quarterly
process where ASP data submitted by manufacturers
for the third quarter of 2017 (July 1, 2017 through
September 30, 2017) will be used to set the payment
rates that are released for the quarter beginning in
January 2018 near the end of December 2017. In
addition, payment rates for drugs and biologicals in
Addenda A and B to this final rule with comment
period for which there was no ASP information
available for October 2017 are based on mean unit cost
in the available CY 2016 claims data. If ASP
information becomes available for payment for the
quarter beginning in January 2018, we will price
payment for these drugs and biologicals based on their
newly available ASP information. Finally, there may
be drugs and biologicals that have ASP information
available for this final rule with comment period
(reflecting October 2017 ASP data) that do not have
ASP information available for the quarter beginning

49
in January 2018. As stated in the CY 2018 OPPS/ASC
proposed rule (82 FR 33630), these drugs and
biologicals will then be paid based on mean unit cost
data derived from CY 2016 hospital claims. Therefore,
the payment rates listed in Addenda A and B to this
final rule with comment period are not for January
2018 payment purposes and are only illustrative of the
CY 2018 OPPS payment methodology using the most
recently available information at the time of issuance
of this final rule with comment period.
* * *
7. Alternative Payment Methodology for Drugs
Purchased Under the 340B Program
a. Background
The 340B Program, which was established by
section 340B of the Public Health Service Act by the
Veterans Health Care Act of 1992, is administered by
the Health Resources and Services Administration
(HRSA) within HHS. The 340B Program allows
participating hospitals and other health care
providers to purchase certain ‘‘covered outpatient
drugs’’ (as defined under section 1927(k) of the Act and
interpreted by HRSA through various guidance
documents) at discounted prices from drug
manufacturers. The statutory intent of the 340B
Program is to maximize scarce Federal resources as
much as possible, reaching more eligible patients, and
providing care that is more comprehensive. 18
The House report that accompanied the authorizing
legislation for the 340B Program stated: ‘‘In giving these ‘covered
entities’ access to price reductions the Committee intends to
enable these entities to stretch scarce Federal resources as far as
possible, reaching more eligible patients and providing more
18

50
The 340B statute defines which health care
providers are eligible to participate in the program
(‘‘covered entities’’). In addition to Federal health care
grant recipients, covered entities include hospitals
with a Medicare disproportionate share hospital
(DSH) percentage above 11.75 percent. However,
under Public Law 111–148, section 7101 expanded
eligibility to critical access hospitals (CAHs),
children’s hospitals with a DSH adjustment greater
than 11.75 percent, sole community hospitals (SCHs)
with a DSH adjustment percentage of 8.0 percent or
higher, rural referral centers (RRCs) with a DSH
adjustment percentage of 8.0 percent or higher, and
freestanding cancer hospitals with a DSH adjustment
percentage above 11.75 percent. In accordance with
section 340B(a)(4)(L)(i) of the Public Health Service
Act, all participating hospital types must also meet
other criteria.
HRSA calculates the ceiling price for each covered
outpatient drug. The ceiling price is the drug’s average
manufacturer price (AMP) minus the unit rebate
amount (URA), which is a statutory formula that
varies depending on whether the drug is an innovator
single source drug (no generic available), an innovator
multiple source drug (a brand drug with available
generic(s)), or a non-innovator multiple source
(generic) drug. 19 The ceiling price represents the
maximum price a participating drug manufacturer
can charge a covered entity for the drug. However,
comprehensive services.’’ (H.R. Rept. No. 102–384(II), at 12
(1992)).
42 U.S.C. 256b(a)(1–2). Occasionally, a drug’s URA is equal
to its AMP, resulting in a 340B ceiling price of $0. In these
instances, HRSA has advised manufacturers to charge covered
entities $0.01 per unit.
19

51
covered entities also have the option to participate in
HRSA’s Prime Vendor Program (PVP), under which
the prime vendor can negotiate even deeper discounts
(known as ‘‘subceiling prices’’) on some covered
outpatient drugs. By the end of FY 2015, the PVP had
nearly 7,600 products available to participating
entities below the 340B ceiling price, including 3,557
covered outpatient drugs with an estimated average
savings of 10 percent below the 340B ceiling price. 20
As we discussed in the CY 2018 OPPS/ASC
proposed rule (82 FR 33632 and 33633), several recent
studies and reports on Medicare Part B payments for
340B purchased drugs highlight a difference in
Medicare Part B drug spending between 340B
hospitals and non-340B hospitals as well as varying
differences in the amount by which the Part B
payment exceeds the drug acquisition cost.21 22 23 Links
Department of Health and Human Services. 2017. Fiscal
Year 2018 Health Resources and Services Administration
justification of estimates for appropriations committees.
Washington, DC: HHS. Available at: https://www.hrsa.gov/
sites/default/files/hrsa/about/budget/budget-justification2018.pdf.
20

Office of Inspector General. ‘‘Part B Payment for 340B
Purchased Drugs. OEI–12–14–00030’’. November 2015.
Available
at:
https://oig.hhs.gov/oei/reports/oei-12-1400030.pdf.
21

Medicare Payment Advisory Commission. Report to the
Congress: Overview of the 340B Drug Pricing Program. May
2015. Available at: http://www.medpac.gov/docs/defaultsource/reports/may-2015-report-to-the-congress-overview-of-the340b-drug-pricing-program.pdf?sfvrsn=0.
22

Government Accountability Office. ‘‘Medicare Part B
Drugs: Action Needed to Reduce Financial Incentives to Prescribe
340B Drugs at Participating Hospitals GAO–15–442’’. June 2015.
Available at: https://www.gao.gov/assets/680/670676.pdf.
23

52
to the full reports referenced in this section can be
found in the cited footnotes.
In its May 2015 Report to Congress, MedPAC
analyzed Medicare hospital outpatient claims
(excluding CAHs) along with information from HRSA
on which hospitals participate in the 340B Program.
MedPAC included data on all separately payable
drugs under the OPPS except for vaccines and orphan
drugs provided by freestanding cancer hospitals,
RRCs, and SCHs. To estimate costs that 340B
hospitals incur to acquire drugs covered under the
OPPS, MedPAC generally used the formula for
calculating the 340B ceiling price: (AMP)—unit rebate
amount (URA)  drug package size. The URA is
determined by law and depends upon whether a drug
is classified as single source, innovator multiple
source, non-innovator multiple source, a clotting factor
drug, or an exclusively pediatric drug. CMS provides
this URA information to States as a courtesy.
However, drug manufacturers remain responsible for
correctly calculating the URA for their covered
outpatient drugs. More information on the URA
calculation and the Medicaid Drug Rebate Program
may be found on the Web site at: https://
www.medicaid.gov/medicaid/prescription-drugs/
medicaid-drug-rebate-program/index.html.
Because MedPAC did not have access to AMP data,
it used each drug’s ASP as a proxy for AMP. MedPAC
noted that ASP is typically slightly lower than AMP.
The AMP is defined under section 1927(k)(1) of the Act
as the average price paid to the manufacturer by
wholesalers in the United States for drugs distributed
to the retail pharmacy class of trade, minus customary
prompt pay discounts. Manufacturers participating in
Medicaid are required to report AMP data quarterly to

53
the Secretary, and these prices are confidential. As
described under section 1847A of the Act, the ASP is a
manufacturer’s unit sales of a drug to all purchasers
in the United States in a calendar quarter divided by
the total number of units of the drug sold by the
manufacturer in that same quarter. The ASP is net of
any price concessions such as volume, prompt pay, and
cash discounts. Certain sales are exempt from the
calculation of ASP, including sales at a nominal charge
and 340B discounts.
In addition, MedPAC noted that, due to data
limitations, its estimates of ceiling prices are
conservative and likely higher (possibly much higher)
than actual ceiling prices. Further details on the
methodology used to calculate the average minimum
discount for separately payable drugs can be found in
Appendix A of MedPAC’s May 2015 Report to
Congress. In this report, MedPAC estimated that, on
average, hospitals in the 340B Program ‘‘receive a
minimum discount of 22.5 percent of the [ASP] for
drugs paid under the [OPPS].’’
In its March 2016 Report to Congress (page 79),
MedPAC noted that another report, which MedPAC
attributed to the Office of the Inspector General (OIG),
recently estimated that discounts across all 340B
providers (hospitals and certain clinics) average 33.6
percent of ASP, allowing these providers to generate
significant profits when they administer Part B drugs.
According to the U.S. Government Accountability
Office (GAO) report, the amount of the 340B discount
ranges from an estimated 20 to 50 percent discount,
compared to what the entity would have otherwise
paid to purchase the drug. In addition, participation in
the PVP often results in a covered entity paying a
subceiling price on some covered outpatient drugs

54
(estimated to be approximately 10 percent below the
ceiling price) (U.S. Department of Health and Human
Services, HRSA FY 2018 Budget Justification).
Participation in the PVP is voluntary and free.
As noted in the CY 2018 OPPS/ASC proposed rule,
with respect to chemotherapy drugs and drug
administration services, MedPAC examined Medicare
Part B spending for 340B and non-340B hospitals for
a 5-year period from 2008 to 2012 and found that
‘‘Medicare spending grew faster among hospitals that
participated in the 340B Program for all five years
than among hospitals that did not participate in the
340B Program at any time during [the study] period’’
(MedPAC May 2015 Report to Congress, page 14). This
is just one example of drug spending increases that are
correlated with participation in the 340B Program and
calls into question whether Medicare’s current policy
to pay for separately payable drugs at ASP+6 percent
is appropriate in light of the discounted rates at which
340B hospitals acquire such drugs.
Further, GAO found that ‘‘in both 2008 and 2012,
per beneficiary Medicare Part B drug spending,
including oncology drug spending, was substantially
higher at 340B DSH hospitals than at non-340B
hospitals.’’ According to the GAO report, this indicates
that, on average, beneficiaries at 340B DSH hospitals
were either prescribed more drugs or more expensive
drugs than beneficiaries at the other non-340B
hospitals in GAO’s analysis. For example, in 2012,
average per beneficiary spending at 340B DSH
hospitals was $144, compared to approximately $60 at
non-340B hospitals. The differences did not appear to
be explained by the hospital characteristics GAO
examined or patients’ health status (GAO Report 15–
442, page 20).

55
Under the OPPS, all hospitals (other than CAHs,
which are paid based on 101 percent of reasonable
costs as required by section 1834(g) of the Act) are
currently paid the same rate for separately payable
drugs (ASP+6 percent), regardless of whether the
hospital purchased the drug at a discount through the
340B Program. Medicare beneficiaries are liable for a
copayment that is equal to 20 percent of the OPPS
payment rate, which is currently ASP+6 percent
(regardless of the 340B purchase price for the drug).
Based on an analysis of almost 500 drugs billed in the
hospital outpatient setting in 2013, the OIG found
that, for 35 drugs, the ‘‘difference between the Part B
[payment] amount and the 340B ceiling price was so
large that, in at least one quarter of 2013, the
beneficiary’s coinsurance alone . . . was greater than
the amount a covered entity spent to acquire the drug’’
(OIG November 2015, Report OEI–12–14–00030, page
9).
In the CY 2009 OPPS/ASC final rule with comment
period (73 FR 68655), we requested comments
regarding the drug costs of hospitals that participate
in the 340B Program and whether we should consider
an alternative drug payment methodology for
participating 340B hospitals. As noted above, in the
time since that comment solicitation, access to the
340B Program was expanded under section 7101 of
Public Law 111–148, which amended section
340B(a)(4) of the Public Health Service Act to expand
the types of covered entities eligible to participate in
the 340B Program. It is estimated that covered
entities saved $3.8 billion on outpatient drugs
purchased through the 340B Program in 2013. 24 In
U.S. Department of Health and Human Services, HRSA FY
2015 Budget Justification, p. 342.

24

56
addition, the number of hospitals participating in the
program has grown from 583 in 2005 to 1,365 in 2010
and 2,140 in 2014 (MedPAC May 2015 Report to
Congress). In its November 2015 report entitled ‘‘Part
B Payments for 340B-Purchased Drugs,’’ the OIG
found that Part B payments were 58 percent more
than 340B ceiling prices, which allowed covered
entities to retain approximately $1.3 billion in 2013
(OEI–12–14–00030, page 8). Given the growth in the
number of providers participating in the 340B
Program and recent trends in high and growing prices
of several separately payable drugs administered
under Medicare Part B to hospital outpatients, we
stated in the CY 2018 OPPS/ASC proposed rule that
we believe it is timely to reexamine the
appropriateness of continuing to apply the current
OPPS methodology of ASP+6 percent to hospitals that
have acquired those drugs under the 340B Program at
significantly discounted rates.
MedPAC and OIG have recommended alternative
drug payment methodologies for hospitals that
participate in the 340B Program. In its March 2016
Report to Congress, MedPAC recommended a
legislative proposal related to payment for Part B
drugs furnished by 340B hospitals under which
Medicare would reduce payment rates for 340B
hospitals’ separately payable 340B drugs by 10
percent of the ASP and direct the program savings
from reducing Part B drug payment rates to the
Medicare funded uncompensated care pool. 25 In its
Medicare Payment Advisory Commission. March 2016
Report to the Congress: Medicare Payment Policy. March 2016.
Available at: http://www.medpac.gov/docs/default-source/
reports/chapter-3-hospital-inpatient-and-outpatient-servicesmarch-2016-report-.pdf?sfvrsn=0.
25

57
November 2015 report, the OIG described three
options under which both the Medicare program and
Medicare beneficiaries would be able to share in the
program savings realized by hospitals and other
covered entities that participate in the 340B Program
(OEI–12–14–00030, pages 11–12). These options
included: (1) Paying ASP with no additional add-on
percentage; (2) paying ASP minus 14.4 percent; and
(3) making payment based on the 340B ceiling price
plus 6 percent of ASP for each 340B purchased drug
(OEI–12–14–00030, page 11). Analysis in several of
these reports notes limitations in estimating 340Bpurchased drugs’ acquisition costs; the inability to
identify which drugs were purchased through the
340B Program within Medicare claims data was one of
those limitations.
b. OPPS Payment Rate for 340B Purchased Drugs
In the CY 2018 OPPS/ASC proposed rule (82 FR
33633 through 33634), we proposed changes to our
current Medicare Part B drug payment methodology
for 340B hospitals that we believe would better, and
more appropriately, reflect the resources and
acquisition costs that these hospitals incur. Such
changes would allow the Medicare program and
Medicare beneficiaries to pay less for drugs when
hospitals participating in the 340B Program furnish
drugs to Medicare beneficiaries that are purchased
under the 340B Program.
Our goal is to make Medicare payment for
separately payable drugs more aligned with the
resources expended by hospitals to acquire such drugs
while recognizing the intent of the 340B Program to
allow covered entities, including eligible hospitals, to
stretch scarce resources in ways that enable hospitals
to continue providing access to care for Medicare

58
beneficiaries
and
other
patients.
Medicare
expenditures on Part B drugs have been rising and are
projected to continue to rise faster than overall health
spending, thereby increasing this sector’s share of
health care spending due to a number of underlying
factors such as new higher price drugs and price
increases for existing drugs. 26 27 While we recognize
the intent of the 340B Program, we believe it is
inappropriate for Medicare to subsidize other
activities through Medicare payments for separately
payable drugs. We believe that any payment changes
we adopt should be limited to separately payable
drugs under the OPPS, with some additional
exclusions. As a point of further clarity, CAHs are not
included in this 340B policy change because they are
paid under section 1834(g) of the Act. As stated in the
CY 2018 OPPS/ASC proposed rule, these exclusions
are for: (1) Drugs on pass-through payment status,
which are required to be paid based on the ASP
methodology, and (2) vaccines, which are excluded
from the 340B Program. In addition, we solicited
public comments on whether other types of drugs, such
as blood clotting factors, should also be excluded from
the reduced payment.

Department of Health and Human Services. Office of the
Assistant Secretary for Planning and Evaluation. Issue Brief:
Medicare Part B Drugs: Pricing and Incentives. 2016. Available
at:
https://aspe.hhs.gov/system/files/pdf/187581/
PartBDrug.pdf.
26

Department of Health and Human Services: Office of the
Assistant Secretary for Planning and Evaluation. Issue Brief:
Observations on Trends in Prescription Drug Spending. March 8,
2016. Available at: https://aspe.hhs.gov/system/files/pdf/
187586/Drugspending.pdf.
27

59
Data limitations inhibit our ability to identify
which drugs were acquired under the 340B Program
in the Medicare OPPS claims data. This lack of
information within the claims data has limited
researchers’ and our ability to precisely analyze
differences in acquisition cost of 340B and non-340B
acquired drugs with Medicare claims data.
Accordingly, in the CY 2018 OPPS/ASC proposed rule
(82 FR 33633), we stated our intent to establish a
modifier, to be effective January 1, 2018, for hospitals
to report with separately payable drugs that were not
acquired under the 340B Program. Because a
significant portion of hospitals paid under the OPPS
participate in the 340B Program, we stated our belief
that it is appropriate to presume that a separately
payable drug reported on an OPPS claim was
purchased under the 340B Program, unless the
hospital identifies that the drug was not purchased
under the 340B Program. We stated in the proposed
rule that we intended to provide further details about
this modifier in this CY 2018 OPPS/ASC final rule
with comment period and/or through subregulatory
guidance, including guidance related to billing for
dually eligible beneficiaries (that is, beneficiaries
covered under Medicare and Medicaid) for whom
covered entities do not receive a discount under the
340B Program.
A summary of public comments received and our
responses pertaining to the modifier are included later
in this section. As described in detail later in this
section, we are implementing the modifier such that it
is required for drugs that were acquired under the
340B Program instead of requiring its use on drugs
that were not acquired under the 340B Program. In
addition, we are establishing an informational

60
modifier for use by certain providers who will be
excepted from the 340B payment reduction.
Further, we note that the confidentiality of ceiling
and subceiling prices limits our ability to precisely
calculate the price paid by 340B hospitals for a
particular covered outpatient drug. We recognize that
each separately payable OPPS drug will have a
different ceiling price (or subceiling price when
applicable). Accordingly, we stated in the proposed
rule that we believe using an average discounted price
was appropriate for our proposal. Therefore, for CY
2018, we proposed to apply an average discounted
price of 22.5 percent of the ASP for nonpass-through
separately payable drugs purchased under the 340B
Program, as estimated by MedPAC (MedPAC’s May
2015 Report to Congress, page 7).
In the near-term, we believe that the estimated
average minimum discount MedPAC calculated—22.5
percent of the ASP—adequately represents the
average minimum discount that a 340B participating
hospital receives for separately payable drugs under
the OPPS. Given the limitations in calculating a
precise discount for each OPPS separately payable
drug, we did not attempt to do so for the proposed rule.
Instead, we stated that we believed that using the
analysis from the MedPAC report is appropriate and
noted that the analysis is spelled out in detail and can
be replicated by interested parties. As MedPAC noted,
its estimate was conservative and the actual average
discount experienced by 340B hospitals is likely much
higher than 22.5 percent of the ASP. As GAO
mentioned, discounts under the 340B Program range
from 20 to 50 percent of the ASP (GAO–11–836, page
2). We believe that such reduced payment would meet
the requirements under section 1833(t)(14)(A)(iii)(II)

61
of the Act, which states that if hospital acquisition cost
data are not available, the payment for an applicable
drug shall be the average price for the drug in the year
established under section 1842(o), section 1847A, or
section 1847B of the Act, as the case may be, as
calculated and adjusted by the Secretary as necessary.
We do not have hospital acquisition cost data for 340B
drugs and, therefore, proposed to continue to pay for
these drugs under our authority at section
1833(t)(14)(A)(iii)(II) of the Act at ASP, and then to
adjust that amount by applying a reduction of 22.5
percent, which, as explained throughout this section,
is the adjustment we believe is necessary for drugs
acquired under the 340B Program.
Specifically, in the CY 2018 OPPS/ASC proposed
rule,
we
proposed
to
apply
section
1833(t)(14)(A)(iii)(II) of the Act to all separately
payable drugs and biologicals, including SCODs.
However, we proposed to exercise the Secretary’s
authority to adjust the applicable payment rate as
necessary and, for separately payable drugs and
biologicals (other than drugs with pass-through
payment status and vaccines) acquired under the
340B Program, we proposed to adjust the rate to ASP
minus 22.5 percent, which we believe better
represents the average acquisition cost for these drugs
and biologicals.
As indicated earlier, because ceiling prices are
confidential, we are unable to publicly disclose those
prices or set payment rates in a way that would allow
the public to determine the ceiling price for a
particular drug. We believe that the MedPAC analysis
that found the average minimum discount of 22.5
percent of ASP adequately reflects the average
minimum discount that 340B hospitals paid under the

62
OPPS receive. In addition, we believe that using an
average discount to set payment rates for OPPS
separately payable drugs would achieve the dual goals
of (1) adjusting payments to better reflect resources
expended to acquire such drugs, and (2) protecting the
confidential nature of discounts applied to a specific
drug. Moreover, we do not believe that Medicare
beneficiaries should be liable for a copayment rate that
is tied to the current methodology of ASP+6 percent
when the actual cost to the hospital to purchase the
drug under the 340B Program is much lower than the
ASP for the drug.
We note that MedPAC excluded vaccines from its
analysis because vaccines are not covered under the
340B Program, but it did not exclude drugs with passthrough payment status. Further, because data used
to calculate ceiling prices are not publicly available,
MedPAC instead estimated ‘‘the lower bound of the
average discount received by 340B hospitals for drugs
paid under the [OPPS]’’ (MedPAC May 2015 Report to
Congress, page 6). Accordingly, it is likely that the
average discount is higher, potentially significantly
higher, than the average minimum of 22.5 percent
that MedPAC found through its analysis. In the
proposed rule, we encouraged the public to analyze the
analysis presented in Appendix A of MedPAC’s May
2015 Report to Congress.
As noted earlier, we believe that the discount
amount of 22.5 percent below the ASP reflects the
average minimum discount that 340B participating
hospitals receive for drugs acquired under the 340B
Program, and in many cases, the average discount
may be higher for some covered outpatient drugs due
to hospital participation in the PVP, substitution of
ASP (which includes additional rebates) for AMP, and

63
that drugs with pass-through payment status were
included rather than excluded from the MedPAC
analysis. We believe that a payment rate of ASP+6
percent does not sufficiently recognize the
significantly lower acquisition costs of such drugs
incurred
by
a
340B-participating
hospital.
Accordingly, as noted earlier, we proposed to reduce
payment for separately payable drugs, excluding
drugs on pass-through payment status and vaccines,
that were acquired under the 340B Program by 22.5
percent of ASP for all drugs for which a hospital does
not append on the claim the modifier mentioned in the
proposed rule and discussed further in this final rule
with comment period. (As detailed later in this section,
we are instead requiring hospitals to append the
applicable modifier on the claim line with any drugs
that were acquired under the 340B Program.)
Finally, as detailed in the impact analysis section
(section XIX.A.5.a.2) of the proposed rule, we also
proposed that the reduced payments for separately
payable drugs and biologicals purchased under the
340B Program are included in the budget neutrality
adjustments, under the requirements in section
1833(t)(9)(B) of the Act, and that the budget neutral
weight scalar is not applied in determining payments
for these separately paid drugs and biologicals
purchased under the 340B Program. In that section,
we also solicited public comments on whether we
should apply all or part of the savings generated by
this payment reduction to increase payments for
specific services paid under the OPPS, or under Part
B generally, in CY 2018, rather than simply increasing
the conversion factor. In particular, we requested
public comments on whether and how the offsetting
increase could be targeted to hospitals that treat a
large share of indigent patients, especially those

64
patients who are uninsured. In addition, we requested
public comments on whether savings associated with
this proposal would result in unnecessary increases in
the volume of covered services paid under the OPPS
that should be adjusted in accordance with section
1833(t)(2)(F) of the Act. More information on the
impact estimate associated with this proposal was
included in section XIX.A.5.a.2. of the proposed rule. A
summary of the public comments received on the
impact estimate, along with our responses to those
comments and our estimate of this provision for this
final rule with comment period, are included in section
XVIII.A.5. of this final rule with comment period.
c. Summaries of Public Comments Received and Our
Responses
(1) Overall Comments
Comment:
Several
commenters,
including
organizations representing physician oncology
practices,
pharmaceutical
research
and
manufacturing companies, a large network of
community-based oncology practices, and several
individual Medicare beneficiaries, supported the
proposal. Some of these commenters commended CMS
for its proposal, which they believed would help
address the growth of the 340B Program, stem
physician practice consolidation with hospitals, and
preserve patient access to community-based care.
One of these commenters stated that the proposals
would reduce drug costs for seniors by an estimated
$180 million a year; help to stop hospital ‘‘abuses’’ of
the 340B program; and help reverse the ‘‘perverse
incentives’’ that have driven the closure and
consolidation of the nation’s community cancer care
system.

65
Another commenter, representing a large network
of community-based oncology practices, noted that
since 2008, 609 community cancer practices have been
acquired or become affiliated with hospitals, with 75
percent of those community cancer practices acquired
by 340B-participating hospitals. The commenter
stated that the consolidation in oncology care has
resulted in a 30 percent shift in the site of service for
chemotherapy administration from the physician
office setting to the more costly hospital outpatient
setting.
One commenter, an organization representing
community oncology practices, cited several issues
that the proposal would help address, including that
only a small minority of 340B participating hospitals
are using the program to benefit patients in need;
cancer patients in need are being denied care at 340B
participating hospitals or placed on wait lists; and
hospitals are making extreme profits on expensive
cancer drugs and are consolidating the nation’s cancer
care system, reducing patient choice and access and
shifting care away from the private, physician-owned
community oncology clinics into the more expensive
340B hospital setting, which is increasing costs for
Medicare and its beneficiaries. In addition, this
commenter stated that the increasing scope and
magnitude of required 340B discounts are increasing
drug prices to record-breaking levels as manufacturers
factor these discounts into pricing decisions. The
commenter also cited a report that it recently released
that suggests, and provides anecdotal evidence
supporting, that some 340B hospitals offered little

66
charity care and turned away some patients in need
because those patients were uninsured. 28
With respect to the magnitude of the proposed
payment reduction of ASP minus 22.5 percent, one
commenter noted that although the proposed decrease
in payment may seem ‘‘severe,’’ ASP minus 22.5
percent is the minimum discount that hospitals in the
340B Program receive. The commenter further noted
that, with 340B discounts on brand drugs
approaching, and even exceeding, 50 percent, there is
still substantial savings—on the order of 50 percent
drug margins—for hospitals to use to provide direct
and indirect patient benefits. The commenter also
noted that this proposal would result in cost-sharing
savings to Medicare beneficiaries, for whom drug cost
is an important component of overall outpatient
cancer care costs.
Some commenters urged HHS, specifically CMS
and HRSA, to work with Congress to reform the 340B
Program. One commenter requested greater
transparency and accountability on how 340B savings
are being used, as well as a specific definition of the
‘‘340B patient,’’ which the commenter noted would
require a legislative change.
Response: We thank the commenters for their
support. As mentioned in the proposed rule, we share
the commenters’ concern that current Medicare
payments for drugs acquired under the 340B Program
are well in excess of the overhead and acquisition costs
for drugs purchased under the 340B Program. We
Community Oncology Alliance. Report: ‘‘How Abuse of the
340B Program is Hurting Patients’’ September 2017. Available
at: https://www.communityoncology.org/wp-content/uploads/
2017/09/COA_340B-PatientStories_FINAL.pdf.
28

67
continue to believe that our proposal would better
align Medicare payment for separately payable drugs
acquired under the 340B Program with the actual
resources expended to acquire such drugs.
Importantly, we continue to believe that Medicare
beneficiaries should be able to share in the savings on
drugs acquired through the 340B Program at a
significant discount. We also appreciate the comments
supporting the proposed payment amount for drugs
acquired under the 340B Program of ASP minus 22.5
percent, which we believe, like several commenters, is
an amount that allows hospitals to retain a profit on
these drugs for use in the care of low-income and
uninsured patients. As detailed later in this section,
we are finalizing our proposal, with modifications, in
response to public comments.
As previously stated, CMS does not administer the
340B Program. Accordingly, feedback related to
eligibility for the 340B Program as well as 340B
Program policies are outside the scope of the proposed
rule and are not addressed in this final rule with
comment period.
Comment: Several commenters expressed concern
with the rising cost of drugs and the impact on
beneficiaries and taxpayers. These commenters
offered varied opinions on whether the proposal would
achieve CMS’ goal of lowering drug prices and
reducing beneficiary out-of-pocket costs. Some
commenters stated that the proposal has the potential
to alleviate the financial burden that high-cost drugs
place on patients. Other commenters stated that,
because the proposal does not address the issue of
expansion of 340B entities, the volume of 340B
discounted drugs, and the affordability of drugs,

68
especially oncology drugs, CMS should not finalize the
proposal.
One commenter, an individual who supported the
proposal, stated that although the majority of patients
with Medicare Part B coverage have supplemental
coverage to pay their coinsurance, significant numbers
do not have this additional protection. The commenter
noted that, for a drug that is paid at $10,000 per
month, the price reduction would save a beneficiary
approximately $500 a month, which may be the
difference between getting treatment and foregoing
treatment due to financial reasons.
Another commenter, a large organization with
many members who are Medicare beneficiaries, stated
that the proposal would provide a measure of price
relief to the 16 percent of Medicare beneficiaries
without supplemental coverage. The commenter also
expressed concern that the proposal would have
serious health implications for beneficiaries in safetynet hospitals. The commenter urged HHS to develop
proposals that will lower underlying drug prices, but
did not provide any specific examples of such
proposals. Another commenter stated that the cost of
drugs is becoming unsustainable and applying the
proposed policy is a decent ‘‘baby step’’ in controlling a
situation that is ‘‘grossly’’ unfair to American
taxpayers, especially when the development of new
drugs is frequently funded to a large extent by
taxpayers through Federal grants.
In addition, one commenter, a large organization
representing its physician and medical student
members,
commented
that
it
shares
the
Administration’s interest in addressing the rising
costs of drugs and biologicals. The commenter
appreciated that the proposal would address a

69
longstanding concern: That the current payment
policy for Part B drugs creates strong incentives to
move Medicare beneficiary care from lower cost sites
of care (such as physician offices) to higher cost sites
of care (such as hospital outpatient departments). The
commenter noted that many smaller physician
practices have had to refer cancer and other patients
who need chemotherapy and other expensive drugs to
the hospital outpatient setting because the ASP+6
percent payment does not always cover a physician’s
acquisition cost, thereby undermining continuity of
care and creating burdens for frail and medically
compromised patients.
This commenter also stated that, given the 340B
Program’s focus on low-income patients, it is
imperative to ensure that an across-the-board
reduction actually reflects the size of the 340B
discount to avoid creating barriers to access, should
both physician practices and the hospital outpatient
departments be unable to cover actual acquisition
costs. Further, the commenter noted that it is
essential that ‘‘a bright line policy does not
inadvertently deleteriously impact patient access in
all sites of care.’’ Finally, the commenter stated that,
while the proposed policy alters the relative disparity
between payments for some hospital outpatient
departments and physician practices, it still does not
address the persistent challenges physician practices
face in obtaining payment that covers acquisition
costs.
Response: We thank the commenters’ for their
feedback and share their concern about the high cost
of drugs and their effect on Medicare beneficiaries. As
discussed in detail later in this section, we are
finalizing a change to the payment rate for certain

70
Medicare Part B drugs purchased by hospitals
through the 340B Program in order to lower the cost
of drugs for seniors and ensure that they benefit from
the discounts provided through the program. We look
forward to working with Congress to provide HHS
additional 340B programmatic flexibility, which could
include tools to provide additional considerations for
safety net hospitals, which play a critical role in
serving our most vulnerable populations.
As a general matter, we note that, even though
many beneficiaries have supplemental coverage,
beneficiaries often pay a premium for such
supplemental coverage and those plans make
coinsurance payments for the beneficiary. Thus, to the
extent Medicare would be lessening the coinsurance
amount such supplemental plans would have to make,
we would expect the price of such plans to decrease or
otherwise reflect these lower costs in the future,
thereby lowering the amount that beneficiaries pay for
supplemental plan coverage. Further, for those
Medicare beneficiaries who do not have supplemental
coverage at all or who have a supplemental plan that
does not cover all of a beneficiary’s cost-sharing
obligation, the proposed policy would directly lower
out-of-pocket spending for 340B-acquired drugs for
those beneficiaries.
In addition, we note that in the hospital setting, not
only are beneficiaries liable for cost-sharing for drugs
they receive, but they also incur a ‘‘facility fee’’ solely
because the drug was furnished in the hospital setting.
As described in section II.A.3.b. of this final rule with
comment period, for CY 2018, we are adopting a policy
to conditionally package Level 1 and Level 2 Drug
Administration services and believe that these steps,
taken together, may help encourage site-neutral care

71
in that beneficiaries may receive the same drugs and
drug administration services at the physician office
setting without a significant difference in their
financial liability between settings.
As previously stated, we believe that ASP minus
22.5 percent is a lower bound estimate of the average
discount given to hospitals participating in the 340B
Program. Accordingly, we disagree that this proposal
represents a ‘‘bright-line’’ policy that would hinder
safety-net hospitals’ ability to treat patients.
While the commenter’s request that HHS develop
proposals to lower underlying drug prices is outside
the scope of the proposals made in the proposed rule,
we note that lowering the price of pharmaceuticals is
a top priority, and we are committed to finding ways
for Medicare payment policy not to incentivize use of
overpriced drugs. With respect to Medicare Part B
drug payment under the OPPS, we believe that
reducing payments on 340B purchased drugs to better
align with hospital acquisition costs directly lowers
drug costs for those beneficiaries who receive a covered
outpatient drug from a 340B participating hospital by
reducing their copayments. Further, to the extent that
studies have found that 340B participating hospitals
tend to use more high cost drugs, we believe that this
proposal helps address the incentive for hospitals to
utilize these drugs in this manner solely for financial
reasons.
The expansion of 340B entities, the volume of 340B
discounted drugs, and the affordability of drugs are
outside the authority conferred by section 1833(t) of
the Act (and, thus, are outside the scope of the
proposed rule), and we see no reason to withdraw the
proposal solely on account of these issues not being
addressed by the proposal. Likewise, we note that the

72
public comments on Medicare Part B drug payment in
the physician office setting are also outside the scope
of the proposed rule, and, therefore, are not addressed
in this final rule with comment period.
Comment:
Several
commenters,
including
organizations representing 340B-eligible safety-net
hospitals in urban and rural areas and teaching
hospitals, were generally opposed to the proposed
changes and urged CMS to withdraw the proposal
from consideration. As detailed further below, these
commenters believed that the Secretary lacks
statutory authority to impose such a large reduction in
the payment rate for 340B drugs, and contended that
such change would effectively eviscerate the 340B
Program. The commenters further noted that
Medicare payment cuts of this magnitude would
greatly ‘‘undermine 340B hospitals’ ability to continue
programs designed to improve access to services—the
very goal of the 340B Program.’’
These commenters urged that, rather than
‘‘punitively targeting’’ 340B safety-net hospitals
serving vulnerable patients, including those in rural
areas, CMS instead redirect its efforts to halt the
‘‘unchecked, unsustainable increases’’ in the price of
drugs.
Response: We do not believe that our proposed
policy ‘‘punitively’’ targets safety-net hospitals. The
current OPPS payment rate of ASP+6 percent
significantly exceeds the discounts received for
covered outpatient drugs by hospitals enrolled in the
340B Program, which can be as much as 50 percent
below ASP (or higher through the PVP). As stated
throughout this section, ASP minus 22.5 percent
represents the average minimum discount that 340B
enrolled hospitals paid under the OPPS receive. We

73
also have noted that 340B participation does not
appear to be well-aligned with the provision of
uncompensated care, as some commenters suggested.
As stated earlier in this section, while the commenter’s
request that HHS develop proposals to lower
underlying drug prices is outside the scope of the
proposals made in the proposed rule, we note that
lowering the price of pharmaceuticals is a top priority.
(2) Comments on the Statutory Authority for the 340B
Payment Proposal
Many commenters challenged the statutory
authority of various aspects of the proposal. These
comments are summarized into the broad categories
below. For the reasons stated below, we disagree with
these comments and believe that our proposal is
within our statutory authority to promulgate.
• Secretary’s Authority To Calculate and Adjust 340BAcquired Drug Payment Rates
Comment: Commenters asserted that section
1833(t)(14)(A)(iii)(II) of the Act does not authorize
CMS to ‘‘calculate and adjust’’ the payment rate in a
manner that would ‘‘eviscerate’’ the 340B Program as
it applies to 340B hospitals. Some commenters
asserted that the plain and ordinary meaning of the
terms ‘‘calculate’’ and ‘‘adjust’’ express a limited and
circumscribed authority to set the payment rate. The
commenters noted that the Oxford Dictionaries define
‘‘calculate’’ as ‘‘determine (the amount or number of
something) mathematically;’’ likewise, to ‘‘adjust’’ is to
‘‘alter or move (something) slightly in order to achieve
the desired fit, appearance, or result.’’ Consequently,
the
commenters
asserted
that
section
1833(t)(14)(A)(iii)(II) of the Act restricts the agency to
mathematically determining ‘‘an appropriate, slight
alteration.’’ Further, they posited that the law does not

74
convey the power to adopt what they referred to as a
novel, sweeping change to the payment rate that is a
significant numerical departure from the previous
rate and that would result in a reduction in payment
to 340B hospitals of at least $900 million, according to
the agency’s own estimates, or $1.65 billion, according
to the commenter’s estimates.
Another commenter stated that the Secretary’s
limited
adjustment
authority under
section
1833(t)(14)(A)(iii)(II) of the Act does not ‘‘extend so far
as to gut’’ what it referred to as an ‘‘explicit statutory
directive’’. For example, the commenter referred the
agency to Pettibone Corp. v. United States, 34 F.3d
536, 541 (7th Cir. 1994) (an agency’s authority to
interpret a statute ‘‘must not be confused with a power
to rewrite’’).
Some commenters, including an organization
representing over 1,300 providers enrolled in the 340B
Program, argued that the proposal would take away
almost the entire 340B discount for many 340B drugs,
especially brand name drugs (which they asserted
were many of the drugs affected by the proposal).
These commenters asserted that the Secretary does
not have the authority to calculate and adjust 340Bacquired drug rates in this manner and noted that the
standard 340B ceiling price for a brand name drug is
AMP minus 23.1 percent, although the price can be
lower if the drug’s best price is lower or if the
manufacturer increases the price of the drug more
quickly than the rate of inflation. In addition, the
commenters asserted that if a brand name drug’s 340B
ceiling price was based on the standard formula, the
proposal would strip the hospital of nearly all its 340B
savings because ‘‘AMP has been found to be close to
ASP.’’ Thus, the commenters asserted, the proposed

75
payment rate of ASP minus 22.5 percent is nearly
identical to AMP minus 23.1 percent, leaving the
hospital with ‘‘virtually no 340B savings.’’
Some commenters stated that the proposal
mistakenly assumes that 340B hospitals purchase
most 340B drugs at subceiling prices negotiated by the
PVP. These commenters noted that some hospitals
estimate that less than 10 percent of the drugs affected
by the proposal are available at a subceiling price.
In addition, some commenters contended that
subclause (I) of section 1833(t)(14)((A)(iii) establishes
that the payment rate for subsequent years be set to
the average acquisition cost of the drug taking into
account hospital acquisition costs survey data
collected through surveys meeting precise statutory
requirements, and that such subclause does not
provide adjustment authority for the agency. They
stated that subclause (II) of section 1833(t)(14)((A)(iii)
of the Act directs CMS, where acquisition cost data are
not available, to set payment rates by reference to ASP
provisions. Considered in context, the commenters
stated that the statute reflects Congress’s intent to
limit CMS’ authority to set payment rates and,
consequently, is consistent with adjustment authority
under subclause (II)—to convey only limited authority
for any agency to adjust the payment rate. The
commenters referred to Roberts v. Sea-Land Servs.,
Inc., 566 U.S. 93, 101 (2012) (Statutory provisions ‘‘. . .
cannot be construed in a vacuum. It is a fundamental
canon of statutory construction that the words of a
statute must be read in their context and with a view
to their place in the overall statutory scheme’’) to
support their conclusions, although the commenters
did not elaborate on the particular relevance of this
case.

76
Finally, some commenters raised concern over the
Secretary’s use of the May 2015 MedPAC estimate as
support for the 340B payment proposal. These
commenters stated that the Secretary did not conduct
his own independent analysis to support the payment
proposal nor did he provide justification for use of
MedPAC’s analysis. One commenter stated that the
Secretary cannot implement a payment cut of the
magnitude proposed without providing a sufficient
and replicable methodology that supports the proposal
and that relying on a MedPAC analysis does not
suffice for this ‘‘important fiduciary, and legal,
requirement.’’
Response: We believe our authority under section
1833(t)(14)(A)(iii)(II) of the Act to ‘‘calculate and
adjust’’ drug payments ‘‘as necessary for purposes of
this paragraph’’ gives the Secretary broad discretion
to adjust payments for drugs, which we believe
includes an ability to adjust Medicare payment rates
according to whether or not certain drugs are acquired
at a significant discount. We disagree that this
Medicare payment policy would effectively eviscerate
the 340B Program and note that this proposal solely
applies to applicable drug payments under the
Medicare program; it does not change a hospital’s
eligibility for the 340B program. Further, under our
proposal, we anticipate that the Medicare payment
rate would continue to exceed the discounted 340B
price the hospital received under the 340B program.
As previously stated, MedPAC’s estimate of ASP
minus 22.5 percent represents a lower bound estimate
of the average minimum discount and the actual
discount is likely much higher—up to 50 percent
higher, according to some estimates, for certain drugs.
In some cases, beneficiary coinsurance alone exceeds

77
the amount the hospital paid to acquire the drug under
the 340B Program (OIG November 2015, Report OEI–
12–14–00030, page 9). We did not receive public
comments suggesting an alternative minimum
discount off the ASP that would better reflect the
hospital acquisition costs for 340B-acquired drugs. We
believe this is notable because hospitals have their
own data regarding their own acquisition costs, as well
as data regarding OPPS payment rates for drugs. The
fact that hospitals did not submit comments
suggesting an alternative minimum discount that
would be a better, more accurate reflection of the
discount at issue is instructive for two reasons. One, it
gives us confidence that our suggested payment of
ASP minus 22.5 percent is, in fact, the low bound of
the estimate and keeps Medicare payment within the
range where hospitals will not be underpaid for their
acquisition costs of such drugs. Two, it gives us
confidence that the affected hospital community does
not believe there is some other number, such as ASP
minus 24 percent or ASP minus 17 percent, that would
be a better, more accurate measure of what Medicare
Part B should pay for drugs acquired at a discount
through the 340B Program. Given the limitations in
calculating a precise discount for each OPPS
separately payable drug, we did not attempt to do so
for the proposed rule. Instead, we stated that we
believed that using the analysis from the MedPAC
report is appropriate because MedPAC’s estimate is
based on all drugs separately paid under the OPPS
except for vaccines, which are not eligible for 340B
prices. Furthermore, the analysis is publicly available
and can be replicated by interested parties.
With respect to the comments about the PVP, as
previously stated, by the end of FY 2015, the PVP had
nearly 7,600 products available to participating

78
entities below the 340B ceiling price, including 3,557
covered outpatient drugs with an estimated average
savings of 10 percent below the 340B ceiling price.
Participation in the PVP is voluntary and free, and we
are aware of no reason that an eligible entity would
not participate.
Furthermore, we disagree that the Secretary’s
authority under section 1834(t)(14)(A)(iii)(II) of the
Act to calculate and adjust drugs rates as necessary is
limited to what some might consider minor changes
and find no evidence in the statute to support that
position. As previously stated, we believe that ASP
minus 22.5 percent represents the average minimum
discount that hospitals paid under the OPPS received
for drugs acquired under the 340B Program and
reiterate that, in many instances, the discount is much
higher. Thus, we are using this authority to apply a
downward adjustment that is necessary to better
reflect acquisition costs of those drugs.
• Authority To Vary Payment by Hospital Group
Comment: Some commenters asserted that only
subparagraph (I), and not subparagraph (II), of section
1833(t)(14)(A)(iii) of the Act permits CMS to vary
payment ‘‘by hospital group.’’ These commenters
suggested that, by including ‘‘by hospital group’’ in
subparagraph (I) and omitting it in subparagraph (II),
Congress expressed its intent that CMS may not vary
prices by hospital group under subparagraph (II).
They further commented that the subparagraph (II)
methodology must apply to ‘‘the drug,’’ and CMS may
not vary payment for the same drug based upon the
type of hospital.
Response: We disagree with the commenters who
argue that the proposed policy would exceed the
Secretary’s authority under the statute by

79
inappropriately varying payments for drugs by
‘‘hospital group’’ because we rely on section
1833(t)(14)(A)(iii)(II) of the Act, even though the
explicit authority to vary payment rates by hospital
group is in subclause (I) of section 1833(t)(14)(A)(iii) of
the Act, not subclause (II). As noted above, we believe
our authority under section 1833(t)(14)(A)(iii)(II) of
the Act to ‘‘calculate and adjust’’ drug payments ‘‘as
necessary for purposes of this paragraph’’ gives the
Secretary broad discretion to adjust payments for
drugs, which we believe includes an ability to adjust
payment rates according to whether or not certain
drugs are acquired at a significant discount for
Medicare beneficiaries. Although we acknowledge that
hospitals are eligible to receive drugs at discounted
rates under the 340B Program if they qualify as a
‘‘covered entity’’ for purposes of the 340B Program, not
all drugs for which a covered entity submits a claim
for payment under the OPPS are necessarily acquired
under the 340B Program. The OPPS payment for
those drugs not acquired under the 340B Program
would continue to be paid at ASP+6 percent.
We also note generally that the OPPS statute
authorized the Secretary to establish appropriate
Medicare OPPS payment rates for covered outpatient
drugs. After specifically setting forth the payment
methodology for 2004 and 2005, Congress provided
that the Secretary could set OPPS drug prices in one
of two ways: Using the average acquisition cost for the
drug for that year, or using the average price for that
drug in the year. However, in either case, prices set
using either benchmark may be adjusted by the
Secretary. Such adjustments may occur under section
1833(t)(14)(A)(iii)(II) of the Act if the Secretary
determines they are ‘‘necessary for purposes of’’
section 1833(t)(14) of the Act, and this paragraph of

80
the Medicare OPPS statute repeatedly discusses
terms like ‘‘hospital acquisition cost’’ and ‘‘variation in
hospital acquisition costs’’, and specifically notes in
one section that it is within the Secretary’s authority
to determine that the payment rate for one drug ‘‘may
vary by hospital group.’’ It would be odd for Congress
to have a significant delegation of authority to the
Secretary, use these specific terms and considerations
throughout section 1833(t)(14) of the Act, and then
assume the Secretary is foreclosed from taking into
account those considerations in adjusting ASP ‘‘as
necessary for purposes’’ of section 1833(t)(14) of the
Act. The Secretary is generally empowered to adjust
drug prices ‘‘as necessary’’ for the overall purposes of
section 1833(t)(14) of the Act, and there is nothing in
section 1833(t)(14) of the Act to indicate the Secretary
is foreclosed from varying Medicare OPPS payment for
a drug, depending on whether a 340B hospital
acquired that drug at such a substantially lower
acquisition cost.
• Authority To Establish Payment Rates in the Absence
of Acquisition Cost Survey Data and Authority To Base
Payment on an Average Discount
Comment: Some commenters, including a
commenter representing teaching hospitals, stated
that the Secretary ignored the statutory directive in
section 1833(t)(14) of the Act to set payment rates at
the average acquisition cost for specific drugs and not
to use averages for all drugs. In addition, the
commenters stated that section 1833(t)(14) of the Act
requires the Secretary to rely on an average of
acquisition cost data and sales prices for a given drug,
not an average discount that is applied to all drugs
acquired under the 340B Program.

81
One commenter stated that the Secretary
impermissibly conflates the two alternative methods
for setting payment rates, ‘‘essentially discarding
Congress’ requirement that any survey data used in
setting payment rates must be derived from
statistically rigorous surveys.’’ This commenter
asserted that the Secretary is using MedPAC’s
estimate of average discounts as a proxy or
replacement for the surveys required under subsection
(iii)(I).
Response:
We
disagree
that
section
1833(t)(14)(A)(iii)(II) of the Act requires use of survey
data and note that, unlike subclause (I) of this section,
subclause (II) does not require taking survey data into
account for determining average price for the drug in
the year. We continue to believe that section
1833(t)(14)(A)(iii)(II) of the Act grants the Secretary
the authority to calculate and adjust rates as
necessary in the absence of acquisition cost. Moreover,
under section 1833(t)(14)(A) of the Act, there still will
be one starting, baseline price for an applicable drug,
that is, the rate that applies under 1842(o), 1847A, or
section 1847B, as the case may be, as calculated and
adjusted by the Secretary. For drugs not acquired
under the 340B Program, we will continue to utilize
that price (ASP+6 percent), which as we have
explained ‘‘requires no further adjustment’’ because it
‘‘represents the combined acquisition and pharmacy
overhead payment for drugs and biologicals.’’
However, for drugs acquired through the 340B
Program, we are adjusting that price downward (ASP
minus 22.5 percent) to more closely align with the
hospital acquisition cost for a drug when purchased at
a discounted price under the 340B Program. In the
absence of acquisition costs from hospitals that
purchase drugs through the 340B Program, we believe

82
it is appropriate to exercise our authority to adjust the
average price for 340B-acquired drugs, which are
estimated to be acquired at an average minimum
discount of ASP minus 22.5 percent. Importantly,
because we are not using authority under section
1833(t)(14)(A)(iii)(I) of the Act (as the commenter
suggested), we disagree with the commenter’s
suggestion that the Secretary is using the MedPAC
analysis to stand in the place of the survey
requirement under subclause (I).
• Current Agency View Contrasts With Longstanding
Practice
Comment: Some commenters contended that the
proposal contrasts sharply with the agency’s previous
view and longstanding practice of applying the
statutory scheme of section 1833(t)(14) of the Act.
These commenters noted that since CMS began
relying on subclause (II) in 2012 to set the payment
rate, the agency has never invoked the discretionary
authority. The commenters stated that, instead, CMS
stated that the statutory default of ASP+6 percent
‘‘requires no further adjustment’’ because it
‘‘represents the combined acquisition and pharmacy
overhead payment for drugs and biologicals.’’
Moreover, the commenters added, CMS has applied
the statutory default rate without further adjustment
in each subsequent year. They asserted that the CY
2018 proposal, in contrast, departs dramatically from
longstanding prior practice and adopts a substantially
reduced payment rate of ASP minus 22.5 percent for
drugs acquired under a 340B Program.
Response: As discussed in the earlier background
section, section 1833(t)(14)(A)(iii)(II) of the Act grants
the Secretary authority to adjust, as necessary for
purposes of paragraph (14) of section 1833(t) of the

83
Act, the applicable payment rate for separately
payable covered outpatient drugs under the OPPS.
Specifically, we believe that the proposed reduced
payment for 340B-acquired drugs would meet the
requirements under section 1833(t)(14)(A)(iii)(II) of
the Act, which states that if hospital acquisition cost
data are not available, the payment for an applicable
drug shall be the average price for the drug in the year
established under section 1842(o), section 1847A, or
section 1847B of the Act, as the case may be, as
calculated and adjusted by the Secretary as necessary
for purposes of this paragraph (paragraph (14) of
section 1833(t) of the Act) (emphasis added). We do not
have hospital acquisition cost data for 340B drugs and,
therefore, we proposed to continue to pay for these
drugs under the methodology in our authority at
section 1833(t)(14)(A)(iii)(II) of the Act which we
determined to be ASP, and then to adjust that amount
by applying a reduction of 22.5 percent to that
payment
methodology,
which,
as
explained
throughout this section, is the adjustment we believe
is necessary to more closely align with the acquisition
costs for drugs acquired under the 340B Program.
As previously stated, we believe that using an
average discount to set payment rates for separately
payable 340B-acquired drugs will achieve the dual
goals of (1) adjusting payments to better reflect
resources expended to acquire such drugs and (2)
protecting the confidential nature of discounts applied
to a specific drug. Furthermore, our proposed and
finalized policy will lower OPPS payment rates for
Medicare beneficiaries who receive drugs at hospitals
subject to the 340B payment reduction.
In addition, we do not believe that the fact that we
have not historically utilized our adjustment authority

84
under section 1833(t)(14)(A)(iii)(II) of the Act to adjust
payment amounts for separately payable 340Bacquired drugs means we are permanently barred
from adjusting these payments where, as here, we
have provided a reasoned explanation for doing so. We
continue to believe, as the commenter noted, that
ASP+6 percent requires no further adjustment for
drugs that are not acquired under the 340B Program
because, at this time, we have not found similar
evidence of the difference between the statutory
benchmark (ASP+6 percent) and average hospital
acquisition costs for such drugs. However, that is not
the case for 340B-acquired drugs. As explained in
detail throughout this section, we believe that a
payment amount of ASP minus 22.5 percent for drugs
acquired under the 340B Program is better aligned to
hospitals’ acquisition costs and thus this adjustment,
for drugs acquired under the 340B Program, is
necessary for Medicare OPPS payment policy.
• Violation of Section 340B of the Public Health
Service Act
Comment: Some commenters stated that the
proposed payment reduction would violate the 340B
statute, which expressly defines the types of hospitals
that may receive the benefits of 340B discounts. One
commenter asserted that the payment proposal would
‘‘hijack Congress’ carefully crafted statutory scheme
by seizing 340B discounts from hospitals and
transferring the funds to providers that Congress
excluded from the 340B Program,’’ thereby violating
section 340B of the Public Health Service Act. The
commenter further noted that discounts under the
340B Program are only available to ‘‘covered entities’’
that are defined by law and that Congress thus
intended the benefits of the program to accrue to these

85
providers only. The commenter contended that
Congress’ reference to Medicare definitions when
describing covered entities demonstrates that it
considered the Medicare program when it adopted the
340B Program and decided not to grant discounts to
all Medicare hospitals. Rather, the commenter
believed that Congress made a deliberate decision to
limit the benefits of the 340B Program only to
Medicare hospitals that serve large numbers of lowincome or other underprivileged patients. In addition,
the commenter stated that when Congress has
intended Federal health care programs to intrude
upon the 340B Program, it has been crystal clear.
In contrast, commenters asserted that Congress
has been wholly silent on the relationship between
340B and Medicare Part B, which indicates Congress’s
intent that Medicare should not ‘‘encroach’’ upon the
340B Program by ‘‘redistributing [340B] discounts to
non-340B providers.’’ The commenters noted that the
340B statute and Medicare have coexisted for several
years and that Congress has had ample opportunity to
amend the Medicare statute governing Part B
payments and/or the 340B statute to expressly permit
CMS to reduce Medicare payments to 340B hospitals,
but has not done so. As an example, the commenters
cited legislation enacted in 2010, in which Congress
amended both the 340B and the Medicare statutes,
but did not authorize CMS to redistribute 340B
savings to non-340B hospitals or to Part B generally.
Commenters further asserted that the proposed cut
to 340B hospitals is also contrary to Congress’s intent
for the 340B Program to enable safety-net providers to
reach more patients and furnish more comprehensive
services and would undermine this purpose by
preventing the operation of the 340B statute. These

86
commenters suggested that, although manufacturers
would still have to give 340B discounts, 340B
participating hospitals would receive no benefit from
those discounts; thus, the statutory purpose of 340B
would be fatally undermined.
Response: We do not believe that this proposal
under section 1833(t) of the Act is in conflict with
section 340B of the Public Health Service Act. Section
1833(t) of the Act governs Medicare payment policies
for covered hospital outpatient department services
paid under the OPPS, while section 340B of the Public
Health Service Act governs eligibility and program
rules for participation in the 340B Program. There are
no references in either section of law to each other. In
fact, the failure of either statute to reference the other
proves the opposite—that each statute stands on its
own and neither is hindered or rendered null and void
by the other. There is no requirement in the Public
Health Service Act that the 340B Program
‘‘guarantee’’ or provide a certain profit from the
Medicare program. Likewise, there is no requirement
in section 1833(t) of the Act to pay a particular rate for
a hospital enrolled in the 340B Program. We agree
with the commenters that Congress was aware of both
the 340B Program and the OPPS and of the programs’
relationships to one another. However, we believe that
the silence of each statute with respect to the other
should not be viewed as a constraint on the broad
authority conferred to the Secretary under section
1833(t) of the Act to establish payment rates under the
OPPS.
Furthermore, we are unaware of legislative history
or other evidence to corroborate the commenters’ belief
that Congress’ silence on the relationship between
340B and Medicare Part B OPPS payments should be

87
viewed as constraining the Secretary’s ability under
section 1833(t)(14) of the Act as to how to calculate
payment rates for drugs acquired under the 340B
Program under the OPPS. While legislative silence
can be difficult to interpret, we note that Congress’
silence regarding the 340B Program in enacting
Medicare OPPS payment for certain drugs would
create the opposite inference. The 340B Program
existed well before Congress enacted the Medicare
OPPS and payment for certain drugs. If Congress
wanted to exempt 340B drugs or entities with a 340B
agreement from Medicare OPPS payment for drugs
generally, it easily could have done so. Instead,
Congress provided for Medicare OPPS drug payments
‘‘as calculated and adjusted by the Secretary as
necessary,’’ without any mention of, or restriction
regarding, the already existent 340B Program.
We also disagree with commenters who believe
that implementing the OPPS payment methodology
for 340B-acquired drugs as proposed will ‘‘eviscerate’’
or ‘‘gut’’ the 340B Program. As discussed earlier in the
background section, the findings from several 340B
studies conducted by the GAO, OIG, and MedPAC
show a wide range of discounts that are afforded to
340B hospitals, with some reports finding discounts of
up to 50 percent. As stated in the proposed rule, we
believe ASP minus 22.5 percent is a conservative
estimate of the discount for 340B-acquired drugs and
that even with the reduced payment, hospitals will
continue to receive savings that can be directed at
programs and services to carry out the intent of the
340B Program.
With respect to the comment that the proposal
would frustrate the intent of the 340B Program and
redirect Medicare payments to other hospitals that do

88
not participate in the 340B Program, we reiterate that
we proposed to redistribute the savings in an equal
and offsetting manner to all hospitals paid under the
OPPS, including those in the 340B Program, in
accordance with the budget neutrality requirements
under section 1833(t)(9)(B) of the Act. However, we
remain interested in exploring ways to better target
the offsetting amount to those hospitals that serve
low-income and uninsured patients, as measured by
uncompensated care. Details on the redistribution of
funds are included in section XVIII. of this final rule
with comment period.
• Proposal Is Procedurally Defective and Inconsistent
With Advisory Panel Recommendations
Comment: Some commenters contended that the
proposal is procedurally defective under the OPPS
statute. The commenters asserted that the Secretary’s
justification for the proposed reduced rate rests, in
part, on intertwined issues related to clinical use and
hospital cost of drugs. The commenters objected to
CMS’ reference to studies suggesting that 340B
hospitals may be unnecessarily prescribing more
drugs and/or more expensive drugs relative to non340B hospitals as support for proposing a payment
rate that eliminates the differential between
acquisition cost and Medicare payment. These
commenters cited other studies in an effort to refute

89
the evidence presented in the proposed rule.29 30 The
commenters believed that CMS should have asked the
HOP Panel to consider the intertwined issues of drug
cost and clinical use prior to making a proposal to
reduce payment for 340B-acquired drugs, and the
Secretary should have consulted with the HOP Panel
in accordance with section 1833(t)(9)(A) of the Act, as
part of the process of review and revision of the
payment groups for covered outpatient department
services and the relative payment weights for the
groups. The commenters argued that, because the
Secretary did not consult with the HOP Panel before
publishing its 340B payment proposal, the Secretary
acted contrary to the statute. The commenters noted
that at the August 21, 2017 meeting of the HOP Panel
that occurred after publication of the proposed rule,
the Panel urged that CMS not finalize the proposed
payment reduction.
At the August 21, 2017 meeting of the HOP Panel,
the Panel made the following recommendations with
respect to the proposed policy for OPPS payment for
drugs acquired under the 340B Program:
The Panel recommended that CMS:

Dobson Davanzo & Associates, Update to a 2012 Analysis
of 340B Disproportionate Share Hospital Services Delivered to
Vulnerable Patient Populations Eligibility Criteria for 340B DSH
Hospitals Continue to Appropriately Target Safety Net Hospitals
(Nov. 15, 2016). Available at: http://www.340bhealth.org/files/
Update_Report_FINAL_11.15.16.pdf.
29

Dobson DaVanzo, Analysis of the Proportion of 340B DSH
Hospital Services Delivered to Low-Income Oncology Drug
Recipients Compared to Non-340B Provider (2017). Available at:
http://www.340bhealth.org/files/LowIncomeOncology.pdf;
30

90
• Not finalize its proposal to revise the payment
rate for drugs purchased under the 340B Program;
• Collect data from public comments and other
sources, such as State Medicaid programs in Texas
and New York, on the potential impact of revising the
payment rate, implementing a modifier code, and the
effects of possible mechanisms for redistributing the
savings that result from changing the payment rate;
and
• Assess the regulatory burden of changing the
payment rate and the potential impact on 340B
hospitals of redistributing dollars saved.
In addition, one commenter suggested that the
proposal was ‘‘procedurally defective’’ because the
proposal was solely articulated through preamble and
did not propose to amend the Code of Federal
Regulations (CFR). The commenter asserted that the
proposal cannot be implemented without a change to
the Medicare regulations and stated that the Medicare
statute requires CMS to issue regulations when
altering the substantive standards for payment. 31 The
commenter stated that the proposal falls squarely
within this requirement because it would change the
substantive legal standard governing payments to
340B hospitals for separately payable drugs.

31
‘‘No rule, requirement, or other statement of policy (other
than a national coverage determination) that establishes or
changes a substantive legal standard governing the scope of
benefits, the payment for services, or the eligibility of individuals,
entities, or organizations to furnish or receive services or benefits
under this subchapter shall take effect unless it is promulgated
by the Secretary by regulation. . . .’’ Section 1871 of the Social
Security Act (42 U.S.C. 1395hh).

91
Another commenter stated that CMS’ proposal also
violates section 1833(t)(2)(E) of the Act because the
agency is not authorized and did not offer a reasoned
basis for applying savings achieved as a result of its
proposal to reduce significantly payments to 340B
hospitals to Part B services generally. Likewise, a few
commenters stated that the Administrative Procedure
Act (APA) requires the Secretary to offer a ‘‘reasoned
basis’’ for proposing to take an unprecedented action.
The commenters suggested that, as a matter of
longstanding policy and practice, the Secretary has
never applied such a sweeping change to drug rates
nor has it ever applied savings from OPPS outside of
the OPPS.
Response: We remind the commenters that our
proposal was based on findings that ASP minus 22.5
percent reflects the minimum average discount that
hospitals in the 340B Program receive. We are
familiar with the reports the commenters referenced
in their comments. However, we continue to believe,
based on numerous studies and reports, that 340B
participation is not well correlated to the provision of
uncompensated care and is associated with differences
in prescribing patterns and drug costs. For example,
as noted earlier in this section, GAO found that ‘‘in
both 2008 and 2012, per beneficiary Medicare Part B
drug spending, including oncology drug spending, was
substantially higher at 340B DSH hospitals than at
non-340B hospitals,’’ thus indicating that, on average,
beneficiaries at 340B DSH hospitals were either
prescribed more drugs or more expensive drugs than
beneficiaries at the other non-340B hospitals in GAO’s
analysis.
With respect to the HOP Panel, we believe that this
comment reflects a misunderstanding of the Panel’s

92
role in advising the Secretary. Section 1833(t)(9)(A) of
the Act provides that the Secretary shall consult with
an expert outside advisory panel composed of an
appropriate selection of representatives of providers to
review (and advise the Secretary concerning) the
clinical integrity of the groups and weights. Such
panel may use data collected or developed by entities
and organizations (other than the Department of
Health and Human Services) in conducting such
review.
The
provisions
described
under
section
1833(t)(9)(A) of the Act do not impose an obligation on
the Secretary to consult with the HOP Panel prior to
issuing a notice of proposed rulemaking nor do they
require the Secretary to adopt the Panel’s
recommendation(s). Rather, the statute provides that
the Secretary shall consult with the Panel on policies
affecting the clinical integrity of the ambulatory
payment classifications and their associated weights
under the OPPS. The Secretary met the requirement
of section 1833(t)(9)(A) of the Act at the HOP Panel
August 21, 2017 meeting in which the Panel made
recommendations on this very proposed policy. The
HOP Panel’s recommendations, along with public
comments to the proposed rule, have all been taken
into consideration in the development of this final rule
with comment period.
While we are not accepting the HOP Panel’s
recommendation not to finalize the payment reduction
for drugs purchased under the 340B Program, as
discussed later in this section, we are modifying our
position on the modifier in an effort to ease
administrative burden on providers, taking into
account the way in which the modifier is used in
several State Medicaid programs, as the Panel

93
recommended. In addition, we have collected data
from public comments on the potential impact of
revising the payment rate, implementing a modifier,
and the effects of possible mechanisms for
redistributing the ‘‘savings’’ (or the dollars that result)
from changing the payment rate and have assessed
the regulatory burden of changing the payment rate
and the potential impact on 340B hospitals of
redistributing dollars saved, all of which were steps
the HOP Panel recommended we take.
Regarding the comments asserting that the
Secretary is out of compliance with procedures used to
promulgate regulations as described under section
1871 of the Act (42 U.S.C. 1395hh), we note that we
have received public comments on our interpretation
of the Medicare statute, and we respond to those
comments above. We further note that we did not
establish in the Code of Federal Regulations the rates
for separately payable, nonpass-through drugs and
biologicals in past rulemakings. Because we have not
adopted regulation text that prescribes the specific
payment amounts for separately payable, nonpassthrough drugs and biologicals, there was no regulation
text to amend to include our proposed payment
methodology for drugs acquired under the 340B
Program. However, this does not mean that payment
rates for separately payable drugs were not available
to the public. That information is available in
Addendum B to this final rule with comment period,
which lists the national payment rates for services
paid under the OPPS, including the payment rates for
separately payable drugs and biologicals based on
ASP+6 percent. We note that we have not provided the
reduced payment rates for separately payable drugs
and biologicals acquired under the 340B Program in
Addendum B, but hospitals can arrive at those rates

94
using the ASP+6 percent rate that is included in
Addendum B. Finally, with respect to comments on
redistribution of the dollars that result from the 340B
payment policy, we are finalizing our proposal to
achieve budget neutrality for the payment reduction
for 340B-acquired drugs through an increase in the
conversion factor. We disagree that our proposal to
apply budget neutrality in accordance with section
1833(t)(9)(B) of the Act violates the APA or statutory
authority. Further, we note that if we decide to take a
different approach with respect to the redistribution of
funds for budget neutrality in the future, we will
consider such approach in future rulemaking.
• Impact on Medicare Beneficiary Cost-Sharing
Comment: Some commenters noted that Medicare
beneficiaries, including dual-eligible Medicare
beneficiaries, would not directly benefit from a
lowered drug copayment amount. The commenters
noted that many beneficiaries have supplemental
insurance that covers their out-of-pocket drug costs, in
whole or in part. These commenters asserted that the
proposal would actually increase their out-of-pocket
costs for other Part B benefits.
Response: The cost-sharing obligation for Medicare
beneficiaries is generally 20 percent of the Medicare
payment rate. While many Medicare beneficiaries may
have supplemental coverage that covers some or all of
their out-of-pocket expenses, not all beneficiaries have
such coverage. This policy will lower both the amount
that a beneficiary is responsible to pay as well as the
amount that any supplemental insurance, including
the Medicaid program, will pay on behalf of the
beneficiary. While we are implementing this policy in
a budget neutral manner equally across the OPPS for
CY 2018 for non-drug items and services, we may

95
revisit how any savings from the lowered drug
payment rate for 340B drugs may be allocated in the
future and continue to be interested in ways to better
target the savings to hospitals that serve the
uninsured and low-income populations or that provide
a disproportionate share of uncompensated care.
In addition, as noted earlier in this section, in the
hospital setting, not only are beneficiaries liable for
cost-sharing for drugs they receive, but they also incur
a ‘‘facility fee’’ solely because the drug was furnished
in the hospital setting. As described in section II.A.3.b.
of this final rule with comment period, for CY 2018, we
are adopting a policy to conditionally package Level 1
and Level 2 drug administration services and believe
that these steps taken together may help encourage
site-neutral care in that beneficiaries may receive the
same drugs and drug administration services at the
physician office setting without a significant difference
in their financial liability between settings.
• Calculation of Savings
Comment: Commenters disagreed with CMS’
impact estimate and a few commenters provided their
own analysis of the 340B drug payment proposal. One
commenter believed that even if CMS implements the
policy as proposed, in a budget neutral manner within
the OPPS through an offsetting increase in the
conversion factor, payments for non-drug APCs would
increase across hospitals by approximately 3.7 percent
(in contrast to CMS’ estimate of 1.4 percent).
According to the commenter, this redistribution would
result in a net decrease in payments to 340B hospitals
of approximately 2.6 percent, or approximately $800
million. The commenter asserted that CMS’ proposal
would remove $800 million intended to support what
it referred to as the congressionally mandated mission

96
of 340B hospitals from these already vulnerable
facilities and redistribute these dollars to other
hospitals that do not participate in the 340B Program.
Likewise, the commenter challenged CMS’ suggested
alternative approaches to achieving budget neutrality,
such as applying offsetting savings to specific services
within the OPPS or outside of the OPPS to Part B
generally (such as to physician services under the
Medicare Physician Fee Schedule), which the
commenter believed would similarly penalize these
most vulnerable hospitals and inhibit their efforts to
carry out the purpose of the 340B Program. Finally,
other commenters noted that implementing the
proposed policy in a non-budget neutral manner would
effectively ‘‘gut’’ the 340B Program.
Response: With respect to comments on the
proposed distribution of savings, we refer readers to
section XVIII. of this 2018 OPPS/ASC final rule with
comment for discussion on the redistribution of
savings that result from the estimated impact of the
340B policy as well as calculation of budget neutrality.
Briefly, for CY 2018, we are implementing the
alternative payment methodology for drugs purchased
under the 340B Program in a budget neutral manner
within the OPPS through an offsetting increase in the
conversion factor for nondrug services. Therefore, the
resulting savings from the 340B payment policy will
be redistributed pro rata through an increase in rates
for non-drug items and services under the OPPS. We
have already addressed comments relating to the
assertion that our proposal would ‘‘gut’’ or ‘‘eviscerate’’
the 340B Program. Likewise, we have addressed the
interaction between our authority under section
1833(t)(14)(A) of the Act relative to section 340B of the
Public Health Service Act in our responses above.

97
(3) Other Areas
Comment: MedPAC commented reiterating its
recommendations to Congress in its March 2016
Report to the Congress. Specifically, MedPAC
commented that it recommended that payment rates
for all separately payable drugs provided in a 340B
hospital should be reduced to 10 percent of the ASP
rate (resulting in ASP minus 5.3 percent after taking
application of the sequester into account). MedPAC
noted that its March 2016 report also included a
recommendation to the Congress that savings from
the reduced payment rates be directed to the
Medicare-funded uncompensated care pool, which
would target hospitals providing the most care to the
uninsured, and in that way benefit indigent patients,
and that payments be distributed in proportion to the
amount of uncompensated care that hospitals provide.
MedPAC believed that legislation would be needed to
direct drug payment savings to the uncompensated
care pool and noted that current law requires the
savings to be retained with the OPPS to make the
payment system budget neutral. MedPAC encouraged
the Secretary to work with Congress to enact
legislation
necessary
to
allow
MedPAC’s
recommendation to be implemented, if such
recommendation
could
not
be
implemented
administratively. MedPAC further noted that
legislation would also allow Medicare to apply the
policy to all OPPS separately payable drugs, including
those on pass-through payment status.
Response: We thank MedPAC for its comments and
for its clarification that its recommendation that ‘‘[t]he
Congress should direct the Secretary of the
Department of Health and Human Services to reduce
Medicare payment rates for 340B hospitals’ separately

98
payable 340B drugs by 10 percent of the average sales
price (ASP)’’ was intended to be 10 percent lower than
the current Medicare rate of ASP+6 percent and would
result in a final OPPS payment of ASP minus 5.3
percent when taking the sequester into account.
However, we do not believe that reducing the Medicare
payment rate by only 10 percentage points below the
current payment rate of ASP+6 percent (that is, ASP
minus 4 percent) would better reflect the acquisition
costs incurred by 340B participating hospitals. In its
May 2015 Report to the Congress, MedPAC estimated
that the average minimum discount for a 340B
hospital paid under the OPPS was ASP minus 22.5
percent, which it noted was a conservative, ‘‘lower
bound’’ estimate. Further, in its March 2016 Report to
the Congress, MedPAC stated that, ‘‘[i]n aggregate,
the Office of Inspector General (OIG) estimates that
discounts across all 340B providers (hospitals and
certain clinics) average 34 percent of ASP, allowing
these providers to generate significant profits when
they administer Part B drugs (MedPAC March 2016
Report to Congress, page 76). MedPAC further noted
the estimate of the aggregate discount was based on
all covered entities (hospitals and certain clinics).
Because 340B hospitals accounted for 91 percent of
Part B drug spending for all covered entities in 2013,
it is reasonable to assume that 340B hospitals received
a discount similar to 33.6 percent of ASP (MedPAC
March 2016 Report to Congress, page 79).
Further, as we stated in the proposed rule, the
GAO reported that the amount of the 340B discount
ranges from an estimated 20 to 50 percent discount,
compared to what the entity would have otherwise
paid to purchase the drug. In addition, voluntary
participation in the PVP results in a covered entity
paying a subceiling price on certain covered outpatient

99
drugs (estimated to be approximately 10 percent below
the ceiling price). (U.S. Department of Health and
Human Services, HRSA FY 2018 Budget Justification)
Accordingly, we continue to believe that ASP
minus 22.5 percent represents a conservative estimate
of the average minimum discount that 340B-enrolled
hospitals paid under the OPPS receive for drugs
purchased with a 340B Program discount and that
hospitals likely receive an even steeper discount on
many drugs, especially brand name drugs. We also
continue to believe that section 1833(t)(14)(A)(iii)(II) of
the Act allows the Secretary to make adjustments, if
hospital acquisition cost data is not available, as
necessary, so that the Medicare payment rate better
represents the acquisition cost for drugs and
biologicals that have been acquired with a 340B
discount.
With respect to MedPAC’s comment regarding
targeting the savings to uncompensated care, we refer
readers to section XVIII.A.5. of this final rule with
comment period.
• Comments Regarding Rural Hospitals
Comment:
Commenters
representing
rural
hospitals, particularly RRCs and SCHs, expressed
opposition to the proposal, noting that it could be
especially harmful to rural hospitals in light of the
‘‘hospital closure crisis.’’ One commenter cited a report
from a health analytics company and noted that since
2010, 80 rural hospitals have closed and that one-third
of remaining rural hospitals are vulnerable to closure,
with 41 percent of rural hospitals operating at a
financial loss.
Commenters noted that rural hospitals enrolled in
the 340B Program depend on the drug discounts to

100
provide access to expensive, necessary care such as
labor and delivery and oncology infusions. The
commenters stated that rural Americans are more
likely to be older, sicker, and poorer than their urban
counterparts. The commenter gave examples of rural
hospitals that have used profit margins on 340Bacquired drugs to offset uncompensated care and staff
emergency departments. In addition, the commenters
stated that a portion of rural hospitals are excluded
from purchasing orphan drugs through the 340B
Program. Therefore, the commenters stated, these
hospitals often use their 340B savings to offset the
expense of purchasing orphan drugs, which they note
comprise a growing number of new drug approvals.
In addition, a commenter representing several
340B-enrolled hospitals stated that multiple hospitals
report that the 340B Program is the reason the
hospital can provide oncology infusions in their local
community and that the chemotherapy infusion
centers tend to be small with variation in patients
served based on the needs of the community. The
commenter stated that, without the 340B Program,
many rural hospitals would likely need to stop
providing many of the outpatient infusions, thereby
forcing patients to either travel 35 miles (in the case
of SCHs which must generally be located at least 35
miles from the nearest like hospital) to another facility
or receive care in a hospital inpatient setting, which is
a more costly care setting. Another commenter, a
member of Congress representing a district in the
State of Ohio, commented that while the 340B
Program is in need of reform, the program remains an
important safety net for rural hospitals in Ohio and
around the country. The commenter stated that 340B
hospitals offer safety-net programs to their
communities, including opioid treatment programs,

101
behavioral health science programs, and others. The
commenter further stated that the 340B drug payment
proposal did not address broader structural issues
with the 340B Program itself, including lack of
oversight and clear guidance and definitions, and that
the proposal could harm the hospitals that the 340B
Program was intended to help. In addition, the
commenter noted that ‘‘arbitrary cuts’’ to the 340B
Program for safety-net hospitals could have
detrimental impacts on the economic growth and
opportunities in the communities those hospitals serve
and that the proposal does not advance the larger
goals of 340B Program reform.
One commenter noted that SCHs face 47.5 percent
higher levels of bad debt and 55 percent lower profit
margins. Thus, even with 340B discounts, the
commenter argued that rural hospitals like rural
SCHs are financially threatened. Commenters also
noted that rural hospitals are typically located in
lower income economic areas and are not able to
absorb the proposed reduction in drug payment for
340B purchased drugs. Moreover, commenters
suggested that the proposal disproportionately
impacts rural hospitals compared to its effect on urban
hospitals.
Finally, commenters requested that, if CMS
finalizes the policy as proposed, CMS exempt hospitals
with a RRC or SCH designation from the alternative
340B drug payment policy. The commenters asserted
that RRCs and SCHs are rural safety-net hospitals
that provide localized care for Medicare beneficiaries
and also serve as ‘‘economic engines’’ for many rural
communities.
Response: We share commenters’ concerns about
access to care, especially in rural areas where access

102
issues may be even more pronounced than in other
areas of the country. We note our proposal would not
alter covered entities’ access to the 340B Program. The
alternative 340B drug payment methodology solely
changes Medicare payment for 340B-acquired drugs.
Medicare has long recognized the particularly
unique needs of rural communities and the financial
challenges rural hospital providers face. Across the
various Medicare payment systems, CMS has
established a number of special payment provisions
for rural providers to maintain access to care and to
deliver high quality care to beneficiaries in rural
areas. With respect to the OPPS, section 1833(t)(13) of
the Act provided the Secretary the authority to make
an adjustment to OPPS payments for rural hospitals,
effective January 1, 2006, if justified by a study of the
difference in costs by APC between hospitals in rural
areas and hospitals in urban areas. Our analysis
showed a difference in costs for rural SCHs. Therefore,
for the CY 2006 OPPS, we finalized a payment
adjustment for rural SCHs of 7.1 percent for all
services and procedures paid under the OPPS,
excluding separately payable drugs and biologicals,
brachytherapy sources, and devices paid under the
pass-through payment policy, in accordance with
section 1833(t)(13)(B) of the Act. We have continued
this 7.1 percent payment adjustment since 2006.
In the CY 2018 OPPS/ASC proposed rule, we
sought public comment for future policy refinements
on whether, due to access to care issues, exceptions
should be granted to certain groups of hospitals, such
as those with special adjustments under the OPPS (for
example, rural SCHs or PPS-exempt cancer hospitals)
if a policy were adopted to adjust OPPS payments for
drugs acquired under the 340B program. Taking into

103
consideration the comments regarding rural hospitals,
we believe further study on the effect of the 340B drug
payment policy is warranted for classes of hospitals
that receive statutory payment adjustments under the
OPPS. In particular, given challenges such as low
patient volume, it is important that we take a closer
look at the effect of an ASP minus 22.5 percent
payment on rural SCHs.
With respect to RRCs, we note that there is no
special payment designation for RRCs under the
OPPS. By definition, RRCs must have at least 275
beds and therefore are larger relative to rural SCHs.
In addition, RRCs are not subject to a distance
requirement from other hospitals. Accordingly, at this
time, we are not exempting RRCs from the 340B
payment adjustment.
For CY 2018, we are excluding rural SCHs (as
described under the regulations at 42 CFR 412.92 and
designated as rural for Medicare purposes) from this
policy. We may revisit our policy to exempt rural
SCHs, as well as other hospital designations for
exemption from the 340B drug payment reduction, in
the CY 2019 OPPS rulemaking.
• Children’s and PPS-Exempt Cancer Hospitals
Comment: Commenters representing children’s
hospitals (‘‘children’s’’) raised objections to the
proposal because of the potential impact on the
approximate 8,000 children with end-stage renal
disease (ESRD) who are eligible for Medicare. One
commenter cited that currently 48 children’s hospitals
participate in the 340B Program and rely on the
savings the program provides to enhance care for
vulnerable children. According to the commenter,
pediatric ESRD patients require high levels of care
and rely on life-saving pharmaceuticals that often

104
come at a high cost. Therefore, the commenters posited
that it is because children’s patients are more
expensive to treat and not because of inappropriate
drug use that 340B hospitals incur higher drug
expenditures. In addition, the commenters expressed
concern with the effect the 340B drug payment policy
may have on State Medicaid programs, considering
Medicaid is the predominant payer type for children’s
hospitals. The commenters requested that, unless
CMS is able to examine the impact on pediatric
Medicare beneficiaries, CMS should exempt children’s
hospitals from the alternative 340B drug payment
methodology.
An organization representing PPS-exempt cancer
hospitals commented that CMS’ proposal would
severely harm the hospitals that treat the most
vulnerable
and
underserved
patients
and
communities, undermining these hospitals’ ability to
continue providing programs designed to improve
access to services. The commenter believed that
assumptions alluded to in the CY 2018 OPPS/ASC
proposed rule, which suggested that providers are
abusing the savings generated from the 340B Program
or potentially creating incentives to over utilize drugs,
are inaccurate and that clinicians provide the care
that is necessary to treat a patient’s disease. The
commenter suggested that CMS work with, or defer to,
HRSA to first conduct a complete analysis of how the
340B Program is utilized for the benefit of patients
prior to proposing any changes to Medicare payment
for drugs purchased through the program.
Response: We share the commenters’ views on
protecting access to high quality care for all Medicare
beneficiaries, including those treated in children’s or
PPS-exempt cancer hospitals. Further, because of how

105
these classes of hospitals are paid under the OPPS, we
recognize that the 340B drug payment proposal may
not result in reduced payments for these hospitals in
the aggregate.
Specifically,
in
accordance
with
section
1833(t)(7)(D)(ii) of the Act, we make transitional
outpatient payments (TOPs) to both children’s and
PPS-exempt cancer hospitals. That is, these hospitals
are permanently held harmless to their ‘‘pre-BBA
amount,’’ and they receive hold harmless payments to
ensure that they do not receive a payment that is lower
in amount under the OPPS than the payment amount
they would have received before implementation of the
OPPS. Accordingly, if we were to reduce drug
payments to these hospitals on a per claim basis, it is
very likely that the reduction in payment would be
paid back to these hospitals at cost report settlement,
given the TOPs structure.
Accordingly, we believe it is appropriate to exempt
children’s and PPS-exempt cancer hospitals from the
alternative 340B drug payment methodology for CY
2018. Therefore, for CY 2018, we are excluding
children’s and PPS-exempt cancer hospitals from the
alternative 340B drug payment policy. As discussed in
a later section in this final rule with comment period,
because we are redistributing the dollars in a budget
neutral manner within the OPPS through an
offsetting increase to the conversion factor, children’s
hospitals and PPS-exempt cancer hospitals will
receive a higher payment when providing a non-drug
service.
In summary, we are adopting for CY 2018 an
exemption for rural SCHs, children’s hospitals, and
PPS-exempt cancer hospitals from the alternative
340B drug payment methodology. These three types of

106
hospitals will not be subject to a reduced drug
payment for drugs that are purchased under the 340B
Program in CY 2018. We may revisit the specific types
of hospitals excluded, if any, from the 340B payment
policy in CY 2019 rulemaking. However, as discussed
in more detail below, it remains important to collect
information on which drugs being billed to Medicare
were acquired under the 340B Program. Accordingly,
these three types of hospitals will still be required to
report an informational modifier ‘‘TB’’ for tracking and
monitoring purposes. We may revisit this 340B drug
payment policy, including whether these types of
hospitals should continue to be excepted from the
reduced Medicare payment rate, in future rulemaking.
• Biosimilar Biological Products
Comment: Some commenters expressed opposing
views about applying the proposed 340B payment
methodology to biosimilar biological products. One
pharmaceutical manufacturer recommended that the
Secretary use his equitable adjustment authority at
section 1833(t)(2)(E) of the Act to apply a narrow
equitable adjustment to biosimilar biological products
with pass-through payment status to pay for these
drugs at ASP minus 22.5 percent of the reference
product rather than ASP+6 percent of the reference
product. The commenter asserted that excluding
biosimilar biological products from the alternative
340B payment methodology would result in a
significant payment differential between biosimilar
biological products and reference products which may
cause providers to switch patients to different
products for financial reasons, rather than clinical
factors. The commenter stated that, if the policy is
implemented as proposed, the competitive biosimilar
marketplace would significantly change because

107
Medicare would pay more for the biosimilar biological
product with pass-through payment status and
weaken market forces. The commenter estimated that
if the 340B drug policy is implemented as proposed, up
to $50 million of any savings could be lost due to
hospitals switching to the biosimilar biological product
on pass-through payment status (that will be paid at
ASP+6 percent of the reference product). Moreover,
the commenter pointed out that CMS’ policy to only
provide pass-through payments for the first eligible
biosimilar biological product of any reference
biological would also create a similar payment
disadvantage for any subsequent biosimilar biological
product, which would be ineligible for pass-through
payment under CMS’ policy.
Another commenter, a different pharmaceutical
manufacturer, requested that CMS exclude biosimilar
biological products from the proposed payment
adjustment until such time as the biosimilar biological
product market is better established. The commenter
indicated that while a biosimilar biological product is
less expensive to the Medicare program, hospitals are
incented by the 340B Program to purchase the
originator product because of ‘‘the spread’’ or payment
differential with respect to the originator product.
Moreover, the commenter stated that applying the
proposed adjustment to payment for biosimilar
biological products in certain hospitals will retain
market share for the more expensive reference product
that is further compounded by market practices of
volume-based rebates and exclusionary contracts for
the reference product.
Response: We understand the commenters’
concerns. As discussed in section V.B.2. of this CY
2018 OPPS/ASC final rule with comment period, we

108
are adopting the biosimilar biological products
HCPCS coding established under the CY 2018 MPFS
final rule. Briefly, we adopted a final policy to
establish separate HCPCS codes for each biosimilar
biological product for a particular reference product
beginning January 1, 2018. In addition, we also stated
in section V.B.2. of this CY 2018 OPPS/ASC final rule
with comment period that we are making a conforming
amendment to our pass-through payment policy for
biosimilar biological products such that each FDAapproved biosimilar biological product will be eligible
for transitional pass-through payment instead of only
the first biosimilar for a particular reference product.
Therefore, given the policy changes affecting
coding and payment for biosimilar biological products
that we are adopting in the CY 2018 MPFS final rule
and this CY 2018 OPPS/ASC final rule with comment
period, we disagree with the commenters that we
should exclude biosimilar biological products from the
340B payment policy or use our equitable adjustment
authority under section 1833(t)(2)(E) of the Act to
adjust payment to ASP minus 22.5 percent of the
reference product for biosimilar biological products
with pass-through payment status. We believe the
statutory provision on transitional drug pass-through
payment under section 1833(t)(6)(D)(i) of the Act
provides for an explicit payment for drugs eligible for
pass-through payment. Therefore, we are unable to
accept the commenter’s request to pay a biosimilar
biological product on pass-through payment status the
reduced 340B payment rate. We are adopting a policy
that any biosimilar biological product with passthrough payment status will be exempt from the
alternative payment methodology for 340B drugs and
will continue to be paid at ASP+6 percent of the
reference product. Biosimilar biological products that

109
are not on pass-through payment status will be paid
ASP minus 22.5 percent of the reference product. We
believe it is appropriate to pay this amount for
biosimilar biological products as it is consistent with
the amount paid for non-340B-acquired biosimilar
biological products, which is ASP+6 percent of the
reference product. Currently, there are two biosimilar
biological products available on the market and both
are on pass-through payment status for the entirety of
CY 2018. Therefore, no biosimilar biological products
currently available will be affected by the alternative
payment methodology for 340B-acquired drugs for CY
2018. We recognize the concerns about paying
different rates for similar drugs and biologicals and
continue to assess the feasibility and practicality of an
alternative 340B payment adjustment for biosimilar
biological products in the future.
• Nonexcepted Off-Campus Hospital Outpatient
Departments
Comment: A few commenters noted that CMS’
proposed alternative payment methodology for 340B
purchased drugs would not apply to nonexcepted offcampus provider-based departments (PBDs) of a
hospital and could result in behavioral changes that
may undermine CMS’ policy goals of reducing
beneficiary cost-sharing liability and undercut the
goals of section 603 of the Bipartisan Budget Act of
2015. Commenters recommended that, if CMS adopts
a final policy to establish an alternative payment
methodology for 340B drugs in CY 2018, CMS also
apply the same adjustment to payment rates for drugs
furnished in nonexcepted off-campus PBDs of a
hospital if such drugs are acquired under the 340B
Program. In addition, the commenters believed that
because CMS did not propose to limit the expansion of

110
services or volume increases at excepted off-campus
PBDs, CMS will create financial incentives for
hospitals to shift or reallocate services to the site of
care that pays the highest rate for an item or service.
Response: We appreciate the commenter’s concerns
about potential unintended consequences of our
proposal. We will continue to monitor the billing
patterns of claims submitted by nonexcepted offcampus outpatient PBDs as we continue to explore
whether to pursue future rulemaking on the issues of
clinical service line expansion or volume increases,
and other related section 603 implementation policies.
In the CY 2017 OPPS/ASC final rule with comment
period, we discussed the provision of section 603 of the
Bipartisan Budget Act of 2015 (Pub. L. 144–74),
enacted on November 2, 2015, which amended section
1833(t) of the Act. Specifically, this provision amended
the OPPS statute at section 1833(t) by amending
paragraph (1)(B) and adding a new paragraph (21). As
a general matter, under sections 1833(t)(1)(B)(v) and
(t)(21) of the Act, applicable items and services
furnished
by
certain
off-campus
outpatient
departments of a provider on or after January 1, 2017,
are not considered covered outpatient department
services as defined under section 1833(t)(1)(B) of the
Act for purposes of payment under the OPPS and are
instead paid ‘‘under the applicable payment system’’
under Medicare Part B if the requirements for such
payment are otherwise met (81 FR 79699). We issued
an interim final rule with comment period along with
the CY 2017 OPPS/ASC final rule with comment
period to establish the MPFS as the ‘‘applicable
payment system,’’ which will apply in most cases, and
payment rates under the MPFS for non-excepted
items and services furnished by nonexcepted off-

111
campus outpatient provider based departments
(PBDs) (81 FR 79720). (Other payment systems, such
as the Clinical Laboratory Fee Schedule, continue to
apply in appropriate cases.) That is, items and services
furnished by nonexcepted off-campus outpatient
PBDs, are nonexcepted items and services that are not
covered outpatient services, and thus, are not payable
under the OPPS. Rather, these nonexcepted items and
services are paid ‘‘under the applicable payment
system,’’ which, in this case, is generally the MPFS.
As we discussed in the CY 2017 OPPS/ASC interim
final with comment period (81 FR 79718) and
reiterated in the CY 2018 MPFS final rule, payment
for Part B drugs that would be separately payable
under the OPPS (assigned status indicator ‘‘K’’) but
are not payable under the OPPS because they are
furnished by nonexcepted off-campus outpatient PBDs
will be paid in accordance with section 1847A of the
Act (generally, ASP+6 percent), consistent with Part B
drug payment policy in the physician office. We did not
propose to adjust payment for 340B-acquired drugs in
nonexcepted off-campus PBDs in CY 2018 but may
consider adopting such a policy in CY 2019 notice-andcomment rulemaking.
• Data Collection and Modifier
Comment: The vast majority of commenters
objected to CMS’ intention to require hospitals that do
not purchase a drug or biological through the 340B
program to apply a modifier to avoid a reduced drug
payment. A few commenters supported the modifier
proposal. The commenters who disagreed with
proposal stated that it would place an unnecessary
administrative and financial burden on hospitals that
do not participate or are not eligible to participate in
the 340B Program. Similarly, the commenters stated

112
that the modifier requirement as described in the
proposed rule would put a financial and
administrative strain on hospitals with fewer
resources. In addition, the commenters contended that
a requirement for hospitals to report a modifier for
drugs that were not acquired under the 340B Program
would place hospitals at significant risk for
noncompliance if not implemented correctly, which
many commenters believe is nearly impossible to do.
As an alternative approach, numerous commenters
recommended that CMS require hospitals that do
purchase a drug under the 340B Program to report the
modifier, rather than those that do not.
Regarding a January 1, 2018, implementation date
for the modifier, some commenters expressed concern
and doubted their ability to implement the modifier as
described in the proposed rule accurately. The
commenters indicated that additional time would be
needed to adapt billing systems, allow for testing of
claims reported with the modifier, and educate staff.
Based on discussion of how the modifier would work in
the proposed rule, the commenters stated that
hospitals would either have to append the modifier to
the claim at the time the drug is furnished, or
retroactively apply the modifier, thus delaying claims
submission to Medicare.
The commenters provided detailed descriptions on
hospital pharmacy set up, including information on
software tools to support inventory management of
drugs dispensed to 340B and non-340B patients
(based on HRSA definition of an eligible patient). One
commenter indicated that the drug supply system
used for purchasing covered outpatient drugs is
completely separate from—and does not necessarily
communicate with—the hospital’s pharmacy drug

113
dispensing and patient billing systems. While these
software tools enable split-billing to distinguish 340B
and non-340B patients, the commenters noted that
this patient determination is typically not done in real
time when a drug is administered. Commenters noted
that 340B hospitals that use split-billing software do
not receive information on 340B patient status on a
daily basis and the proposal could result in delayed
billing. The commenters stated that hospitals typically
make these determinations retrospectively and it may
be 3 to 10 days post-dispensing before the hospital
knows whether a drug was replenished under 340B or
at regular pricing. The commenters noted that, under
this ‘‘replenishment model,’’ hospitals track how many
340B-eligible drugs are used, and once enough drugs
are dispensed to complete a package, they will
replenish the drug at the 340B rate. As such, the
commenters argued that hospitals do not know when
the drug is dispensed whether it will cost them the
340B rate or the wholesale acquisition cost (WAC).
Therefore, the commenters expressed concern that the
modifier requirement as described in the proposed
rule would result in billing delays and, for some
hospitals, may cause a short-term interruption in cash
flow.
In addition, the commenters requested that, while
the payment reduction would apply to nonpassthrough separately payable drugs purchased with a
340B discount, CMS accept the modifier when
reported with drug HCPCS codes that are packaged
(and for which no separate payment will be made) to
reduce or prevent operational burden that may be
caused if affected providers have to determine on a
claim-by-claim basis whether a drug is eligible for
separate payment.

114
With respect to State Medicaid programs that also
require a modifier to identify 340B-purchased drugs
on outpatient claims, the commenters noted that CMS’
proposal would be counter to Medicaid requirements
and would create confusion and add complexity for
providers who treat Medicaid recipients in multiple
states. The commenters reported that many State
Medicaid programs require a modifier to identify
drugs that were purchased under 340B to administer
their Medicaid drug rebate programs to prevent
duplicate discounts on 340B drugs. The commenters
suggested that if CMS reversed its position on
application of the modifier, it would ensure crossover
claims (claims transferred from Medicare to Medicaid)
are correctly interpreted by State Medicaid programs
so that they can appropriately request manufacturer
rebates on drugs not purchased under the 340B
Program. Moreover, some commenters believed that if
CMS required the modifier to be reported for 340Bpurchased drugs, State Medicaid programs would also
adopt the modifier, leading to national uniformity in
reporting of 340B drugs.
Finally, in the event that CMS required the
modifier on claims for 340B drugs, rather than non340B drugs, commenters sought clarity on whether
the modifier applies only to drugs purchased under the
340B Program which are subject to a ceiling price
payment from the manufacturer or if the modifier
would also apply to drugs purchased by a 340Bregistered facility, but purchased under the Prime
Vendor Program for which only 340B facilities are
eligible. One commenter asked that CMS emphasize
that 340B pricing is not available on drugs furnished
to hospital inpatients.

115
Response: We appreciate the detailed comments
that were submitted. As noted in the proposed rule, we
did not propose to establish the modifier but rather
noted our intent to establish the modifier, regardless
of whether we adopted the alternative payment
methodology for drugs acquired through the 340B
Program. However, we are responding to some of the
comments submitted in this final rule with comment
period with information on this modifier that we
believe is important to communicate as soon as
possible. We will consider whether additional details
will need to be communicated through a subregulatory
process, such as information posted to the CMS Web
site.
After considering the administrative and financial
challenges associated with providers reporting the
modifier as described in the CY 2018 OPPS/ASC
proposed rule, and in order to reduce regulatory
burden, we are reversing our position on how the
modifier will be used by providers to effectuate the
payment adjustment for 340B-purchased drugs.
Specifically, beginning January 1, 2018, providers
who are not excepted from the 340B payment
adjustment will report modifier ‘‘JG’’ (Drug or
biological acquired with 340B Drug Pricing Program
Discount) to identify if a drug was acquired under the
340B Program. This requirement is aligned with the
modifier requirement already mandated in several
States under their Medicaid programs. Therefore, we
believe that this option will pose less of an
administrative burden. Further, having consistent
application of the modifier being required for a drug
that was purchased under the 340B Program instead
of a drug not purchased under the 340B Program will
help improve program integrity by helping ensure that

116
hospitals are not receiving ‘‘duplicate discounts’’
through both the Medicaid rebate program and the
340B Program. The phrase ‘‘acquired under the 340B
Program’’ is inclusive of all drugs acquired under the
340B Program or PVP, regardless of the level of
discount applied to the drug. Drugs that were not
acquired under the 340B Program should not be
reported with the modifier ‘‘JG’’. For separately
payable drugs (status indicator ‘‘K’’), application of
modifier ‘‘JG’’ will trigger a payment adjustment such
that the 340B-acquired drug is paid at ASP minus 22.5
percent. In response to the commenters’ request that
we allow the 340B modifier to be reported with status
indicator ‘‘N’’ drugs (that is, drugs that are always
packaged), we will accept modifier ‘‘JG’’ or ‘‘TB’’ to be
reported with a packaged drug (although such
modifier will not result in a payment adjustment).
In addition, beginning January 1, 2018, providers
that are excepted from the 340B drug payment policy
for CY 2018, which include rural SCHs, children’s
hospitals, and PPS-exempt cancer hospitals, should
not report modifier ’’JG’’. Instead, these excepted
providers should report the informational modifier
‘‘TB’’ (Drug or Biological Acquired With 340B Drug
Pricing Program Discount, Reported for Informational
Purposes) to identify OPPS separately payable drugs
purchased with a 340B discount. The informational
modifier ‘‘TB’’ will facilitate the collection and tracking
of 340B claims data for OPPS providers that are
excepted from the payment adjustment in CY 2018.
However, use of modifier ‘‘TB’’ will not trigger a
payment adjustment and these providers will receive
ASP+6 percent for separately payable drugs furnished
in CY 2018, even if such drugs were acquired under
the 340B Program.

117
For
drugs
administered
to
dual-eligible
beneficiaries (that is, beneficiaries covered under both
Medicare and Medicaid) for whom covered entities do
not receive a discount under the 340B Program, the
State Medicaid programs should be aware of modifier
‘‘JG’’ to help further prevent inappropriate billing of
manufacturer rebates.
With respect to comments about timing to
operationalize a modifier, we note that hospitals have
been on notice since the proposed rule went on display
at the Office of the Federal Register on July 13, 2017
that we intended to establish a modifier to implement
the policy for payment of drugs acquired under the
340B Program, if finalized. In addition, the modifier
will not be required until January 1, 2018, which after
display of this final rule with comment period will give
hospitals two additional months to operationalize the
modifier. Under section 1835(a) of the Act, providers
have 12 months after the date of service to timely file
a claim for payment. Therefore, for those hospitals
that may need more time to ensure that they are in
compliance with the modifier requirements, they have
12 months from the date of service to do so.
Further, to the extent many hospitals already
report a modifier through their State Medicaid
program, we believe that also requiring the modifier
on outpatient claims for 340B-acquired drugs paid for
under the OPPS would not be a significant
administrative burden and would promote consistency
between the two programs. With respect to providers
in States that are not currently required to report a
modifier under the Medicaid program, we note that
providers are nonetheless responsible for ensuring
that drugs are furnished to ‘‘covered patients’’ under
the 340B Program and, therefore, should already have

118
a tracking mechanism in place to ensure that they are
in compliance with this requirement. Furthermore,
modifiers are commonly used for payment purposes; in
this case, the presence of the modifier will enable us to
pay the applicable 340B drug rate of ASP minus 22.5
percent and track these claims in the Medicare data
(in the case of ‘‘JG’’ modifier) and will allow us to track
other drugs billed on claims that are not subject to the
payment reduction (modifier ‘‘TB’’). In addition, the
presence of the both modifiers will enable Medicare
and other entities to conduct research on 340Bacquired drugs in the future.
We remind readers that our 340B payment policy
applies to only OPPS separately payable drugs (status
indicator ‘‘K’’) and does not apply to vaccines (status
indicator ‘‘L’’ or ‘‘M’’), or drugs with transitional passthrough payment status (status indicator ‘‘G’’).
Finally, Federal law permits Medicare to recover
its erroneous payments. Medicare requires the return
of any payment it erroneously paid as the primary
payer. Medicare can also fine providers for knowingly,
willfully, and repeatedly billing incorrectly coded
claims. Providers are required to submit accurate
claims, maintain current knowledge of Medicare
billing policies, and ensure all documentation required
to support the validity of the services reported on the
claim is available upon request.
d. Summary of Final Policies for CY 2018
In summary, for CY 2018, in accordance with
section 1833(t)(14)(A)(iii)(II) of the Act, separately
payable Part B drugs (assigned status indicator ‘‘K’’),
other than vaccines and drugs on pass-through
payment status, that meet the definition of ‘‘covered
outpatient drug’’ as defined in the section 1927(k) of
the Act, that are acquired through the 340B Program

119
or through the 340B PVP at or below the 340B ceiling
price will be paid at the ASP minus 22.5 percent when
billed by a hospital paid under the OPPS that is not
excepted from the payment adjustment. Part B drugs
or biologicals excluded from the 340B payment
adjustment include vaccines (assigned status
indicator ‘‘L’’ or ‘‘M’’) and drugs with OPPS
transitional pass-through payment status (assigned
status indicator ‘‘G’’). Medicare will continue to pay
drugs that were not purchased with a 340B discount
at ASP+6 percent.
Effective January 1, 2018, biosimilar biological
products not on pass-through payment status that are
purchased through the 340B program or through the
340B PVP will be paid at ASP minus 22.5 percent of
the reference product’s ASP, while biosimilar
biological products on drug pass-through payment
status will continue to be paid ASP+6 percent of the
reference product.
To effectuate the payment adjustment for 340Bacquired drugs, CMS is implementing modifier ‘‘JG’’,
effective January 1, 2018. Hospitals paid under the
OPPS, other than a type of hospital excluded from the
OPPS (such as CAHs or those hospitals paid under the
Maryland waiver) or excepted from the 340B drug
payment policy for CY 2018, are required to report
modifier ‘‘JG’’ on the same claim line as the drug
HCPCS code to identify a 340B-acquired drug. For CY
2018, rural SCHs, children’s hospitals and PPSexempt cancer hospitals will be excepted from the
340B payment adjustment. These hospitals will be
required to report informational modifier ‘‘TB’’ for
340B-acquired drugs, and will continue to be paid
ASP+6 percent.

120
To maintain budget neutrality within the OPPS,
the estimated $1.6 billion in reduced drug payments
from adoption of this final alternative 340B drug
payment methodology will be redistributed in an equal
offsetting amount to all hospitals paid under the OPPS
through increased payment rates for non-drug items
and services furnished by all hospitals paid under the
OPPS for CY 2018. Specifically, the redistributed
dollars will increase the conversion factor across nondrug rates by 3.2 percent for CY 2018.
We may revisit the alternative 340B drug payment
methodology in CY 2019 rulemaking.
e. Comment Solicitation
Considerations

on

Additional

340B

As discussed above, we recognize there are data
limitations in estimating the average discount for
340B drugs. In the CY 2018 OPPS/ASC proposed rule
(82 FR 33634 through 33635), we welcomed
stakeholder input with regard to MedPAC’s May 2015
analysis and the resulting estimate of ASP minus 22.5
percent as the proposed payment rate for separately
payable, nonpass-through OPPS drugs purchased
under the 340B Program in CY 2018. We also
requested comment on whether we should adopt a
different payment rate to account for the average
minimum discount of OPPS drugs purchased under
the 340B Program. Also, we sought comment on
whether the proposal to pay ASP minus 22.5 percent
for 340B-acquired drugs should be phased in over time
(such as over a period of 2 to 3 years).
In addition, we recognize that the acquisition costs
for drugs may vary among hospitals, depending on a
number of factors such as size, patient volume, labor
market area and case-mix. Accordingly, in the longer
term, we are interested in exploring ways to more

121
closely align the actual acquisition costs that hospitals
incur rather than using an average minimum
discounted rate that would apply uniformly across all
340B hospitals. In the proposed rule, we requested
public comment on whether, as a longer term option,
Medicare should require 340B hospitals to report their
acquisition costs in addition to charges for each drug
on the Medicare claim. Having the acquisition cost on
a drug-specific basis would enable us to pay a rate
under the OPPS that is directly tied to the acquisition
costs for each separately payable drug. To the extent
that the acquisition costs for some drugs may equal
the ceiling price for a drug, we recognize that there
may be challenges with keeping the ceiling price
confidential as required by section 1927(b)(3)(D) of the
Act and we sought comment on this point.
Lastly, for consideration for future policy
refinements, we requested public comment on (1)
whether, due to access to care issues, exceptions
should be granted to certain groups of hospitals, such
as those with special adjustments under the OPPS (for
example, rural SCHs or PPS-exempt cancer hospitals)
if a policy were adopted to adjust OPPS payments to
340B participating hospitals (if so, describe how
adjusted rates for drugs purchased under the 340B
Program would disproportionately affect access in
these provider settings); (2) whether other types of
drugs, such as blood clotting factors, should also be
excluded from the reduced payment; and (3) whether
hospital-owned or affiliated ASCs have access to 340B
discounted drugs.
We received feedback on a variety of issues in
response to the comment solicitation on additional
future
considerations.
These
comments
are
summarized below.

122
Comment: One commenter recommended that
CMS establish an exemption mechanism for use by
stakeholders to request exemptions for certain groups
of hospitals. The commenters urged CMS to propose
and seek comment on specific guidelines that outline
procedures for stakeholders to request an exemption
and the criteria CMS would use to determine whether
to grant an exception.
Response: We appreciate the comment. As we
stated in the summary of final policies, we may revisit
the 340B drug payment policy in the CY 2019
rulemaking. For CY 2018, as stated earlier in this
section, rural SCHs, children’s hospitals and PPSexempt cancer hospitals will be excepted from the
alternative 340B drug payment methodology being
adopted in this final rule with comment period.
However, each of these excepted providers will report
informational modifier ‘‘TB’’ on the same claim line as
the HCPCS code for their 340B-acquired drugs.
Comment: In response to the solicitation of
comments on whether CMS should exclude certain
types of drugs from the proposed alternative 340B
drug payment methodology, manufacturers of blood
clotting
factors
and
radiopharmaceuticals
recommended that CMS continue to pay these drug
types at ASP+6 percent. With respect to blood clotting
factors, the commenters stated that individuals with
bleeding disorders have unique needs and are
expensive to treat such that the proposed reduced
payment could threaten access and/or create
unnecessary treatment delays for these patients. With
respect to radiopharmaceuticals, the commenters
stated that they do not believe that these products are
covered outpatient drugs (because it is not possible for
the manufacturer to accurately report final dose and

123
pricing information), and therefore these drugs should
be excluded as a category of drugs included in the
covered drug definition for the 340B Program.
In addition, one commenter recommended that
CMS develop a process for stakeholders to request
exemptions from the alternative 340B payment
methodology that CMS would evaluate using objective
patient guidelines designed to ensure patient access.
Response: We appreciate the comments. To the
extent
that
blood
clotting
factors
and
radiopharmaceuticals are covered outpatient drugs
purchased under the 340B Program, we believe that
the OPPS payment rate for these drugs should account
for the discounted rate under which they were
purchased. Therefore, for CY 2018, OPPS payment for
separately
payable,
nonpass-through
drugs,
biologicals, and radiopharmaceuticals, including blood
clotting factors and radiopharmaceuticals, if
purchased through the 340B Program, will be paid at
ASP minus 22.5 percent. As we stated in the summary
of final policies, we may revisit the 340B drug payment
policy in the CY 2019 rulemaking. We will consider
these requests for exceptions for certain drug classes
in development of the CY 2019 OPPS/ASC proposed
rule.
It is unclear to us whether the commenter meant
that radiopharmaceuticals are not considered covered
outpatient drugs under the OPPS or not considered a
covered outpatient drug for purposes of the 340B
Program. We assume the commenter was referring to
the definition of covered outpatient drug for purposes
of the 340B Program and, as such, these comments are
outside the scope of the CY 2018 OPPS/ASC proposed
rule. We refer commenters to HRSA with questions
related to the 340B Program.

124
Comment:
One
commenter
representing
community oncology practices urged CMS not to
‘‘reduce the size of the reimbursement reduction’’ or to
phase in the adjustment over 2 to 3 years because the
commenter believed that hospitals would use that
time to ‘‘aggressively strong-arm independent
community oncology practices to sell out to them.’’
Response: As stated earlier in this section, we are
finalizing our proposal to pay ASP minus 22.5 percent
for separately payable nonpass-through drugs (other
than vaccines). In addition, we agree that it is not
necessary to phase in the payment reduction and are
implementing the full adjustment for CY 2018.
Comment: Commenters expressed concern about
the challenges and costs of implementing acquisition
cost billing. The commenters reported that hospital
charge masters are not designed to bill drugs to one
payer at a different rate than other payers. The
commenters cited a survey response from hospitals
that revealed acquisition cost billing would require
investment in expensive software upgrades, obtaining
a second charge master, or devising burdensome
manual workarounds. One commenter stated that
hospital cost reports already reflect the 340B
acquisition cost based on expenses reported in the
pharmacy cost center. The commenter further stated
that these lower costs are already reflected in the drug
CCR, which will likely be lower because the cost to
acquire these drugs is lower. Thus, the commenter
asserted, the OPPS ratesetting process already
reflects a blend of discounting/lower expenses with
respect to 340B drug acquisition in the annual
application of CCRs to pharmacy charges.
Response: We thank the commenters for their
feedback and will take these comments into

125
consideration for future policymaking. We note that
several State Medicaid programs require reporting of
actual acquisition cost (AAC) for 340B drugs so the
magnitude of the challenges to implement may be less
than the commenter suggests.
* * *
XVIII. Economic Analyses
* * *
(2) Estimated Effects of OPPS Changes to Part B Drug
Payment on 340B Eligible Hospitals Paid Under the
OPPS
In section V.B.7 of this final rule with comment
period, we discuss our finalized policies to reduce the
payment for nonpass-through, separately payable
drugs purchased by certain 340B-participating
hospitals through the 340B Program. Rural SCHs,
children’s hospitals, and PPS-exempt cancer hospitals
are excepted from this payment policy in CY 2018.
Specifically, in this final rule with comment period, for
CY 2018, for hospitals paid under the OPPS (other
than those that are excepted for CY 2018), we are
paying for separately payable drugs and biologicals
that are obtained with a 340B discount, excluding
those on pass-through payment status and vaccines,
at ASP minus 22.5 percent instead of ASP+6 percent.
For context, based on CY 2016 claims data, the total
OPPS Part B drug payment is approximately $10.2
billion.
We recognize that it may be difficult to determine
precisely what the impact on Medicare spending will
be because OPPS claims data do not currently indicate
if the drug being provided was purchased with a 340B
discount. Furthermore, a list of outpatient drugs
covered under the 340B program is not publicly

126
available. Accordingly, for purposes of estimating the
impact for this final rule with comment period, as we
did in the CY 2018 OPPS/ASC proposed rule, we
assumed that all applicable drugs purchased by
hospitals eligible to participate in the 340B Program
were purchased at a discounted price under the 340B
program. While we recognize that certain newly
covered entities do not have access to 340B drug
pricing for designated orphan drugs, we believe that
our CY 2018 policy to except newly covered entity
types such as rural SCHs, PPS-exempt cancer
hospitals, and children’s hospitals, largely mitigates
the 340B drug spend attributable to orphan drugs and
therefore does not dramatically affect our final
estimate. In addition, for this final rule with comment
period, we utilized the HRSA covered entity database
to identify 340B participating hospitals and crosschecked these providers with the CY 2018 OPPS
facility impact public use file to determine which 340B
hospitals are paid under the OPPS. The HRSA covered
entity database is available via the Internet at
https://340bopais.hrsa.gov/coveredentitysearch.
Using this database, we found 1,338 OPPS hospitals
in the 340B program (compared to the 954 estimated
for the proposed rule). Of these, 270 were rural SCHs,
47 were children’s hospitals, and 3 were PPS-exempt
cancer hospitals. We did not assume changes in the
quantity of 340B purchased drugs provided by
hospitals participating in the 340B program (thereby
affecting unit volume) or changes in the number of
hospitals participating in the 340B program that may
occur due to the payment reduction.
While we acknowledge that there are some
limitations in Medicare’s ability to prospectively
calculate a precise estimate for purposes of this final
rule with comment period, we note that each hospital

127
has the ability to calculate how this policy will change
its Medicare payments for separately payable drugs in
CY 2018. Specifically, each hospital that is not
participating in the 340B program or that is excepted
from the policy to pay for drugs acquired under the
340B Program at ASP minus 22.5 percent in CY 2018
will know that its Medicare payments for drugs will be
unaffected by this finalized policy; whereas each
hospital participating in the 340B Program has access
to 340B ceiling prices (and subceiling prices if it
participates in the Prime Vendor Program), knows the
volume of 340B drugs that it has historically billed to
Medicare, and can generally project the specific
covered 340B drugs (and volume thereof) for which it
expects to bill Medicare in CY 2018. Accordingly, a
hospital participating in the 340B Program is able to
estimate the difference in payment that it will receive
if Medicare pays ASP minus 22.5 percent instead of
ASP+6 percent for 340B drugs.
Using the list of participating 340B providers
(derived from the HRSA database) and updated CY
2016 claims data available for this final rule with
comment period for the applicable separately payable
drugs and biologicals, excluding those on pass-through
payment status and vaccines, billed by hospitals
eligible to participate in the 340B Program, except for
those hospital types that are excepted from this policy
in CY 2018, we estimate that OPPS payments for
separately payable drugs, including beneficiary
copayments, will decrease by approximately $1.6
billion under this finalized policy, which reflects an
additional estimated reduction of $700 million over
the proposed rule estimate of $900 million. If PPSexempt cancer hospitals, children’s hospitals, and
rural SCHs had not been excluded from the reduced
drug payment in CY 2018, drug payments to PPS-

128
exempt cancer hospitals would have been reduced by
approximately $29 million, to children’s hospitals by
approximately $2 million, and to rural SCHs by
approximately $199 million—this would have resulted
in a total savings estimate of approximately $1.8
billion. Because we are implementing this payment
reduction in a budget neutral manner within the
OPPS, the reduced payments for separately payable
drugs purchased through the 340B Program will
increase payment rates for other non-drug items and
services paid under the OPPS by an offsetting
aggregate amount.
Because data on drugs that are purchased with a
340B discount are not publicly available, we do not
believe it is possible to more accurately estimate the
amount of the aggregate payment reduction and the
offsetting amount of the adjustment that is necessary
to ensure budget neutrality through higher payment
rates for other services. Furthermore, there are
potential offsetting factors, including possible changes
in provider behavior and overall market changes that
would likely lower the impact of the payment
reduction. As a result, we may need to make an
adjustment in future years to revise the conversion
factor once we have received more accurate data on
drugs purchased with a 340B discount within the
OPPS, similar to the adjustment we made for clinical
diagnostic laboratory test packaging policy in the CY
2016 OPPS/ASC final rule with comment period (80
FR 70352 through 70357).
In this final rule, we project that reducing payment
for 340B drugs to ASP minus 22.5 percent will
increase OPPS payment rates for non-drug items and
services by approximately 3.2 percent in CY 2018. The
estimated impacts of this policy are displayed in Table

129
88 below. We note that the payment rates included in
Addendum A and Addendum B of this final rule with
comment period do not reflect the reduced payments
for drugs purchased under the 340B Program;
however, they do include the increase to payments
rates for non-drug items and services due to the
corresponding increase in the conversion factor. In the
proposed rule (82 FR 33712), we reminded
commenters that this estimate could change in the
final rule based on a number of factors, including other
policies that are adopted in the final rule and the
availability of updated data and/or method of
assessing the impact in the final rule. We sought
public comment on our estimate and stated that we
were especially interested in whether commenters
believe there are other publicly available data sources
or proxies that can be used for determining which
drugs billed by hospitals paid under the OPPS were
acquired under the 340B Program.
We proposed that the reduced payments for
separately payable drugs and biologicals purchased
under the 340B Program would be included in the
budget
neutrality
adjustments,
under
the
requirements in section 1833(t)(9)(B) of the Act, and
that the budget neutral weight scalar would not be
applied in determining payments for these separately
paid drugs and biologicals purchased under the 340B
Program.
In addition, we solicited public comment on
whether we should apply all or part of the savings
generated by this payment reduction to increase
payments for specific services paid under the OPPS, or
under Part B generally, in CY 2018, rather than
simply increasing the conversion factor. In particular,
we sought public comment on whether and how the

130
offsetting increase could be targeted to hospitals that
treat a large share of indigent patients, especially
those patients who are uninsured. Finally, we sought
public comment on whether the redistribution of
savings associated with the proposal would result in
unnecessary increases in the volume of covered
services paid under the OPPS that should be adjusted
in accordance with section 1833(t)(2)(F) of the Act.
Comment: Several commenters stated that if the
340B drug payment policy was finalized, the funds
should be redistributed across the OPPS, as has been
the case for the application of budget neutrality in the
past. One commenter supported CMS’ proposal to
implement the savings attributed to the 340B
payment reduction in a budget neutral manner within
the OPPS. Commenters noted that the budget
neutrality requirement upon which CMS relied in the
proposed rule at section 1833(t)(9)(B) of the Act has
historically been interpreted by CMS as requiring
budget neutrality within the OPPS. Commenters
strongly urged CMS to follow its longstanding
interpretation of section 1833(t)(9)(B) of the Act and
offset the full amount of the aggregate 340B payment
reduction through offsetting payment increases within
the OPPS.
MedPAC
reiterated
its
March
2016
recommendation that that payments be distributed in
proportion to the amount of uncompensated care that
hospitals provide, ‘‘to make sure that dollars in the
uncompensated care pool actually go to the hospitals
providing the most uncompensated care.’’ MedPAC
commented that the 340B Program is not well
targeted to hospitals that provide high levels of
uncompensated care and noted that 40 percent of 340B
hospitals provide less than the median level of

131
uncompensated care. MedPAC stated that it believed
that legislation would be needed to direct the savings
to the uncompensated care pool because current law
would require that the savings be retained within the
OPPS to make it budget neutral. However, MedPAC
encouraged CMS to request that Congress enact the
legislation necessary to allow CMS to implement its
recommendation. MedPAC further noted that
legislation would also allow CMS to apply the policy to
all separately payable drugs, including those that are
separately payable as a result of their pass-through
status.
Response: We thank the commenters for their
feedback. After consideration of the public comments
we received, we are finalizing our proposal to fully
redistribute the savings associated with adoption of
the alternative payment methodology for drugs
acquired under the 340B Program within the OPPS to
non-drug items and services. That is, we will
redistribute $1.6 billion dollars in estimated lower
payment for OPPS drugs by increasing the conversion
factor for all OPPS non-drug items and services by 3.2
percent. We may revisit how the funds should be
targeted in the future.
Comment: Some commenters challenged the
accuracy of the $900 million estimate CMS calculated
in the proposed rule. According to these commenters,
their analysis of the proposal would have an estimated
impact in the range of $1.2 billion to $1.65 billion. As
a result, these commenters asserted that if the
proposed payment reductions are applied in a budget
neutral manner within the OPPS through an
offsetting increase in the conversion factor, their
analysis showed that payments for non-drug APCs
would increase across hospitals by about 3.7 percent

132
(in contrast to CMS’s estimate of 1.4 percent) based on
the proposed rule data. Moreover, based on their
analysis, the commenters believed the redistribution
of the savings would result in a net decrease in
payments to 340B hospitals of approximately 2.6
percent, or approximately $800 million—funding that
they stated was intended to support the
congressionally-mandated mission of 340B hospitals—
not be redistributed to other hospitals that do not
participate in the 340B Program.
Response: We stated in the proposed rule that the
estimate of the 340B payment reductions would likely
change in the final rule based on updated data, revised
assumptions, and final policies. For this final rule with
comment period, as discussed in detail earlier, we used
updated CY 2016 claims data and an updated list of
340B eligible providers to calculate an estimated
impact of $1.6 billion based on the final policy. As
shown in Table 88 below this reflects a reduction of
about $1.5 billion to urban hospitals and $86 million
to rural hospitals. We are redistributing the savings
from this payment reduction in a budget neutral
manner within the OPPS through an offsetting
increase in the conversion factor. This increase to the
conversion factor increases all OPPS non-drug
payment rates to all providers under the OPPS by 3.2
percent. With respect to comments on the
redistribution of the 340B savings to non-340B
participating hospitals, we note that 340B hospitals
will also receive the conversion factor increase.
Comment: In response to the comment solicitation
on whether the savings generated by the reduced
payment on 340B drugs should be used to increase
payments for specific services paid under the OPPS or
under Part B generally in CY 2018, commenters

133
generally objected to the notion that CMS has
authority to redistribute savings outside of OPPS. One
commenter stated that CMS did not provide any
analysis or justification to support a reading that
section 1833(t)(9)(B) of the Act establishes a budget
neutrality concept for the Medicare Part B Trust
Fund. Another commenter stated that CMS should not
redistribute the savings gained by the 340B proposal
based on Medicare DSH metrics (that is, insured lowincome days) because such metrics are not well
correlated with uncompensated care costs. This
commenter also expressed concern regarding the
suitability of using uncompensated care as a metric ‘‘to
identify hospitals that provide the most help to needy
patients because it includes bad debt as well as charity
care.’’ The commenter stated that bad debt is the
amount that hospitals billed but did not collect, and
therefore is not a measure of hospital assistance to the
poor. Several commenters challenged the logic of
reducing 340B payments to participating 340B
hospitals, only to return the savings to the very same
hospitals.
Response: We appreciate the feedback. Because the
OPPS is a budget neutral payment system,
historically CMS has maintained budget neutrality
through
offsetting
estimated
payment
decreases/increases within the OPPS, such as by
increasing/decreasing the conversion factor by an
equal offsetting amount. We have articulated the
policy justification for reducing drug payment to ASP
minus 22.5 percent for 340B-acquired drugs in section
V.B.7. of this final rule with comment period and are
redistributing the resulting dollars within the OPPS
to maintain budget neutrality for CY 2018. Therefore,
we are finalizing our proposal to redistribute the
estimated reduction in payment for 340B-acquired

134
drugs and biologicals by increasing the conversion
factor, and we are not targeting the savings to specific
services paid under the OPPS or under Part B
generally. We continue to be interested in exploring
ways that funds from a subsequent proposal could be
targeted in future years to hospitals that serve a high
share of low-income or uninsured patients.
Comment: Many commenters noted that CMS’
proposal to redistribute the savings that result from
the 340B reduction in a budget neutral manner within
the OPPS would increase beneficiary copayments on
non-drug services. Accordingly, the commenters
stated that most patients would not directly receive
the benefit of the 340B copayment reduction even if
reduced payments for 340B drugs lower coinsurance
amounts for these drugs. The commenters stated the
proposal will likely increase costs for uninsured
patients because 340B hospitals provide a
disproportionate amount of care to that population
and participating 340B hospitals may no longer be
able to provide ‘‘discounts to low-income patients’’ or
other uncompensated care. One commenter suggested
that CMS, with stakeholder input, develop an
outpatient hospital charity care metric that could be
used to redistribute the 340B savings based on the
level of outpatient charity care provided by the
hospital.
Response: We appreciate the stakeholders’
concerns. We believe that reducing payments on 340B
purchased drugs to better align with hospital
acquisition costs directly lowers drug costs for those
beneficiaries who receive a covered outpatient drug
from a 340B participating hospital. Further, to the
extent that studies have found that 340B participating
hospitals tend to use more high costs drugs, we believe

135
that this 340B payment policy helps address drug
pricing in the hospital outpatient setting by lessening
the incentive for unnecessary utilization of costly
drugs. In addition, even though many beneficiaries
have supplemental coverage, those plans make
coinsurance payments on behalf of beneficiaries. Thus,
to the extent this policy lessens the coinsurance
amount such supplemental plans would have to make,
we would expect the price of such plans could decrease
or otherwise reflect these lower costs in the future.
In summary, to maintain budget neutrality within
the OPPS, the estimated $1.6 billion in reduced drug
payments from adoption of this final 340B payment
methodology will be redistributed in an equal
offsetting amount to all hospitals paid under the OPPS
through increasing the payment rates by 3.2 percent
for nondrug items and services furnished by all
hospitals paid under the OPPS for CY 2018.
(3) Estimated Effects of OPPS Changes on Hospitals
Table 88 below shows the estimated impact of this
final rule with comment period on hospitals.
Historically, the first line of the impact table, which
estimates the change in payments to all facilities, has
always included cancer and children’s hospitals, which
are held harmless to their pre-BBA amount. We also
include CMHCs in the first line that includes all
providers. We now include a second line for all
hospitals, excluding permanently held harmless
hospitals and CMHCs.
We present separate impacts for CMHCs in Table
88, and we discuss them separately below, because
CMHCs are paid only for partial hospitalization
services under the OPPS and are a different provider
type from hospitals. In CY 2018, we are paying
CMHCs for partial hospitalization services under APC

136
5853 (Partial Hospitalization for CMHCs), and we are
paying hospitals for partial hospitalization services
under APC 5863 (Partial Hospitalization for HospitalBased PHPs).
The estimated increase in the total payments made
under the OPPS is determined largely by the increase
to the conversion factor under the statutory
methodology. The distributional impacts presented do
not include assumptions about changes in volume and
service-mix. The conversion factor is updated annually
by the OPD fee schedule increase factor as discussed
in detail in section II.B. of this final rule with comment
period. Section 1833(t)(3)(C)(iv) of the Act provides
that the OPD fee schedule increase factor is equal to
the market basket percentage increase applicable
under section 1886(b)(3)(B)(iii) of the Act, which we
refer to as the IPPS market basket percentage
increase. The IPPS market basket percentage increase
for FY 2018 is 2.7 percent (82 FR 38177). Section
1833(t)(3)(F)(i) of the Act reduces that 2.7 percent by
the multifactor productivity adjustment described in
section 1886(b)(3)(B)(xi)(II) of the Act, which is 0.6
percentage point for FY 2018 (which is also the MFP
adjustment for FY 2018 in the FY 2018 IPPS/LTCH
PPS final rule (82 FR 38177 through 38178)), and
sections 1833(t)(3)(F)(ii) and 1833(t)(3)(G)(v) of the Act
further reduce the market basket percentage increase
by 0.75 percentage point, resulting in the OPD fee
schedule increase factor of 1.35 percent. We are using
the OPD fee schedule increase factor of 1.35 percent in
the calculation of the CY 2018 OPPS conversion factor.
Section 10324 of the Affordable Care Act, as amended
by
HCERA,
further
authorized
additional
expenditures outside budget neutrality for hospitals in
certain frontier States that have a wage index less
than 1.0000. The amounts attributable to this frontier

137
State wage index adjustment are incorporated in the
CY 2018 estimates in Table 88.
To illustrate the impact of the CY 2018 changes,
our analysis begins with a baseline simulation model
that uses the CY 2017 relative payment weights, the
FY 2017 final IPPS wage indexes that include
reclassifications, and the final CY 2017 conversion
factor. Table 88 shows the estimated redistribution of
the increase or decrease in payments for CY 2018 over
CY 2017 payments to hospitals and CMHCs as a result
of the following factors: The impact of the APC
reconfiguration and recalibration changes between CY
2017 and CY 2018 (Column 2); the wage indexes and
the provider adjustments (Column 3); the combined
impact of all of the changes described in the preceding
columns plus the 1.35 percent OPD fee schedule
increase factor update to the conversion factor; and the
estimated impact taking into account all payments for
CY 2018 relative to all payments for CY 2017,
including the impact of changes in estimated outlier
payments, the frontier State wage adjustment, and
changes to the pass-through payment estimate
(Column 6).
We did not model an explicit budget neutrality
adjustment for the rural adjustment for SCHs because
we are maintaining the current adjustment
percentage for CY 2018. Because the updates to the
conversion factor (including the update of the OPD fee
schedule increase factor), the estimated cost of the
rural adjustment, and the estimated cost of projected
pass-through payment for CY 2018 are applied
uniformly across services, observed redistributions of
payments in the impact table for hospitals largely
depend on the mix of services furnished by a hospital
(for example, how the APCs for the hospital’s most

138
frequently furnished services will change), and the
impact of the wage index changes on the hospital.
However, total payments made under this system and
the extent to which this final rule with comment
period will redistribute money during implementation
also will depend on changes in volume, practice
patterns, and the mix of services billed between CY
2017 and CY 2018 by various groups of hospitals,
which CMS cannot forecast.
In CY 2016, we excluded all molecular pathology
laboratory tests from our packaging policy, and in CY
2017, we expanded the laboratory packaging exception
to apply to all advanced diagnostic laboratory tests
(ADLTs) that meet the criteria of section
1834A(d)(5)(A) of the Act. For CY 2018, we sought
public comments on whether laboratories (instead of
hospitals) should be permitted to bill Medicare directly
for molecular pathology tests and ADLTs that meet
the criteria of section 1834A(d)(5)(A) of the Act (and
are granted ADLT status by CMS), that are ordered
less than 14 days following the date of a hospital
outpatient’s discharge from the hospital outpatient
department.
The laboratory date of service (DOS) issue is
discussed in section X.F. of this final rule with
comment period. Because there are currently no
laboratory tests designated as ADLTs and because the
payment rate for laboratory tests excluded from our
packaging policy billed by a hospital would have been
the applicable rate for the laboratory test under the
CLFS, any aspect of this discussion that is finalized in
this final rule with comment period will not result in
a net costs or savings to the program. Accordingly,
section X.F. of this final rule with comment period is
not included in the impact table in the regulatory

139
impact analysis. Overall, we estimate that the rates
for CY 2018 will increase Medicare OPPS payments by
an estimated 1.4 percent. Removing payments to
cancer and children’s hospitals because their
payments are held harmless to the pre-OPPS ratio
between payment and cost and removing payments to
CMHCs results in an estimated 1.5 percent increase
in Medicare payments to all other hospitals. These
estimated payments will not significantly impact
other providers.
Column 1: Total Number of Hospitals
The first line in Column 1 in Table 88 shows the
total number of facilities (3,878), including designated
cancer and children’s hospitals and CMHCs, for which
we were able to use CY 2016 hospital outpatient and
CMHC claims data to model CY 2017 and CY 2018
payments, by classes of hospitals, for CMHCs and for
dedicated cancer hospitals. We excluded all hospitals
and CMHCs for which we could not plausibly estimate
CY 2017 or CY 2018 payment and entities that are not
paid under the OPPS. The latter entities include
CAHs, all-inclusive hospitals, and hospitals located in
Guam, the U.S. Virgin Islands, Northern Mariana
Islands, American Samoa, and the State of Maryland.
This process is discussed in greater detail in section
II.A. of this final rule with comment period. At this
time, we are unable to calculate a DSH variable for
hospitals that are not also paid under the IPPS
because DSH payments are only made to hospitals
paid under the IPPS. Hospitals for which we do not
have a DSH variable are grouped separately and
generally include freestanding psychiatric hospitals,
rehabilitation hospitals, and long-term care hospitals.
We show the total number of OPPS hospitals (3,765),
excluding the hold-harmless cancer and children’s

140
hospitals and CMHCs, on the second line of the table.
We excluded cancer and children’s hospitals because
section 1833(t)(7)(D) of the Act permanently holds
harmless cancer hospitals and children’s hospitals to
their ‘‘pre-BBA amount’’ as specified under the terms
of the statute, and therefore, we removed them from
our impact analyses. We show the isolated impact on
the 49 CMHCs at the bottom of the impact table and
discuss that impact separately below.
Column 2: APC Recalibration—All Changes
Column 2 shows the estimated effect of APC
recalibration. Column 2 also reflects any changes in
multiple procedure discount patterns or conditional
packaging that occur as a result of the changes in the
relative magnitude of payment weights. As a result of
APC recalibration, we estimate that urban hospitals
will experience an increase of 0.1 percent, with the
impact ranging from an increase of 0.1 percent to no
change, depending on the number of beds. Rural
hospitals will experience a decrease of 0.3 percent,
with the impact ranging from a decrease of 0.2 percent
to a decrease of 0.5 percent, depending on the number
of beds. Major teaching hospitals will experience an
increase of 0.1 percent.
Column 3: Wage Indexes and the Effect of the Provider
Adjustments
Column 3 demonstrates the combined budget
neutral impact of the APC recalibration; the updates
for the wage indexes with the FY 2018 IPPS postreclassification wage indexes; the rural adjustment;
and the cancer hospital payment adjustment. We
modeled the independent effect of the budget
neutrality adjustments and the OPD fee schedule
increase factor by using the relative payment weights
and wage indexes for each year, and using a CY 2017

141
conversion factor that included the OPD fee schedule
increase and a budget neutrality adjustment for
differences in wage indexes.
Column 3 reflects the independent effects of the
updated wage indexes, including the application of
budget neutrality for the rural floor policy on a
nationwide basis. This column excludes the effects of
the frontier State wage index adjustment, which is not
budget neutral and is included in Column 6. We did
not model a budget neutrality adjustment for the rural
adjustment for SCHs because we are continuing the
rural payment adjustment of 7.1 percent to rural
SCHs for CY 2018, as described in section II.E. of this
final rule with comment period.
We modeled the independent effect of updating the
wage indexes by varying only the wage indexes,
holding APC relative payment weights, service-mix,
and the rural adjustment constant and using the CY
2018 scaled weights and a CY 2017 conversion factor
that included a budget neutrality adjustment for the
effect of the changes to the wage indexes between CY
2017 and CY 2018. The FY 2018 wage policy results in
modest redistributions.
There is a slight increase of less than 0.1 in Column
3 for the CY 2018 cancer hospital payment adjustment
budget neutrality calculation because we are using a
payment-to-cost ratio target for the cancer hospital
payment adjustment in CY 2018 of 0.88, compared to
the CY 2017 OPPS/ASC final rule with comment
period (81 FR 79869) payment-to-cost ratio target of
0.91. We note that, in accordance with section 16002
of the 21st Century Cures Act, we are applying a
budget neutrality factor calculated as if the cancer
hospital adjustment target payment-to-cost ratio was
0.89, not the 0.88 target payment-to-cost ratio we are

142
applying in section II.F. of this final rule with
comment
Column 4: Effect of the Reduced Payment for 340B
Drugs
Column 4 demonstrates the total payment effect of
the finalized reduction in payment for drugs
purchased under the 340B Program from ASP+6
percent to ASP minus 22.5 percent. This column
includes both the reduced payment for 340B acquired
drugs and the increase to the conversion factor for
budget neutrality purposes, which increases payment
for all non-drug services. For rural sole community
hospitals, this column shows a 2.6 percent increase,
reflecting a 0.0 percent increase for drugs (because
these providers are exempt from these reductions) and
a 3.2 percent increase for non-drug services.
Column 5: All Budget Neutrality Changes Combined
With the Market Basket Update
Column 5 demonstrates the combined impact of all
of the changes previously described and the update to
the conversion factor of 1.35 percent. Overall, these
changes will increase payments to urban hospitals by
1.2 percent and to rural hospitals by 2.5 percent.
Urban hospitals will receive an increase in line with
the 1.3 percent overall increase for all facilities after
the update is applied to the proposed budget
neutrality adjustments. The increase for classes of
rural hospitals is more variable with sole community
hospitals receiving a 3.9 percent increase and other
rural hospitals receiving an increase of 0.8 percent.
Column 6: All Changes for CY 2018
Column 6 depicts the full impact of the CY 2018
policies on each hospital group by including the effect
of all of the changes for CY 2018 and comparing them

143
to all estimated payments in CY 2017. Column 6
shows the combined budget neutral effects of Columns
2 through 4; the OPD fee schedule increase; the impact
of the frontier State wage index adjustment; the
impact of estimated OPPS outlier payments as
discussed in section II.G. of this final rule with
comment period; the change in the Hospital OQR
Program payment reduction for the small number of
hospitals in our impact model that failed to meet the
reporting requirements (discussed in section XIII. of
this final rule with comment period); and the
difference in total OPPS payments dedicated to
transitional pass-through payments.
Of those hospitals that failed to meet the Hospital
OQR Program reporting requirements for the full CY
2017 update (and assumed, for modeling purposes, to
be the same number for CY 2018), we included 33
hospitals in our model because they had both CY 2016
claims data and recent cost report data. We estimate
that the cumulative effect of all of the changes for CY
2018 will increase payments to all facilities by 1.4
percent for CY 2018. We modeled the independent
effect of all of the changes in Column 6 using the final
relative payment weights for CY 2017 and the final
relative payment weights for CY 2018. We used the
final conversion factor for CY 2017 of $75.001 and the
final CY 2018 conversion factor of $78.636 discussed
in section II.B. of this final rule with comment period.
Column 6 contains simulated outlier payments for
each year. We used the 1-year charge inflation factor
used in the FY 2018 IPPS/LTCH PPS final rule (82 FR
38527) of 4.6 percent (1.04574) to increase individual
costs on the CY 2016 claims, and we used the most
recent overall CCR in the July 2017 Outpatient
Provider-Specific File (OPSF) to estimate outlier

144
payments for CY 2017. Using the CY 2016 claims and
a 4.6 percent charge inflation factor, we currently
estimate that outlier payments for CY 2017, using a
multiple threshold of 1.75 and a fixed-dollar threshold
of $3,825 will be approximately 1.11 percent of total
payments. The estimated current outlier payments of
1.11 percent are incorporated in the comparison in
Column 6. We used the same set of claims and a charge
inflation factor of 9.4 percent (1.09357) and the CCRs
in the July 2017 OPSF, with an adjustment of
0.985569, to reflect relative changes in cost and charge
inflation between CY 2016 and CY 2018, to model the
CY 2018 outliers at 1.0 percent of estimated total
payments using a multiple threshold of 1.75 and a
fixed-dollar threshold of $4,150. The charge inflation
and CCR inflation factors are discussed in detail in the
FY 2018 IPPS/LTCH PPS final rule (82 FR 38527).
Overall, we estimate that facilities will experience
an increase of 1.4 percent under this final rule with
comment period in CY 2018 relative to total spending
in CY 2017. This projected increase (shown in Column
6) of Table 88 reflects the 1.35 percent OPD fee
schedule increase factor, plus 0.2 percent for the
change in the pass-through estimate between CY 2017
and CY 2018, minus a decrease of 0.11 percent for the
difference in estimated outlier payments between CY
2017 (1.11 percent) and CY 2018 (1.0 percent). We
estimate that the combined effect of all of the changes
for CY 2018 will increase payments to urban hospitals
by 1.3 percent. Overall, we estimate that rural
hospitals will experience a 2.7 percent increase as a
result of the combined effects of all of the changes for
CY 2018.
Among hospitals by teaching status, we estimate
that the impacts resulting from the combined effects

145
of all changes will include a decrease of 0.9 percent for
major teaching hospitals and an increase of 2.9
percent for nonteaching hospitals. Minor teaching
hospitals will experience an estimated increase of 1.7
percent.
In our analysis, we also have categorized hospitals
by type of ownership. Based on this analysis, we
estimate that voluntary hospitals will experience an
increase of 1.3 percent, proprietary hospitals will
experience an increase of 4.5 percent, and
governmental hospitals will experience no change.
* * *
Dated: October 26, 2017
Seema Verma,
Administrator, Centers for Medicare and Medicaid
Services.
Dated: October 30, 2017.
Eric D. Hargan,
Acting Secretary, Department of Health and Human
Services.
[FR Doc. 2017-23932 Filed 11–1–17; 4:15 pm]

146
[83 Fed. Reg. 58,818 (Nov. 21, 2018)]
DEPARTMENT OF HEALTH AND HUMAN
SERVICES
Centers for Medicare & Medicaid Services
42 CFR Parts 416 and 419
[CMS–1695–FC]
RIN 0938–AT30
Medicare Program: Changes to Hospital
Outpatient
Prospective
Payment
and
Ambulatory Surgical Center Payment Systems
and Quality Reporting Programs
AGENCY: Centers for Medicare & Medicaid Services
(CMS), HHS.
ACTION: Final rule with comment period.
SUMMARY: This final rule with comment period
revises the Medicare hospital outpatient prospective
payment system (OPPS) and the Medicare ambulatory
surgical center (ASC) payment system for CY 2019 to
implement changes arising from our continuing
experience with these systems. In this final rule with
comment period, we describe the changes to the
amounts and factors used to determine the payment
rates for Medicare services paid under the OPPS and
those paid under the ASC payment system. In
addition, this final rule with comment period updates
and refines the requirements for the Hospital
Outpatient Quality Reporting (OQR) Program and the
ASC Quality Reporting (ASCQR) Program. In
addition, we are updating the Hospital Consumer
Assessment of Healthcare Providers and Systems
(HCAHPS) Survey measure under the Hospital
Inpatient Quality Reporting (IQR) Program by

147
removing the Communication about Pain questions;
and retaining two measures that were proposed for
removal, the Catheter-Associated Urinary Tract
Infection (CAUTI) Outcome Measure and Central
Line-Associated Bloodstream Infection (CLABSI)
Outcome Measure, in the PPS-Exempt Cancer
Hospital Quality Reporting (PCHQR) Program
beginning with the FY 2021 program year.
DATES:
Effective date: This final rule with comment period
is effective on January 1, 2019.
* * *
Table of Contents
I. Summary and Background
A. Executive Summary of This Document
B. Legislative and Regulatory Authority for the
Hospital OPPS
C. Excluded OPPS Services and Hospitals
D. Prior Rulemaking
* * *
V. OPPS Payment Changes for Drugs, Biologicals, and
Radiopharmaceuticals
A. OPPS Transitional Pass-Through Payment for
Additional Costs of Drugs, Biologicals, and
Radiopharmaceuticals
B. OPPS Payment for Drugs, Biologicals, and
Radiopharmaceuticals Without Pass-Through
Payment Status
* * *

148
C. Application of the 340B Drug Payment Policy to
Nonexcepted Off-Campus Departments of a
Hospital
* * *
XXI. Economic Analyses
* * *
C. Detailed Economic Analyses
* * *
I. Summary and Background
A. Executive Summary of This Document
1. Purpose
In this final rule with comment period, we are
updating the payment policies and payment rates for
services furnished to Medicare beneficiaries in
hospital outpatient departments (HOPDs) and
ambulatory surgical centers (ASCs), beginning
January 1, 2019. Section 1833(t) of the Social Security
Act (the Act) requires us to annually review and
update the payment rates for services payable under
the Hospital Outpatient Prospective Payment System
(OPPS). Specifically, section 1833(t)(9)(A) of the Act
requires the Secretary to review certain components of
the OPPS not less often than annually, and to revise
the groups, relative payment weights, and the wage
and other adjustments that take into account changes
in medical practices, changes in technologies, and the
addition of new services, new cost data, and other
relevant information and factors. In addition, under
section 1833(i) of the Act, we annually review and
update the ASC payment rates. This final rule with
comment period also includes additional policy
changes made in accordance with our experience with

149
the OPPS and the ASC payment system. We describe
these and various other statutory authorities in the
relevant sections of this final rule with comment
period. In addition, this final rule with comment
period updates and refines the requirements for the
Hospital Outpatient Quality Reporting (OQR)
Program and the ASC Quality Reporting (ASCQR)
Program.
In this final rule with comment period, two quality
reporting policies that impact inpatient hospitals are
updated due to their time sensitivity. In the Hospital
IQR Program, we are updating the HCAHPS Survey
measure by removing the Communication about Pain
questions from the HCAHPS Survey, which are used
to assess patients’ experiences of care, effective with
October 2019 discharges for the FY 2021 payment
determination and subsequent years. This policy
addresses public health concerns about opioid
overprescribing through patient pain management
questions that were recommended for removal in the
President’s Commission on Combating Drug Addiction
and the Opioid Crisis report. In addition, we are
finalizing that we will not publicly report any data
collected from the Communication Abut Pain
questions—a modification from what we proposed. We
also are retaining two measures that we proposed for
removal in the PCHQR Program beginning with the
FY 2021 program year, the Catheter-Associated
Urinary Tract Infection (CAUTI) Outcome Measure
and Central Line-Associated Bloodstream Infection
(CLABSI) Outcome Measure. This policy impacts
infection measurement and public reporting for PPSexempt cancer hospitals and was deferred to this rule
from the CY 2019 IPPS/LTCH PPS final rule
published in August 2018.

150
* * *
3. Summary of the Major Provisions
* * *
• Application of 340B Drug Payment Policy to
Nonexcepted
Off-Campus
Provider-Based
Departments of a Hospital: For CY 2019, as we
proposed, we are paying the average sales price (ASP)
minus 22.5 percent under the PFS for separately
payable
340B-acquired
drugs
furnished
by
nonexcepted, off-campus provider-based departments
(PBDs) of a hospital. This is consistent with the
payment methodology adopted in CY 2018 for 340Bacquired drugs furnished in hospital departments paid
under the OPPS.
• Payment Policy for Biosimilar Biological
Products without Pass-Through Status That Are
Acquired under the 340B Program: For CY 2019, we
are making payment for nonpass-through biosimilars
acquired under the 340B program at ASP minus 22.5
percent of the biosimilar’s own ASP rather than ASP
minus 22.5 percent of the reference product’s ASP.
•
Payment
of
Drugs,
Biologicals,
and
Radiopharmaceuticals If Average Sales Price (ASP)
Data Are Not Available: For CY 2019, we are making
payment for separately payable drugs and biologicals
that do not have pass-through payment status and are
not acquired under the 340B Program at wholesale
acquisition cost (WAC)+3 percent instead of WAC+6
percent if ASP data are not available. If WAC data are
not available for a drug or biological product, we are
continuing our policy to pay for separately payable
drugs and biologicals at 95 percent of the average
wholesale price (AWP). Drugs and biologicals that are
acquired under the 340B Program will continue to be

151
paid at ASP minus 22.5 percent, WAC minus 22.5
percent, or 69.46 percent of AWP, as applicable.
* * *
B. Legislative and Regulatory Authority for the
Hospital OPPS
When Title XVIII of the Social Security Act was
enacted, Medicare payment for hospital outpatient
services was based on hospital-specific costs. In an
effort to ensure that Medicare and its beneficiaries pay
appropriately for services and to encourage more
efficient delivery of care, the Congress mandated
replacement of the reasonable cost-based payment
methodology with a prospective payment system
(PPS). The Balanced Budget Act of 1997 (BBA) (Pub.
L. 105–33) added section 1833(t) to the Act,
authorizing implementation of a PPS for hospital
outpatient services. The OPPS was first implemented
for services furnished on or after August 1, 2000.
Implementing regulations for the OPPS are located at
42 CFR parts 410 and 419.
The Medicare, Medicaid, and SCHIP Balanced
Budget Refinement Act of 1999 (BBRA) (Pub. L. 106–
113) made major changes in the hospital OPPS. The
following Acts made additional changes to the OPPS:
the Medicare, Medicaid, and SCHIP Benefits
Improvement and Protection Act of 2000 (BIPA) (Pub.
L. 106–554); the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003 (MMA)
(Pub. L. 108–173); the Deficit Reduction Act of 2005
(DRA) (Pub. L. 109–171), enacted on February 8, 2006;
the Medicare Improvements and Extension Act under
Division B of Title I of the Tax Relief and Health Care
Act of 2006 (MIEA–TRHCA) (Pub. L. 109–432),
enacted on December 20, 2006; the Medicare,
Medicaid, and SCHIP Extension Act of 2007 (MMSEA)

152
(Pub. L. 110–173), enacted on December 29, 2007; the
Medicare Improvements for Patients and Providers
Act of 2008 (MIPPA) (Pub. L. 110–275), enacted on
July 15, 2008; the Patient Protection and Affordable
Care Act (Pub. L. 111–148), enacted on March 23,
2010, as amended by the Health Care and Education
Reconciliation Act of 2010 (Pub. L. 111–152), enacted
on March 30, 2010 (these two public laws are
collectively known as the Affordable Care Act); the
Medicare and Medicaid Extenders Act of 2010
(MMEA, Pub. L. 111–309); the Temporary Payroll Tax
Cut Continuation Act of 2011 (TPTCCA, Pub. L. 112–
78), enacted on December 23, 2011; the Middle Class
Tax Relief and Job Creation Act of 2012 (MCTRJCA,
Pub. L. 112–96), enacted on February 22, 2012; the
American Taxpayer Relief Act of 2012 (Pub. L. 112–
240), enacted January 2, 2013; the Pathway for SGR
Reform Act of 2013 (Pub. L. 113–67) enacted on
December 26, 2013; the Protecting Access to Medicare
Act of 2014 (PAMA, Pub. L. 113–93), enacted on March
27, 2014; the Medicare Access and CHIP
Reauthorization Act (MACRA) of 2015 (Pub. L. 114–
10), enacted April 16, 2015; the Bipartisan Budget Act
of 2015 (Pub. L. 114–74), enacted November 2, 2015;
the Consolidated Appropriations Act, 2016 (Pub. L.
114–113), enacted on December 18, 2015, the 21st
Century Cures Act (Pub. L. 114–255), enacted on
December 13, 2016, the Consolidated Appropriations
Act, 2018 (Pub. L. 115–141), enacted on March 23,
2018, and the Substance Use-Disorder Prevention
that Promotes Opioid Recovery and Treatment for
Patients and Communities Act (Pub. L. 115–271),
enacted on October 24, 2018.
Under the OPPS, we generally pay for hospital
Part B services on a rate-per-service basis that varies
according to the APC group to which the service is

153
assigned. We use the Healthcare Common Procedure
Coding System (HCPCS) (which includes certain
Current Procedural Terminology (CPT) codes) to
identify and group the services within each APC. The
OPPS includes payment for most hospital outpatient
services, except those identified in section I.C. of this
final rule with comment period. Section 1833(t)(1)(B)
of the Act provides for payment under the OPPS for
hospital outpatient services designated by the
Secretary (which includes partial hospitalization
services furnished by CMHCs), and certain inpatient
hospital services that are paid under Medicare Part B.
The OPPS rate is an unadjusted national payment
amount that includes the Medicare payment and the
beneficiary copayment. This rate is divided into a
labor-related amount and a nonlabor-related amount.
The labor-related amount is adjusted for area wage
differences using the hospital inpatient wage index
value for the locality in which the hospital or CMHC
is located.
All services and items within an APC group are
comparable clinically and with respect to resource use
(section 1833(t)(2)(B) of the Act). In accordance with
section 1833(t)(2)(B) of the Act, subject to certain
exceptions, items and services within an APC group
cannot be considered comparable with respect to the
use of resources if the highest median cost (or mean
cost, if elected by the Secretary) for an item or service
in the APC group is more than 2 times greater than
the lowest median cost (or mean cost, if elected by the
Secretary) for an item or service within the same APC
group (referred to as the ‘‘2 times rule’’). In
implementing this provision, we generally use the cost
of the item or service assigned to an APC group.

154
For new technology items and services, special
payments under the OPPS may be made in one of two
ways. Section 1833(t)(6) of the Act provides for
temporary additional payments, which we refer to as
‘‘transitional pass-through payments,’’ for at least 2
but not more than 3 years for certain drugs, biological
agents, brachytherapy devices used for the treatment
of cancer, and categories of other medical devices. For
new technology services that are not eligible for
transitional pass-through payments, and for which we
lack sufficient clinical information and cost data to
appropriately assign them to a clinical APC group, we
have established special APC groups based on costs,
which we refer to as New Technology APCs. These
New Technology APCs are designated by cost bands
which allow us to provide appropriate and consistent
payment for designated new procedures that are not
yet reflected in our claims data. Similar to passthrough payments, an assignment to a New
Technology APC is temporary; that is, we retain a
service within a New Technology APC until we acquire
sufficient data to assign it to a clinically appropriate
APC group.
* * *
2. Payment for Drugs and Biologicals Without PassThrough Status That Are Not Packaged
a. Payment for Specified Covered Outpatient Drugs
(SCODs) and Other Separately Payable and Packaged
Drugs and Biologicals
Section 1833(t)(14) of the Act defines certain
separately payable radiopharmaceuticals, drugs, and
biologicals and mandates specific payments for these
items. Under section 1833(t)(14)(B)(i) of the Act, a
‘‘specified covered outpatient drug’’ (known as a
SCOD) is defined as a covered outpatient drug, as

155
defined in section 1927(k)(2) of the Act, for which a
separate APC has been established and that either is
a radiopharmaceutical agent or is a drug or biological
for which payment was made on a pass-through basis
on or before December 31, 2002.
Under section 1833(t)(14)(B)(ii) of the Act, certain
drugs and biologicals are designated as exceptions and
are not included in the definition of SCODs. These
exceptions are—
• A drug or biological for which payment is first
made on or after January 1, 2003, under the
transitional pass-through payment provision in
section 1833(t)(6) of the Act.
• A drug or biological for which a temporary
HCPCS code has not been assigned.
• During CYs 2004 and 2005, an orphan drug (as
designated by the Secretary).
Section 1833(t)(14)(A)(iii) of the Act requires that
payment for SCODs in CY 2006 and subsequent years
be equal to the average acquisition cost for the drug
for that year as determined by the Secretary, subject
to any adjustment for overhead costs and taking into
account the hospital acquisition cost survey data
collected by the Government Accountability Office
(GAO) in CYs 2004 and 2005, and later periodic
surveys conducted by the Secretary as set forth in the
statute. If hospital acquisition cost data are not
available, the law requires that payment be equal to
payment rates established under the methodology
described in section 1842(o), section 1847A, or section
1847B of the Act, as calculated and adjusted by the
Secretary as necessary for purposes of paragraph (14).
We refer to this alternative methodology as the
‘‘statutory default.’’ Most physician Part B drugs are

156
paid at ASP+6 percent in accordance with section
1842(o) and section 1847A of the Act.
Section 1833(t)(14)(E)(ii) of the Act provides for an
adjustment in OPPS payment rates for SCODs to take
into account overhead and related expenses, such as
pharmacy services and handling costs. Section
1833(t)(14)(E)(i) of the Act required MedPAC to study
pharmacy overhead and related expenses and to make
recommendations to the Secretary regarding whether,
and if so how, a payment adjustment should be made
to compensate hospitals for overhead and related
expenses. Section 1833(t)(14)(E)(ii) of the Act
authorizes the Secretary to adjust the weights for
ambulatory procedure classifications for SCODs to
take into account the findings of the MedPAC study. 57
It has been our policy since CY 2006 to apply the
same treatment to all separately payable drugs and
biologicals, which include SCODs, and drugs and
biologicals that are not SCODs. Therefore, we apply
the payment methodology in section 1833(t)(14)(A)(iii)
of the Act to SCODs, as required by statute, but we
also apply it to separately payable drugs and
biologicals that are not SCODs, which is a policy
determination rather than a statutory requirement. In
the CY 2019 OPPS/ASC proposed rule (83 FR 37122),
we proposed to apply section 1833(t)(14)(A)(iii)(II) of
the Act to all separately payable drugs and biologicals,
including SCODs. Although we do not distinguish
SCODs in this discussion, we note that we are
required to apply section 1833(t)(14)(A)(iii)(II) of the
Medicare Payment Advisory Committee. June 2005 Report to
the Congress. Chapter 6: Payment for pharmacy handling costs
in hospital outpatient departments. Available at: http://
www.medpac.gov/docs/default-source/reports/June05_ch6.pdf?
sfvrsn=0.
57

157
Act to SCODs, but we also are applying this provision
to other separately payable drugs and biologicals,
consistent with our history of using the same payment
methodology for all separately payable drugs and
biologicals.
For a detailed discussion of our OPPS drug
payment policies from CY 2006 to CY 2012, we refer
readers to the CY 2013 OPPS/ASC final rule with
comment period (77 FR 68383 through 68385). In the
CY 2013 OPPS/ASC final rule with comment period
(77 FR 68386 through 68389), we first adopted the
statutory default policy to pay for separately payable
drugs and biologicals at ASP+6 percent based on
section 1833(t)(14)(A)(iii)(II) of the Act. We continued
this policy of paying for separately payable drugs and
biologicals at the statutory default for CYs 2014
through 2018.
* * *
b. CY 2019 Payment Policy
In the CY 2019 OPPS/ASC proposed rule (83 FR
37122), for CY 2019, we proposed to continue our
payment policy that has been in effect since CY 2013
to pay for separately payable drugs and biologicals at
ASP+6 percent in accordance with section
1833(t)(14)(A)(iii)(II) of the Act (the statutory default).
We proposed to continue to pay for separately payable
nonpass-through drugs acquired with a 340B discount
at a rate of ASP minus 22.5 percent. We refer readers
to section V.A.7. of the proposed rule and this final rule
with comment period for more information about how
the payment rate for drugs acquired with a 340B
discount was established.
In the case of a drug or biological during an initial
sales period in which data on the prices for sales for

158
the drug or biological are not sufficiently available
from the manufacturer, section 1847A(c)(4) of the Act
permits the Secretary to make payments that are
based on WAC. Under section 1833(t)(14)(A)(iii)(II),
the amount of payment for a separately payable drug
equals the average price for the drug for the year
established under, among other authorities, section
1847A of the Act. As explained in greater detail in the
CY 2019 PFS proposed rule, under section 1847A(c)(4),
although payments may be based on WAC, unlike
section 1847A(b) of the Act (which specifies that
certain payments must be made with a 6 percent addon), section 1847A(c)(4) of the Act does not require that
a particular add-on amount be applied to partial
quarter WAC-based pricing. Consistent with section
1847A(c)(4) of the Act, in the CY 2019 PFS proposed
rule, we proposed that, effective January 1, 2019,
WAC-based payments for Part B drugs made under
section 1847A(c)(4) of the Act would utilize a 3 percent
add-on in place of the 6 percent add-on that is
currently being used per our policy in effect as of CY
2018. For the OPPS, in the CY 2019 OPPS/ASC
proposed rule (83 FR 37122), we also proposed to
utilize a 3 percent add-on instead of a 6 percent addon for WAC-based drugs pursuant to our authority
under section 1833(t)(14)(A)(iii)(II) of the Act, which
provides, in part, that the amount of payment for a
SCOD is the average price of the drug in the year
established under section 1847A of the Act. We also
apply this provision to non-SCOD separately payable
drugs. Because we proposed to establish the average
price for a WAC-based drug under section 1847A of the
Act as WAC+3 percent instead of WAC+6 percent, we
believe it is appropriate to price separately payable
WAC-based drugs at the same amount under the
OPPS. We proposed that, if finalized, our proposal to

159
pay for drugs or biologicals at WAC+3 percent, rather
than WAC+6 percent, would apply whenever WACbased pricing is used for a drug or biological. We stated
in the proposed rule that for drugs and biologicals that
would otherwise be subject to a payment reduction
because they were acquired under the 340B Program,
the 340B Program rate (in this case, WAC minus 22.5
percent) would continue to apply. We referred readers
to the CY 2019 PFS proposed rule for additional
background on this anticipated proposal.
In the CY 2019 OPPS/ASC proposed rule (83 FR
37123), we proposed that payments for separately
payable drugs and biologicals are included in the
budget
neutrality
adjustments,
under
the
requirements in section 1833(t)(9)(B) of the Act. We
also proposed that the budget neutral weight scalar
not be applied in determining payments for these
separately paid drugs and biologicals.
We note that separately payable drug and
biological payment rates listed in Addenda A and B to
this final rule with comment period (available via the
internet on the CMS website), which illustrate the
final CY 2019 payment of ASP+6 percent for
separately payable nonpass-through drugs and
biologicals and ASP+6 percent for pass-through drugs
and biologicals, reflect either ASP information that is
the basis for calculating payment rates for drugs and
biologicals in the physician’s office setting effective
October 1, 2018, or WAC, AWP, or mean unit cost from
CY 2017 claims data and updated cost report
information available for this final rule with comment
period. In general, these published payment rates are
not the same as the actual January 2019 payment
rates. This is because payment rates for drugs and
biologicals with ASP information for January 2019

160
will be determined through the standard quarterly
process where ASP data submitted by manufacturers
for the third quarter of CY 2018 (July 1, 2018 through
September 30, 2018) will be used to set the payment
rates that are released for the quarter beginning in
January 2019 near the end of December 2018. In
addition, payment rates for drugs and biologicals in
Addenda A and B to this final rule with comment
period for which there was no ASP information
available for October 2018 are based on mean unit cost
in the available CY 2017 claims data. If ASP
information becomes available for payment for the
quarter beginning in January 2019, we will price
payment for these drugs and biologicals based on their
newly available ASP information. Finally, there may
be drugs and biologicals that have ASP information
available for this final rule with comment period
(reflecting October 2018 ASP data) that do not have
ASP information available for the quarter beginning
in January 2019. As stated in the CY 2019 OPPS/ASC
proposed rule (83 FR 37123), these drugs and
biologicals will then be paid based on mean unit cost
data derived from CY 2017 hospital claims. Therefore,
the payment rates listed in Addenda A and B to this
final rule with comment period are not for January
2019 payment purposes and are only illustrative of the
CY 2019 OPPS payment methodology using the most
recently available information at the time of issuance
of this final rule with comment period.
Comment: A number of commenters supported
CMS’ proposal to continue to pay for separately
payable drugs and biologicals based on the statutory
default rate of ASP+6 percent.
Response: We appreciate the commenters’ support.

161
Comment: Several commenters supported the
proposal to utilize a 3 percent add-on instead of a 6
percent add-on for drugs that are paid based on WAC
under section 1847A(c)(4) of the Act, pursuant to CMS’
authority under section 1833(t)(14)(A)(iii)(II) of the
Act. These commenters recommended this as a first
step to lowering drug costs for beneficiaries and the
Medicare Program as well as removing the financial
incentive associated with a specific prescribing choice.
The commenters suggested modifying the add-on to be
a flat fee.
Response: We appreciate the commenters’ support.
We proposed a fixed percentage, instead of a flat fee,
in order to be consistent with other provisions in
section 1847A of the Act that specify fixed add-on
percentages of 6 percent (section 1847A(b) of the Act)
or 3 percent (section 1847A(d)(3)(C) of the Act). A fixed
percentage is also administratively simple to
implement and administer, is predictable, and is easy
for manufacturers, providers and the public to
understand.
Comment: Many commenters opposed the proposal
to utilize a 3 percent add-on instead of a 6 percent addon for drugs that are paid based on WAC under section
1847A(c)(4) of the Act. Several commenters were
concerned that paying less for new drugs may
discourage the use of innovative drugs due to concerns
about decreased payment, especially with the
sequestration cuts decreasing the payment further.
The commenters also were concerned that the
proposal would only affect payment to the provider,
and would not address pricing on the pharmaceutical
manufacturer side. The commenters requested
additional studies to analyze the appropriateness and
accuracy of the 3 percent reduction, and encouraged

162
additional modifications to ASP reporting, such as
requiring all Part B drug manufacturers to report
pricing information and for all Part B drugs to be
included in the ASP quarterly update file.
Response: We appreciate these comments. The
implementation of these proposals will improve
Medicare payment rates by better aligning payments
with drug acquisition costs, which is of great
importance to CMS because spending on Part B drugs
has grown significantly. A WAC+3 percent add-on is
more comparable to an ASP+6 percent add-on, as the
WAC pricing does not reflect many of the discounts
associated with ASP, such as rebates. The utilization
of a 3 percent add-on instead of a 6 percent add-on for
drugs that are paid based on WAC under section
1847A(c)(4) of the Act is consistent with MedPAC’s
analysis and recommendations cited in its June 2017
Report to the Congress, and as discussed in the CY
2019 PFS proposed rule (83 FR 35854 through 35855).
Overall, this policy still represents a net payment
greater than the WAC. In addition, this policy
decreases beneficiary cost-sharing for these drugs,
which would help Medicare beneficiaries afford to pay
for new drugs by reducing out-of-pocket expenses.
* * *
c. Biosimilar Biological Products
For CY 2016 and CY 2017, we finalized a policy to
pay for biosimilar biological products based on the
payment allowance of the product as determined
under section 1847A of the Act and to subject nonpassthrough biosimilar biological products to our annual
threshold-packaged policy (for CY 2016, 80 FR 70445
through 70446; and for CY 2017, 81 FR 79674). In the
CY 2018 OPPS/ASC proposed rule (82 FR 33630), for

163
CY 2018, we proposed to continue this same payment
policy for biosimilar biological products.
In the CY 2018 OPPS/ASC final rule with comment
period (82 FR 59351), we noted that, with respect to
comments we received regarding OPPS payment for
biosimilar biological products, in the CY 2018 PFS
final rule, CMS finalized a policy to implement
separate HCPCS codes for biosimilar biological
products. Therefore, consistent with our established
OPPS drug, biological, and radiopharmaceutical
payment policy, HCPCS coding for biosimilar
biological products will be based on policy established
under the CY 2018 PFS final rule.
In the CY 2018 OPPS/ASC final rule with comment
period (82 FR 59351), after consideration of the public
comments we received, we finalized our proposed
payment policy for biosimilar biological products, with
the following technical correction: All biosimilar
biological products will be eligible for pass-through
payment and not just the first biosimilar biological
product for a reference product. In the CY 2019
OPPS/ASC proposed rule (83 FR 37123), for CY 2019,
we proposed to continue the policy in place from CY
2018 to make all biosimilar biological products eligible
for pass-through payment and not just the first
biosimilar biological product for a reference product.
In addition, in CY 2018, we adopted a policy that
biosimilars without pass-through payment status that
were acquired under the 340B Program would be paid
the ASP of the biosimilar minus 22.5 percent of the
reference product (82 FR 59367). We adopted this
policy in the CY 2018 OPPS/ASC final rule with
comment period because we believe that biosimilars
without pass-through payment status acquired under
the 340B Program should be treated in the same

164
manner as other drugs and biologicals acquired
through the 340B Program. As noted earlier,
biosimilars with pass-through payment status are
paid their own ASP+6 percent of the reference
product’s ASP. Separately payable biosimilars that do
not have pass-through payment status and are not
acquired under the 340B Program are also paid their
own ASP+6 percent of the reference product’s ASP.
As noted in the CY 2019 OPPS/ASC proposed rule
(83 FR 37123), several stakeholders raised concerns to
us that the current payment policy for biosimilars
acquired under the 340B Program could unfairly lower
the OPPS payment for biosimilars not on pass-through
payment status because the payment reduction would
be based on the reference product’s ASP, which would
generally be expected to be priced higher than the
biosimilar, thus resulting in a more significant
reduction in payment than if the 22.5 percent was
calculated based on the biosimilar’s ASP. We agreed
with stakeholders that the current payment policy
could unfairly lower the price of biosimilars without
pass-through payment status that are acquired under
the 340B Program. In addition, we believed that these
changes would better reflect the resources and
production costs that biosimilar manufacturers incur.
We also believed this approach is more consistent with
the payment methodology for 340B-acquired drugs
and biologicals, for which the 22.5 percent reduction is
calculated based on the drug or biological’s ASP,
rather than the ASP of another product. In addition,
we believed that paying for biosimilars acquired under
the 340B Program at ASP minus 22.5 percent of the
biosimilar’s ASP, rather than 22.5 percent of the
reference product’s ASP, will more closely
approximate hospitals’ acquisition costs for these
products.

165
Accordingly, in the CY 2019 OPPS/ASC proposed
rule (83 FR 37123), for CY 2019, we proposed changes
to our Medicare Part B drug payment methodology for
biosimilars acquired under the 340B Program.
Specifically, for CY 2019 and subsequent years, in
accordance with section 1833(t)(14)(A)(iii)(II) of the
Act, we proposed to pay nonpass-through biosimilars
acquired under the 340B Program at ASP minus 22.5
percent of the biosimilar’s ASP instead of the
biosimilar’s ASP minus 22.5 percent of the reference
product’s ASP.
Comment: Many commenters supported CMS’
proposal to pay nonpass-through biosimilars acquired
under the 340B Program at ASP minus 22.5 percent of
the biosimilar’s ASP, in accordance with section
1833(t)(14)(A)(iii)(II) of the Act. The commenters
stated that this proposal would ensure fair access to
biosimilar treatments.
Response: We appreciate the commenters’ support.
We believe this proposal appropriately reflects the
resources and production costs that manufacturers
incur, as well as more closely aligns with the hospitals’
acquisition costs for these products.
Comment: Several commenters supported CMS’
proposal to continue the policy in place from CY 2018
to make all biosimilar biological products eligible for
pass-through payment and not just the first biosimilar
biological product for a reference product. The
commenters stated that this proposal would continue
to lower costs and improve access to treatments.
Response: We appreciate the commenters’ support.
Comment: Some commenters recommended
eliminating the proposal to continue the policy in place
from CY 2018 to make all biosimilar biological

166
products eligible for pass-through payment and not
just the first biosimilar biological product for a
reference product. The commenters believed this
policy could potentially encourage inappropriate
treatment changes from a reference product without
pass-through payment to a biosimilar product with
pass-through payment.
Response: We are not convinced that making all
biosimilar biological products eligible for pass-through
payment will lead to inappropriate treatment changes
from a reference product without pass-through
payment to a biosimilar product with pass-through
payment. Eligibility for pass-through payment status
reflects the unique, complex nature of biosimilars and
is important as biosimilars become established in the
market, just as it is for all other new drugs and
biologicals.
After consideration of the public comments we
received, we are finalizing our proposed payment
policy for biosimilar products, without modification, to
continue the policy in place from CY 2018 to make all
biosimilar biological products eligible for pass-through
payment and not just the first biosimilar biological
product for a reference product. We also are finalizing
our proposal to pay nonpass-through biosimilars
acquired under the 340B Program at the biosimilar’s
ASP minus 22.5 percent of the biosimilar’s ASP
instead of the biosimilar’s ASP minus 22.5 percent of
the reference product’s ASP, in accordance with
section 1833(t)(14)(A)(iii)(II) of the Act.
3.
Payment
Policy
Radiopharmaceuticals

for

Therapeutic

In the CY 2019 OPPS/ASC proposed rule (83 FR
37123), for CY 2019, we proposed to continue the
payment policy for therapeutic radiopharmaceuticals

167
that began in CY 2010. We pay for separately payable
therapeutic radiopharmaceuticals under the ASP
methodology adopted for separately payable drugs and
biologicals. If ASP information is unavailable for a
therapeutic radiopharmaceutical, we base therapeutic
radiopharmaceutical payment on mean unit cost data
derived from hospital claims. We believe that the
rationale outlined in the CY 2010 OPPS/ASC final rule
with comment period (74 FR 60524 through 60525) for
applying the principles of separately payable drug
pricing to therapeutic radiopharmaceuticals continues
to be appropriate for nonpass-through, separately
payable therapeutic radiopharmaceuticals in CY 2019.
Therefore, we proposed for CY 2019 to pay all nonpassthrough,
separately
payable
therapeutic
radiopharmaceuticals at ASP+6 percent, based on the
statutory
default
described
in
section
1833(t)(14)(A)(iii)(II) of the Act. For a full discussion of
ASP-based
payment
for
therapeutic
radiopharmaceuticals, we refer readers to the CY 2010
OPPS/ASC final rule with comment period (74 FR
60520 through 60521). We also proposed to rely on CY
2017 mean unit cost data derived from hospital claims
data
for
payment
rates
for
therapeutic
radiopharmaceuticals for which ASP data are
unavailable and to update the payment rates for
separately payable therapeutic radiopharmaceuticals
according to our usual process for updating the
payment rates for separately payable drugs and
biologicals on a quarterly basis if updated ASP
information is unavailable. For a complete history of
the OPPS payment policy for therapeutic
radiopharmaceuticals, we refer readers to the CY 2005
OPPS final rule with comment period (69 FR 65811),
the CY 2006 OPPS final rule with comment period (70
FR 68655), and the CY 2010 OPPS/ASC final rule with

168
comment period (74 FR 60524). The proposed CY 2019
payment rates for nonpass-through, separately
payable therapeutic radiopharmaceuticals were
included in Addenda A and B to the proposed rule
(which are available via the internet on the CMS
website).
Comment: Commenters supported continuation of
the policy to pay ASP+6 percent for therapeutic
radiopharmaceuticals, if available, and to base
payment on the mean unit cost derived from hospital
claims data when not available. The commenters also
requested that CMS examine ways to compensate
hospitals for their documented higher overhead and
handling costs associated with radiopharmaceuticals.
Response: We appreciate the commenters’ support.
However, as we stated earlier in section V.B.1.c. of this
final rule with comment period in response to a similar
request for additional radiopharmaceutical payment
and as previously stated in the CY 2018 OPPS final
rule with comment period (82 FR 59352), we continue
to believe that a single payment is appropriate for
radiopharmaceuticals with pass-through payment
status in CY 2019 and that the payment rate of ASP+6
percent is appropriate to provide payment for both the
radiopharmaceutical’s acquisition cost and any
associated
nuclear
medicine
handling
and
compounding costs incurred by the hospital pharmacy.
Payment
for
the
radiopharmaceutical
and
radiopharmaceutical processing services is made
through the single ASP-based payment. We refer
readers to the CMS guidance document available via
the internet at https://www.cms.gov/Medicare/
Medicare-Fee-for-Service-Payment/HospitalOut
patientPPS/Archives.html for details on submission of
ASP data for therapeutic radiopharmaceuticals.

169
Comment: One commenter asked CMS to clarify
the payment rate reported for APC 1675, P32 Na
phosphate (HCPCS code A9563), which is based on
geometric mean unit cost. The commenter stated that,
in the proposed rule, the payment rate for HCPCS code
A9563 was reported as $256.00, but the mean unit cost
for the radiopharmaceutical as reported in data files
accompanying the proposed rule was $519.21.
Response: We thank the commenter for bringing
this reporting error to our attention. We are providing
a corrected payment rate for APC 1675, P32 Na
phosphate (HCPCS code A9563) in Addenda A and B
of this final rule with comment period (which is
available via the internet on the CMS website).
After consideration of the public comments we
received, we are finalizing our proposal, without
modification, to continue to pay all nonpass-through,
separately payable therapeutic radiopharmaceuticals
at ASP+6 percent. We also are finalizing our proposal
to continue to rely on CY 2017 mean unit cost data
derived from hospital claims data for payment rates
for therapeutic radiopharmaceuticals for which ASP
data are unavailable. The CY 2019 final payment
rates for nonpass-through separately payable
therapeutic radiopharmaceuticals are included in
Addenda A and B to this final rule with comment
period (which are available via the internet on the
CMS website).
* * *
7. CY 2019 OPPS Payment Methodology for 340B
Purchased Drugs
In the CY 2018 OPPS/ASC proposed rule (82 FR
33558 through 33724), we proposed changes to the
Medicare Part B drug payment methodology for 340B

170
hospitals. We proposed these changes to better, and
more accurately, reflect the resources and acquisition
costs that these hospitals incur. We believed that such
changes would allow Medicare beneficiaries (and the
Medicare program) to pay a more appropriate amount
when hospitals participating in the 340B Program
furnish drugs to Medicare beneficiaries that are
purchased under the 340B Program. Subsequently, in
the CY 2018 OPPS/ASC final rule with comment
period (82 FR 59369 through 59370), we finalized our
proposal and adjusted the payment rate for separately
payable drugs and biologicals (other than drugs on
pass-through payment status and vaccines) acquired
under the 340B Program from average sales price
(ASP)+6 percent to ASP minus 22.5 percent. Our goal
is to make Medicare payment for separately payable
drugs more aligned with the resources expended by
hospitals to acquire such drugs, while recognizing the
intent of the 340B Program to allow covered entities,
including eligible hospitals, to stretch scarce resources
in ways that enable hospitals to continue providing
access to care for Medicare beneficiaries and other
patients. Critical access hospitals are not included in
this 340B policy change because they are paid under
section 1834(g) of the Act. We also excepted rural sole
community hospitals, children’s hospitals, and PPSexempt cancer hospitals from the 340B payment
adjustment in CY 2018. In addition, as stated in the
CY 2018 OPPS/ASC final rule with comment period,
this policy change does not apply to drugs on passthrough payment status, which are required to be paid
based on the ASP methodology, or vaccines, which are
excluded from the 340B Program.
As discussed in the CY 2019 OPPS/ASC proposed
rule (83 FR 37125), another topic that has been
brought to our attention since we finalized the

171
payment adjustment for 340B-acquired drugs in the
CY 2018 OPPS/ASC final rule with comment period is
whether drugs that do not have ASP pricing but
instead receive WAC or AWP pricing are subject to the
340B payment adjustment. We did not receive public
comments on this topic in response to the CY 2018
OPPS/ASC proposed rule. However, we have since
heard from stakeholders that there has been some
confusion about this issue. We clarified in the CY 2019
proposed rule that the 340B payment adjustment
applies to drugs that are priced using either WAC or
AWP, and it has been our policy to subject 340Bacquired drugs that use these pricing methodologies to
the 340B payment adjustment since the policy was
first adopted. The 340B payment adjustment for WACpriced drugs is WAC minus 22.5 percent and AWPpriced drugs have a payment rate of 69.46 percent of
AWP when the 340B payment adjustment is applied.
The 69.46 percent of AWP is calculated by first
reducing the original 95 percent of AWP price by 6
percent to generate a value that is similar to ASP or
WAC with no percentage markup. Then we apply the
22.5 percent reduction to ASP/WAC-similar AWP
value to obtain the 69.46 percent of AWP, which is
similar to either ASP minus 22.5 percent or WAC
minus 22.5 percent. The number of separately payable
drugs receiving WAC or AWP pricing that are affected
by the 340B payment adjustment is small—consisting
of less than 10 percent of all separately payable
Medicare Part B drugs in April 2018.
Furthermore, data limitations previously inhibited
our ability to identify which drugs were acquired
under the 340B Program in the Medicare OPPS claims
data. This lack of information within the claims data
has limited researchers’ and our ability to precisely
analyze differences in acquisition cost of 340B and

172
non-340B acquired drugs with Medicare claims data.
Accordingly, in the CY 2018 OPPS/ASC proposed rule
(82 FR 33633), we stated our intent to establish a
modifier, to be effective January 1, 2018, for hospitals
to report with separately payable drugs that were not
acquired under the 340B Program. Because a
significant portion of hospitals paid under the OPPS
participate in the 340B Program, we stated our belief
that it is appropriate to presume that a separately
payable drug reported on an OPPS claim was
purchased under the 340B Program, unless the
hospital identifies that the drug was not purchased
under the 340B Program. We stated in the CY 2018
proposed rule that we intended to provide further
details about this modifier in the CY 2018 OPPS/ASC
final rule with comment period and/or through
subregulatory guidance, including guidance related to
billing for dually eligible beneficiaries (that is,
beneficiaries covered under Medicare and Medicaid)
for whom covered entities do not receive a discount
under the 340B Program. As discussed in the CY 2018
OPPS/ASC final rule with comment period (82 FR
59369 through 59370), to effectuate the payment
adjustment
for
340B-acquired
drugs,
CMS
implemented modifier ‘‘JG’’, effective January 1, 2018.
Hospitals paid under the OPPS, other than a type of
hospital excluded from the OPPS (such as critical
access hospitals or those hospitals paid under the
Maryland waiver), or excepted from the 340B drug
payment policy for CY 2018, are required to report
modifier ‘‘JG’’ on the same claim line as the drug
HCPCS code to identify a 340B-acquired drug. For CY
2018, rural sole community hospitals, children’s
hospitals and PPS-exempt cancer hospitals are
excepted from the 340B payment adjustment. These
hospitals are required to report informational modifier

173
‘‘TB’’ for 340B-acquired drugs, and continue to be paid
ASP+6 percent.
We refer readers to the CY 2018 OPPS/ASC final
rule with comment period (82 FR 59353 through
59370) for a full discussion and rationale for the CY
2018 policies and use of modifier ‘‘JG’’.
In the CY 2019 OPPS/ASC proposed rule (83 FR
37125), for CY 2019, we proposed to continue the 340B
Program policies that were implemented in CY 2018
with the exception of the way we calculate payment for
340B-acquired biosimilars (that is, we proposed to pay
for nonpass-through 340B-acquired biosimilars at
ASP minus 22.5 percent of the biosimilar’s ASP, rather
than of the reference product’s ASP). More
information on our revised policy for the payment of
biosimilars acquired through the 340B Program is
available in section V.B.2.c. of this final rule. We
proposed,
in
accordance
with
section
1833(t)(14)(A)(iii)(II) of the Act, to pay for separately
payable Medicare Part B drugs (assigned status
indicator ‘‘K’’), other than vaccines and drugs on passthrough payment status, that meet the definition of
‘‘covered outpatient drug’’ as defined in section 1927(k)
of the Act, that are acquired through the 340B
Program at ASP minus 22.5 percent was purchased
under the 340B Program, unless the hospital
identifies that the drug was not purchased under the
340B Program. We stated in the CY 2018 proposed
rule that we intended to provide further details about
this modifier in the CY 2018 OPPS/ASC final rule with
comment period and/or through subregulatory
guidance, including guidance related to billing for
dually eligible beneficiaries (that is, beneficiaries
covered under Medicare and Medicaid) for whom
covered entities do not receive a discount under the

174
340B Program. As discussed in the CY 2018
OPPS/ASC final rule with comment period (82 FR
59369 through 59370), to effectuate the payment
adjustment
for
340B-acquired
drugs,
CMS
implemented modifier ‘‘JG’’, effective January 1, 2018.
Hospitals paid under the OPPS, other than a type of
hospital excluded from the OPPS (such as critical
access hospitals or those hospitals paid under the
Maryland waiver), or excepted from the 340B drug
payment policy for CY 2018, are required to report
modifier ‘‘JG’’ on the same claim line as the drug
HCPCS code to identify a 340B-acquired drug. For CY
2018, rural sole community hospitals, children’s
hospitals and PPS-exempt cancer hospitals are
excepted from the 340B payment adjustment. These
hospitals are required to report informational modifier
‘‘TB’’ for 340B-acquired drugs, and continue to be paid
ASP+6 percent. We refer readers to the CY 2018
OPPS/ASC final rule with comment period (82 FR
59353 through 59370) for a full discussion and
rationale for the CY 2018 policies and use of modifier
‘‘JG’’. In the CY 2019 OPPS/ASC proposed rule (83 FR
37125), for CY 2019, we proposed to continue the 340B
Program policies that were implemented in CY 2018
with the exception of the way we calculate payment for
340B-acquired biosimilars (that is, we proposed to pay
for nonpass-through 340B-acquired biosimilars at
ASP minus 22.5 percent of the biosimilar’s ASP, rather
than of the reference product’s ASP). More
information on our revised policy for the payment of
biosimilars acquired through the 340B Program is
available in section V.B.2.c. of this final rule. We
proposed,
in
accordance
with
section
1833(t)(14)(A)(iii)(II) of the Act, to pay for separately
payable Medicare Part B drugs (assigned status
indicator ‘‘K’’), other than vaccines and drugs on pass-

175
through payment status, that meet the definition of
‘‘covered outpatient drug’’ as defined in section 1927(k)
of the Act, that are acquired through the 340B
Program at ASP minus 22.5 percent when billed by a
hospital paid under the OPPS that is not excepted
from the payment adjustment. Medicare Part B drugs
or biologicals excluded from the 340B payment
adjustment include vaccines (assigned status
indicator ‘‘L’ or ‘‘M’’) and drugs with OPPS transitional
pass-through payment status (assigned status
indicator ‘‘G’’). As discussed in section V.B.2.c. of the
proposed rule, we proposed to pay nonpass-through
biosimilars acquired under the 340B Program at the
biosimilar’s ASP minus 22.5 percent of the biosimilar’s
ASP. We also proposed that Medicare would continue
to pay for drugs or biologicals that were not purchased
with a 340B discount at ASP+6 percent.
As stated earlier, to effectuate the payment
adjustment
for
340B-acquired
drugs,
CMS
implemented modifier ‘‘JG’’, effective January 1, 2018.
For CY 2019, we proposed that hospitals paid under
the OPPS, other than a type of hospital excluded from
the OPPS, or excepted from the 340B drug payment
policy for CY 2018, continue to be required to report
modifier ‘‘JG’’ on the same claim line as the drug
HCPCS code to identify a 340B-acquired drug. We also
proposed for CY 2019 that rural sole community
hospitals, children’s hospitals, and PPS-exempt cancer
hospitals continue to be excepted from the 340B
payment adjustment. We proposed that these
hospitals be required to report informational modifier
‘‘TB’’ for 340B-acquired drugs, and continue to be paid
ASP+6 percent.
Comment: One commenter supported the proposal
to continue to pay for separately payable drugs and

176
biologicals obtained through the 340B program at ASP
minus 22.5 percent. The commenter believed the
payment rate of ASP minus 22.5 percent will help
CMS address the large amount of growth in the 340B
Program by increasing oversight and promoting the
integrity of the program.
Another commenter, MedPAC, also supported the
proposal. MedPAC believed a lower payment rate
allows beneficiaries to share in the savings from the
340B Program, better targets resources to hospitals
providing the most uncompensated care, and still
allows 340B hospitals to make a profit off the drugs
obtained through the program. MedPAC preferred
that the payment rate be ASP+6 percent minus a 10
percent discount with the savings assigned to a
Medicare-funded uncompensated care pool, but noted
that this policy requires Congressional action.
Response: We appreciate the commenters’ support.
Comment: Several commenters opposed the CY
2019 proposal to continue to pay for separately
payable drugs and biologicals obtained through the
340B Program at ASP minus 22.5 percent. Many
commenters stated that the new payment rate has
hurt hospitals financially and has hurt efforts by
hospitals to provide safety-net care to their patients.
The commenters were also concerned about the same
service costing more at non-340B hospitals than at
hospitals enrolled in the 340B Program because drugs
furnished at a non-340B hospital would be paid at
ASP+6 percent while drugs furnished at a 340B
hospital would be paid at ASP minus 22.5 percent. One
commenter whose hospital provides cancer treatment
stated the reductions in 340B payment mean the
hospital cannot provide the broader cancer care
options available at non-340B hospitals. Commenters

177
also stated that reducing payment for drugs acquired
through the 340B Program does not help reduce high
drug costs. Many commenters asserted, as they have
previously done, that CMS does not have the legal
authority to implement payment reductions for drugs
and biologicals obtained through the 340B Program.
The commenters requested that CMS end its policy of
paying for drugs obtained through the 340B program
at ASP minus 22.5 percent. Instead, the commenters
suggested that CMS go back to the payment policy
that was in place before CY 2018 where drugs acquired
through the 340B Program were paid at ASP+6
percent.
Response: The commenters stated that the
payment rate of ASP minus 22.5 percent for drugs and
biologicals has caused financial harm to hospitals and
has caused problems for hospitals to provide safety-net
care to their patients. We noted in the CY 2018 final
rule with comment period (82 FR 59358 through
59359) that the OPPS payment rate of ASP+6 percent
at that time significantly exceeded the discounts
received for covered outpatient drugs by hospitals
enrolled in the 340B Program, which can be as much
as 50 percent below ASP (or higher through the PVP).
As stated throughout that section, ASP minus 22.5
percent represents the average minimum discount
that 340B enrolled hospitals paid under the OPPS
receive.
Regarding the concerns of the commenters that
drugs and biologicals and services where drugs and
biologicals are packaged into the cost of the service
would cost more at hospitals that do not participate in
the 340B Program as compared to hospitals
participating in the 340B Program, any differential in
these costs is a feature of the 340B Program rather

178
than Medicare payment policy. In fact, one of the
objectives of our payment policy for drugs and
biologicals acquired through the 340B Program is to
lower costs for Medicare beneficiaries, and we believe
it is appropriate that hospitals participating in the
340B Program pass the cost savings they receive to
their beneficiaries.
Finally, regarding the commenters’ assertion that
CMS lacks the legal authority to continue requiring
payment reductions for drugs and biologicals obtained
through the 340B Program, we refer these
commenters to our detailed response regarding our
statutory authority to require payment reductions for
drugs and biologicals obtained through the 340B
Program in the CY 2018 OPPS/ASC final rule with
comment period (82 FR 59359 through 59364).
After consideration of the public comments we
received, we are finalizing our proposals without
modification. For CY 2019, we are continuing the 340B
Program policies that were implemented in CY 2018
with the exception of the way we are calculating
payment for 340B-acquired biosimilars, which is
discussed in section V.B.2.c. of this final rule with
comment period. We refer readers to the CY 2018 final
rule with comment period (82 FR 59369 through
59370) for more detail on the policies implemented in
CY 2018 for drugs acquired through the 340B
Program.
* * *

179
C. Application of the 340B Drug Payment Policy to
Nonexcepted Off-Campus Departments of a Hospital
1. Historical Perspective
a. Section 603 of the Bipartisan Budget Act of 2015
In the CY 2017 OPPS/ASC final rule with comment
period (81 FR 79699), we discussed implementation of
section 603 of the Bipartisan Budget Act of 2015 (Pub.
L. 114–74), enacted on November 2, 2015, which
amended section 1833(t) of the Act. Specifically, this
provision amended section 1833(t) of the Act by
amending paragraph (1)(B) and adding a new
paragraph (21). As a general matter, under sections
1833(t)(1)(B)(v) and (t)(21) of the Act, applicable items
and services furnished by certain off-campus
outpatient departments of a provider on or after
January 1, 2017 are not considered covered OPD
services as defined under section 1833(t)(1)(B) of the
Act for purposes of payment under the OPPS and are
instead paid ‘‘under the applicable payment system’’
under Medicare Part B if the requirements for such
payment are otherwise met. We indicated that, in
order to be considered part of a hospital, an off-campus
department of a hospital must meet the providerbased criteria established under 42 CFR 413.65.
Accordingly, we refer to an ‘‘off-campus outpatient
department of a provider,’’ which is the term used in
section 603 of the Bipartisan Budget Act of 2015, as an
‘‘off-campus outpatient provider-based department’’ or
an ‘‘off-campus PBD.’’ For a detailed discussion of the
legislative history and statutory authority related to
payments under section 603 of the Bipartisan Budget
Act of 2015, we refer readers to the CY 2017
OPPS/ASC final rule with comment period (81 FR
79699 through 79719) and interim final rule with
comment period (81 FR 79720 through 79729).

180
b. Applicable Payment System
As we stated in the CY 2019 OPPS/ASC proposed
rule (83 FR 37143 through 37144), to implement the
amendments made by section 603 of Public Law 114–
74, we issued an interim final rule with comment
period (81 FR 79720) which accompanied the CY 2017
OPPS/ASC final rule with comment period to establish
the Medicare PFS as the ‘‘applicable payment system’’
that applies in most cases, and we established
payment rates under the PFS for those nonexcepted
items and services furnished by nonexcepted offcampus PBDs. As we discussed in the CY 2017
OPPS/ASC interim final rule with comment period (81
FR 79718) and reiterated in the CY 2018 PFS final
rule with comment period (82 FR 53028), payment for
Medicare Part B drugs that would be separately
payable under the OPPS (assigned a status indicator
of ‘‘K’’), but are not payable under the OPPS because
they are furnished by nonexcepted off-campus PBDs,
is made in accordance with section 1847A of the Act
(generally, at a rate of ASP+6 percent), consistent with
Part B drug payment policy for items or services
furnished in the physician office (nonfacility) setting.
We did not propose or make an adjustment to payment
for 340B-acquired drugs in nonexcepted off-campus
PBDs in CY 2018, but indicated we may consider doing
so through future notice-and-comment rulemaking.
In the interim final rule with comment period that
accompanied the CY 2017 OPPS/ASC final rule with
comment period, we established payment policies
under the Medicare PFS for nonexcepted items and
services furnished by a nonexcepted off-campus PBD
on or after January 1, 2017. In accordance with
sections 1848(b) and (c) of the Act, Medicare PFS
payment is based on the relative value of the resources

181
involved in furnishing particular services (81 FR
79790). Resource-based relative values are established
for each item and service (described by a HCPCS
code(s)) based on the work (time and intensity),
practice expense (such as clinical staff, supplies and
equipment, office rent, and overhead), and malpractice
expense required to furnish the typical case of the
service. Because Medicare makes separate payment
under institutional payment systems (such as the
OPPS) for the facility costs associated with many of
the same services that are valued under the PFS, we
establish two different PFS payment rates for many of
these services—one that applies when the service is
furnished in a location where a facility bills and is paid
for the service under a Medicare payment system
other than the PFS (the facility rate), and another that
applies when the billing practitioner or supplier
furnishes and bills for the entire service (the
nonfacility rate). Consistent with the long-established
policy under the PFS to make payment to the billing
practitioner at the facility rate when Medicare makes
a corresponding payment to the facility (under the
OPPS, for instance) for the same service, physicians
and nonphysician practitioners furnishing services in
nonexcepted PBDs continue to report their services on
a professional claim form and are paid for their
services at the PFS facility rate.
Similarly, there are many (mostly diagnostic)
services paid under the PFS that have two distinct
portions of the service: A technical component (TC)
and a professional component (PC). These components
can be furnished independently in time or by different
suppliers, or they may be furnished and billed together
as a ‘‘global’’ service (82 FR 52981). Payment for these
services can also be made under a combination of
payment systems; for example, under the PFS for the

182
professional component and the OPPS for the facility
portion. For instance, for a diagnostic CT scan, the
technical component relates to the portion of the
service during which the image is captured and might
be furnished in an office or HOPD setting, and the
professional component relates to the interpretation
and report by a radiologist.
In the CY 2017 interim final rule with comment
period, we stated that we continue to believe that it is
operationally infeasible for nonexcepted off-campus
PBDs to bill directly under the PFS for the subset of
PFS services for which there is a separately valued
technical component (81 FR 79721). In addition, we
explained that we believe hospitals that furnish
nonexcepted items and services are likely to furnish a
broader range of services than other provider or
supplier types for which there is a separately valued
technical component under the PFS. We stated that
we therefore believe it is necessary to establish a new
set of payment rates under the PFS that reflect the
relative resource costs of furnishing the technical
component of a broad range of services to be paid
under the PFS that is specific to one site of service (the
off-campus PBD of a hospital) with the packaging
(bundling) rules that are significantly different from
current PFS rules (81 FR 79721).
In continuing to implement the requirements of
sections 1833(t)(1)(B) and (t)(21) of the Act, we
recognize that there is no established mechanism for
allowing hospitals to report and bill under the PFS for
the portion of resources incurred in furnishing the full
range of nonexcepted items and services. This is
because hospitals with nonexcepted off-campus PBDs
that furnish nonexcepted items and services generally
furnish a broader range of services than other provider

183
or supplier types for which there is a separately valued
technical component under the PFS. As such, we
established a new set of payment rates under the PFS
that reflected the relative resource costs of furnishing
the technical component of a broad range of services to
be paid under the PFS specific to the nonexcepted offcampus PBDs of a hospital. Specifically, we
established a PFS relativity adjuster that is applied to
the OPPS rate for the billed nonexcepted items and
services furnished in a nonexcepted off-campus PBD
in order to calculate payment rates under the PFS.
The PFS relativity adjuster reflects the estimated
overall difference between the payment that would
otherwise be made to a hospital under the OPPS for
the nonexcepted items and services furnished in
nonexcepted off-campus PBDs and the resource-based
payment under the PFS for the technical aspect of
those services with reference to the difference between
the facility and nonfacility (office) rates and policies
under the PFS. The current PFS relativity adjuster is
set at 40 percent of the amount that would have been
paid under the OPPS (82 FR 53028). These PFS rates
incorporate the same packaging rules that are unique
to the hospital outpatient setting under the OPPS,
including the packaging of drugs that are
unconditionally packaged under the OPPS. This
includes packaging certain drugs and biologicals that
would ordinarily be separately payable under the PFS
when furnished in the physician office setting.
Nonexcepted off-campus PBDs continue to bill for
nonexcepted items and services on the institutional
claim utilizing a new claim line (modifier ‘‘PN’’) to
indicate that an item or service is a nonexcepted item
or service. For a detailed discussion of the current PFS
relativity adjuster related to payments under section
603 of Public Law 114–74, we refer readers to the CY

184
2018 OPPS/ASC final rule with comment period (82
FR 52356 through 52637), the CY 2018 PFS final rule
with comment period (82 FR 53019 through 53025),
and the CY 2019 PFS proposed rule.
c. Section 340B of the Public Health Service Act
As discussed in the CY 2019 OPPS/ASC proposed
rule (83 FR 37144 through 37145), the 340B Program,
which was established by section 340B of the Public
Health Service Act by the Veterans Health Care Act of
1992, is administered by the Health Resources and
Services Administration (HRSA) within HHS. The
340B Program allows participating hospitals and
other health care providers to purchase certain
‘‘covered outpatient drugs’’ (as defined under section
1927(k) of the Act and interpreted by HRSA through
various guidance documents) at discounted prices
from drug manufacturers.
In the CY 2018 OPPS/ASC proposed rule (82 FR
33632 through 33635), we proposed changes to the
payment methodology under the OPPS for separately
payable drugs and biologicals acquired under the 340B
Program. We stated that these changes would better,
and more appropriately, reflect the resources and
acquisition costs that these hospitals incur. Such
changes would allow Medicare beneficiaries (and the
Medicare program) to pay less when hospitals
participating in the 340B Program furnish drugs that
are purchased under the 340B Program to Medicare
beneficiaries. Subsequently, in the CY 2018
OPPS/ASC final rule with comment period, we
finalized our proposal that separately payable, covered
outpatient drugs and biologicals (other than drugs on
pass-through payment status and vaccines) acquired
under the 340B Program will be paid ASP minus 22.5
percent, rather than ASP+6 percent, when billed by a

185
hospital paid under the OPPS that is not excepted
from the payment adjustment. CAHs are not subject
to this 340B policy change because they are paid under
section 1834(g) of the Act. Rural sole community
hospitals, children’s hospitals, and PPS-exempt cancer
hospitals are excepted from the alternative payment
methodology for 340B-acquired drugs and biologicals.
In addition, as stated in the CY 2018 OPPS/ASC final
rule with comment period, this policy change does not
apply to drugs with pass-through payment status,
which are required to be paid based on the ASP
methodology, or to vaccines, which are excluded from
the 340B Program.
2. Proposal and Final Policy To Pay an Adjusted
Amount for 340B-Acquired Drugs and Biologicals
Furnished in Nonexcepted Off-Campus PBDs in CY
2019 and Subsequent Years
As noted in the CY 2017 OPPS/ASC final rule with
comment period (81 FR 79716), prior to the
implementation of the payment adjustment under the
OPPS for drugs and biologicals acquired under the
340B program, separately payable drugs and
biologicals were paid the same rate at both excepted
and nonexcepted off-campus departments of a
hospital. The policy we finalized in the CY 2018
OPPS/ASC final rule with comment period, in which
we adjusted the payment rate for separately payable
drugs and biologicals (other than drugs on passthrough payment status and vaccines) acquired under
the 340B Program from ASP+6 percent to ASP minus
22.5 percent, applies to separately payable drugs and
biologicals paid under the OPPS (81 FR 59353 through
59369). Under sections 1833(t)(1)(B)(v) and (t)(21) of
the Act, however, in accordance with our policy in
effect as of CY 2018, nonexcepted items and services

186
furnished by nonexcepted off-campus PBDs are no
longer covered outpatient department services and,
therefore, are not payable under the OPPS. This
means that nonexcepted off-campus PBDs are not
subject to the payment changes finalized in the CY
2018 OPPS/ASC final rule with comment period that
apply to hospitals and PBDs paid under the OPPS.
Because the separately payable drugs and biologicals
acquired under the 340B Program and furnished in
nonexcepted off-campus PBDs are no longer covered
outpatient department services, as of CY 2018, these
drugs and biologicals are currently paid in the same
way Medicare Part B drugs are paid in the physician
office and other nonhospital settings—typically at
ASP+6 percent—regardless of whether they are
acquired under the 340B Program.
The current PFS payment policies for nonexcepted
items and services incorporate a significant number of
payment policies and adjustments made under the
OPPS (81 FR 79726; 82 FR 53024 through 53025). In
establishing these policies in prior rulemaking, we
pointed out that the adoption of these policies was
necessary in order to maintain the integrity of the PFS
relativity adjuster because it adjusts payment rates
developed under the OPPS (81 FR 79726). For
example, it is necessary to incorporate OPPS
packaging rules into the site-specific PFS rate because
the PFS relativity adjuster is applied to OPPS rates
that were developed based on those packaging rules.
In addition, many of the OPPS policies and
adjustments are replicated under the nonexcepted offcampus PBD site-specific PFS rates because they are
specifically applicable to hospitals as a setting of care.
For example, we adopted the geographic adjustments
used for hospitals instead of the adjustments
developed for the PFS localities, which reflect cost

187
differences calculated for professionals and suppliers
rather than hospitals (81 FR 79726).
We note that, ordinarily, Medicare pays for drugs
and biologicals furnished in the physician’s office
setting at ASP+6 percent. This is because section
1842(o)(1)(A) of the Act provides that if a physician’s,
supplier’s, or any other person’s bill or request for
payment for services includes a charge for a drug or
biological for which payment may be made under
Medicare Part B and the drug or biological is not paid
on a cost or prospective payment basis as otherwise
provided in this part, the amount for the drug or
biological is equal to the following: The amount
provided under section 1847, section 1847A, section
1847B, or section 1881(b)(13) of the Act, as the case
may be for the drug or biological.
Generally, in the hospital outpatient department
setting, low-cost drugs and biologicals are packaged
into the payment for other services billed under the
OPPS. Separately payable drugs (1) have passthrough payment status, (2) have a per-day cost
exceeding a threshold, or (3) are not policy-packaged
or packaged in a C–APC. As described in section V.A.1.
of the CY 2019 OPPS/ASC proposed rule, section
1847A of the Act establishes the ASP methodology,
which is used for payment for drugs and biologicals
described in section 1842(o)(1)(C) of the Act furnished
on or after January 1, 2005. The ASP methodology, as
applied under the OPPS, uses several sources of data
as a basis for payment, including the ASP, the WAC,
and the AWP (82 FR 59337). As noted in section
V.B.2.b. of the CY 2019 OPPS/ASC proposed rule,
since CY 2013, our policy has been to pay for
separately payable drugs and biologicals at ASP plus
6
percent
in
accordance
with
section

188
1833(t)(14)(A)(iii)(II) of the Act (the statutory default)
(82 FR 59350). Consequently, in the case of services
furnished in a hospital outpatient department,
Medicare pays ASP+6 percent for separately payable
Part B drugs and biologicals unless those drugs or
biologicals are acquired under the 340B Program, in
which case they are paid at ASP minus 22.5 percent.
For a detailed discussion of our current OPPS drug
payment policies, we refer readers to the CY 2018
OPPS/ASC final rule with comment period (82 FR
59343 through 59371).
As discussed in the CY 2019 OPPS/ASC proposed
rule (83 FR 37146), as a general matter, in the
nonexcepted off-campus PBD setting, we pay hospitals
under the PFS for all drugs and biologicals that are
packaged under the OPPS based on a percentage of the
OPPS payment rate, which is determined using the
PFS relativity adjuster. Because OPPS packaging
rules apply to the PFS payments to nonexcepted offcampus PBDs, the PFS payment for some nonexcepted
items and services that are packaged includes
payment for some drugs and biologicals that would be
separately payable under the PFS if a similar service
had been furnished in the office-based setting. As we
noted in the CY 2017 final rule with comment period,
in analyzing the term ‘‘applicable payment system,’’
we considered whether and how the requirements for
payment could be met under alternative payment
systems in order to pay for nonexcepted items and
services, and considered several payment systems
under which payment is made for similar items and
services (81 FR 79712). Because the PFS relativity
adjuster that is applied to calculate payment to
hospitals for nonexcepted items and services furnished
in nonexcepted off-campus PBDs is based on a
percentage (40 percent) of the amount determined

189
under the OPPS for a particular item or service, and
the OPPS is a prospective payment system, we believe
that items and services furnished by nonexcepted offcampus PBDs paid under the PFS are payable on a
prospective payment basis. Therefore, we believe we
have flexibility to pay for separately payable drugs
and biologicals furnished in nonexcepted off-campus
PBDs at an amount other than the amount dictated by
sections 1842(o)(1)(C) and 1847A of the Act.
As we discussed in the CY 2018 OPPS/ASC final
rule with comment period (82 FR 59354), several
recent studies and reports on Medicare Part B
payments for 340B-acquired drugs highlight a
difference in Medicare Part B drug spending between
340B hospitals and non-340B hospitals as well as
varying differences in the amount by which the Part B
payment exceeds the drug acquisition cost. When we
initially developed the policy for nonexcepted offcampus PBDs, most separately payable drugs and
biologicals were paid, both in the OPPS and in other
Part B settings, such as physician offices, through
similar methodologies under section 1847A/1842(o) of
the Act. For drugs and biologicals that are packaged
in the OPPS, we adopted similar packaging payment
policies for purposes of making the site-specific
payment under the PFS for nonexcepted off-campus
PBDs. Because hospitals can, in some cases, acquire
drugs and biologicals under the 340B Program for use
in nonexcepted off-campus PBDs, we believe that not
adjusting payment exclusively for these departments
would present a significant incongruity between the
payment amounts for these drugs depending upon
where (for example, excepted PBD or nonexcepted
PBD) they are furnished. This incongruity would
distort the relative accuracy of the resource-based
payment amounts under the site-specific PFS rates

190
and could result in significant perverse incentives for
hospitals to acquire drugs and biologicals under the
340B Program and avoid Medicare payment
adjustments that account for the discount by providing
these drugs to patients predominantly in nonexcepted
off-campus PBDs. In light of the significant drug
payment
differences
between
excepted
and
nonexcepted off-campus PBDs, in combination with
the potential eligibility for discounts, which result in
reduced costs under the 340B Program for both kinds
of departments, our current payment policy could
undermine the validity of the use of the OPPS
payment structure in nonexcepted off-campus PBDs.
In order to avoid such perverse incentives and the
potential resulting distortions in drug payment, in the
CY 2019 OPPS/ASC proposed rule (83 FR 37146), we
proposed, pursuant to our authority at section
1833(t)(21)(C) of the Act, to identify the PFS as the
‘‘applicable payment system’’ for 340B-acquired drugs
and biologicals and, accordingly, to pay under the PFS
instead of under section 1847A/1842(o) of the Act an
amount equal to ASP minus 22.5 percent for drugs and
biologicals acquired under the 340B Program that are
furnished by nonexcepted off-campus PBDs. We stated
in the proposed rule that we believe this proposed
change in policy would eliminate the significant
incongruity between the payment amounts for these
drugs, depending upon whether they are furnished by
excepted off-campus PBDs or nonexcepted off-campus
PBDs, which we believe is an unnecessary difference
in payment where the 340B Program does not
differentiate between PBDs paid under the OPPS and
PBDs paid under the PFS using the PFS relativity
adjuster.
In the CY 2018 OPPS/ASC final rule with comment
period (82 FR 59367 through 59368), we discussed

191
public comments that we received that noted that the
alternative payment methodology for 340B-acquired
drugs and biologicals did not apply to nonexcepted offcampus PBDs of a hospital and could result in
behavioral changes that may undermine CMS’ policy
goals of reducing beneficiary cost-sharing liability and
undercut the goals of section 603 of Public Law 114–
74. Commenters recommended that, if CMS adopted a
final policy to establish an alternative payment
methodology for 340B drugs in CY 2018, CMS also
apply the same adjustment to payment rates for drugs
furnished in nonexcepted off-campus PBDs of a
hospital if such drugs were acquired under the 340B
Program (82 FR 59367). While we did not propose to
adjust payment for 340B-acquired drugs in
nonexcepted off-campus PBDs in CY 2018, we
indicated that we would consider adopting such a
policy in future rulemaking.
We agree with commenters that the difference in
the payment amounts for 340B-acquired drugs
furnished by hospital outpatient departments,
excepted off-campus PBDs versus nonexcepted offcampus PBDs, creates an incentive for hospitals to
move drug administration services for 340B-acquired
drugs to nonexcepted off-campus PBDs to receive a
higher payment amount for these drugs, thereby
undermining our goals of reducing beneficiary costsharing for these drugs and biologicals and moving
towards site neutrality through the section 603
amendments to section 1833(t) of the Act. Therefore,
in the CY 2019 OPPS/ASC proposed rule (83 FR
37145), we proposed changes to the Medicare Part B
drug payment methodology for drugs and biologicals
furnished and billed by nonexcepted off-campus
departments of a hospital that were acquired under
the 340B Program. Specifically, for CY 2019 and

192
subsequent years, we proposed to pay under the PFS
the adjusted payment amount of ASP minus 22.5
percent for separately payable drugs and biologicals
(other than drugs on pass-through payment status
and vaccines) acquired under the 340B Program when
they are furnished by nonexcepted off-campus PBDs of
a hospital. Furthermore, we proposed to except rural
sole community hospitals, children’s hospitals, and
PPS-exempt cancer hospitals from this payment
adjustment (83 FR 37145). We stated that we believe
that our proposed payment policy would better reflect
the resources and acquisition costs that nonexcepted
off-campus PBDs incur for these drugs and biologicals.
Comment:
Some
commenters,
including
organizations representing physician oncology
practices, orthopedic surgeons, pharmaceutical
research and manufacturing companies, a large
network of community-based oncology practices,
physician organizations, and health insurers,
supported the proposal. Some of these commenters
commended CMS for its proposal, which they believed
would help address the growth of the 340B Program,
stem physician practice consolidation with hospitals,
preserve patient access to community-based care, and
address the significant incongruity between the
payment amounts for 340B-acquired drugs, depending
upon the setting in which they are furnished. One of
these commenters, a pharmaceutical company, stated
that the 340B Program has grown beyond its original
intent and needs to be refocused to better meet the
needs of vulnerable patients. The commenter noted
that there is an incentive to inappropriately shift
administration of drugs from excepted to nonexcepted
off-campus PBDs for the purpose of securing higher
payment. In addition, the commenter urged HHS to
adopt policies ‘‘that prevent the unjustified expansion

193
of the 340B program to unintended populations
through contract pharmacies, child sites, and
individuals who Congress did not intend to be
considered 340B patients.’’
A few commenters, including organizations
representing community oncology practices, stated
that the opportunity for 340B-participating hospitals
to get substantial revenue from cancer drugs has
created financial incentives for hospitals to expand
oncology services, notably through the acquisition of
independent
community
oncology
practices.
Furthermore, one of these commenters asserted that,
when these facilities purchased by 340B-participating
entities become off-campus PBDs, they also become
eligible for 340B Program discounts, thus ‘‘further
fueling the program’s staggering growth.’’ These
commenters cited a report that states that, over the
last decade, 658 community oncology practices have
been acquired by hospitals, and 3 out of 4 of these
acquisitions were by hospitals already eligible for the
340B Program. Accordingly, these commenters believe
that the growth of Part B drug spending in recent
years has been disproportionately driven by higher
payments in the hospital outpatient setting. Another
commenter asserted that the current situation creates
two undesirable incentives. First, it creates an
incentive for physicians to join a hospital to furnish
the same types of services that could have been
furnished in the physician office setting, thereby
increasing costs to the Medicare program, Medicare
beneficiaries, and taxpayers without any associated
increase in access to care for Medicare beneficiaries,
particularly low-income beneficiaries. Second, it
encourages hospitals to move services off the hospital
campus for financial incentives.

194
Some commenters urged CMS and HRSA to work
with Congress to reform the 340B Program. One
commenter recommended that CMS gather additional
data to better understand 340B Program acquisition
costs and the impact of payment reductions on 340B
Program providers. In addition, a few commenters
recommended that CMS revise the definition of
‘‘patient’’ to reflect the program’s original intent.
Response: We thank commenters for their support
and recommendations. We agree with the commenters
that the difference in the payment amounts for 340Bacquired drugs furnished by different types of hospital
outpatient departments, excepted off-campus PBDs
versus nonexcepted off-campus PBDs, creates an
incentive for hospitals to move drug administration
services for 340B-acquired drugs to nonexcepted offcampus PBDs to receive a higher payment amount for
these drugs, thereby undermining our goals of
reducing beneficiary cost-sharing for these drugs and
biologicals and moving towards site neutrality
through the section 603 amendments to section
1833(t) of the Act. Therefore, we continue to believe
that our proposed policy will better align Medicare
payment for separately payable drugs acquired under
the 340B Program with the actual resources expended
to acquire such drugs in nonexcepted off-campus PBDs
of a hospital.
As we previously stated, CMS does not administer
the 340B Program. Accordingly, comments related to
eligibility for the 340B Program as well as 340B
Program policies are outside the scope of the proposed
rule and are not addressed in this final rule with
comment period.
Comment: One commenter, who cited studies
conducted by the GAO, OIG, and MedPAC, suggested

195
that CMS make additional downward adjustments to
drug payments under the 340B Program in future
years because the 22.5 percent payment reduction
‘‘was conservative’’ and the actual average discount
experienced by 340B hospitals is likely much higher
than 22.5 percent. The commenter asserted that 22.5
percent reflects the average minimum discount that
340B hospitals receive for drugs acquired under the
program, and that discounts across all 340B providers
average 33.6 percent of ASP.
Response: We thank the commenter for this
feedback. We will continue to analyze the data on
these drugs for future rulemaking. As we mentioned
in the CY 2019 OPPS/ASC proposed rule, we share the
commenter’s concern that current Medicare payments
for drugs acquired by nonexcepted off-campus PBDs
are well in excess of the overhead and acquisition costs
for drugs purchased under the 340B Program. We also
continue to believe that Medicare beneficiaries should
be able to benefit from the significant discounts
hospitals receive on 340B-acquired drugs through
reduced copayments.
Comment: One commenter, an organization
representing children’s hospitals, supported the
proposal to except children’s hospitals from the
proposed payment policy for drugs purchased under
the 340B Program. However, the commenter asserted
that children’s hospitals are undercompensated by
government programs, and that a recent report found
that the overall Medicare margin for all hospitals is
negative. Furthermore, the commenter stated that,
while self-governing children’s hospitals are excepted
from the payment policy, children’s hospitals within
academic medical centers or health care systems
remain subject to this policy, which will curtail the

196
ability of such children’s hospitals to care for needy
children. The commenter urged CMS not to apply this
policy to children’s hospitals within academic medical
centers or health care systems.
Response: We thank the commenter for its support
and feedback. As we stated in the CY 2018 OPPS/ASC
final rule with comment period (82 FR 59366), because
of how children’s hospitals are paid under the OPPS,
we acknowledged that the 340B drug payment policy
may not result in reduced payments for these hospitals
in the aggregate. While the payment policy we are
establishing in this final rule with comment period
applies to nonexcepted departments of a hospital that
are paid under the PFS rather than the OPPS, we
believe that adopting an analogous policy, regardless
of status, is prudent so that a generally excepted
hospital receives payment for drugs in the same
manner, regardless of the status (excepted or
nonexcepted) of each PBD of the hospital.
In addition, it is unclear from the comment
whether the referenced children’s hospitals ‘‘within
academic medical centers or health care systems’’ are
enrolled in the Medicare program as children’s
hospitals or whether they are simply a department of
an enrolled hospital provider. However, any
separately enrolled children’s hospital that is paid as
such is exempt from the 340B-acquired drug payment
reduction, while children’s units that are not
separately enrolled would not be exempt from the 340acquired drug payment policy.
Comment:
A
few
commenters,
including
organizations representing sole community hospitals,
supported the proposal to extend the exception for
rural sole community hospitals from the proposed
340B Program payment adjustment. However, these

197
commenters remained concerned that other
vulnerable hospitals continue to be subject to the 340B
Program payment reduction. Accordingly, these
commenters recommended that CMS exempt urban
sole community hospitals, Medicare-dependent
hospitals, and hospitals with rural referral center
status from the payment adjustment. In addition,
rural hospitals recommended that rural providers be
permanently excepted from this policy.
Response: We share commenters’ concerns about
access to care, especially in rural areas where access
issues may be more pronounced than in other areas of
the country. Medicare has long recognized the unique
needs of rural communities and the financial
challenges rural hospital providers face. Across the
various Medicare payment systems, CMS has
established a number of special payment provisions
for rural providers to maintain access to care and to
deliver high quality care to beneficiaries in rural
areas. Consequently, for CY 2019, we are excluding
rural sole community hospitals (as described under
the regulations at 42 CFR 412.92 and designated as
rural for Medicare purposes) from this policy.
However, we do not believe that a payment exemption
for nonexcepted off-campus departments of urban
SCHs is necessary because these hospitals are not
exempted from the 340B payment policy for hospital
departments paid under the OPPS. Nonetheless, we
will continue to analyze the data for these hospitals to
determine whether urban SCHs should be exempt
from this payment policy, as well as whether
permanent exemption for rural SCHs is warranted in
future rulemaking.
With respect to rural referral centers, in the CY
2018 OPPS/ASC final rule with comment period, we

198
noted that there is no special payment designation for
rural referral centers under the OPPS. By definition,
rural referral centers must have at least 275 beds and
therefore are larger relative to rural sole community
hospitals. In addition, rural referral centers are not
subject to a distance requirement from other hospitals.
Accordingly, rural referral centers are neither as small
(in terms of bed size) or as isolated (in terms of
proximity to other hospitals) as rural SCHs, nor are
they generally eligible for special payment status
under the OPPS, and we do not believe that a payment
exemption from this policy for these centers is
warranted.
Furthermore, as stated earlier in this section, we
believe that we should adopt an analogous payment
policy across hospital settings, regardless of the status
of each PBD. Because we did not exempt
grandfathered
off-campus PBDs with MDH
classification from the 340B payment adjustment in
CY 2018, we do not believe that nonexcepted offcampus PBDs with Medicare-dependent hospital
status should be exempted at this time. Therefore, for
CY 2019, Medicare-dependent hospitals will not be
exempt from this payment policy.
For CY 2019, rural sole community hospitals,
children’s hospitals, and PPS-exempt cancer hospitals
will be excepted from the alternative payment
methodology for 340B-acquired drugs and biologicals
furnished in nonexcepted off-campus PBDs, and
therefore will be required to bill under the PFS using
the institutional claim form and report the
informational modifier ‘‘TB’’ for 340B-acquired drugs
and biologicals. These providers will continue to be
paid ASP+6 percent for 340B-acquired drugs and
biologicals under the PFS. In addition, as we stated in

199
the CY 2018 OPPS/ASC final rule with comment
period, this policy change does not apply to drugs with
pass-through payment status, which are required to
be paid based on the ASP methodology, or to vaccines,
which are excluded from the 340B Program.
We note that this policy does not alter covered
entities’ access to the 340B Program. The expansion of
the alternative 340B drug payment methodology
solely changes Medicare payment for drugs furnished
in nonexcepted off-campus PBDs of a hospital if such
drugs were acquired under the 340B Program. We
may revisit our policy regarding exceptions to the
340B drug payment reduction in the CY 2020
OPPS/ASC rulemaking.
Comment: In its comment, MedPAC reiterated
recommendations included in its March 2016 Report
to Congress. In this report, MedPAC recommended
that payment rates for all separately payable drugs
provided in a 340B hospital be reduced by 10 percent
of the current payment rate of ASP+6 percent
(resulting in ASP minus 5.3 percent after taking
application of the sequester into account). MedPAC
noted that its March 2016 report also included a
recommendation to Congress that savings from the
reduced payment rates be directed to the Medicarefunded uncompensated care pool, which would target
hospitals providing the most care to the uninsured and
in that way benefit indigent patients, and that
payments be distributed in proportion to the amount
of uncompensated care that hospitals provide.
MedPAC believed that legislation would be needed to
direct drug payment savings to the uncompensated
care pool and noted that current law requires the
savings to be retained with the OPPS to make the
payment system budget neutral. MedPAC encouraged

200
the Secretary to work with Congress to enact
legislation
necessary
to
allow
MedPAC’s
recommendation to be implemented, if such a
recommendation
could
not
be
implemented
administratively. MedPAC further noted that
legislation would also allow Medicare to apply the
policy to all OPPS separately payable drugs, including
those on pass-through payment status. Accordingly,
MedPAC recognized that CMS does not have the legal
authority
to
implement
its
March
2016
recommendation and shares CMS’ concern that the
lack of site-neutral payments may cause a shift in
administration of nonpass-through separately payable
drugs to nonexcepted off-campus PBDs. Additionally,
MedPAC stated that CMS should ensure that
payment for 340B-acquired drugs is equal across
settings.
Response: We thank MedPAC for its support and
feedback. As we stated in the CY 2018 OPPS/ASC final
rule with comment period (82 FR 59364 through
59365), we do not believe that reducing the Medicare
payment rate by only 10 percentage points below the
current payment rate of ASP+6 percent (that is, ASP
minus 4 percent) would better reflect the acquisition
costs incurred by 340B-participating hospitals.
We note that we responded to a similar public
comment in the CY 2018 OPPS/ASC final rule with
comment period (82 FR 59364 through 59365) and
refer readers to a summary of that comment and our
response.
Comment: Many commenters stated that the
Secretary lacks statutory authority to impose such a
large reduction in the payment rate for 340B drugs
acquired in off-campus PBDs, and contended that the
expansion of the 340B payment policy at nonexcepted

201
off-campus PBDs would ‘‘effectively eviscerate’’ the
340B Program. These commenters further noted that
extending the Medicare payment cuts to nonexcepted
off-campus PBDs would greatly undermine 340B
hospitals’ ability to continue programs designed to
improve access to services.
One commenter, an organization representing over
1,300 public and nonprofit providers enrolled in the
340B Program, argued that since the 340B payment
policy took effect in January 2018, many hospitals
have
experienced
financial
and
operational
challenges, including staff reductions, fewer free or
discounted drugs for patients, clinic and pharmacy
closures, and reductions in services provided. The
commenter opposed the 340B payment proposal for a
number of reasons, primarily because the commenter
believed that the current OPPS 340B payment rate
harms hospitals’ ability to treat low-income patients
and the proposals to continue and expand the cuts
would worsen the impact. Furthermore, the
commenter argued that CMS’ proposed payment
reduction does not reduce patient costs or Medicare
spending or address ‘‘skyrocketing drug prices’’; CMS’
payment reduction violates the 340B statute; CMS’
payment reduction violates the Medicare statute; and
CMS’ payment reduction relies on a ‘‘faulty premise
that fails to recognize that 340B hospitals serve
patients with more expensive medical needs.’’ The
commenter further asserted that Congress, as well as
‘‘one-hundred percent of hospitals,’’ have expressed
concern about the payment reduction’s impact on
340B providers’ ability to serve their patients.
Many additional commenters, including some
hospital associations, contended that CMS does not
have the legal authority to apply the OPPS Medicare

202
payment rate to nonexcepted off-campus PBDs in
340B-participating
hospitals
because
section
1833(t)(21)(C) of the Act does not authorize CMS to
pay at a rate that is less than the rate paid under the
selected ‘‘applicable payment system.’’ Specifically, a
few commenters asserted that payment for these
drugs and biologicals is determined pursuant to the
rules of section 1842(o)(1)(C) of the Act, which
mandates that payment is to be made for these drugs
and biologicals when furnished by nonexcepted offcampus PBDs pursuant to the rules of section 1847A
of the Act.
Response: We do not believe that the proposed
payment policy violates section 340B of the Public
Health Service Act or the Social Security Act. There is
no requirement in the Public Health Service Act that
drugs or biologicals acquired under the 340B Program
generate a profit margin for hospitals through
Medicare payments, and there is no requirement in
any part of section 1833(t) of the Social Security Act to
pay a particular minimum rate for a hospital enrolled
in the 340B Program Further, we disagree with the
commenter’s assertion that CMS’ payment reduction
does not reduce patient costs or Medicare spending.
Based on our proposed adjustment for CY 2019, we
estimated that the Medicare Program and
beneficiaries would save approximately $49 million
under the PFS.
We also disagree with commenters who believe
that the OPPS payment rate for 340B-acquired drugs
will ‘‘effectively eviscerate’’ the 340B Program as well
as the implication that extending the same rate that
applies to 340B-acquired drugs and biologicals
furnished by hospital departments under the OPPS to
nonexcepted off-campus PBDs will perpetuate that

203
concern. The findings from several 340B studies
conducted by the GAO, OIG, and MedPAC show a wide
range of discounts that are afforded to 340B hospitals,
with some reports finding discounts of up to 50
percent. Indeed, in some cases, beneficiary
coinsurance alone exceeds the amount the hospital
paid to acquire the drug under the 340B Program (OIG
November 2015, Report OEI–12–14–00030, page 9).
As stated in the CY 2018 final rule with comment
period, we believe that ASP minus 22.5 percent is a
conservative estimate of the discount for 340Bacquired drugs, and that even with the reduced
payments, hospitals will continue to receive savings
that can be directed at programs and services to carry
out the intent of the 340B Program. We also have
noted that 340B Program participation does not
appear to be well aligned with the provision of
uncompensated care, as some commenters suggested
(82 FR 59359).
Payment under the ‘‘applicable payment system’’
pursuant to section 1833(t)(21)(C) of the Act is made
under the PFS for most services, including for the
many drugs that are packaged under the OPPS, using
a PFS relativity adjuster that is applied to the OPPS
payment rate. As such, the PFS payment for
nonexcepted items and services in nonexcepted offcampus PBDs is made on a prospective payment basis,
and we are therefore not required to make payment
under section 1847A/1842(o) of the Act for those
packaged drugs, many of which would be separately
payable under the PFS. Further, as we stated in the
CY 2019 OPPS/ASC proposed rule (83 FR 37145), the
current PFS payment policies for nonexcepted items
and services incorporate a significant number of
payment policies and adjustments made under the
OPPS (81 FR 79726; 82 FR 53024 through 53025). In

204
establishing these policies in prior rulemaking, we
pointed out that the adoption of these policies was
necessary in order to maintain the integrity of the PFS
relativity adjuster because it adjusts payment rates
developed under the OPPS (81 FR 79726). For
example, it is necessary to incorporate OPPS
packaging rules into the site-specific PFS rate because
the PFS relativity adjuster is applied to OPPS rates
that were developed based on those packaging rules.
In addition, many of the OPPS policies and
adjustments are replicated under the nonexcepted offcampus PBD site-specific PFS rates because they are
specifically applicable to hospitals as a setting of care.
For example, we adopted the geographic adjustments
used for hospitals instead of the adjustments
developed for the PFS localities, which reflect cost
differences calculated for professionals and suppliers
rather than hospitals (81 FR 79726).
Since we have adopted the payment adjustment
under the OPPS for 340B-acquired separately payable
drugs, we have become concerned that there would be
a perverse incentive for hospitals to circumvent the
OPPS payment adjustment by furnishing 340Bacquired drugs in nonexcepted off-campus PBDs
where Medicare currently makes payment for those
drugs at ASP+6 percent. To avoid this payment
incongruity and perverse incentive, we proposed to
designate the PFS as the ‘‘applicable payment system’’
for 340B-acquired separately payable drugs furnished
in nonexcepted off-campus PBDs, and to make
payment at the OPPS-comparable rate.
Comment: A few commenters asserted that, while
CMS estimated that the payment change would result
in a payment cut of $48.5 million in CY 2019, CMS
provided no data to support this estimate and failed to

205
provide sufficient access to data, its methodology, or
its analysis to allow the public to assess and replicate
the proposed CY 2019 340B payment policy. One
commenter recommended that CMS delay extension of
the 340B payment policy until more information is
available related to the impact on Medicare
beneficiaries.
Many commenters opposed reducing payments to
hospitals for 340B drugs in a nonbudget-neutral
manner and instead suggested that such policy be
implemented in a budget neutral manner as was
implemented in the CY 2018 OPPS/ASC final rule
with comment period. In addition, some commenters
recommended that CMS annually calculate a budget
neutral adjustment for the 340B policy, as the
approach is consistent with other budget neutral
policies included in the OPPS.
Response: We thank the commenters for their
input. We disagree that this policy should be
implemented in a budget neutral manner because the
payments
made
to
nonexcepted
off-campus
departments of a hospital are not paid under the
OPPS. As we stated in the CY 2019 OPPS/ASC
proposed rule, to develop an estimated impact of this
proposal, we analyzed the CY 2017 outpatient claims
data used in ratesetting for the CY 2019 proposed rule.
Based on the most recent claims data from CY 2017
reporting, we found 117 unique nonexcepted offcampus PBDs associated with 340B hospitals that
billed for status indicator ‘‘K’’ drugs. Their ‘‘K’’ billing
represents approximately $182.5 million in Medicare
payments based on a payment rate of ASP+6 percent.
Based on our proposed adjustment, for CY 2019, we
estimated that the Medicare Program and
beneficiaries would save approximately $49 million

206
under the PFS. Regarding budget neutrality
requirements, we note that when we initially
developed the payment policy for nonexcepted items
and services furnished by nonexcepted off-campus
PBDs, most separately payable drugs and biologicals
were paid at the same rates specified under section
1847A/1842(o) of the Act (generally, ASP+6) when
furnished in the HOPD and in other outpatient
settings, such as physician offices. When we initially
established the ASP methodology under section
1847A/1842(o) of the Act as the ‘‘applicable payment
system’’ for separately payable drugs under section
1833(t)(21)(C) of the Act, there was no applicable
budget neutrality requirement. For the proposed
change in CY 2019 to establish the PFS as the
applicable payment system for separately payable
340–B-acquired drugs furnished by nonexcepted offcampus PBDs, we believe the site-specific PFS
payment for these drugs and biologicals represents
new utilization under the PFS and would,
consequently, not be subject to the PFS budget
neutrality requirements under 1848(c) of the Act for
CY 2019. We will consider any applicable budget
neutrality requirements regarding the site-specific
payment under the PFS for future rulemaking.
Comment: Numerous commenters argued that
reducing payments for 340B-acquired drugs could
encourage hospitals to selectively purchase certain
drugs at higher prices outside of the 340B Program to
maximize revenue. One of these commenters
recommended the implementation of alternate
reimbursement methodologies for 340B-purchased
drugs, such as a 6 percent add-on payment to the
product-specific estimated 340B cost, in order to
discourage hospitals from selectively purchasing some
drugs outside of the 340B Program (resulting in ASP

207
minus 16.5 percent after taking application of the addon payment into account).
Response: While participation in the 340B Program
has always been voluntary and hospitals have always
had the ability to choose to purchase drugs outside the
340B Program, we do not see the relevance of these
points to our proposed policy. That is, the policy we
proposed with respect to payment for 340B-acquired
drugs in nonexcepted departments for CY 2019 simply
aligns with the policy already established for 340Bacquired drugs under the OPPS for CY 2018. In
addition, as we explained in CY 2018 OPPS
rulemaking, the payment rate of ASP minus 22.5
percent is better aligned with the average resources to
acquire a 340B drug, and therefore, we do not believe
that a higher payment rate for 340B-acquired drugs in
nonexcepted departments is warranted.
We thank the commenters for their feedback. After
consideration of the public comments we received, we
are finalizing our proposal, without modification, to
make payment for separately payable 340B-acquired
drugs furnished by nonexcepted off-campus
departments of a hospital under the PFS, and to
establish the payment rate for those drugs at ASP
minus 22.5 percent. This policy is expected to lower
the cost of drugs and biologicals for Medicare
beneficiaries and ensure that they benefit from the
discounts provided through the program, and to do so
more equitably across HOPD settings.
In summary, for CY 2019, in accordance with
section 1833(t)(21)(C) of the Act and our established
340B payment methodology as described in the CY
2018 OPPS/ASC final rule with comment period,
separately payable Part B drugs and biologicals
(assigned status indicator ‘‘K’’), other than vaccines

208
and drugs with pass-through payment status, that are
acquired through the 340B Program or through the
340B PVP at or below the 340B ceiling price will be
paid at a rate of ASP minus 22.5 percent when billed
by a hospital that is not excepted from the payment
adjustment. Part B drugs or biologicals excluded from
the 340B payment adjustment include vaccines
(assigned status indicator ‘‘L’’ or ‘‘M’’) and drugs and
biologicals with transitional pass-through payment
status (assigned status indicator ‘‘G’’). Medicare will
continue to pay for drugs and biologicals that are not
purchased with a 340B Program discount at ASP+6
percent.
To effectuate the payment adjustment for 340Bacquired drugs and biologicals, CMS implemented
modifier ‘‘JG’’, effective January 1, 2018. Hospitals
paid under the OPPS (other than a type of hospital
excluded from the OPPS or excepted from the 340B
drug payment policy for CY 2019) and, beginning
January 1, 2019, nonexcepted off-campus PBDs of a
hospital paid under the PFS, are required to report
modifier ‘‘JG’’ on the same claim line as the drug or
biological HCPCS code to identify a 340B-acquired
drug or biological. For CY 2019, rural sole community
hospitals, children’s hospitals, and PPS-exempt cancer
hospitals are excepted from the 340B payment
adjustment. These hospitals will be required to report
informational modifier ‘‘TB’’ for 340B-acquired drugs
and biologicals, and will continue to be paid ASP+6
percent.
* * *
As noted in sections V.B.7. and X.C.2. of this final
rule with comment period, we are finalizing our
proposal for CY 2019 to pay for separately payable
drugs and biological products that do not have pass-

209
through payment status and are not acquired under
the 340B program at WAC+3 percent instead of
WAC+6 percent, if ASP data are unavailable for
payment purposes. If WAC data are not available for
a drug or biological product, we will continue our
policy to pay separately payable drugs and biological
products at 95 percent of the AWP. Drugs and
biologicals that are acquired under the 340B Program
will continue to be paid at ASP minus 22.5 percent,
WAC minus 22.5 percent, or 69.46 percent of AWP, as
applicable.
* * *
C. Detailed Economic Analyses
1. Estimated Effects of OPPS Changes in This Final
Rule With Comment Period
* * *
c. Estimated Effects of Finalized Proposal To Apply
the 340B Drug Payment Policy to Nonexcepted OffCampus Departments of Hospitals
In section X.C. of this final rule with comment
period, we discuss the proposal we are finalizing to pay
average sales price (ASP) minus 22.5 percent under
the PFS for separately payable 340B-acquired drugs
furnished by nonexcepted, off-campus PBDs beginning
in CY 2019. This is consistent with the payment
methodology adopted in CY 2018 for 340B-acquired
drugs furnished in hospital departments paid under
the OPPS.
To develop an estimated impact of this finalized
proposal, we began with CY 2017 outpatient claims
data used in ratesetting for the CY 2019 OPPS. We
then flagged all claim lines that contained modifier
‘‘PN’’ because the presence of this modifier indicates

210
that such claims were billed for services furnished by
a nonexcepted off-campus department of a hospital
paid under the PFS. We further subset this population
by identifying 340B hospitals that billed for status
indicator ‘‘K’’ drugs or biologicals (that is, nonpassthrough, separately payable drugs) because such
drugs may have been subject to the 340B discount. We
found 117 unique nonexcepted off-campus PBDs
associated with 340B hospitals billed for status
indicator ‘‘K’’ drugs. Their ‘‘K’’ billing represents
approximately $183 million in Medicare payments
(including beneficiary copayments) based on a
payment rate of ASP+6 percent. Based on our
adjustment, for CY 2019, we estimate that the
Medicare Program and beneficiaries will save
approximately $49.1 million, under the PFS. This
estimate represents an upper bound of potential
savings under the PFS for this policy change and does
not include adjustments for beneficiary enrollment,
case-mix, or potential offsetting behaviors. We noted
in the proposed rule that the estimated effect of the
proposed policy could change in this final rule with
comment period based on a number of factors such as
the availability of updated data, changes in the final
payment policy, and/or the method of assessing the
payment impact in the final rule.
* * *
Most ASC payment rates are calculated by
multiplying the ASC conversion factor by the ASC
relative payment weight. As discussed fully in section
XII. of this final rule with comment period, we are
setting the CY 2019 ASC relative payment weights by
scaling the CY 2019 OPPS relative payment weights
by the ASC scalar of 0.8792. The estimated effects of
the updated relative payment weights on payment

211
rates are varied and are reflected in the estimated
payments displayed in Tables 63 and 64 below.
* * *
Dated: October 26, 2018.
Seema Verma,
Administrator, Centers for Medicare and Medicaid
Services.
Dated: October 29, 2018.
Alex M. Azar II,
Secretary, Department of Health and Human Services.
[FR Doc. 2018-24243 Filed 11–2–18; 8:45 am]

212
42 U.S.C.A. § 1395l
§ 1395l. Payment of benefits
(a) Amounts
Except as provided in section 1395mm of this title, and
subject to the succeeding provisions of this section,
there shall be paid from the Federal Supplementary
Medical Insurance Trust Fund, in the case of each individual who is covered under the insurance program
established by this part and incurs expenses for services with respect to which benefits are payable under
this part, amounts equal to—
(1) in the case of services described in section
1395k(a)(1) of this title—80 percent of the reasonable
charges for the services; except that (A) an
organization which provides medical and other
health services (or arranges for their availability) on
a prepayment basis (and either is sponsored by a
union or employer, or does not provide, or arrange for
the provision of, any inpatient hospital services) may
elect to be paid 80 percent of the reasonable cost of
services for which payment may be made under this
part on behalf of individuals enrolled in such
organization in lieu of 80 percent of the reasonable
charges for such services if the organization
undertakes to charge such individuals no more than
20 percent of such reasonable cost plus any amounts
payable by them as a result of subsection (b), (B) with
respect to items and services described in section
1395x(s)(10)(A) of this title, the amounts paid shall
be 100 percent of the reasonable charges for such
items and services, (C) with respect to expenses
incurred for those physicians’ services for which
payment may be made under this part that are
described in section 1395y(a)(4) of this title, the

213
amounts paid shall be subject to such limitations as
may be prescribed by regulations, (D) with respect to
clinical diagnostic laboratory tests for which
payment is made under this part (i)(I) on the basis of
a fee schedule under subsection (h)(1)(for tests
furnished before January 1, 2017) or section
1395m(d)(1) of this title, the amount paid shall be
equal to 80 percent (or 100 percent, in the case of
such tests for which payment is made on an
assignment-related basis) of the lesser of the amount
determined under such fee schedule, the limitation
amount for that test determined under subsection
(h)(4)(B), or the amount of the charges billed for the
tests, or (II) under section 1395m-1 of this title (for
tests furnished on or after January 1, 2017), the
amount paid shall be equal to 80 percent (or 100
percent, in the case of such tests for which payment
is made on an assignment-related basis) of the lesser
of the amount determined under such section or the
amount of the charges billed for the tests, or (ii) for
tests furnished before January 1, 2017, on the basis
of a negotiated rate established under subsection
(h)(6), the amount paid shall be equal to 100 percent
of such negotiated rate,, 1 (E) with respect to services
furnished to individuals who have been determined
to have end stage renal disease, the amounts paid
shall be determined subject to the provisions of
section 1395rr of this title, (F) with respect to clinical
social worker services under section 1395x(s)(2)(N) of
this title, the amounts paid shall be 80 percent of the
lesser of (i) the actual charge for the services or (ii)
75 percent of the amount determined for payment of
a psychologist under clause (L), (G) with respect to
facility services furnished in connection with a
1

So in original.

214
surgical procedure specified pursuant to subsection
(i)(1)(A) and furnished to an individual in an
ambulatory surgical center described in such
subsection, for services furnished beginning with the
implementation date of a revised payment system for
such services in such facilities specified in subsection
(i)(2)(D), the amounts paid shall be 80 percent of the
lesser of the actual charge for the services or the
amount determined by the Secretary under such
revised payment system, (H) with respect to services
of a certified registered nurse anesthetist under
section 1395x(s)(11) of this title, the amounts paid
shall be 80 percent of the least of the actual charge,
the prevailing charge that would be recognized (or,
for services furnished on or after January 1, 1992, the
fee schedule amount provided under section 1395w-4
of this title) if the services had been performed by an
anesthesiologist, or the fee schedule for such services
established by the Secretary in accordance with
subsection (l), (I) with respect to covered items
(described in section 1395m(a)(13) of this title), the
amounts paid shall be the amounts described in
section 1395m(a)(1) of this title, and2 (J) with respect
to expenses incurred for radiologist services (as
defined in section 1395m(b)(6) of this title), subject to
section 1395w-4 of this title, the amounts paid shall
be 80 percent of the lesser of the actual charge for the
services or the amount provided under the fee
schedule established under section 1395m(b) of this
title, (K) with respect to certified nurse-midwife
services under section 1395x(s)(2)(L) of this title, the
amounts paid shall be 80 percent of the lesser of the
actual charge for the services or the amount
determined by a fee schedule established by the
2

So in original. The word “and” probably should not appear.

215
Secretary for the purposes of this subparagraph (but
in no event shall such fee schedule exceed 65 percent
of the prevailing charge that would be allowed for the
same service performed by a physician, or, for
services furnished on or after January 1, 1992, 65
percent (or 100 percent for services furnished on or
after January 1, 2011) of the fee schedule amount
provided under section 1395w-4 of this title for the
same service performed by a physician), (L) with
respect to qualified psychologist services under
section 1395x(s)(2)(M) of this title, the amounts paid
shall be 80 percent of the lesser of the actual charge
for the services or the amount determined by a fee
schedule established by the Secretary for the
purposes of this subparagraph, (M) with respect to
prosthetic devices and orthotics and prosthetics (as
defined in section 1395m(h)(4) of this title), the
amounts paid shall be the amounts described in
section 1395m(h)(1) of this title, (N) with respect to
expenses incurred for physicians’ services (as defined
in section 1395w-4(j)(3) of this title) other than
personalized prevention plan services (as defined in
section 1395x(hhh)(1) of this title), the amounts paid
shall be 80 percent of the payment basis determined
under section 1395w-4(a)(1) of this title, (O) with
respect to services described in section 1395x(s)(2)(K)
of this title (relating to services furnished by
physician assistants, nurse practitioners, or clinic
nurse specialists), the amounts paid shall be equal to
80 percent of (i) the lesser of the actual charge or 85
percent of the fee schedule amount provided under
section 1395w-4 of this title, or (ii) in the case of
services as an assistant at surgery, the lesser of the
actual charge or 85 percent of the amount that would
otherwise be recognized if performed by a physician
who is serving as an assistant at surgery, (P) with

216
respect to surgical dressings, the amounts paid shall
be the amounts determined under section 1395m(i) of
this title, (Q) with respect to items or services for
which fee schedules are established pursuant to
section 1395u(s) of this title, the amounts paid shall
be 80 percent of the lesser of the actual charge or the
fee schedule established in such section, (R) with
respect to ambulance services, (i) the amounts paid
shall be 80 percent of the lesser of the actual charge
for the services or the amount determined by a fee
schedule established by the Secretary under section
1395m(l) of this title and (ii) with respect to
ambulance services described in section 1395m(l)(8)
of this title, the amounts paid shall be the amounts
determined under section 1395m(g) of this title for
outpatient critical access hospital services, (S) with
respect to drugs and biologicals (including
intravenous immune globulin (as defined in section
1395x(zz) of this title)) not paid on a cost or
prospective payment basis as otherwise provided in
this part (other than items and services described in
subparagraph (B)), the amounts paid shall be 80
percent of the lesser of the actual charge or the
payment amount established in section 1395u(o) of
this title (or, if applicable, under section 1395w-3,
1395w-3a, or 1395w-3b of this title), (T) with respect
to medical nutrition therapy services (as defined in
section 1395x(vv) of this title), the amount paid shall
be 80 percent (or 100 percent if such services are
recommended with a grade of A or B by the United
States Preventive Services Task Force for any
indication or population and are appropriate for the
individual) of the lesser of the actual charge for the
services or 85 percent of the amount determined
under the fee schedule established under section
1395w-4(b) of this title for the same services if

217
furnished by a physician, (U) with respect to facility
fees described in section 1395m(m)(2)(B) of this title,
the amounts paid shall be 80 percent of the lesser of
the actual charge or the amounts specified in such
section, (V) notwithstanding subparagraphs (I)
(relating to durable medical equipment), (M)
(relating to prosthetic devices and orthotics and
prosthetics), and (Q) (relating to 1395u(s) items),
with respect to competitively priced items and
services (described in section 1395w-3(a)(2) of this
title) that are furnished in a competitive area, the
amounts paid shall be the amounts described in
section 1395w-3(b)(5) of this title, (W) with respect to
additional preventive services (as defined in section
1395x(ddd)(1) of this title), the amount paid shall be
(i) in the case of such services which are clinical
diagnostic laboratory tests, the amount determined
under subparagraph (D) (if such subparagraph were
applied, by substituting “100 percent” for “80
percent”), and (ii) in the case of all other such
services, 100 percent of the lesser of the actual charge
for the service or the amount determined under a fee
schedule established by the Secretary for purposes of
this subparagraph, (X) with respect to personalized
prevention plan services (as defined in section
1395x(hhh)(1) of this title), the amount paid shall be
100 percent of the lesser of the actual charge for the
services or the amount determined under the
payment basis determined under section 1395w-4 of
this title, (Y) subject to subsection (dd), with respect
to preventive services described in subparagraphs
(A) and (B) of section 1395x(ddd)(3) of this title that
are appropriate for the individual and, in the case of
such services described in subparagraph (A), are
recommended with a grade of A or B by the United
States Preventive Services Task Force for any

218
indication or population, the amount paid shall be
100 percent of (i) except as provided in clause (ii), the
lesser of the actual charge for the services or the
amount determined under the fee schedule that
applies to such services under this part, and (ii) in
the case of such services that are covered OPD
services (as defined in subsection (t)(1)(B)), the
amount determined under subsection (t), (Z) with
respect to Federally qualified health center services
for which payment is made under section 1395m(o) of
this title, the amounts paid shall be 80 percent of the
lesser of the actual charge or the amount determined
under such section, (AA) with respect to an
applicable disposable device (as defined in paragraph
(2) of section 1395m(s) of this title) furnished to an
individual pursuant to paragraph (1) of such section,
the amount paid shall be equal to 80 percent of the
lesser of the actual charge or the amount determined
under paragraph (3) of such section, (BB) with
respect to home infusion therapy, the amount paid
shall be an amount equal to 80 percent of the lesser
of the actual charge for the services or the amount
determined under section 1395m(u) of this title, (CC)
with respect to opioid use disorder treatment services
furnished during an episode of care, the amount paid
shall be equal to the amount payable under section
1395m(w) of this title less any copayment required as
specified by the Secretary, and (DD) with respect to
a specified COVID-19 testing-related service
described in paragraph (1) of subsection (cc) for
which payment may be made under a specified
outpatient payment provision described in
paragraph (2) of such subsection, the amounts paid
shall be 100 percent of the payment amount

219
otherwise recognized under such respective specified
outpatient payment provision for such service,;1
(2) in the case of services described in section
1395k(a)(2) of this title (except those services
described in subparagraphs (C), (D), (E), (F), (G), (H),
and (I) of such section and unless otherwise specified
in section 1395rr of this title)—
(A) with respect to home health services
(other than a covered osteoporosis drug)(as defined
in section 1395x(kk) of this title), the amount
determined under the prospective payment system
under section 1395fff of this title;
(B) with respect to other items and services
(except those described in subparagraph (C), (D), or
(E) of this paragraph and except as may be provided
in section 1395ww of this title or section
1395yy(e)(9) of this title)—
(i) furnished before January 1, 1999, the
lesser of—
(I) the reasonable cost of such services, as
determined under section 1395x(v) of this title, or
(II) the customary charges with respect to
such services,
less the amount a provider may charge as
described in clause (ii) of section 1395cc(a)(2)(A)
of this title, but in no case may the payment for
such other services exceed 80 percent of such
reasonable cost, or
(ii) if such services are furnished before
January 1, 1999, by a public provider of services,
or by another provider which demonstrates to the
1

So in original.

220
satisfaction of the Secretary that a significant
portion of its patients are low-income (and
requests that payment be made under this clause),
free of charge or at nominal charges to the public,
80 percent of the amount determined in
accordance with section 1395f(b)(2) of this title, or
(iii) if such services are furnished on or after
January 1, 1999, the amount determined under
subsection (t), or
(iv) if (and for so long as) the conditions
described in section 1395f(b)(3) of this title are
met, the amounts determined under the
reimbursement system described in such section;
(C) with respect to services described in the
second sentence of section 1395x(p) of this title, 80
percent of the reasonable charges for such services;
(D) with respect to clinical diagnostic
laboratory tests for which payment is made under
this part (i)(I) on the basis of a fee schedule
determined under subsection (h)(1)(for tests
furnished before January 1, 2017) or section
1395m(d)(1) of this title, the amount paid shall be
equal to 80 percent (or 100 percent, in the case of
such tests for which payment is made on an
assignment-related basis or to a provider having an
agreement under section 1395cc of this title) of the
lesser of the amount determined under such fee
schedule, the limitation amount for that test
determined under subsection (h)(4)(B), or the
amount of the charges billed for the tests, or (II)
under section 1395m-1 of this title (for tests
furnished on or after January 1, 2017), the amount
paid shall be equal to 80 percent (or 100 percent, in
the case of such tests for which payment is made on
an assignment-related basis or to a provider having

221
an agreement under section 1395cc of this title) of
the lesser of the amount determined under such
section or the amount of the charges billed for the
tests, or (ii) for tests furnished before January 1,
2017, on the basis of a negotiated rate established
under subsection (h)(6), the amount paid shall be
equal to 100 percent of such negotiated rate for such
tests;
(E) with respect to—
(i) outpatient hospital radiology services
(including diagnostic and therapeutic radiology,
nuclear medicine and CAT scan procedures,
magnetic resonance imaging, and ultrasound and
other imaging services, but excluding screening
mammography and, for services furnished on or
after January 1, 2005, diagnostic mammography),
and
(ii) effective for procedures performed on or
after October 1, 1989, diagnostic procedures (as
defined by the Secretary) described in section
1395x(s)(3) of this title (other than diagnostic xray tests and diagnostic laboratory tests),
the amount determined under subsection (n) or,
for services or procedures performed on or after
January 1, 1999, subsection (t);
(F) with respect to a covered osteoporosis
drug (as defined in section 1395x(kk) of this title)
furnished by a home health agency, 80 percent of
the reasonable cost of such service, as determined
under section 1395x(v) of this title;
(G) with respect to items and services
described in section 1395x(s)(10)(A) of this title, the
lesser of—

222
(i) the reasonable cost of such services, as
determined under section 1395x(v) of this title, or
(ii) the customary charges with respect to
such services; and
(H) with respect to personalized prevention
plan services (as defined in section 1395x(hhh)(1) of
this title) furnished by an outpatient department of
a hospital, the amount determined under
paragraph (1)(X),
or, 3 if such services are furnished by a public
provider of services, or by another provider which
demonstrates to the satisfaction of the Secretary
that a significant portion of its patients are lowincome (and requests that payment be made under
this provision), free of charge or at nominal charges
to the public, the amount determined in accordance
with section 1395f(b)(2) of this title;
(3) in the case of services described in section
1395k(a)(2)(D) of this title—
(A) except as provided in subparagraph (B),
the costs which are reasonable and related to the
cost of furnishing such services or which are based
on such other tests of reasonableness as the
Secretary may prescribe in regulations, including
those authorized under section 1395x(v)(1)(A) of
this title, less the amount a provider may charge as
described in clause (ii) of section 1395cc(a)(2)(A) of
this title, but in no case may the payment for such
services (other than for items and services described

See 2010 Amendment note relating to Pub.L. 111-148,
§ 4103(c)(3)(B).

3

223
in section 1395x(s)(10)(A) of this title) exceed 80
percent of such costs; or
(B) with respect to the services described in
clause (ii) of section 1395k(a)(2)(D) of this title that
are furnished to an individual enrolled with a MA
plan under part C pursuant to a written agreement
described in section 1395w-23(a)(4) of this title, the
amount (if any) by which—
(i) the amount of payment that would have
otherwise been provided (I) under subparagraph
(A) (calculated as if “100 percent” were substituted
for “80 percent” in such subparagraph) for such
services if the individual had not been so enrolled,
or (II) in the case of such services furnished on or
after the implementation date of the prospective
payment system under section 1395m(o) of this
title, under such section (calculated as if “100
percent” were substituted for “80 percent” in such
section) for such services if the individual had not
been so enrolled; exceeds
(ii) the amount of the payments received
under such written agreement for such services
(not including any financial incentives provided
for in such agreement such as risk pool payments,
bonuses, or withholds),
less the amount the federally qualified health
center may charge as described in section
1395w-27(e)(3)(B) of this title;
(4) in the case of facility services described in
section 1395k(a)(2)(F) of this title, and outpatient
hospital facility services furnished in connection with
surgical procedures specified by the Secretary
pursuant to subsection (i)(1)(A), the applicable

224
amount as determined under paragraph (2) or (3) of
subsection (i) or subsection (t);
(5) in the case of covered items (described in
section 1395m(a)(13) of this title) the amounts
described in section 1395m(a)(1) of this title;
(6) in the case of outpatient critical access
hospital services, the amounts described in section
1395m(g) of this title;
(7) in the case of prosthetic devices and
orthotics and prosthetics (as described in section
1395m(h)(4) of this title), the amounts described in
section 1395m(h) of this title;
(8) in the case of—
(A) outpatient physical therapy services,
outpatient speech-language pathology services, and
outpatient
occupational
therapy
services
furnished—
(i) by a rehabilitation agency, public health
agency,
clinic,
comprehensive
outpatient
rehabilitation facility, or skilled nursing facility,
(ii) by a home health agency to an individual
who is not homebound, or
(iii) by another entity under an
arrangement with an entity described in clause (i)
or (ii); and
(B) outpatient physical therapy services,
outpatient speech-language pathology services, and
outpatient
occupational
therapy
services
furnished—
(i) by a hospital to an outpatient or to a
hospital inpatient who is entitled to benefits under
part A but has exhausted benefits for inpatient

225
hospital services during a spell of illness or is not
so entitled to benefits under part A, or
(ii) by another entity under an arrangement
with a hospital described in clause (i), the amounts
described in section 1395m(k) of this title;
(9) in the case of services described in section
1395k(a)(2)(E) of this title that are not described in
paragraph (8), the amounts described in section
1395m(k) of this title; and
(10) with respect to rural emergency hospital
services furnished on or after January 1, 2023, the
amounts determined under section 1395m(x) of this
title.
Paragraph (3)(A) shall not apply to Federally qualified
health center services furnished on or after the
implementation date of the prospective payment
system under section 1395m(o) of this title. For
services furnished on or after January 1, 2022,
paragraph (1)(Y) shall apply with respect to a
colorectal cancer screening test regardless of the code
that is billed for the establishment of a diagnosis as a
result of the test, or for the removal of tissue or other
matter or other procedure that is furnished in
connection with, as a result of, and in the same clinical
encounter as the screening test.
(b) Deductible provision
Before applying subsection (a) with respect to expenses incurred by an individual during any calendar
year, the total amount of the expenses incurred by
such individual during such year (which would, except
for this subsection, constitute incurred expenses from
which benefits payable under subsection (a) are determinable) shall be reduced by a deductible of $75 for

226
calendar years before 1991, $100 for 1991 through
2004, $110 for 2005, and for a subsequent year the
amount of such deductible for the previous year increased by the annual percentage increase in the
monthly actuarial rate under section 1395r(a)(1) of
this title ending with such subsequent year (rounded
to the nearest $1); except that (1) such total amount
shall not include expenses incurred for preventive services described in subparagraph (A) of section
1395x(ddd)(3) of this title that are recommended with
a grade of A or B by the United States Preventive Services Task Force for any indication or population and
are appropriate for the individual., 1 (2) such deductible shall not apply with respect to home health services (other than a covered osteoporosis drug (as defined in section 1395x(kk) of this title)), (3) such deductible shall not apply with respect to clinical diagnostic laboratory tests for which payment is made under this part (A) under subsection (a)(1)(D)(i) or
(a)(2)(D)(i) on an assignment-related basis, or to a provider having an agreement under section 1395cc of
this title, or (B) for tests furnished before January 1,
2017, on the basis of a negotiated rate determined under subsection (h)(6), (4) such deductible shall not apply to Federally qualified health center services, (5)
such deductible shall not apply with respect to screening mammography (as described in section 1395x(jj) of
this title), (6) such deductible shall not apply with respect to screening pap smear and screening pelvic
exam (as described in section 1395x(nn) of this title),
(7) such deductible shall not apply with respect to ultrasound screening for abdominal aortic aneurysm (as
1

So in original.

227
defined in section 1395x(bbb) of this title), (8) such deductible shall not apply with respect to colorectal cancer screening tests (as described in section
1395x(pp)(1) of this title), (9) such deductible shall not
apply with respect to an initial preventive physical examination (as defined in section 1395x(ww) of this title), (10) such deductible shall not apply with respect
to personalized prevention plan services (as defined in
section 1395x(hhh)(1) of this title), (11) such deductible shall not apply with respect to any specified
COVID-19 testing-related service described in paragraph (1) of subsection (cc) for which payment may be
made under a specified outpatient payment provision
described in paragraph (2) of such subsection, and (12)
such deductible shall not apply with respect 4 a
COVID-19 vaccine and its administration described in
section 1395x(s)(10)(A) of this title. The total amount
of the expenses incurred by an individual as determined under the preceding sentence shall, after the reduction specified in such sentence, be further reduced
by an amount equal to the expenses incurred for the
first three pints of whole blood (or equivalent quantities of packed red blood cells, as defined under regulations) furnished to the individual during the calendar
year, except that such deductible for such blood shall
in accordance with regulations be appropriately reduced to the extent that there has been a replacement
of such blood (or equivalent quantities of packed red
blood cells, as so defined); and for such purposes blood
(or equivalent quantities of packed red blood cells, as
so defined) furnished such individual shall be deemed
replaced when the institution or other person furnishing such blood (or such equivalent quantities of packed
4

So in original. Probably should be followed by “to”.

228
red blood cells, as so defined) is given one pint of blood
for each pint of blood (or equivalent quantities of
packed red blood cells, as so defined) furnished such
individual with respect to which a deduction is made
under this sentence. The deductible under the previous sentence for blood or blood cells furnished an individual in a year shall be reduced to the extent that a
deductible has been imposed under section 1395e(a)(2)
of this title to blood or blood cells furnished the individual in the year. Paragraph (1) of the first sentence
of this subsection shall apply with respect to a colorectal cancer screening test regardless of the code that is
billed for the establishment of a diagnosis as a result
of the test, or for the removal of tissue or other matter
or other procedure that is furnished in connection
with, as a result of, and in the same clinical encounter
as the screening test.
(c) Mental disorders
(1) Notwithstanding any other provision of
this part, with respect to expenses incurred in a
calendar year in connection with the treatment of
mental, psychoneurotic, and personality disorders of
an individual who is not an inpatient of a hospital at
the time such expenses are incurred, there shall be
considered as incurred expenses for purposes of
subsections (a) and (b)—
(A) for expenses incurred in years prior to
2010, only 62 ½ percent of such expenses;
(B) for expenses incurred in 2010 or 2011,
only 68 ¾ percent of such expenses;
(C) for expenses incurred in 2012, only 75
percent of such expenses;

229
(D) for expenses incurred in 2013, only 81 ¼
percent of such expenses; and
(E) for expenses incurred in 2014 or any
subsequent calendar year, 100 percent of such
expenses.
(2) For purposes of subparagraphs (A) through
(D) of paragraph (1), the term “treatment” does not
include brief office visits (as defined by the Secretary)
for the sole purpose of monitoring or changing drug
prescriptions used in the treatment of such disorders
or partial hospitalization services that are not
directly provided by a physician.
(d) Nonduplication of payments
No payment may be made under this part with respect
to any services furnished an individual to the extent
that such individual is entitled (or would be entitled
except for section 1395e of this title) to have payment
made with respect to such services under part A.
(e) Information for determination of amounts
due
No payment shall be made to any provider of services
or other person under this part unless there has been
furnished such information as may be necessary in order to determine the amounts due such provider or
other person under this part for the period with respect to which the amounts are being paid or for any
prior period.
(f) Maximum rate of payment per visit for
independent rural health clinics
(1) In establishing limits under subsection (a)
on payment for rural health clinic services provided
by rural health clinics (other than such clinics in

230
hospitals with less than 50 beds), the Secretary shall
establish such limit, for services provided prior to
April 1, 2021—
and

(A) in 1988, after March 31, at $46 per visit,

(B) in a subsequent year (before April 1,
2021), at the limit established under this paragraph
for the previous year increased by the percentage
increase in the MEI (as defined in section
1395u(i)(3) of this title) applicable to primary care
services (as defined in section 1395u(i)(4) of this
title) furnished as of the first day of that year.
(2) In establishing limits under subsection (a)
on payment for rural health clinic services furnished
on or after April 1, 2021, by a rural health clinic
(other than a rural health clinic described in
paragraph (3)(B)), the Secretary shall establish such
limit, for services provided—
(A) in 2021, after March 31, at $100 per visit;
(B) in 2022, at $113 per visit;
(C) in 2023, at $126 per visit;
(D) in 2024, at $139 per visit;
(E) in 2025, at $152 per visit;
(F) in 2026, at $165 per visit;
(G) in 2027, at $178 per visit;
(H) in 2028, at $190 per visit; and
(I) in a subsequent year, at the limit
established under this paragraph for the previous
year increased by the percentage increase in the
MEI applicable to primary care services furnished
as of the first day of such subsequent year.

231
(3)(A) In establishing limits under subsection
(a) on payment for rural health clinic services
furnished on or after April 1, 2021, by a rural health
clinic described in subparagraph (B), the Secretary
shall establish such limit, with respect to each such
rural health clinic, for services provided—
(i) in 2021, after March 31, at an amount
equal to the greater of—
(I) with respect to a rural health clinic that
had a per visit payment amount established for
services furnished in 2020—
(aa) the per visit payment amount
applicable to such rural health clinic for rural
health clinic services furnished in 2020,
increased by the percentage increase in the MEI
applicable to primary care services furnished as
of the first day of 2021; or
(bb) the limit described in paragraph
(2)(A); and
(II) with respect to a rural health clinic
that did not have a per visit payment amount
established for services furnished in 2020—
(aa) the per visit payment amount
applicable to such rural health clinic for rural
health clinic services furnished in 2021; or
(bb) the limit described in paragraph
(2)(A); and
(ii) in a subsequent year, at an amount
equal to the greater of—
(I) the amount established under
subclause (I) or (II) of clause (i), as applicable, or
this subclause for the previous year with respect

232
to such rural health clinic, increased by the
percentage increase in the MEI applicable to
primary care services furnished as of the first day
of such subsequent year; or
(II) the limit established under paragraph
(2) for such subsequent year.
(B) A rural health clinic described in this
subparagraph is a rural health clinic that—
(i) as of December 31, 2020, was in a
hospital with less than 50 beds and after such date
such hospital continues to have less than 50 beds
(not taking into account any increase in the
number of beds pursuant to a waiver under
subsection (b)(1)(A) of section 1320b-5 of this title
during the emergency period described in
subsection (g)(1)(B) of such section); and
(ii)(I) as of December 31, 2020, was enrolled
under section 1395cc(j) of this title (including
temporary enrollment during such emergency
period for such emergency period); or
(II) submitted an application for
enrollment under section 1395cc(j) of this title (or
a request for such a temporary enrollment for
such emergency period) that was received not
later than December 31, 2020.
(g) Physical therapy services
(1)(A) Subject to paragraphs (4) and (5), in the
case of physical therapy services of the type described
in section 1395x(p) of this title and speech-language
pathology services of the type described in such
section through the application of section 1395x(ll)(2)
of this title, but (except as provided in paragraph (6))
not described in subsection (a)(8)(B), and physical

233
therapy services and speech-language pathology
services of such type which are furnished by a
physician or as incident to physicians’ services, with
respect to expenses incurred in any calendar year, no
more than the amount specified in paragraph (2) for
the year shall be considered as incurred expenses for
purposes of subsections (a) and (b). The preceding
sentence shall not apply to expenses incurred with
respect to services furnished after December 31,
2017.
(B) With respect to services furnished during
2018 or a subsequent year, in the case of physical
therapy services of the type described in section
1395x(p) of this title, speech-language pathology
services of the type described in such section
through the application of section 1395x(ll)(2) of
this title, and physical therapy services and speechlanguage pathology services of such type which are
furnished by a physician or as incident to
physicians’ services, with respect to expenses
incurred in any calendar year, any amount that is
more than the amount specified in paragraph (2) for
the year shall not be considered as incurred
expenses for purposes of subsections (a) and (b)
unless the applicable requirements of paragraph (7)
are met.
(2) The amount specified in this paragraph—
(A) for 1999, 2000, and 2001, is $1,500, and
(B) for a subsequent year is the amount
specified in this paragraph for the preceding year
increased by the percentage increase in the MEI (as
defined in section 1395u(i)(3) of this title) for such
subsequent year;

234
except that if an increase under subparagraph (B) for
a year is not a multiple of $10, it shall be rounded to
the nearest multiple of $10.
(3)(A) Subject to paragraphs (4) and (5), in the
case of occupational therapy services (of the type that
are described in section 1395x(p) of this title (but
(except as provided in paragraph (6)) not described in
subsection (a)(8)(B)) through the operation of section
1395x(g) of this title and of such type which are
furnished by a physician or as incident to physicians’
services), with respect to expenses incurred in any
calendar year, no more than the amount specified in
paragraph (2) for the year shall be considered as
incurred expenses for purposes of subsections (a) and
(b). The preceding sentence shall not apply to
expenses incurred with respect to services furnished
after December 31, 2017.
(B) With respect to services furnished during
2018 or a subsequent year, in the case of
occupational therapy services (of the type that are
described in section 1395x(p) of this title through
the operation of section 1395x(g) of this title and of
such type which are furnished by a physician or as
incident to physicians’ services), with respect to
expenses incurred in any calendar year, any
amount that is more than the amount specified in
paragraph (2) for the year shall not be considered as
incurred expenses for purposes of subsections (a)
and (b) unless the applicable requirements of
paragraph (7) are met.
(4) This subsection shall not apply to expenses
incurred with respect to services furnished during
2000, 2001, 2002, 2004, and 2005.
(5)(A) With respect to expenses incurred
during the period beginning on January 1, 2006, and

235
ending on December 31, 2017, for services, the
Secretary shall implement a process under which an
individual enrolled under this part may, upon
request of the individual or a person on behalf of the
individual, obtain an exception from the uniform
dollar limitation specified in paragraph (2), for
services described in paragraphs (1) and (3) if the
provision of such services is determined to be
medically necessary and if the requirement of
subparagraph (B) is met. Under such process, if the
Secretary does not make a decision on such a request
for an exception within 10 business days of the date
of the Secretary’s receipt of the request made in
accordance with such requirement, the Secretary
shall be deemed to have found the services to be
medically necessary.
(B) In the case of outpatient therapy services
for which an exception is requested under the first
sentence of subparagraph (A), the claim for such
services shall contain an appropriate modifier (such
as the KX modifier used as of February 22, 2012)
indicating that such services are medically
necessary
as
justified
by
appropriate
documentation in the medical record involved.
(C)(i) In applying this paragraph with respect
to a request for an exception with respect to
expenses that would be incurred for outpatient
therapy services (including services described in
subsection (a)(8)(B)) that would exceed the
threshold described in clause (ii) for a year, the
request for such an exception, for services furnished
on or after October 1, 2012, shall be subject to a
manual medical review process that, subject to
subparagraph (E), is similar to the manual medical

236
review process used for certain exceptions under
this paragraph in 2006.
(ii) The threshold under this clause for a
year is $3,700. Such threshold shall be applied
separately—
(I) for physical therapy services and
speech-language pathology services; and
(II) for occupational therapy services.
[(D) Redesignated (g)(8)]
(E)(i) In place of the manual medical review
process under subparagraph (C)(i), the Secretary
shall implement a process for medical review under
this subparagraph under which the Secretary shall
identify and conduct medical review for services
described in subparagraph (C)(i) furnished by a
provider of services or supplier (in this
subparagraph referred to as a “therapy provider”)
using such factors as the Secretary determines to be
appropriate.
(ii) Such factors may include the following:
(I) The therapy provider has had a high
claims denial percentage for therapy services
under this part or is less compliant with
applicable requirements under this subchapter.
(II) The therapy provider has a pattern of
billing for therapy services under this part that
is aberrant compared to peers or otherwise has
questionable billing practices for such services,
such as billing medically unlikely units of
services in a day.
(III) The therapy provider is newly
enrolled under this subchapter or has not

237
previously furnished therapy services under this
part.
(IV) The services are furnished to treat a
type of medical condition.
(V) The therapy provider is part of group5
that includes another therapy provider identified
using the factors determined under this
subparagraph.
(iii) For purposes of carrying out this
subparagraph, the Secretary shall provide for the
transfer, from the Federal Supplementary Medical
Insurance Trust Fund under section 1395t of this
title, of $5,000,000 to the Centers for Medicare &
Medicaid Services Program Management Account
for fiscal years 2015 and 2016, to remain available
until expended. Such funds may not be used by a
contractor under section 1395ddd(h) of this title
for medical reviews under this subparagraph.
(iv) The targeted review process under this
subparagraph shall not apply to services for which
expenses are incurred beyond the period for which
the exceptions process under subparagraph (A) is
implemented, except as such process is applied
under paragraph (7)(B).
(6)(A) In applying paragraphs (1) and (3) to
services furnished during the period beginning not
later than October 1, 2012, and ending on December
31, 2017, the exclusion of services described in
subsection (a)(8)(B) from the uniform dollar
limitation specified in paragraph (2) shall not apply
to such services furnished during 2012 through 2017.

5

So in original. Probably should be preceded by “a”.

238
(B)(i) With respect to outpatient therapy
services furnished beginning on or after January 1,
2013, and before January 1, 2014, for which
payment is made under section 1395m(g) of this
title, the Secretary shall count toward the uniform
dollar limitations described in paragraphs (1) and
(3) and the threshold described in paragraph (5)(C)
the amount that would be payable under this part
if such services were paid under section
1395m(k)(1)(B) of this title instead of being paid
under section 1395m(g) of this title.
(ii) Nothing in clause (i) shall be construed
as changing the method of payment for outpatient
therapy services under section 1395m(g) of this
title.
(7) For purposes of paragraphs (1)(B) and
(3)(B), with respect to services described in such
paragraphs, the requirements described in this
paragraph are as follows:
(A) Inclusion of appropriate modifier
The claim for such services contains an
appropriate modifier (such as the KX modifier
described in paragraph (5)(B)) indicating that such
services are medically necessary as justified by
appropriate documentation in the medical record
involved.
(B) Targeted medical review for certain
services above threshold
(i) In general
In the case where expenses that would be
incurred for such services would exceed the
threshold described in clause (ii) for the year, such

239
services shall be subject to the process for medical
review implemented under paragraph (5)(E).
(ii) Threshold
The threshold under this clause for—
(I) a year before 2028, is $3,000;
(II) 2028, is the amount specified in
subclause (I) increased by the percentage
increase in the MEI (as defined in section
1395u(i)(3) of this title) for 2028; and
(III) a subsequent year, is the amount
specified in this clause for the preceding year
increased by the percentage increase in the MEI
(as defined in section 1395u(i)(3) of this title) for
such subsequent year;
except that if an increase under subclause (II) or
(III) for a year is not a multiple of $10, it shall be
rounded to the nearest multiple of $10.
(iii) Application
The threshold under clause (ii) shall be
applied separately—
(I) for physical therapy services and
speech-language pathology services; and
(II) for occupational therapy services.
(iv) Funding
For purposes of carrying out this
subparagraph, the Secretary shall provide for the
transfer, from the Federal Supplementary Medical
Insurance Trust Fund under section 1395t of this
title to the Centers for Medicare & Medicaid
Services Program Management Account, of
$5,000,000 for each fiscal year beginning with

240
fiscal year 2018, to remain available until
expended. Such funds may not be used by a
contractor under section 1395ddd(h) of this title
for medical reviews under this subparagraph.
(8) With respect to services furnished on or
after January 1, 2013, where payment may not be
made as a result of application of paragraphs (1) and
(3), section 1395pp of this title shall apply in the
same manner as such section applies to a denial that
is made by reason of section 1395y(a)(1) of this title.
(h) Fee schedules for clinical diagnostic
laboratory tests; percentage of prevailing
charge level; nominal fee for samples;
adjustments; recipients of payments; negotiated
payment rate
(1)(A) Subject to section 1395m(d)(1) of this
title, the Secretary shall establish fee schedules for
clinical diagnostic laboratory tests (including
prostate cancer screening tests under section
1395x(oo) of this title consisting of prostate-specific
antigen blood tests) for which payment is made under
this part, other than such tests performed by a
provider of services for an inpatient of such provider.
(B) In the case of clinical diagnostic
laboratory tests performed by a physician or by a
laboratory (other than tests performed by a
qualified hospital laboratory (as defined in
subparagraph (D)) for outpatients of such hospital),
the fee schedules established under subparagraph
(A) shall be established on a regional, statewide, or
carrier service area basis (as the Secretary may
determine to be appropriate) for tests furnished on
or after July 1, 1984.

241
(C) In the case of clinical diagnostic
laboratory tests performed by a qualified hospital
laboratory (as defined in subparagraph (D)) for
outpatients of such hospital, the fee schedules
established under subparagraph (A) shall be
established on a regional, statewide, or carrier
service area basis (as the Secretary may determine
to be appropriate) for tests furnished on or after
July 1, 1984.
(D) In this subsection, the term “qualified
hospital laboratory” means a hospital laboratory, in
a sole community hospital (as defined in section
1395ww(d)(5)(D)(iii) of this title), which provides
some clinical diagnostic laboratory tests 24 hours a
day in order to serve a hospital emergency room
which is available to provide services 24 hours a day
and 7 days a week.
(2)(A)(i) Except as provided in clause (v),
subparagraph (B), and paragraph (4), the Secretary
shall set the fee schedules at 60 percent (or, in the
case of a test performed by a qualified hospital
laboratory (as defined in paragraph (1)(D)) for
outpatients of such hospital, 62 percent) of the
prevailing charge level determined pursuant to the
third and fourth sentences of section 1395u(b)(3) of
this title for similar clinical diagnostic laboratory
tests for the applicable region, State, or area for the
12-month period beginning July 1, 1984, adjusted
annually (to become effective on January 1 of each
year) by, subject to clause (iv), a percentage increase
or decrease equal to the percentage increase or
decrease in the Consumer Price Index for All Urban
Consumers (United States city average) minus, for
each of the years 2009 and 2010, 0.5 percentage
points, and, for tests furnished before April 1, 2014,

242
subject to such other adjustments as the Secretary
determines are justified by technological changes.
(ii) Notwithstanding clause (i)—
(I) any change in the fee schedules which
would have become effective under this
subsection for tests furnished on or after January
1, 1988, shall not be effective for tests furnished
during the 3-month period beginning on January
1, 1988,
(II) the Secretary shall not adjust the fee
schedules under clause (i) to take into account
any increase in the consumer price index for
1988,
(III) the annual adjustment in the fee
schedules determined under clause (i) for each of
the years 1991, 1992, and 1993 shall be 2 percent,
and
(IV) the annual adjustment in the fee
schedules determined under clause (i) for each of
the years 1994 and 1995, 1998 through 2002, and
2004 through 2008 shall be 0 percent.
(iii) In establishing fee schedules under
clause (i) with respect to automated tests and tests
(other than cytopathology tests) which before July
1, 1984, the Secretary made subject to a limit
based on lowest charge levels under the sixth
sentence of section 1395u(b)(3) of this title
performed after March 31, 1988, the Secretary
shall reduce by 8.3 percent the fee schedules
otherwise established for 1988, and such reduced
fee schedules shall serve as the base for 1989 and
subsequent years.

243
(iv) After determining the adjustment to the
fee schedules under clause (i), the Secretary shall
reduce such adjustment—
(I) for 2011 and each subsequent year, by
the productivity adjustment described in section
1395ww(b)(3)(B)(xi)(II) of this title; and
(II) for each of 2011 through 2015, by 1.75
percentage points.
Subclause (I) shall not apply in a year where
the adjustment to the fee schedules determined
under clause (i) is 0.0 or a percentage decrease for
a year. The application of the productivity
adjustment under subclause (I) shall not result in
an adjustment to the fee schedules under clause (i)
being less than 0.0 for a year. The application of
subclause (II) may result in an adjustment to the
fee schedules under clause (i) being less than 0.0
for a year, and may result in payment rates for a
year being less than such payment rates for the
preceding year.
(v) The Secretary shall reduce by 2 percent
the fee schedules otherwise determined under
clause (i) for 2013, and such reduced fee schedules
shall serve as the base for 2014 and subsequent
years.
(B) The Secretary may make further
adjustments or exceptions to the fee schedules to
assure adequate reimbursement of (i) emergency
laboratory tests needed for the provision of bona
fide emergency services, and (ii) certain low volume
high-cost tests where highly sophisticated
equipment or extremely skilled personnel are
necessary to assure quality.

244
(3) In addition to the amounts provided under
the fee schedules (for tests furnished before January
1, 2017) or under section 1395m-1 of this title (for
tests furnished on or after January 1, 2017), subject
to subsection (b)(5) of such section, the Secretary
shall provide for and establish (A) a nominal fee to
cover the appropriate costs in collecting the sample
on which a clinical diagnostic laboratory test was
performed and for which payment is made under this
part, except that not more than one such fee may be
provided under this paragraph with respect to
samples collected in the same encounter, and (B) a
fee to cover the transportation and personnel
expenses for trained personnel to travel to the
location of an individual to collect the sample, except
that such a fee may be provided only with respect to
an individual who is homebound or an inpatient in
an inpatient facility (other than a hospital). In
establishing a fee to cover the transportation and
personnel expenses for trained personnel to travel to
the location of an individual to collect a sample, the
Secretary shall provide a method for computing the
fee based on the number of miles traveled and the
personnel costs associated with the collection of each
individual sample, but the Secretary shall only be
required to apply such method in the case of tests
furnished during the period beginning on April 1,
1989, and ending on December 31, 1990, by a
laboratory that establishes to the satisfaction of the
Secretary (based on data for the 12-month period
ending June 30, 1988) that (i) the laboratory is
dependent upon payments under this subchapter for
at least 80 percent of its collected revenues for
clinical diagnostic laboratory tests, (ii) at least 85
percent of its gross revenues for such tests are
attributable to tests performed with respect to

245
individuals who are homebound or who are residents
in a nursing facility, and (iii) the laboratory provided
such tests for residents in nursing facilities
representing at least 20 percent of the number of
such facilities in the State in which the laboratory is
located.
(4)(A) In establishing any fee schedule under
this subsection, the Secretary may provide for an
adjustment to take into account, with respect to the
portion of the expenses of clinical diagnostic
laboratory tests attributable to wages, the relative
difference between a region’s or local area’s wage
rates and the wage rate presumed in the data on
which the schedule is based.
(B) For purposes of subsections (a)(1)(D)(i)
and (a)(2)(D)(i), the limitation amount for a clinical
diagnostic laboratory test performed—
(i) on or after July 1, 1986, and before April
1, 1988, is equal to 115 percent of the median of all
the fee schedules established for that test for that
laboratory setting under paragraph (1),
(ii) after March 31, 1988, and before
January 1, 1990, is equal to the median of all the
fee schedules established for that test for that
laboratory setting under paragraph (1),
(iii) after December 31, 1989, and before
January 1, 1991, is equal to 93 percent of the
median of all the fee schedules established for that
test for that laboratory setting under paragraph
(1),
(iv) after December 31, 1990, and before
January 1, 1994, is equal to 88 percent of such
median,

246
(v) after December 31, 1993, and before
January 1, 1995, is equal to 84 percent of such
median,
(vi) after December 31, 1994, and before
January 1, 1996, is equal to 80 percent of such
median,
(vii) after December 31, 1995, and before
January 1, 1998, is equal to 76 percent of such
median, and
(viii) after December 31, 1997, is equal to 74
percent of such median (or 100 percent of such
median in the case of a clinical diagnostic
laboratory test performed on or after January 1,
2001, that the Secretary determines is a new test
for which no limitation amount has previously
been established under this subparagraph).
(5)(A) In the case of a bill or request for
payment for a clinical diagnostic laboratory test for
which payment may otherwise be made under this
part on an assignment-related basis or under a
provider agreement under section 1395cc of this title,
payment may be made only to the person or entity
which performed or supervised the performance of
such test; except that—
(i) if a physician performed or supervised
the performance of such test, payment may be
made to another physician with whom he shares
his practice,
(ii) in the case of a test performed at the
request of a laboratory by another laboratory,
payment may be made to the referring laboratory
but only if—

247
(I) the referring laboratory is located in, or
is part of, a rural hospital,
(II) the referring laboratory is wholly
owned by the entity performing such test, the
referring laboratory wholly owns the entity
performing such test, or both the referring
laboratory and the entity performing such test
are wholly-owned by a third entity, or
(III) not more than 30 percent of the
clinical diagnostic laboratory tests for which such
referring laboratory (but not including a
laboratory described in subclause (II)),6 receives
requests for testing during the year in which the
test is performed6 are performed by another
laboratory, and
(iii) in the case of a clinical diagnostic
laboratory test provided under an arrangement
(as defined in section 1395x(w)(1) of this title)
made by a hospital, critical access hospital, or
skilled nursing facility, payment shall be made to
the hospital or skilled nursing facility.
(B) In the case of such a bill or request for
payment for a clinical diagnostic laboratory test for
which payment may otherwise be made under this
part, and which is not described in subparagraph
(A), payment may be made to the beneficiary only
on the basis of the itemized bill of the person or
entity which performed or supervised the
performance of the test.
(C) Payment for a clinical diagnostic
laboratory test, including a test performed in a
So in original. The comma after “subclause (II))” probably should
follow “is performed”.

6

248
physician’s office but excluding a test performed by
a rural health clinic may only be made on an
assignment-related basis or to a provider of services
with an agreement in effect under section 1395cc of
this title.
(D) A person may not bill for a clinical
diagnostic laboratory test, including a test
performed in a physician’s office but excluding a
test performed by a rural health clinic, other than
on an assignment-related basis. If a person
knowingly and willfully and on a repeated basis
bills for a clinical diagnostic laboratory test in
violation of the previous sentence, the Secretary
may apply sanctions against the person in the same
manner as the Secretary may apply sanctions
against a physician in accordance with paragraph
(2) of section 1395u(j) of this title in the same
manner such paragraphs apply 7 with respect to a
physician. Paragraph (4) of such section shall apply
in this subparagraph in the same manner as such
paragraph applies to such section.
(6) For tests furnished before January 1, 2017,
in the case of any diagnostic laboratory test payment
for which is not made on the basis of a fee schedule
under paragraph (1), the Secretary may establish a
payment rate which is acceptable to the person or
entity performing the test and which would be
considered the full charge for such tests. Such
negotiated rate shall be limited to an amount not in
excess of the total payment that would have been
made for the services in the absence of such rate.
(7) Notwithstanding paragraphs (1) and (4)
and section 1395m-1 of this title, the Secretary shall
7

So in original. Probably should be “such paragraph applies”.

249
establish a national minimum payment amount
under this part for a diagnostic or screening pap
smear laboratory test (including all cervical cancer
screening technologies that have been approved by
the Food and Drug Administration as a primary
screening method for detection of cervical cancer)
equal to $14.60 for tests furnished in 2000. For such
tests furnished in subsequent years, such national
minimum payment amount shall be adjusted
annually as provided in paragraph (2).
(8)(A) The Secretary shall establish by
regulation procedures for determining the basis for,
and amount of, payment under this subsection for
any clinical diagnostic laboratory test with respect to
which a new or substantially revised HCPCS code is
assigned on or after January 1, 2005 (in this
paragraph referred to as “new tests”).
(B) Determinations under subparagraph (A)
shall be made only after the Secretary—
(i) makes available to the public (through an
Internet
website
and
other
appropriate
mechanisms) a list that includes any such test for
which establishment of a payment amount under
this subsection is being considered for a year;
(ii) on the same day such list is made
available, causes to have published in the Federal
Register notice of a meeting to receive comments
and recommendations (and data on which
recommendations are based) from the public on
the appropriate basis under this subsection for
establishing payment amounts for the tests on
such list;
(iii) not less than 30 days after publication
of such notice convenes a meeting, that includes

250
representatives of officials of the Centers for
Medicare & Medicaid Services involved in
determining payment amounts, to receive such
comments and recommendations (and data on
which the recommendations are based);
(iv) taking into account the comments and
recommendations (and accompanying data)
received at such meeting, develops and makes
available to the public (through an Internet
website and other appropriate mechanisms) a list
of proposed determinations with respect to the
appropriate basis for establishing a payment
amount under this subsection for each such code,
together with an explanation of the reasons for
each such determination, the data on which the
determinations are based, and a request for public
written comments on the proposed determination;
and
(v) taking into account the comments
received during the public comment period,
develops and makes available to the public
(through an Internet website and other
appropriate mechanisms) a list of final
determinations of the payment amounts for such
tests under this subsection, together with the
rationale for each such determination, the data on
which the determinations are based, and
responses to comments and suggestions received
from the public.
(C) Under the procedures established
pursuant to subparagraph (A), the Secretary
shall—
(i) set forth the criteria for making
determinations under subparagraph (A); and

251
(ii) make available to the public the data
(other than proprietary data) considered in
making such determinations.
(D) The Secretary may convene such further
public meetings to receive public comments on
payment amounts for new tests under this
subsection as the Secretary deems appropriate.
(E) For purposes of this paragraph:
(i) The term “HCPCS” refers to the Health
Care Procedure Coding System.
(ii) A code shall be considered to be
“substantially revised” if there is a substantive
change to the definition of the test or procedure to
which the code applies (such as a new analyte or a
new methodology for measuring an existing
analyte-specific test).
(9) Notwithstanding any other provision in
this part, in the case of any diagnostic laboratory test
for HbA1c that is labeled by the Food and Drug
Administration for home use and is furnished on or
after April 1, 2008, the payment rate for such test
shall be the payment rate established under this part
for a glycated hemoglobin test (identified as of
October 1, 2007, by HCPCS code 83036 (and any
succeeding codes)).
(i) Outpatient surgery
(1) The Secretary shall, in consultation with
appropriate medical organizations—
(A) specify those surgical procedures which
are appropriately (when considered in terms of the
proper utilization of hospital inpatient facilities)
performed on an inpatient basis in a hospital but
which also can be performed safely on an

252
ambulatory basis in an ambulatory surgical center
(meeting the standards specified under section
1395k(a)(2)(F)(i) of this title), critical access
hospital, or hospital outpatient department, and
(B) specify those surgical procedures which
are appropriately (when considered in terms of the
proper utilization of hospital inpatient facilities)
performed on an inpatient basis in a hospital but
which also can be performed safely on an
ambulatory basis in a physician’s office.
The lists of procedures established under
subparagraphs (A) and (B) shall be reviewed and
updated not less often than every 2 years, in
consultation
with
appropriate
trade
and
professional organizations.
(2)(A) For services furnished prior to the
implementation of the system described in
subparagraph (D), subject to subparagraph (E), the
amount of payment to be made for facility services
furnished in connection with a surgical procedure
specified pursuant to paragraph (1)(A) and furnished
to an individual in an ambulatory surgical center
described in such paragraph shall be equal to 80
percent of a standard overhead amount established
by the Secretary (with respect to each such
procedure) on the basis of the Secretary’s estimate of
a fair fee which—
(i) takes into account the costs incurred by
such centers, or classes of centers, generally in
providing services furnished in connection with
the performance of such procedure, as determined
in accordance with a survey (based upon a
representative sample of procedures and facilities)
of the actual audited costs incurred by such
centers in providing such services,

253
(ii) takes such costs into account in such a
manner as will assure that the performance of the
procedure in such a center will result in
substantially less amounts paid under this
subchapter than would have been paid if the
procedure had been performed on an inpatient
basis in a hospital, and
(iii) in the case of insertion of an intraocular
lens during or subsequent to cataract surgery
includes payment which is reasonable and related
to the cost of acquiring the class of lens involved.
Each amount so established shall be
reviewed and updated not later than July 1, 1987,
and annually thereafter to take account of varying
conditions in different areas.
(B) The amount of payment to be made under
this part for facility services furnished, in
connection with a surgical procedure specified
pursuant to paragraph (1)(B), in a physician’s office
shall be equal to 80 percent of a standard overhead
amount established by the Secretary (with respect
to each such procedure) on the basis of the
Secretary’s estimate of a fair fee which—
(i) takes into account additional costs, not
usually included in the professional fee, incurred
by physicians in securing, maintaining, and
staffing the facilities and ancillary services
appropriate for the performance of such procedure
in the physician’s office, and
(ii) takes such items into account in such a
manner which will assure that the performance of
such procedure in the physician’s office will result
in substantially less amounts paid under this
subchapter than would have been paid if the

254
services had been furnished on an inpatient basis
in a hospital.
Each amount so established shall be
reviewed and updated not later than July 1, 1987,
and annually thereafter to take account of varying
conditions in different areas.
(C)(i) Notwithstanding the second sentence
of each of subparagraphs (A) and (B), except as
otherwise specified in clauses (ii), (iii), and (iv), if
the Secretary has not updated amounts established
under such subparagraphs or under subparagraph
(D), with respect to facility services furnished
during a fiscal year (beginning with fiscal year 1986
or a calendar year (beginning with 2006)), such
amounts shall be increased by the percentage
increase in the Consumer Price Index for all urban
consumers (U.S. city average) as estimated by the
Secretary for the 12-month period ending with the
midpoint of the year involved.
(ii) In each of the fiscal years 1998 through
2002, the increase under this subparagraph shall
be reduced (but not below zero) by 2.0 percentage
points.
(iii) In fiscal year 2004, beginning with
April 1, 2004, the increase under this
subparagraph shall be the Consumer Price Index
for all urban consumers (U.S. city average) as
estimated by the Secretary for the 12-month
period ending with March 31, 2003, minus 3.0
percentage points.
(iv) In fiscal year 2005, the last quarter of
calendar year 2005, and each of calendar years
2006 through 2009, the increase under this
subparagraph shall be 0 percent.

255
(D)(i)
Taking
into
account
the
recommendations in the report under section 626(d)
of Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, the Secretary shall
implement a revised payment system for payment
of surgical services furnished in ambulatory
surgical centers.
(ii) In the year the system described in
clause (i) is implemented, such system shall be
designed to result in the same aggregate amount
of expenditures for such services as would be made
if this subparagraph did not apply, as estimated
by the Secretary and taking into account reduced
expenditures that would apply if subparagraph (E)
were to continue to apply, as estimated by the
Secretary.
(iii) The Secretary shall implement the
system described in clause (i) for periods in a
manner so that it is first effective beginning on or
after January 1, 2006, and not later than January
1, 2008.
(iv) The Secretary may implement such
system in a manner so as to provide for a reduction
in any annual update for failure to report on
quality measures in accordance with paragraph
(7).
(v) In implementing the system described in
clause (i) for 2011 and each subsequent year, any
annual update under such system for the year,
after application of clause (iv), shall be reduced by
the productivity adjustment described in section
1395ww(b)(3)(B)(xi)(II) of this title. The
application of the preceding sentence may result
in such update being less than 0.0 for a year, and
may result in payment rates under the system

256
described in clause (i) for a year being less than
such payment rates for the preceding year.
(vi) There shall be no administrative or
judicial review under section 1395ff, 1395oo of this
title, or otherwise, of the classification system, the
relative weights, payment amounts, and the
geographic adjustment factor, if any, under this
subparagraph.
(E) With respect to surgical procedures
furnished on or after January 1, 2007, and before
the effective date of the implementation of a revised
payment system under subparagraph (D), if—
(i) the standard overhead amount under
subparagraph (A) for a facility service for such
procedure, without the application of any
geographic adjustment, exceeds
(ii) the Medicare OPD fee schedule amount
established under the prospective payment system
for hospital outpatient department services under
paragraph (3)(D) of subsection (t) for such service
for such year, determined without regard to
geographic adjustment under paragraph (2)(D) of
such subsection,
the Secretary shall substitute under
subparagraph (A) the amount described in clause
(ii) for the standard overhead amount for such
service referred to in clause (i).
(3)(A) The aggregate amount of the payments
to be made under this part for outpatient hospital
facility services or critical access hospital services
furnished before January 1, 1999, in connection with
surgical procedures specified under paragraph (1)(A)
shall be equal to the lesser of—

257
(i) the amount determined with respect to
such services under subsection (a)(2)(B); or
(ii) the blend
subparagraph (B)).

amount

(described

in

(B)(i) The blend amount for a cost reporting
period is the sum of—
(I) the cost proportion (as defined in clause
(ii)(I)) of the amount described in subparagraph
(A)(i), and
(II) the ASC proportion (as defined in
clause (ii)(II)) of the standard overhead amount
payable with respect to the same surgical
procedure as if it were provided in an ambulatory
surgical center in the same area, as determined
under paragraph (2)(A), less the amount a
provider may charge as described in clause (ii) of
section 1395cc(a)(2)(A) of this title.
(ii) Subject to paragraph (4), in this
paragraph:
(I) The term “cost proportion” means 75
percent for cost reporting periods beginning in
fiscal year 1988, 50 percent for portions of cost
reporting periods beginning on or after October
1, 1988, and ending on or before December 31,
1990, and 42 percent for portions of cost
reporting periods beginning on or after January
1, 1991.
(II) The term “ASC proportion” means 25
percent for cost reporting periods beginning in
fiscal year 1988, 50 percent for portions of cost
reporting periods beginning on or after October
1, 1988, and ending on or before December 31,
1990, and 58 percent for portions of cost

258
reporting periods beginning on or after January
1, 1991.
(4)(A) In the case of a hospital that—
(i) makes application to the Secretary and
demonstrates that it specializes in eye services or
eye and ear services (as determined by the
Secretary),
(ii) receives more than 30 percent of its total
revenues from outpatient services, and
(iii) on October 1, 1987—
(I) was an eye specialty hospital or an eye
and ear specialty hospital, or
(II) was operated as an eye or eye and ear
unit (as defined in subparagraph (B)) of a general
acute care hospital which, on the date of the
application described in clause (i), operates less
than 20 percent of the beds that the hospital
operated on October 1, 1987, and has sold or
otherwise disposed of a substantial portion of the
hospital’s other acute care operations,
the cost proportion and ASC proportion in
effect under subclauses (I) and (II) of paragraph
(3)(B)(ii) for cost reporting periods beginning in
fiscal year 1988 shall remain in effect for cost
reporting periods beginning on or after October 1,
1988, and before January 1, 1995.
(B) For purposes of this 8 subparagraph
(A)(iii)(II), the term “eye or eye and ear unit” means
a physically separate or distinct unit containing

8

So in original. The word “this” probably should not appear.

259
separate surgical suites devoted solely to eye or eye
and ear services.
(5)(A) The Secretary is authorized to provide
by regulations that in the case of a surgical
procedure, specified by the Secretary pursuant to
paragraph (1)(A), performed in an ambulatory
surgical center described in such paragraph, there
shall be paid (in lieu of any amounts otherwise
payable under this part) with respect to the facility
services furnished by such center and with respect to
all related services (including physicians’ services,
laboratory, X-ray, and diagnostic services) a single
all-inclusive
fee
established
pursuant
to
subparagraph (B), if all parties furnishing all such
services agree to accept such fee (to be divided among
the parties involved in such manner as they shall
have previously agreed upon) as full payment for the
services furnished.
(B) In implementing this paragraph, the
Secretary shall establish with respect to each
surgical procedure specified pursuant to paragraph
(1)(A) the amount of the all-inclusive fee for such
procedure, taking into account such factors as may
be appropriate. The amount so established with
respect to any surgical procedure shall be reviewed
periodically and may be adjusted by the Secretary,
when appropriate, to take account of varying
conditions in different areas.
(6) Any person, including a facility having an
agreement under section 1395k(a)(2)(F)(i) of this
title, who knowingly and willfully presents, or causes
to be presented, a bill or request for payment, for an
intraocular lens inserted during or subsequent to
cataract surgery for which payment may be made
under paragraph (2)(A)(iii), is subject to a civil money

260
penalty of not to exceed $2,000. The provisions of
section 1320a-7a of this title (other than subsections
(a) and (b)) shall apply to a civil money penalty under
the previous sentence in the same manner as such
provisions apply to a penalty or proceeding under
section 1320a-7a(a) of this title.
(7)(A) For purposes of paragraph (2)(D)(iv), the
Secretary may provide, in the case of an ambulatory
surgical center that does not submit, to the Secretary
in accordance with this paragraph, data required to
be submitted on measures selected under this
paragraph with respect to a year, any annual
increase provided under the system established
under paragraph (2)(D) for such year shall be
reduced by 2.0 percentage points. A reduction under
this subparagraph shall apply only with respect to
the year involved and the Secretary shall not take
into account such reduction in computing any annual
increase factor for a subsequent year.
(B) Except as the Secretary may otherwise
provide, the provisions of subparagraphs (B), (C),
(D), and (E) of paragraph (17) of subsection (t) shall
apply with respect to services of ambulatory
surgical centers under this paragraph in a similar
manner to the manner in which they apply under
such paragraph and, for purposes of this
subparagraph, any reference to a hospital,
outpatient setting, or outpatient hospital services is
deemed a reference to an ambulatory surgical
center, the setting of such a center, or services of
such a center, respectively.
(8) The Secretary shall conduct a similar type
of review as required under paragraph (22) of section

261
1395l(t) of this title)9, including the second sentence
of subparagraph (C) of such paragraph, to payment
for services under this subsection, and make such
revisions under this paragraph, in an appropriate
manner (as determined by the Secretary).
(j) Accrual of interest on balance of excess or
deficit not paid
Whenever a final determination is made that the
amount of payment made under this part either to a
provider of services or to another person pursuant to
an assignment under section 1395u(b)(3)(B)(ii) of this
title was in excess of or less than the amount of payment that is due, and payment of such excess or deficit
is not made (or effected by offset) within 30 days of the
date of the determination, interest shall accrue on the
balance of such excess or deficit not paid or offset (to
the extent that the balance is owed by or owing to the
provider) at a rate determined in accordance with the
regulations of the Secretary of the Treasury applicable
to charges for late payments (or, in the case of such a
determination made with respect to a payment made
on or after March 27, 2020, and during the emergency
period described in section 1320b-5(g)(1)(B) of this title
under the program described in section 421.214 of title
42, Code of Federal Regulations (or any successor regulation), at a rate of 4 percent).
(k) Hepatitis B vaccine
With respect to services described in section
1395x(s)(10)(B) of this title, the Secretary may provide, instead of the amount of payment otherwise provided under this part, for payment of such an amount
9

So in original. Closing parenthesis should probably not appear.

262
or amounts as reasonably reflects the general cost of
efficiently providing such services.
(l) Fee schedule for services
registered nurse anesthetists

of

certified

(1)(A) The Secretary shall establish a fee
schedule for services of certified registered nurse
anesthetists under section 1395x(s)(11) of this title.
(B) In establishing the fee schedule under
this paragraph the Secretary may utilize a system
of time units, a system of base and time units, or
any appropriate methodology.
(C) The provisions of this subsection shall not
apply to certain services furnished in certain
hospitals in rural areas under the provisions of
section 9320(k) of the Omnibus Budget
Reconciliation Act of 1986, as amended by section
6132 of the Omnibus Budget Reconciliation Act of
1989.
(2) Except as provided in paragraph (3), the fee
schedule established under paragraph (1) shall be
initially based on audited data from cost reporting
periods ending in fiscal year 1985 and such other
data as the Secretary determines necessary.
(3)(A) In establishing the initial fee schedule
for those services, the Secretary shall adjust the fee
schedule to the extent necessary to ensure that the
estimated total amount which will be paid under this
subchapter for those services plus applicable
coinsurance in 1989 will equal the estimated total
amount which would be paid under this subchapter
for those services in 1989 if the services were
included as inpatient hospital services and payment
for such services was made under part A in the same
manner as payment was made in fiscal year 1987,

263
adjusted to take into account changes in prices and
technology relating to the administration of
anesthesia.
(B) The Secretary shall also reduce the
prevailing charge of physicians for medical
direction of a certified registered nurse anesthetist,
or the fee schedule for services of certified
registered nurse anesthetists, or both, to the extent
necessary to ensure that the estimated total
amount which will be paid under this subchapter
plus applicable coinsurance for such medical
direction and such services in 1989 and 1990 will
not exceed the estimated total amount which would
have been paid plus applicable coinsurance but for
the enactment of the amendments made by section
9320 of the Omnibus Budget Reconciliation Act of
1986. A reduced prevailing charge under this
subparagraph shall become the prevailing charge
but for subsequent years for purposes of applying
the economic index under the fourth sentence of
section 1395u(b)(3) of this title.
(4)(A) Except as provided in subparagraphs
(C) and (D), in determining the amount paid under
the fee schedule under this subsection for services
furnished on or after January 1, 1991, by a certified
registered nurse anesthetist who is not medically
directed—
(i) the conversion factor shall be—
(I) for services furnished in 1991, $15.50,
(II) for services furnished in 1992, $15.75,
(III) for services furnished in 1993, $16.00,
(IV) for services furnished in 1994, $16.25,
(V) for services furnished in 1995, $16.50,

264
and

(VI) for services furnished in 1996, $16.75,

(VII) for services furnished in calendar
years after 1996, the previous year’s conversion
factor increased by the update determined under
section 1395w-4(d) of this title for physician
anesthesia services for that year;
(ii) the payment areas to be used shall be
the fee schedule areas used under section 1395w4 of this title (or, in the case of services furnished
during 1991, the localities used under section
1395u(b) of this title) for purposes of computing
payments for physicians’ services that are
anesthesia services;
(iii) the geographic adjustment factors to be
applied to the conversion factor under clause (i) for
services in a fee schedule area or locality is—10
(I) in the case of services furnished in
1991, the geographic work index value and the
geographic practice cost index value specified in
section 1395u(q)(1)(B) of this title for physicians’
services that are anesthesia services furnished in
the area or locality, and
(II) in the case of services furnished after
1991, the geographic work index value, the
geographic practice cost index value, and the
geographic malpractice index value used for
determining payments for physicians’ services
that are anesthesia services under section
1395w-4 of this title,

10

So in original. Probably should be “are—”.

265
with 70 percent of the conversion factor
treated as attributable to work and 30 percent as
attributable to overhead for services furnished in
1991 (and the portions attributable to work,
practice expenses, and malpractice expenses in
1992 and thereafter being the same as is applied
under section 1395w-4 of this title).
(B)(i) Except as provided in clause (ii) and
subparagraph (D), in determining the amount paid
under the fee schedule under this subsection for
services furnished on or after January 1, 1991, and
before January 1, 1994, by a certified registered
nurse anesthetist who is medically directed, the
Secretary shall apply the same methodology
specified in subparagraph (A).
(ii) The conversion factor used under clause
(i) shall be—
(I) for services furnished in 1991, $10.50,
and

(II) for services furnished in 1992, $10.75,
(III) for services furnished in 1993, $11.00.

(iii) In the case of services of a certified
registered nurse anesthetist who is medically
directed or medically supervised by a physician
which are furnished on or after January 1, 1994,
the fee schedule amount shall be one-half of the
amount described in section 1395w-4(a)(5)(B) of
this title with respect to the physician.
(C) Notwithstanding subclauses (I) through
(V) of subparagraph (A)(i)—
(i) in the case of a 1990 conversion factor
that is greater than $16.50, the conversion factor
for a calendar year after 1990 and before 1996

266
shall be the 1990 conversion factor reduced by the
product of the last digit of the calendar year and
one-fifth of the amount by which the 1990
conversion factor exceeds $16.50; and
(ii) in the case of a 1990 conversion factor
that is greater than $15.49 but less than $16.51,
the conversion factor for a calendar year after 1990
and before 1996 shall be the greater of—
(I) the 1990 conversion factor, or
(II) the conversion factor specified in
subparagraph (A)(i) for the year involved.
(D) Notwithstanding subparagraph (C), in no
case may the conversion factor used to determine
payment for services in a fee schedule area or
locality under this subsection, as adjusted by the
adjustment factors specified in subparagraphs 11
(A)(iii), exceed the conversion factor used to
determine the amount paid for physicians’ services
that are anesthesia services in the area or locality.
(5)(A) Payment for the services of a certified
registered nurse anesthetist (for which payment may
otherwise be made under this part) may be made on
the basis of a claim or request for payment presented
by the certified registered nurse anesthetist
furnishing such services, or by a hospital, critical
access hospital, physician, group practice, or
ambulatory surgical center with which the certified
registered nurse anesthetist furnishing such services
has an employment or contractual relationship that
provides for payment to be made under this part for
such services to such hospital, critical access

11

So in original. Probably should be “subparagraph”.

267
hospital, physician, group practice, or ambulatory
surgical center.
(B) No hospital or critical access hospital that
presents a claim or request for payment for services
of a certified nurse anesthetist under this part may
treat any uncollected coinsurance amount imposed
under this part with respect to such services as a
bad debt of such hospital or critical access hospital
for purposes of this subchapter.
(6) If an adjustment under paragraph (3)(B)
results in a reduction in the reasonable charge for a
physicians’ service and a nonparticipating physician
furnishes the service to an individual entitled to
benefits under this part after the effective date of the
reduction, the physician’s actual charge is subject to
a limit under section 1395u(j)(1)(D) of this title.
(m) Incentive payments for physicians’ services
furnished in underserved areas
(1) In the case of physicians’ services furnished
in a year to an individual, who is covered under the
insurance program established by this part and who
incurs expenses for such services, in an area that is
designated (under section 254e(a)(1)(A) of this title)
as a health professional shortage area as identified
by the Secretary prior to the beginning of such year,
in addition to the amount otherwise paid under this
part, there also shall be paid to the physician (or to
an employer or facility in the cases described in
clause (A) of section 1395u(b)(6) of this title) (on a
monthly or quarterly basis) from the Federal
Supplementary Medical Insurance Trust Fund an
amount equal to 10 percent of the payment amount
for the service under this part.

268
(2) For each health professional shortage area
identified in paragraph (1) that consists of an entire
county, the Secretary shall provide for the additional
payment under paragraph (1) without any
requirement on the physician to identify the health
professional shortage area involved. The Secretary
may implement the previous sentence using the
method specified in subsection (u)(4)(C).
(3) The Secretary shall post on the Internet
website of the Centers for Medicare & Medicaid
Services a list of the health professional shortage
areas identified in paragraph (1) that consist of a
partial county to facilitate the additional payment
under paragraph (1) in such areas.
(4) There shall be no administrative or judicial
review under section 1395ff of this title, section
1395oo of this title, or otherwise, respecting—
(A) the identification of a county or area;
(B) the assignment of a specialty of any
physician under this paragraph;
(C) the assignment of a physician to a county
under this subsection; or
(D) the assignment of a postal ZIP Code to a
county or other area under this subsection.
(n)
Payments
to
hospital
outpatient
departments for radiology; amount; definitions
(1)(A) 12 The aggregate amount of the payments
to be made for all or part of a cost reporting period
for services described in subsection (a)(2)(E)(i)
furnished under this part on or after October 1, 1988,
and before January 1, 1999, and for services
12

So in original. No paragraph “(2)” has been enacted.

269
described in subsection (a)(2)(E)(ii) furnished under
this part on or after October 1, 1989, and before
January 1, 1999, shall be equal to the lesser of—
(i) the amount determined with respect to
such services under subsection (a)(2)(B), or
(ii) the blend amount for radiology services
and diagnostic procedures determined in
accordance with subparagraph (B).
(B)(i) The blend amount for radiology
services and diagnostic procedures for a cost
reporting period is the sum of—
(I) the cost proportion (as defined in clause
(ii)) of the amount described in subparagraph
(A)(i); and
(II) the charge proportion (as defined in
clause (ii)(II)) of 62 percent (for services
described in subsection (a)(2)(E)(i)), or (for
procedures described in subsection (a)(2)(E)(ii)),
42 percent or such other percent established by
the Secretary (or carriers acting pursuant to
guidelines issued by the Secretary) based on
prevailing charges established with actual
charge data, of the prevailing charge or (for
services described in subsection (a)(2)(E)(i)
furnished on or after April 1, 1989 and for
services described in subsection (a)(2)(E)(ii)
furnished on or after January 1, 1992) the fee
schedule amount established for participating
physicians for the same services as if they were
furnished in a physician’s office in the same
locality as determined under section 1395u(b) of
this title (or, in the case of services furnished on
or after January 1, 1992, under section 1395w-4
of this title), less the amount a provider may

270
charge as described in clause (ii) of section
1395cc(a)(2)(A) of this title.
(ii) In this subparagraph:
(I) The term “cost proportion” means 50
percent, except that such term means 65 percent
in the case of outpatient radiology services for
portions of cost reporting periods which occur in
fiscal year 1989 and in the case of diagnostic
procedures described in subsection (a)(2)(E)(ii)
for portions of cost reporting periods which occur
in fiscal year 1990, and such term means 42
percent in the case of outpatient radiology
services for portions of cost reporting periods
beginning on or after January 1, 1991.
(II) The term “charge proportion” means
100 percent minus the cost proportion.
(o) Limitation on benefit for payment for
therapeutic shoes for individuals with severe
diabetic foot disease
(1) In the case of shoes described in section
1395x(s)(12) of this title—
(A) no payment may be made under this part,
with respect to any individual for any year, for the
furnishing of—
(i) more than one pair of custom molded
shoes (including inserts provided with such shoes)
and 2 additional pairs of inserts for such shoes, or
(ii) more than one pair of extra-depth shoes
(not including inserts provided with such shoes)
and 3 pairs of inserts for such shoes, and
(B) with respect to expenses incurred in any
calendar year, no more than the amount of payment

271
applicable under paragraph (2) shall be considered
as incurred expenses for purposes of subsections (a)
and (b).
Payment for shoes (or inserts) under this part
shall be considered to include payment for any
expenses for the fitting of such shoes (or inserts).
(2)(A) Except as provided by the Secretary
under subparagraphs (B) and (C), the amount of
payment under this paragraph for custom molded
shoes, extra-depth shoes, and inserts shall be the
amount determined for such items by the Secretary
under section 1395m(h) of this title.
(B) The Secretary may establish payment
amounts for shoes and inserts that are lower than
the amount established under section 1395m(h) of
this title if the Secretary finds that shoes and
inserts of an appropriate quality are readily
available at or below the amount established under
such section.
(C)
In
accordance
with
procedures
established by the Secretary, an individual entitled
to benefits with respect to shoes described in section
1395x(s)(12) of this title may substitute
modification of such shoes instead of obtaining one
(or more, as specified by the Secretary) pair of
inserts (other than the original pair of inserts with
respect to such shoes). In such case, the Secretary
shall substitute, for the payment amount
established under section 1395m(h) of this title, a
payment amount that the Secretary estimates will
assure that there is no net increase in expenditures
under this subsection as a result of this
subparagraph.

272
(3) In this subchapter, the term “shoes”
includes, except for purposes of subparagraphs (A)(ii)
and (B) of paragraph (2), inserts for extra-depth
shoes.
(p) Repealed. Pub. L. 103-432, Title I,
123(b)(2)(A)(ii), Oct. 31, 1994, 108 Stat. 4411

§

(q) Requests for payment to include information
on referring physician
(1) Each request for payment, or bill
submitted, for an item or service furnished by an
entity for which payment may be made under this
part and for which the entity knows or has reason to
believe there has been a referral by a referring
physician (within the meaning of section 1395nn of
this title) shall include the name and unique
physician identification number for the referring
physician.
(2)(A) In the case of a request for payment for
an item or service furnished by an entity under this
part on an assignment-related basis and for which
information is required to be provided under
paragraph (1) but not included, payment may be
denied under this part.
(B) In the case of a request for payment for
an item or service furnished by an entity under this
part not submitted on an assignment-related basis
and for which information is required to be provided
under paragraph (1) but not included—
(i) if the entity knowingly and willfully fails
to provide such information promptly upon
request of the Secretary or a carrier, the entity
may be subject to a civil money penalty in an
amount not to exceed $2,000, and

273
(ii) if the entity knowingly, willfully, and in
repeated cases fails, after being notified by the
Secretary of the obligations and requirements of
this subsection to provide the information
required under paragraph (1), the entity may be
subject to exclusion from participation in the
programs under this chapter for a period not to
exceed 5 years, in accordance with the procedures
of subsections (c), (f), and (g) of section 1320a-7 of
this title.
The provisions of section 1320a-7a of this
title (other than subsections (a) and (b)) shall apply
to civil money penalties under clause (i) in the same
manner as they apply to a penalty or proceeding
under section 1320a-7a(a) of this title.
(r) Cap on prevailing
assignment-related basis

charge;

billing

on

(1) With respect to services described in
section 1395x(s)(2)(K)(ii) of this title (relating to
nurse practitioner or clinical nurse specialist
services), payment may be made on the basis of a
claim or request for payment presented by the nurse
practitioner or clinical nurse specialist furnishing
such services, or by a hospital, critical access
hospital, skilled nursing facility or nursing facility
(as defined in section 1396r(a) of this title), physician,
group practice, or ambulatory surgical center with
which the nurse practitioner or clinical nurse
specialist has an employment or contractual
relationship that provides for payment to be made
under this part for such services to such hospital,
physician, group practice, or ambulatory surgical
center.
(2) No hospital or critical access hospital that
presents a claim or request for payment under this

274
part
for
services
described
in
section
1395x(s)(2)(K)(ii) of this title may treat any
uncollected coinsurance amount imposed under this
part with respect to such services as a bad debt of
such hospital for purposes of this subchapter.
(s) Other prepaid organizations
The Secretary may not provide for payment under subsection (a)(1)(A) with respect to an organization unless
the organization provides assurances satisfactory to
the Secretary that the organization meets the requirement of section 1395cc(f) of this title (relating to maintaining written policies and procedures respecting advance directives).
(t) Prospective payment system for hospital
outpatient department services
(1) Amount of payment
(A) In general
With respect to covered OPD services (as
defined in subparagraph (B)) furnished during a
year beginning with 1999, the amount of payment
under this part shall be determined under a
prospective payment system established by the
Secretary in accordance with this subsection.
(B) Definition of covered OPD services
For purposes of this subsection, the term
“covered OPD services”—
(i) means hospital outpatient services
designated by the Secretary;
(ii) subject to clause (iv), includes inpatient
hospital services designated by the Secretary that
are covered under this part and furnished to a
hospital inpatient who (I) is entitled to benefits

275
under part A but has exhausted benefits for
inpatient hospital services during a spell of illness,
or (II) is not so entitled;
(iii) includes implantable items described in
paragraph (3), (6), or (8) of section 1395x(s) of this
title;
(iv) does not include any therapy services
described in subsection (a)(8) or ambulance
services, for which payment is made under a fee
schedule described in section 1395m(k) of this title
or section 1395m(l) of this title and does not
include screening mammography (as defined in
section 1395x(jj) of this title), diagnostic
mammography, or personalized prevention plan
services (as defined in section 1395x(hhh)(1) of
this title); and
(v) does not include applicable items and
services (as defined in subparagraph (A) of
paragraph (21)) that are furnished on or after
January 1, 2017, by an off-campus outpatient
department of a provider (as defined in
subparagraph (B) of such paragraph).
(2) System requirements
Under the payment system—
(A) the Secretary shall develop
classification system for covered OPD services;

a

(B) the Secretary may establish groups of
covered OPD services, within the classification
system described in subparagraph (A), so that
services classified within each group are
comparable clinically and with respect to the use of
resources and so that an implantable item is

276
classified to the group that includes the service to
which the item relates;
(C) the Secretary shall, using data on claims
from 1996 and using data from the most recent
available cost reports, establish relative payment
weights for covered OPD services (and any groups
of such services described in subparagraph (B))
based on median (or, at the election of the
Secretary, mean) hospital costs and shall determine
projections of the frequency of utilization of each
such service (or group of services) in 1999;
(D) subject to paragraph (19), the Secretary
shall determine a wage adjustment factor to adjust
the portion of payment and coinsurance
attributable to labor-related costs for relative
differences in labor and labor-related costs across
geographic regions in a budget neutral manner;
(E) the Secretary shall establish, in a budget
neutral manner, outlier adjustments under
paragraph (5) and transitional pass-through
payments under paragraph (6) and other
adjustments as determined to be necessary to
ensure equitable payments, such as adjustments for
certain classes of hospitals;
(F) the Secretary shall develop a method for
controlling unnecessary increases in the volume of
covered OPD services;
(G) the Secretary shall create additional
groups of covered OPD services that classify
separately those procedures that utilize contrast
agents from those that do not; and
(H) with respect to devices of brachytherapy
consisting of a seed or seeds (or radioactive source),
the Secretary shall create additional groups of

277
covered OPD services that classify such devices
separately from the other services (or group of
services) paid for under this subsection in a manner
reflecting the number, isotope, and radioactive
intensity of such devices furnished, including
separate groups for palladium-103 and iodine-125
devices and for stranded and non-stranded devices
furnished on or after July 1, 2007.
For purposes of subparagraph (B), items and
services within a group shall not be treated as
“comparable with respect to the use of resources” if
the highest median cost (or mean cost, if elected by
the Secretary under subparagraph (C)) for an item
or service within the group is more than 2 times
greater than the lowest median cost (or mean cost,
if so elected) for an item or service within the group;
except that the Secretary may make exceptions in
unusual cases, such as low volume items and
services, but may not make such an exception in the
case of a drug or biological that has been designated
as an orphan drug under section 360bb of Title 21.
(3) Calculation of base amounts
(A) Aggregate amounts that would be payable
if deductibles were disregarded
The Secretary shall estimate the sum of—
(i) the total amounts that would be payable
from the Trust Fund under this part for covered
OPD services in 1999, determined without regard
to this subsection, as though the deductible under
subsection (b) did not apply, and
(ii) the total amounts of copayments
estimated to be paid under this subsection by
beneficiaries to hospitals for covered OPD services

278
in 1999, as though the deductible under subsection
(b) did not apply.
(B) Unadjusted copayment amount
(i) In general
For purposes of this subsection, subject to
clause (ii), the “unadjusted copayment amount”
applicable to a covered OPD service (or group of
such services) is 20 percent of the national median
of the charges for the service (or services within
the group) furnished during 1996, updated to 1999
using the Secretary’s estimate of charge growth
during the period.
(ii) Adjusted to be 20 percent when fully
phased in
If the pre-deductible payment percentage
for a covered OPD service (or group of such
services) furnished in a year would be equal to or
exceed 80 percent, then the unadjusted copayment
amount shall be 20 percent of amount determined
under subparagraph (D).
(iii) Rules for new services
The Secretary shall establish rules for
establishment of an unadjusted copayment
amount for a covered OPD service not furnished
during 1996, based upon its classification within a
group of such services.
(C) Calculation of conversion factors
(i) For 1999
(I) In general
The Secretary shall establish a 1999
conversion factor for determining the medicare
OPD fee schedule amounts for each covered OPD

279
service (or group of such services) furnished in
1999. Such conversion factor shall be established
on the basis of the weights and frequencies
described in paragraph (2)(C) and in such a
manner that the sum for all services and groups
of the products (described in subclause (II) for
each such service or group) equals the total
projected amount described in subparagraph (A).
(II) Product described
The Secretary shall determine for each
service or group the product of the medicare OPD
fee schedule amounts (taking into account
appropriate adjustments described in paragraphs
(2)(D) and (2)(E)) and the estimated frequencies
for such service or group.
(ii) Subsequent years
Subject to paragraph (8)(B), the Secretary
shall establish a conversion factor for covered OPD
services furnished in subsequent years in an
amount equal to the conversion factor established
under this subparagraph and applicable to such
services furnished in the previous year increased
by the OPD fee schedule increase factor specified
under clause (iv) for the year involved.
(iii) Adjustment for service mix changes
Insofar as the Secretary determines that
the adjustments for service mix under paragraph
(2) for a previous year (or estimates that such
adjustments for a future year) did (or are likely to)
result in a change in aggregate payments under
this subsection during the year that are a result of
changes in the coding or classification of covered
OPD services that do not reflect real changes in
service mix, the Secretary may adjust the

280
conversion
factor
computed
under
this
subparagraph for subsequent years so as to
eliminate the effect of such coding or classification
changes.
(iv) OPD fee schedule increase factor
For purposes of this subparagraph, subject
to paragraph (17) and subparagraph (F) of this
paragraph, the “OPD fee schedule increase factor”
for services furnished in a year is equal to the
market basket percentage increase applicable
under section 1395ww(b)(3)(B)(iii) of this title to
hospital discharges occurring during the fiscal
year ending in such year, reduced by 1 percentage
point for such factor for services furnished in each
of 2000 and 2002. In applying the previous
sentence for years beginning with 2000, the
Secretary may substitute for the market basket
percentage increase an annual percentage
increase that is computed and applied with respect
to covered OPD services furnished in a year in the
same manner as the market basket percentage
increase is determined and applied to inpatient
hospital services for discharges occurring in a
fiscal year.
(D) Calculation of medicare OPD fee schedule
amounts
The Secretary shall compute a medicare OPD
fee schedule amount for each covered OPD service
(or group of such services) furnished in a year, in an
amount equal to the product of—
(i) the conversion factor computed under
subparagraph (C) for the year, and

281
(ii)
the
relative
payment
weight
(determined under paragraph (2)(C)) for the
service or group.
(E) Pre-deductible payment percentage
The pre-deductible payment percentage for a
covered OPD service (or group of such services)
furnished in a year is equal to the ratio of—
(i) the medicare OPD fee schedule amount
established under subparagraph (D) for the year,
minus the unadjusted copayment amount
determined under subparagraph (B) for the
service or group, to
(ii) the medicare OPD fee schedule amount
determined under subparagraph (D) for the year
for such service or group.
(F) Productivity and other adjustment
After determining the OPD fee schedule
increase factor under subparagraph (C)(iv), the
Secretary shall reduce such increase factor—
(i) for 2012 and subsequent years, by the
productivity adjustment described in section
1395ww(b)(3)(B)(xi)(II) of this title; and
(ii) for each of 2010 through 2019, by the
adjustment described in subparagraph (G).
The application of this subparagraph may
result in the increase factor under subparagraph
(C)(iv) being less than 0.0 for a year, and may
result in payment rates under the payment system
under this subsection for a year being less than
such payment rates for the preceding year.
(G) Other adjustment

282
For purposes of subparagraph (F)(ii), the
adjustment described in this subparagraph is—
(i) for each of 2010 and 2011, 0.25
percentage point;
point;

(ii) for each of 2012 and 2013, 0.1 percentage
(iii) for 2014, 0.3 percentage point;

(iv) for each of 2015 and 2016, 0.2
percentage point; and
(v) for each of 2017, 2018, and 2019, 0.75
percentage point.
(4) Medicare payment amount
The amount of payment made from the Trust
Fund under this part for a covered OPD service (and
such services classified within a group) furnished in
a year is determined, subject to paragraph (7), as
follows:
(A) Fee schedule adjustments
The medicare OPD fee schedule amount
(computed under paragraph (3)(D)) for the service
or group and year is adjusted for relative differences
in the cost of labor and other factors determined by
the Secretary, as computed under paragraphs (2)(D)
and (2)(E).
(B) Subtract applicable deductible
Reduce the adjusted amount determined
under subparagraph (A) by the amount of the
deductible under subsection (b), to the extent
applicable.
(C) Apply payment proportion to remainder

283
The amount of payment is the amount so
determined under subparagraph (B) multiplied by
the pre-deductible payment percentage (as
determined under paragraph (3)(E)) for the service
or group and year involved, plus the amount of any
reduction in the copayment amount attributable to
paragraph (8)(C).
(5) Outlier adjustment
(A) In general
Subject to subparagraph (D), the Secretary
shall provide for an additional payment for each
covered OPD service (or group of services) for which
a hospital’s charges, adjusted to cost, exceed—
(i) a fixed multiple of the sum of—
(I) the applicable medicare OPD fee
schedule amount determined under paragraph
(3)(D), as adjusted under paragraph (4)(A) (other
than for adjustments under this paragraph or
paragraph (6)); and
(II)
any
transitional
pass-through
payment under paragraph (6); and
(ii) at the option of the Secretary, such fixed
dollar amount as the Secretary may establish.
(B) Amount of adjustment
The amount of the additional payment under
subparagraph (A) shall be determined by the
Secretary and shall approximate the marginal cost
of care beyond the applicable cutoff point under
such subparagraph.

284
(C) Limit on aggregate outlier adjustments
(i) In general
The total of the additional payments made
under this paragraph for covered OPD services
furnished in a year (as estimated by the Secretary
before the beginning of the year) may not exceed
the applicable percentage (specified in clause (ii))
of the total program payments estimated to be
made under this subsection for all covered OPD
services furnished in that year. If this paragraph
is first applied to less than a full year, the previous
sentence shall apply only to the portion of such
year.
(ii) Applicable percentage
For purposes of clause (i), the term
“applicable percentage” means a percentage
specified by the Secretary up to (but not to
exceed)—
(I) for a year (or portion of a year) before
2004, 2.5 percent; and
(II) for 2004 and thereafter, 3.0 percent.
(D) Transitional authority
In applying subparagraph (A) for covered
OPD services furnished before January 1, 2002, the
Secretary may—
(i) apply such subparagraph to a bill for
such services related to an outpatient encounter
(rather than for a specific service or group of
services) using OPD fee schedule amounts and
transitional pass-through payments covered
under the bill; and

285
(ii) use an appropriate cost-to-charge ratio
for the hospital involved (as determined by the
Secretary), rather than for specific departments
within the hospital.
(E) Exclusion of separate drug and biological
APCs from outlier payments
No additional payment shall be made under
subparagraph (A) in the case of ambulatory
payment
classification
groups
established
separately for drugs or biologicals.
(6) Transitional pass-through for additional
costs of innovative medical devices, drugs, and
biologicals
(A) In general
The Secretary shall provide for an additional
payment under this paragraph for any of the
following that are provided as part of a covered OPD
service (or group of services):
(i) Current orphan drugs
A drug or biological that is used for a rare
disease or condition with respect to which the drug
or biological has been designated as an orphan
drug under section 360bb of Title 21 if payment for
the drug or biological as an outpatient hospital
service under this part was being made on the first
date that the system under this subsection is
implemented.
(ii) Current cancer therapy drugs and
biologicals and brachytherapy
A drug or biological that is used in cancer
therapy, including (but not limited to) a
chemotherapeutic agent, an antiemetic, a

286
hematopoietic growth factor, a colony stimulating
factor, a biological response modifier, a
bisphosphonate, and a device of brachytherapy or
temperature monitored cryoablation, if payment
for such drug, biological, or device as an outpatient
hospital service under this part was being made on
such first date.
(iii) Current radiopharmaceutical drugs and
biological products
A radiopharmaceutical drug or biological
product used in diagnostic, monitoring, and
therapeutic nuclear medicine procedures if
payment for the drug or biological as an outpatient
hospital service under this part was being made on
such first date.
(iv) New medical
biologicals

devices,

drugs,

and

A medical device, drug, or biological not
described in clause (i), (ii), or (iii) if—
(I) payment for the device, drug, or
biological as an outpatient hospital service under
this part was not being made as of December 31,
1996; and
(II) the cost of the drug or biological or the
average cost of the category of devices is not
insignificant in relation to the OPD fee schedule
amount (as calculated under paragraph (3)(D))
payable for the service (or group of services)
involved.
(B) Use of categories in determining eligibility
of a device for pass-through payments
The following provisions apply for purposes
of determining whether a medical device qualifies

287
for additional payments under clause (ii) or (iv) of
subparagraph (A):
(i) Establishment of initial categories
(I) In general
The Secretary shall initially establish
under this clause categories of medical devices
based on type of device by April 1, 2001. Such
categories shall be established in a manner such
that each medical device that meets the
requirements of clause (ii) or (iv) of subparagraph
(A) as of January 1, 2001, is included in such a
category and no such device is included in more
than one category. For purposes of the preceding
sentence, whether a medical device meets such
requirements as of such date shall be determined
on the basis of the program memoranda issued
before such date.
(II) Authorization of implementation other
than through regulations
The categories may be established under
this clause by program memorandum or
otherwise, after consultation with groups
representing hospitals, manufacturers of medical
devices, and other affected parties.
(ii) Establishing
categories

criteria

for

additional

(I) In general
The Secretary shall establish criteria that
will be used for creation of additional categories
(other than those established under clause (i))
through rulemaking (which may include use of an
interim final rule with comment period).

288
(II) Standard
Such categories shall be established under
this clause in a manner such that no medical
device is described by more than one category.
Such criteria shall include a test of whether the
average cost of devices that would be included in
a category and are in use at the time the category
is established is not insignificant, as described in
subparagraph (A)(iv)(II).
(III) Deadline
Criteria shall first be established under
this clause by July 1, 2001. The Secretary may
establish in compelling circumstances categories
under this clause before the date such criteria are
established.
(IV) Adding categories
The Secretary shall promptly establish a
new category of medical devices under this clause
for any medical device that meets the
requirements of subparagraph (A)(iv) and for
which none of the categories in effect (or that
were previously in effect) is appropriate.
(iii) Period for which category is in effect
A category of medical devices established
under clause (i) or (ii) shall be in effect for a period
of at least 2 years, but not more than 3 years, that
begins—
(I) in the case of a category established
under clause (i), on the first date on which
payment was made under this paragraph for any
device described by such category (including
payments made during the period before April 1,
2001); and

289
(II) in the case of any other category, on
the first date on which payment is made under
this paragraph for any medical device that is
described by such category.
(iv) Requirements treated as met
A medical device shall be treated as meeting
the requirements of subparagraph (A)(iv),
regardless of whether the device meets the
requirement
of
subclause
(I)
of
such
subparagraph, if—
(I) the device is described by a category
established and in effect under clause (i); or
(II) the device is described by a category
established and in effect under clause (ii) and an
application under section 360e of Title 21 has
been approved with respect to the device, or the
device has been cleared for market under section
360(k) of Title 21, or the device is exempt from
the requirements of section 360(k) of Title 21
pursuant to subsection (l) or (m) of section 360 of
Title 21 or section 360j(g) of Title 21.
Nothing in this clause shall be construed
as requiring an application or prior approval
(other than that described in subclause (II)) in
order for a covered device described by a category
to qualify for payment under this paragraph.
(C) Limited period of payment
(i) Drugs and biologicals
Subject to subparagraph (G), the payment
under this paragraph with respect to a drug or
biological shall only apply during a period of at
least 2 years, but not more than 3 years, that
begins—

290
(I) on the first date this subsection is
implemented in the case of a drug or biological
described in clause (i), (ii), or (iii) of
subparagraph (A) and in the case of a drug or
biological described in subparagraph (A)(iv) and
for which payment under this part is made as an
outpatient hospital service before such first date;
or
(II) in the case of a drug or biological
described in subparagraph (A)(iv) not described
in subclause (I), on the first date on which
payment is made under this part for the drug or
biological as an outpatient hospital service.
(ii) Medical devices
Payment shall be made under this paragraph with
respect to a medical device only if such device—
(I) is described by a category of medical
devices established and in effect under
subparagraph (B); and
(II) is provided as part of a service (or
group of services) paid for under this subsection
and provided during the period for which such
category is in effect under such subparagraph.
(D) Amount of additional payment
Subject to subparagraph (E)(iii), the amount
of the payment under this paragraph with respect
to a device, drug, or biological provided as part of a
covered OPD service is—
(i) subject to subparagraph (H), in the case
of a drug or biological, the amount by which the
amount determined under section 1395u(o) of this
title (or if the drug or biological is covered under a
competitive acquisition contract under section

291
1395w-3b of this title, an amount determined by
the Secretary equal to the average price for the
drug or biological for all competitive acquisition
areas and year established under such section as
calculated and adjusted by the Secretary for
purposes of this paragraph) for the drug or
biological exceeds the portion of the otherwise
applicable medicare OPD fee schedule that the
Secretary determines is associated with the drug
or biological; or
(ii) in the case of a medical device, the
amount by which the hospital’s charges for the
device, adjusted to cost, exceeds the portion of the
otherwise applicable medicare OPD fee schedule
that the Secretary determines is associated with
the device.
(E) Limit on aggregate annual adjustment
(i) In general
The total of the additional payments made
under this paragraph for covered OPD services
furnished in a year (as estimated by the Secretary
before the beginning of the year) may not exceed
the applicable percentage (specified in clause (ii))
of the total program payments estimated to be
made under this subsection for all covered OPD
services furnished in that year. If this paragraph
is first applied to less than a full year, the previous
sentence shall apply only to the portion of such
year. This clause shall not apply for 2018 or 2020.
(ii) Applicable percentage
For purposes of clause (i), the term
“applicable percentage” means—

292
(I) for a year (or portion of a year) before
2004, 2.5 percent; and
(II) for 2004 and thereafter, a percentage
specified by the Secretary up to (but not to
exceed) 2.0 percent.
(iii) Uniform prospective reduction
aggregate limit projected to be exceeded

if

If the Secretary estimates before the
beginning of a year that the amount of the
additional payments under this paragraph for the
year (or portion thereof) as determined under
clause (i) without regard to this clause will exceed
the limit established under such clause, the
Secretary shall reduce pro rata the amount of each
of the additional payments under this paragraph
for that year (or portion thereof) in order to ensure
that the aggregate additional payments under this
paragraph (as so estimated) do not exceed such
limit.
(F) Limitation of application of functional
equivalence standard
(i) In general
The Secretary may not publish regulations
that apply a functional equivalence standard to a
drug or biological under this paragraph.
(ii) Application
Clause (i) shall apply to the application of a
functional equivalence standard to a drug or
biological on or after December 8, 2003, unless—
(I) such application was being made to
such drug or biological prior to December 8, 2003;
and

293
(II) the Secretary applies such standard to
such drug or biological only for the purpose of
determining eligibility of such drug or biological
for additional payments under this paragraph
and not for the purpose of any other payments
under this subchapter.
(iii) Rule of construction
Nothing in this subparagraph shall be
construed to effect the Secretary’s authority to
deem a particular drug to be identical to another
drug if the 2 products are pharmaceutically
equivalent and bioequivalent, as determined by
the Commissioner of Food and Drugs.
(G) Pass-through extension for certain drugs
and biologicals
In the case of a drug or biological whose
period of pass-through status under this paragraph
ended on December 31, 2017, and for which
payment under this subsection was packaged into a
payment for a covered OPD service (or group of
services) furnished beginning January 1, 2018, such
pass-through status shall be extended for a 2-year
period beginning on October 1, 2018.
(H) Temporary payment rule for certain drugs
and biologicals
In the case of a drug or biological whose
period of pass-through status under this paragraph
ended on December 31, 2017, and for which
payment under this subsection was packaged into a
payment for a covered OPD service (or group of
services) furnished beginning January 1, 2018, the
payment amount for such drug or biological under
this subsection that is furnished during the period

294
beginning on October 1, 2018, and ending on March
31, 2019, shall be the greater of—
(i) the payment amount that would
otherwise apply under subparagraph (D)(i) for
such drug or biological during such period; or
(ii) the payment amount that applied under
such subparagraph (D)(i) for such drug or
biological on December 31, 2017.
(I) Special payment adjustment rules for last
quarter of 2018
In the case of a drug or biological whose
period of pass-through status under this paragraph
ended on December 31, 2017, and for which
payment under this subsection was packaged into a
payment amount for a covered OPD service (or
group of services) beginning January 1, 2018, the
following rules shall apply with respect to payment
amounts under this subsection for covered a OPD13
service (or group of services) furnished during the
period beginning on October 1, 2018, and ending on
December 31, 2018:
(i) The Secretary shall remove the packaged
costs of such drug or biological (as determined by
the Secretary) from the payment amount under
this subsection for the covered OPD service (or
group of services) with which it is packaged.
(ii) The Secretary shall not make any
adjustments to payment amounts under this
subsection for a covered OPD service (or group of
services) for which no costs were removed under
clause (i).
13

So in original. Probably should be “a covered OPD”.

295
(J) Additional pass-through extension and
special payment adjustment rule for certain
diagnostic radiopharmaceuticals
In the case of a drug or biological furnished
in the context of a clinical study on diagnostic
imaging tests approved under a coverage with
evidence development determination whose period
of pass-through status under this paragraph
concluded on December 31, 2018, and for which
payment under this subsection was packaged into a
payment for a covered OPD service (or group of
services) furnished beginning January 1, 2019, the
Secretary shall—
(i) extend such pass-through status for such
drug or biological for the 9-month period beginning
on January 1, 2020;
(ii) remove, during such period, the
packaged costs of such drug or biological (as
determined by the Secretary) from the payment
amount under this subsection for the covered OPD
service (or group of services) with which it is
packaged; and
(iii) not make any adjustments to payment
amounts under this subsection for a covered OPD
service (or group of services) for which no costs
were removed under clause (ii).
(7) Transitional adjustment to limit decline in
payment
(A) Before 2002
Subject to subparagraph (D), for covered
OPD services furnished before January 1, 2002, for
which the PPS amount (as defined in subparagraph
(E)) is—

296
(i) at least 90 percent, but less than 100
percent, of the pre-BBA amount (as defined in
subparagraph (F)), the amount of payment under
this subsection shall be increased by 80 percent of
the amount of such difference;
(ii) at least 80 percent, but less than 90
percent, of the pre-BBA amount, the amount of
payment under this subsection shall be increased
by the amount by which (I) the product of 0.71 and
the pre-BBA amount, exceeds (II) the product of
0.70 and the PPS amount;
(iii) at least 70 percent, but less than 80
percent, of the pre-BBA amount, the amount of
payment under this subsection shall be increased
by the amount by which (I) the product of 0.63 and
the pre-BBA amount, exceeds (II) the product of
0.60 and the PPS amount; or
(iv) less than 70 percent of the pre-BBA
amount, the amount of payment under this
subsection shall be increased by 21 percent of the
pre-BBA amount.
(B) 2002
Subject to subparagraph (D), for covered
OPD services furnished during 2002, for which the
PPS amount is—
(i) at least 90 percent, but less than 100
percent, of the pre-BBA amount, the amount of
payment under this subsection shall be increased
by 70 percent of the amount of such difference;
(ii) at least 80 percent, but less than 90
percent, of the pre-BBA amount, the amount of
payment under this subsection shall be increased
by the amount by which (I) the product of 0.61 and

297
the pre-BBA amount, exceeds (II) the product of
0.60 and the PPS amount; or
(iii) less than 80 percent of the pre-BBA
amount, the amount of payment under this
subsection shall be increased by 13 percent of the
pre-BBA amount.
(C) 2003
Subject to subparagraph (D), for covered
OPD services furnished during 2003, for which the
PPS amount is—
(i) at least 90 percent, but less than 100
percent, of the pre-BBA amount, the amount of
payment under this subsection shall be increased
by 60 percent of the amount of such difference; or
(ii) less than 90 percent of the pre-BBA
amount, the amount of payment under this
subsection shall be increased by 6 percent of the
pre-BBA amount.
(D) Hold harmless provisions
(i) Temporary treatment for certain rural
hospitals
(I) In the case of a hospital located in a
rural area and that has not more than 100 beds
or a sole community hospital (as defined in
section 1395ww(d)(5)(D)(iii) of this title) located
in a rural area, for covered OPD services
furnished before January 1, 2006, for which the
PPS amount is less than the pre-BBA amount,
the amount of payment under this subsection
shall be increased by the amount of such
difference.

298
(II) In the case of a hospital located in a
rural area and that has not more than 100 beds
and that is not a sole community hospital (as
defined in section 1395ww(d)(5)(D)(iii) of this
title), for covered OPD services furnished on or
after January 1, 2006, and before January 1,
2013, for which the PPS amount is less than the
pre-BBA amount, the amount of payment under
this subsection shall be increased by the
applicable percentage of the amount of such
difference. For purposes of the preceding
sentence, the applicable percentage shall be 95
percent with respect to covered OPD services
furnished in 2006, 90 percent with respect to
such services furnished in 2007, and 85 percent
with respect to such services furnished in 2008,
2009, 2010, 2011, or 2012.
(III) In the case of a sole community
hospital
(as
defined
in
section
1395ww(d)(5)(D)(iii) of this title) that has not
more than 100 beds, for covered OPD services
furnished on or after January 1, 2009, and before
January 1, 2013, for which the PPS amount is
less than the pre-BBA amount, the amount of
payment under this subsection shall be increased
by 85 percent of the amount of such difference. In
the case of covered OPD services furnished on or
after January 1, 2010, and before March 1, 2012,
the preceding sentence shall be applied without
regard to the 100-bed limitation.
(ii) Permanent treatment for
hospitals and children’s hospitals

cancer

In the case of a hospital described in clause
(iii) or (v) of section 1395ww(d)(1)(B) of this title,
for covered OPD services for which the PPS

299
amount is less than the pre-BBA amount, the
amount of payment under this subsection shall be
increased by the amount of such difference.
(E) PPS amount defined
In this paragraph, the term “PPS amount”
means, with respect to covered OPD services, the
amount payable under this subchapter for such
services (determined without regard to this
paragraph), including amounts payable as
copayment under paragraph (8), coinsurance under
section 1395cc(a)(2)(A)(ii) of this title, and the
deductible under subsection (b).
(F) Pre-BBA amount defined
(i) In general
In this paragraph, the “pre-BBA amount”
means, with respect to covered OPD services
furnished by a hospital in a year, an amount equal
to the product of the reasonable cost of the hospital
for such services for the portions of the hospital’s
cost reporting period (or periods) occurring in the
year and the base OPD payment-to-cost ratio for
the hospital (as defined in clause (ii)).
(ii) Base payment-to-cost ratio defined
For purposes of this subparagraph, the
“base payment-to-cost ratio” for a hospital means
the ratio of—
(I) the hospital’s reimbursement under
this part for covered OPD services furnished
during the cost reporting period ending in 1996
(or in the case of a hospital that did not submit a
cost report for such period, during the first
subsequent cost reporting period ending before
2001 for which the hospital submitted a cost

300
report), including any reimbursement for such
services through cost-sharing described in
subparagraph (E), to
(II) the reasonable cost of such services for
such period.
The Secretary shall determine such ratios as if the
amendments made by section 4521 of the
Balanced Budget Act of 1997 were in effect in
1996.
(G) Interim payments
The Secretary shall make payments under
this paragraph to hospitals on an interim basis,
subject to retrospective adjustments based on
settled cost reports.
(H) No effect on copayments
Nothing in this paragraph shall be construed
to affect the unadjusted copayment amount
described in paragraph (3)(B) or the copayment
amount under paragraph (8).
(I) Application without regard to budget
neutrality
The additional payments made under this
paragraph—
(i) shall not be considered an adjustment
under paragraph (2)(E); and
(ii) shall not be implemented in a budget
neutral manner.
(8) Copayment amount
(A) In general
Except as provided in subparagraphs (B) and
(C), the copayment amount under this subsection is

301
the amount by which the amount described in
paragraph (4)(B) exceeds the amount of payment
determined under paragraph (4)(C).
(B) Election to offer reduced copayment
amount
The Secretary shall establish a procedure
under which a hospital, before the beginning of a
year (beginning with 1999), may elect to reduce the
copayment amount otherwise established under
subparagraph (A) for some or all covered OPD
services to an amount that is not less than 20
percent of the medicare OPD fee schedule amount
(computed under paragraph (3)(D)) for the service
involved. Under such procedures, such reduced
copayment amount may not be further reduced or
increased during the year involved and the hospital
may disseminate information on the reduction of
copayment
amount
effected
under
this
subparagraph.
(C) Limitation on copayment amount
(i) To inpatient hospital deductible amount
In no case shall the copayment amount for
a procedure performed in a year exceed the
amount of the inpatient hospital deductible
established under section 1395e(b) of this title for
that year.
(ii) To specified percentage
The Secretary shall reduce the national
unadjusted copayment amount for a covered OPD
service (or group of such services) furnished in a
year in a manner so that the effective copayment
rate (determined on a national unadjusted basis)

302
for that service in the year does not exceed the
following percentage:
(I) For procedures performed in 2001, on or
after April 1, 2001, 57 percent.
(II) For procedures performed in 2002 or
2003, 55 percent.
(III) For procedures performed in 2004, 50
percent.
(IV) For procedures performed in 2005, 45
percent.
(V) For procedures performed in 2006 and
thereafter, 40 percent.
(D) No impact on deductibles
Nothing in this paragraph shall be construed
as affecting a hospital’s authority to waive the
charging of a deductible under subsection (b).
(E) Computation ignoring outlier and passthrough adjustments
The copayment amount shall be computed
under subparagraph (A) as if the adjustments
under paragraphs (5) and (6) (and any adjustment
made under paragraph (2)(E) in relation to such
adjustments) had not occurred.
(9)
Periodic
review
and
adjustments
components of prospective payment system
(A) Periodic review
The Secretary shall review not less often
than annually and revise the groups, the relative
payment weights, and the wage and other
adjustments described in paragraph (2) to take into
account changes in medical practice, changes in

303
technology, the addition of new services, new cost
data, and other relevant information and factors.
The Secretary shall consult with an expert outside
advisory panel composed of an appropriate selection
of representatives of providers to review (and advise
the Secretary concerning) the clinical integrity of
the groups and weights. Such panel may use data
collected or developed by entities and organizations
(other than the Department of Health and Human
Services) in conducting such review.
(B) Budget neutrality adjustment
If the Secretary makes adjustments under
subparagraph (A), then the adjustments for a year
may not cause the estimated amount of
expenditures under this part for the year to
increase or decrease from the estimated amount of
expenditures under this part that would have been
made if the adjustments had not been made. In
determining adjustments under the preceding
sentence for 2004 and 2005, the Secretary shall not
take into account under this subparagraph or
paragraph (2)(E) any expenditures that would not
have been made but for the application of
paragraph (14).
(C) Update factor
If
the
Secretary
determines
under
methodologies described in paragraph (2)(F) that
the volume of services paid for under this subsection
increased beyond amounts established through
those
methodologies,
the
Secretary
may
appropriately adjust the update to the conversion
factor otherwise applicable in a subsequent year.

304
(10) Special rule for ambulance services
The Secretary shall pay for hospital outpatient
services that are ambulance services on the basis
described in section 1395x(v)(1)(U) of this title, or, if
applicable, the fee schedule established under section
1395m(l) of this title.
(11) Special rules for certain hospitals
In the case of hospitals described in clause (iii)
or (v) of section 1395ww(d)(1)(B) of this title—
(A) the system under this subsection shall
not apply to covered OPD services furnished before
January 1, 2000; and
(B) the Secretary may establish a separate
conversion factor for such services in a manner that
specifically takes into account the unique costs
incurred by such hospitals by virtue of their patient
population and service intensity.
(12) Limitation on review
There shall be no administrative or judicial
review under section 1395ff of this title, 1395oo of
this title, or otherwise of—
(A) the development of the classification
system under paragraph (2), including the
establishment of groups and relative payment
weights for covered OPD services, of wage
adjustment factors, other adjustments, and
methods described in paragraph (2)(F);
(B) the calculation of base amounts under
paragraph (3);
(C) periodic
paragraph (6);

adjustments

made

under

305
(D) the establishment of a separate
conversion factor under paragraph (8)(B); and
(E) the determination of the fixed multiple, or
a fixed dollar cutoff amount, the marginal cost of
care, or applicable percentage under paragraph (5)
or the determination of insignificance of cost, the
duration of the additional payments, the
determination and deletion of initial and new
categories (consistent with subparagraphs (B) and
(C) of paragraph (6)), the portion of the medicare
OPD fee schedule amount associated with
particular devices, drugs, or biologicals, and the
application of any pro rata reduction under
paragraph (6).
(13) Authorization of adjustment for rural
hospitals
(A) Study
The Secretary shall conduct a study to
determine if, under the system under this
subsection, costs incurred by hospitals located in
rural areas by ambulatory payment classification
groups (APCs) exceed those costs incurred by
hospitals located in urban areas.
(B) Authorization of adjustment
Insofar as the Secretary determines under
subparagraph (A) that costs incurred by hospitals
located in rural areas exceed those costs incurred by
hospitals located in urban areas, the Secretary shall
provide for an appropriate adjustment under
paragraph (2)(E) to reflect those higher costs by
January 1, 2006.

306
(14) Drug APC payment rates
(A) In general
The amount of payment under this
subsection for a specified covered outpatient drug
(defined in subparagraph (B)) that is furnished as
part of a covered OPD service (or group of
services)—
(i) in 2004, in the case of—
(I) a sole source drug shall in no case be
less than 88 percent, or exceed 95 percent, of the
reference average wholesale price for the drug;
(II) an innovator multiple source drug
shall in no case exceed 68 percent of the reference
average wholesale price for the drug; or
(III) a noninnovator multiple source drug
shall in no case exceed 46 percent of the reference
average wholesale price for the drug;
(ii) in 2005, in the case of—
(I) a sole source drug shall in no case be
less than 83 percent, or exceed 95 percent, of the
reference average wholesale price for the drug;
(II) an innovator multiple source drug
shall in no case exceed 68 percent of the reference
average wholesale price for the drug; or
(III) a noninnovator multiple source drug
shall in no case exceed 46 percent of the reference
average wholesale price for the drug; or
(iii) in a subsequent year, shall be equal,
subject to subparagraph (E)—
(I) to the average acquisition cost for the
drug for that year (which, at the option of the

307
Secretary, may vary by hospital group (as defined
by the Secretary based on volume of covered OPD
services or other relevant characteristics)), as
determined by the Secretary taking into account
the hospital acquisition cost survey data under
subparagraph (D); or
(II) if hospital acquisition cost data are not
available, the average price for the drug in the
year established under section 1395u(o) of this
title, section 1395w-3a of this title, or section
1395w-3b of this title, as the case may be, as
calculated and adjusted by the Secretary as
necessary for purposes of this paragraph.
(B) Specified covered outpatient drug defined
(i) In general
In this paragraph, the term “specified
covered outpatient drug” means, subject to clause
(ii), a covered outpatient drug (as defined in
section 1396r-8(k)(2) of this title) for which a
separate ambulatory payment classification group
(APC) has been established and that is—
(I) a radiopharmaceutical; or
(II) a drug or biological for which payment
was made under paragraph (6) (relating to passthrough payments) on or before December 31,
2002.
(ii) Exception
Such term does not include—
(I) a drug or biological for which payment
is first made on or after January 1, 2003, under
paragraph (6);

308
(II) a drug or biological for which a
temporary HCPCS code has not been assigned; or
(III) during 2004 and 2005, an orphan
drug (as designated by the Secretary).
(C) Payment for designated orphan drugs
during 2004 and 2005
The amount of payment under this
subsection for an orphan drug designated by the
Secretary under subparagraph (B) (ii)(III) that is
furnished as part of a covered OPD service (or group
of services) during 2004 and 2005 shall equal such
amount as the Secretary may specify.
(D) Acquisition cost survey for hospital
outpatient drugs
(i) Annual GAO surveys in 2004 and 2005
(I) In general
The Comptroller General of the United
States shall conduct a survey in each of 2004 and
2005 to determine the hospital acquisition cost
for each specified covered outpatient drug. Not
later than April 1, 2005, the Comptroller General
shall furnish data from such surveys to the
Secretary for use in setting the payment rates
under subparagraph (A) for 2006.
(II) Recommendations
Upon the completion of such surveys, the
Comptroller General shall recommend to the
Secretary the frequency and methodology of
subsequent surveys to be conducted by the
Secretary under clause (ii).

309
(ii) Subsequent secretarial surveys
The Secretary, taking into account such
recommendations,
shall
conduct
periodic
subsequent surveys to determine the hospital
acquisition cost for each specified covered
outpatient drug for use in setting the payment
rates under subparagraph (A).
(iii) Survey requirements
The surveys conducted under clauses (i) and
(ii) shall have a large sample of hospitals that is
sufficient to generate a statistically significant
estimate of the average hospital acquisition cost
for each specified covered outpatient drug. With
respect to the surveys conducted under clause (i),
the Comptroller General shall report to Congress
on the justification for the size of the sample used
in order to assure the validity of such estimates.
(iv) Differentiation in cost
In conducting surveys under clause (i), the
Comptroller General shall determine and report to
Congress if there is (and the extent of any)
variation in hospital acquisition costs for drugs
among hospitals based on the volume of covered
OPD services performed by such hospitals or other
relevant characteristics of such hospitals (as
defined by the Comptroller General).
(v) Comment on proposed rates
Not later than 30 days after the date the
Secretary promulgated proposed rules setting
forth the payment rates under subparagraph (A)
for 2006, the Comptroller General shall evaluate
such proposed rates and submit to Congress a
report regarding the appropriateness of such rates

310
based on the surveys the Comptroller General has
conducted under clause (i).
(E) Adjustment in payment rates for overhead
costs
(i) MedPAC report on drug APC design
The
Medicare
Payment
Advisory
Commission shall submit to the Secretary, not
later than July 1, 2005, a report on adjustment of
payment for ambulatory payment classifications
for specified covered outpatient drugs to take into
account overhead and related expenses, such as
pharmacy services and handling costs. Such report
shall include—
(I) a description and analysis of the data
available with regard to such expenses;
(II) a recommendation as to whether such
a payment adjustment should be made; and
(III) if such adjustment should be made, a
recommendation regarding the methodology for
making such an adjustment.
(ii) Adjustment authorized
The Secretary may adjust the weights for
ambulatory payment classifications for specified
covered outpatient drugs to take into account the
recommendations contained in the report
submitted under clause (i).
(F) Classes of drugs
For purposes of this paragraph:
(i) Sole source drugs
The term “sole source drug” means—

311
(I) a biological product (as defined under
section 1395x(t)(1) of this title); or
(II) a single source drug (as defined in
section 1396r-8(k)(7)(A)(iv) of this title).
(ii) Innovator multiple source drugs
The term “innovator multiple source drug”
has the meaning given such term in section 1396r8(k)(7)(A)(ii) of this title.
(iii) Noninnovator multiple source drugs
The term “noninnovator multiple source
drug” has the meaning given such term in section
1396r-8(k)(7)(A)(iii) of this title.
(G) Reference average wholesale price
The term “reference average wholesale price”
means, with respect to a specified covered
outpatient drug, the average wholesale price for the
drug as determined under section 1395u(o) of this
title as of May 1, 2003.
(H) Inapplicability of expenditures in
determining conversion, weighting, and other
adjustment factors
Additional expenditures resulting from this
paragraph shall not be taken into account in
establishing the conversion, weighting, and other
adjustment factors for 2004 and 2005 under
paragraph (9), but shall be taken into account for
subsequent years.
(15) Payment for new drugs and biologicals
until HCPCS code assigned
With respect to payment under this part for an
outpatient drug or biological that is covered under
this part and is furnished as part of covered OPD

312
services for which a HCPCS code has not been
assigned, the amount provided for payment for such
drug or biological under this part shall be equal to 95
percent of the average wholesale price for the drug or
biological.
(16) Miscellaneous provisions
(A) Application of reclassification of certain
hospitals
If a hospital is being treated as being located
in a rural area under section 1395ww(d)(8)(E) of
this title, that hospital shall be treated under this
subsection as being located in that rural area.
(B) Threshold for establishment of separate
APCs for drugs
The Secretary shall reduce the threshold for
the establishment of separate ambulatory payment
classification groups (APCs) with respect to drugs
or biologicals to $50 per administration for drugs
and biologicals furnished in 2005 and 2006.
(C) Payment for devices of brachytherapy and
therapeutic radiopharmaceuticals at charges
adjusted to cost
Notwithstanding the preceding provisions of
this subsection, for a device of brachytherapy
consisting of a seed or seeds (or radioactive source)
furnished on or after January 1, 2004, and before
January
1,
2010,
and
for
therapeutic
radiopharmaceuticals furnished on or after
January 1, 2008, and before January 1, 2010, the
payment basis for the device or therapeutic
radiopharmaceutical under this subsection shall be
equal to the hospital’s charges for each device or
therapeutic
radiopharmaceutical
furnished,

313
adjusted to cost. Charges for such devices or
therapeutic radiopharmaceuticals shall not be
included in determining any outlier payment under
this subsection.
(D) Special payment rule
(i) In general
In the case of covered OPD services
furnished on or after April 1, 2013, in a hospital
described in clause (ii), if—
(I) the payment rate that would otherwise
apply under this subsection for stereotactic
radiosurgery, complete course of treatment of
cranial lesion(s) consisting of 1 session that is
multi-source Cobalt 60 based (identified as of
January 1, 2013, by HCPCS code 77371 (and any
succeeding code) and reimbursed as of such date
under APC 0127 (and any succeeding
classification group)); exceeds
(II) the payment rate that would otherwise
apply under this subsection for linear accelerator
based stereotactic radiosurgery, complete course
of therapy in one session (identified as of January
1, 2013, by HCPCS code G0173 (and any
succeeding code) and reimbursed as of such date
under APC 0067 (and any succeeding
classification group)),
the payment rate for the service described in
subclause (I) shall be reduced to an amount
equal to the payment rate for the service
described in subclause (II).
(ii) Hospital described
A hospital described in this clause is a
hospital that is not—

314
(I) located in a rural area (as defined in
section 1395ww(d)(2)(D) of this title);
(II) classified as a rural referral center
under section 1395ww(d)(5)(C) of this title; or
(III) a sole community hospital (as defined
in section 1395ww(d)(5)(D)(iii) of this title).
(iii) Not budget neutral
In making
any
budget
neutrality
adjustments under this subsection for 2013 (with
respect to covered OPD services furnished on or
after April 1, 2013, and before January 1, 2014) or
a subsequent year, the Secretary shall not take
into account the reduced expenditures that result
from the application of this subparagraph.
(E) Application of appropriate use criteria for
certain imaging services
For provisions relating to the application of
appropriate use criteria for certain imaging
services, see section 1395m(q) of this title.
(F) Payment incentive for the transition from
traditional
X-ray
imaging
to
digital
radiography
Notwithstanding the previous provisions of
this subsection:
(i) Limitation on payment for film X-ray
imaging services
In the case of an imaging service that is an
X-ray taken using film and that is furnished
during 2017 or a subsequent year, the payment
amount for such service (including the X-ray
component of a packaged service) that would
otherwise be determined under this section

315
(without application of this paragraph and before
application of any other adjustment under this
subsection) for such year shall be reduced by 20
percent.
(ii) Phased-in limitation on payment for
computed radiography imaging services
In the case of an imaging service that is an
X-ray taken using computed radiography
technology (as defined in section 1395w-4(b)(9)(C)
of this title)—
(I) in the case of such a service furnished
during 2018, 2019, 2020, 2021, or 2022, the
payment amount for such service (including the
X-ray component of a packaged service) that
would otherwise be determined under this
section (without application of this paragraph
and before application of any other adjustment
under this subsection) for such year shall be
reduced by 7 percent; and
(II) in the case of such a service furnished
during 2023 or a subsequent year, the payment
amount for such service (including the X-ray
component of a packaged service) that would
otherwise be determined under this section
(without application of this paragraph and before
application of any other adjustment under this
subsection) for such year shall be reduced by 10
percent.
(iii) Application without regard to budget
neutrality
The
reductions
subparagraph—

made

under

this

316
(I) shall not be considered an adjustment
under paragraph (2)(E); and
(II) shall not be implemented in a budget
neutral manner.
(iv) Implementation
In order to implement this subparagraph,
the Secretary shall adopt appropriate mechanisms
which may include use of modifiers.
(17) Quality reporting
(A) Reduction in update for failure to report
(i) In general
For purposes of paragraph (3)(C)(iv) for
2009 and each subsequent year, in the case of a
subsection (d) hospital (as defined in section
1395ww(d)(1)(B) of this title) that does not submit,
to the Secretary in accordance with this
paragraph, data required to be submitted on
measures selected under this paragraph with
respect to such a year, the OPD fee schedule
increase factor under paragraph (3)(C)(iv) for such
year shall be reduced by 2.0 percentage points.
(ii) Non-cumulative application
A reduction under this subparagraph shall
apply only with respect to the year involved and
the Secretary shall not take into account such
reduction in computing the OPD fee schedule
increase factor for a subsequent year.
(B) Form and manner of submission
Each subsection (d) hospital shall submit
data on measures selected under this paragraph to
the Secretary in a form and manner, and at a time,

317
specified by the Secretary for purposes of this
paragraph.
(C) Development of outpatient measures
(i) In general
The Secretary shall develop measures that
the Secretary determines to be appropriate for the
measurement of the quality of care (including
medication errors) furnished by hospitals in
outpatient settings and that reflect consensus
among affected parties and, to the extent feasible
and practicable, shall include measures set forth
by one or more national consensus building
entities.
(ii) Construction
Nothing in this paragraph shall be
construed as preventing the Secretary from
selecting measures that are the same as (or a
subset of) the measures for which data are
required to be submitted under section
1395ww(b)(3)(B)(viii) of this title.
(D) Replacement of measures
For purposes of this paragraph, the Secretary
may replace any measures or indicators in
appropriate cases, such as where all hospitals are
effectively in compliance or the measures or
indicators have been subsequently shown not to
represent the best clinical practice.
(E) Availability of data
The Secretary shall establish procedures for
making data submitted under this paragraph
available to the public. Such procedures shall
ensure that a hospital has the opportunity to review

318
the data that are to be made public with respect to
the hospital prior to such data being made public.
The Secretary shall report quality measures of
process, structure, outcome, patients’ perspectives
on care, efficiency, and costs of care that relate to
services furnished in outpatient settings in
hospitals on the Internet website of the Centers for
Medicare & Medicaid Services.
(18) Authorization of adjustment for cancer
hospitals
(A) Study
The Secretary shall conduct a study to
determine if, under the system under this
subsection, costs incurred by hospitals described in
section 1395ww(d)(1)(B)(v) of this title with respect
to ambulatory payment classification groups exceed
those costs incurred by other hospitals furnishing
services under this subsection (as determined
appropriate by the Secretary). In conducting the
study under this subparagraph, the Secretary shall
take into consideration the cost of drugs and
biologicals incurred by such hospitals.
(B) Authorization of adjustment
Insofar as the Secretary determines under
subparagraph (A) that costs incurred by hospitals
described in section 1395ww(d)(1)(B)(v) of this title
exceed those costs incurred by other hospitals
furnishing services under this subsection, the
Secretary shall, subject to subparagraph (C),
provide for an appropriate adjustment under
paragraph (2)(E) to reflect those higher costs
effective for services furnished on or after January
1, 2011.

319
(C) Target PCR adjustment
In applying section 419.43(i) of title 42 of the
Code of Federal Regulations to implement the
appropriate adjustment under this paragraph for
services furnished on or after January 1, 2018, the
Secretary shall use a target PCR that is 1.0
percentage points less than the target PCR that
would otherwise apply. In addition to the
percentage point reduction under the previous
sentence, the Secretary may consider making an
additional percentage point reduction to such target
PCR that takes into account payment rates for
applicable items and services described in
paragraph (21)(C) other than for services furnished
by hospitals described in section 1395ww(d)(1)(B)(v)
of this title. In making any budget neutrality
adjustments under this subsection for 2018 or a
subsequent year, the Secretary shall not take into
account the reduced expenditures that result from
the application of this subparagraph.
(19) Floor on area wage adjustment factor for
hospital outpatient department services in
frontier States
(A) In general
Subject to subparagraph (B), with respect to
covered OPD services furnished on or after January
1, 2011, the area wage adjustment factor applicable
under the payment system established under this
subsection to any hospital outpatient department
which is located in a frontier State (as defined in
section 1395ww(d)(3)(E)(iii)(II) of this title) may not
be less than 1.00. The preceding sentence shall not
be applied in a budget neutral manner.

320
(B) Limitation
This paragraph shall not apply to any
hospital outpatient department located in a State
that receives a non-labor related share adjustment
under section 1395ww(d)(5)(H) of this title.
(20) Not budget neutral application of reduced
expenditures resulting from quality incentives
for computed tomography
The Secretary shall not take into account the
reduced expenditures that result from the
application of section 1395m(p) of this title in making
any budget neutrality adjustments this 14 subsection.
(21) Services furnished by an off-campus
outpatient department of a provider
(A) Applicable items and services
For purposes of paragraph (1)(B)(v) and this
paragraph, the term “applicable items and services”
means items and services other than items and
services furnished by a dedicated emergency
department (as defined in section 489.24(b) of title
42 of the Code of Federal Regulations).
(B) Off-campus outpatient department of a
provider
(i) In general
For purposes of paragraph (1)(B)(v) and this
paragraph, subject to the subsequent provisions of
this subparagraph, the term “off-campus
outpatient department of a provider” means a
department of a provider (as defined in section
413.65(a)(2) of title 42 of the Code of Federal
14

So in original. Probably should be preceded by “under”.

321
Regulations, as in effect as of November 2, 2015)
that is not located—
(I) on the campus (as defined in such
section 413.65(a)(2)) of such provider; or
(II) within the distance (described in such
definition of campus) from a remote location of a
hospital facility (as defined in such section
413.65(a)(2)).
(ii) Exception
For purposes of paragraph (1)(B)(v) and this
paragraph, the term “off-campus outpatient
department of a provider” shall not include a
department of a provider (as so defined) that was
billing under this subsection with respect to
covered OPD services furnished prior to November
2, 2015.
(iii) Deemed treatment for 2017
For purposes of applying clause (ii) with
respect to applicable items and services furnished
during 2017, a department of a provider (as so
defined) not described in such clause is deemed to
be billing under this subsection with respect to
covered OPD services furnished prior to November
2, 2015, if the Secretary received from the provider
prior to December 2, 2015, an attestation
(pursuant to section 413.65(b)(3) of title 42 of the
Code of Federal Regulations) that such
department was a department of a provider (as so
defined).
(iv) Alternative exception beginning with
2018
For purposes of paragraph (1)(B)(v) and this
paragraph with respect to applicable items and

322
services furnished during 2018 or a subsequent
year, the term “off-campus outpatient department
of a provider” also shall not include a department
of a provider (as so defined) that is not described
in clause (ii) if—
(I) the Secretary receives from the
provider an attestation (pursuant to such section
413.65(b)(3)) not later than December 31, 2016
(or, if later, 60 days after December 13, 2016),
that such department met the requirements of a
department of a provider specified in section
413.65 of title 42 of the Code of Federal
Regulations;
(II) the provider includes such department
as part of the provider on its enrollment form in
accordance with the enrollment process under
section 1395cc(j) of this title; and
(III) the department met the mid-build
requirement of clause (v) and the Secretary
receives, not later than 60 days after December
13, 2016, from the chief executive officer or chief
operating officer of the provider a written
certification that the department met such
requirement.
(v) Mid-build requirement described
The mid-build requirement of this clause is,
with respect to a department of a provider, that
before November 2, 2015, the provider had a
binding written agreement with an outside
unrelated party for the actual construction of such
department.

323
(vi) Exclusion for certain cancer hospitals
For purposes of paragraph (1)(B)(v) and this
paragraph with respect to applicable items and
services furnished during 2017 or a subsequent
year, the term “off-campus outpatient department
of a provider” also shall not include a department
of a provider (as so defined) that is not described
in clause (ii) if the provider is a hospital described
in section 1395ww(d) (1)(B)(v) of this title and—
(I) in the case of a department that met the
requirements of section 413.65 of title 42 of the
Code of Federal Regulations after November 1,
2015, and before December 13, 2016, the
Secretary receives from the provider an
attestation that such department met such
requirements not later than 60 days after such
date; or
(II) in the case of a department that meets
such requirements after such date, the Secretary
receives from the provider an attestation that
such department meets such requirements not
later than 60 days after the date such
requirements are first met with respect to such
department.
(vii) Audit
Not later than December 31, 2018, the
Secretary shall audit the compliance with
requirements of clause (iv) with respect to each
department of a provider to which such clause
applies. Not later than 2 years after the date the
Secretary receives an attestation under clause (vi)
relating to compliance of a department of a
provider with requirements referred to in such
clause, the Secretary shall audit the compliance

324
with such requirements with respect to the
department. If the Secretary finds as a result of an
audit under this clause that the applicable
requirements were not met with respect to such
department, the department shall not be excluded
from the term “off-campus outpatient department
of a provider” under such clause.
(viii) Implementation
For purposes of implementing clauses (iii)
through (vii) :
(I) Notwithstanding any other provision of
law, the Secretary may implement such clauses
by program instruction or otherwise.
(II) Subchapter I of chapter 35 of Title 44
shall not apply.
(III) For purposes of carrying out this
subparagraph with respect to clauses (iii) and (iv)
(and clause (vii) insofar as it relates to clause
(iv)), $10,000,000 shall be available from the
Federal Supplementary Medical Insurance Trust
Fund under section 1395t of this title, to remain
available until December 31, 2018. For purposes
of carrying out this subparagraph with respect to
clause (vi) (and clause (vii) insofar as it relates to
such clause), $2,000,000 shall be available from
the Federal Supplementary Medical Insurance
Trust Fund under section 1395t of this title, to
remain available until expended.
(C) Availability of payment under other
payment systems
Payments for applicable items and services
furnished by an off-campus outpatient department
of a provider that are described in paragraph

325
(1)(B)(v) shall be made under the applicable
payment system under this part (other than under
this subsection) if the requirements for such
payment are otherwise met.
(D) Information needed for implementation
Each hospital shall provide to the Secretary
such information as the Secretary determines
appropriate to implement this paragraph and
paragraph (1)(B)(v) (which may include reporting of
information on a hospital claim using a code or
modifier and reporting information about offcampus outpatient departments of a provider on the
enrollment form described in section 1395cc(j) of
this title).
(E) Limitations
There shall be no administrative or judicial
review under section 1395ff of this title, section
1395oo of this title, or otherwise of the following:
(i) The determination of the applicable
items and services under subparagraph (A) and
applicable payment systems under subparagraph
(C).
(ii) The determination of whether a
department of a provider meets the term described
in subparagraph (B).
(iii) Any information that hospitals are
required to report pursuant to subparagraph (D).
(iv) The determination of an audit under
subparagraph (B)(vii).

326
(22) Review and revisions of payments for nonopioid alternative treatments
(A) In general
With respect to payments made under this
subsection for covered OPD services (or groups of
services), including covered OPD services assigned
to a comprehensive ambulatory payment
classification, the Secretary—
(i) shall, as soon as practicable, conduct a
review (part of which may include a request for
information) of payments for opioids and evidencebased
non-opioid
alternatives
for
pain
management (including drugs and devices, nerve
blocks, surgical injections, and neuromodulation)
with a goal of ensuring that there are not financial
incentives to use opioids instead of non-opioid
alternatives;
(ii) may, as the Secretary determines
appropriate, conduct subsequent reviews of such
payments; and
(iii) shall consider the extent to which
revisions under this subsection to such payments
(such as the creation of additional groups of
covered OPD services to classify separately those
procedures that utilize opioids and non-opioid
alternatives for pain management) would reduce
payment incentives to use opioids instead of nonopioid alternatives for pain management.
(B) Priority
In conducting the review under clause (i) of
subparagraph (A) and considering revisions under
clause (iii) of such subparagraph, the Secretary
shall focus on covered OPD services (or groups of

327
services) assigned to a comprehensive ambulatory
payment classification, ambulatory payment
classifications that primarily include surgical
services, and other services determined by the
Secretary which generally involve treatment for
pain management.
(C) Revisions
If the Secretary identifies revisions to
payments pursuant to subparagraph (A)(iii), the
Secretary shall, as determined appropriate, begin
making such revisions for services furnished on or
after January 1, 2020. Revisions under the previous
sentence shall be treated as adjustments for
purposes of application of paragraph (9)(B).
(D) Rules of construction
Nothing in this paragraph shall be construed
to preclude the Secretary—
(i) from conducting a demonstration before
making the revisions described in subparagraph
(C); or
(ii) prior to implementation of this
paragraph, from changing payments under this
subsection for covered OPD services (or groups of
services) which include opioids or non-opioid
alternatives for pain management.
(u) Incentive payments for physician scarcity
areas
(1) In general
In the case of physicians’ services furnished on
or after January 1, 2005, and before July 1, 2008—

328
(A) by a primary care physician in a primary
care scarcity county (identified under paragraph
(4)); or
(B) by a physician who is not a primary care
physician in a specialist care scarcity county (as so
identified),
in addition to the amount of payment that would
otherwise be made for such services under this part,
there also shall be paid an amount equal to 5
percent of the payment amount for the service
under this part.
(2) Determination of ratios of physicians to
medicare beneficiaries in area
Based upon available data, the Secretary shall
establish for each county or equivalent area in the
United States, the following:
(A) Number of physicians practicing in the
area
The number of physicians who furnish
physicians’ services in the active practice of
medicine or osteopathy in that county or area, other
than physicians whose practice is exclusively for the
Federal Government, physicians who are retired, or
physicians who only provide administrative
services. Of such number, the number of such
physicians who are—
(i) primary care physicians; or
(ii) physicians who are not primary care
physicians.

329
(B) Number of medicare
residing in the area

beneficiaries

The number of individuals who are residing
in the county and are entitled to benefits under part
A or enrolled under this part, or both (in this
subsection referred to as “individuals”).
(C) Determination of ratios
(i) Primary care ratio
The ratio (in this paragraph referred to as
the “primary care ratio”) of the number of primary
care physicians (determined under subparagraph
(A)(i)), to the number of individuals determined
under subparagraph (B).
(ii) Specialist care ratio
The ratio (in this paragraph referred to as
the “specialist care ratio”) of the number of other
physicians (determined under subparagraph
(A)(ii)), to the number of individuals determined
under subparagraph (B).
(3) Ranking of counties
The Secretary shall rank each such county or
area based separately on its primary care ratio and
its specialist care ratio.
(4) Identification of counties
(A) In general
The Secretary shall identify—
(i) those counties and areas (in this
paragraph referred to as “primary care scarcity
counties”) with the lowest primary care ratios that
represent, if each such county or area were
weighted by the number of individuals determined

330
under paragraph (2)(B), an aggregate total of 20
percent of the total of the individuals determined
under such paragraph; and
(ii) those counties and areas (in this
subsection referred to as “specialist care scarcity
counties”) with the lowest specialist care ratios
that represent, if each such county or area were
weighted by the number of individuals determined
under paragraph (2)(B), an aggregate total of 20
percent of the total of the individuals determined
under such paragraph.
(B) Periodic revisions
The Secretary shall periodically revise the
counties or areas identified in subparagraph (A)
(but not less often than once every three years)
unless the Secretary determines that there is no
new data available on the number of physicians
practicing in the county or area or the number of
individuals residing in the county or area, as
identified in paragraph (2).
(C) Identification of counties where service is
furnished
For purposes of paying the additional
amount specified in paragraph (1), if the Secretary
uses the 5-digit postal ZIP Code where the service
is furnished, the dominant county of the postal ZIP
Code (as determined by the United States Postal
Service, or otherwise) shall be used to determine
whether the postal ZIP Code is in a scarcity county
identified in subparagraph (A) or revised in
subparagraph (B).

331
(D) Special rule
With respect to physicians’ services
furnished on or after January 1, 2008, and before
July 1, 2008, for purposes of this subsection, the
Secretary shall use the primary care scarcity
counties and the specialty care scarcity counties (as
identified under the preceding provisions of this
paragraph) that the Secretary was using under this
subsection with respect to physicians’ services
furnished on December 31, 2007.
(E) Judicial review
There shall be no administrative or judicial
review under section 1395ff, 1395oo of this title, or
otherwise, respecting—
(i) the identification of a county or area;
(ii) the assignment of a specialty of any
physician under this paragraph;
(iii) the assignment of a physician to a
county under paragraph (2); or
(iv) the assignment of a postal ZIP Code to
a county or other area under this subsection.
(5) Rural census tracts
To the extent feasible, the Secretary shall
treat a rural census tract of a metropolitan statistical
area (as determined under the most recent
modification of the Goldsmith Modification,
originally published in the Federal Register on
February 27, 1992 (57 Fed. Reg. 6725)), as an
equivalent area for purposes of qualifying as a
primary care scarcity county or specialist care
scarcity county under this subsection.

332
(6) Physician defined
For purposes of this paragraph, the term
“physician” means a physician described in section
1395x(r)(1) of this title and the term “primary care
physician” means a physician who is identified in the
available data as a general practitioner, family
practice
practitioner,
general
internist,
or
obstetrician or gynecologist.
(7) Publication of list of counties; posting on
website
With respect to a year for which a county or
area is identified or revised under paragraph (4), the
Secretary shall identify such counties or areas as
part of the proposed and final rule to implement the
physician fee schedule under section 1395w-4 of this
title for the applicable year. The Secretary shall post
the list of counties identified or revised under
paragraph (4) on the Internet website of the Centers
for Medicare & Medicaid Services.
(v) Increase of FQHC payment limits
In the case of services furnished by Federally qualified
health centers (as defined in section 1395x(aa)(4) of
this title), the Secretary shall establish payment limits
with respect to such services under this part for services furnished—
(1) in 2010, at the limits otherwise established
under this part for such year increased by $5; and
(2) in a subsequent year, at the limits
established under this subsection for the previous
year increased by the percentage increase in the MEI
(as defined in section 1395u(i)(3) of this title) for such
subsequent year.

333
(w) Methods of payment
The Secretary may develop alternative methods of
payment for items and services provided under clinical
trials and comparative effectiveness studies sponsored
or supported by an agency of the Department of Health
and Human Services, as determined by the Secretary,
to those that would otherwise apply under this section,
to the extent such alternative methods are necessary
to preserve the scientific validity of such trials or studies, such as in the case where masking the identity of
interventions from patients and investigators is necessary to comply with the particular trial or study design.
(x) Incentive payments for primary care services
(1) In general
In the case of primary care services furnished
on or after January 1, 2011, and before January 1,
2016, by a primary care practitioner, in addition to
the amount of payment that would otherwise be
made for such services under this part, there also
shall be paid (on a monthly or quarterly basis) an
amount equal to 10 percent of the payment amount
for the service under this part.
(2) Definitions
In this subsection:
(A) Primary care practitioner
The term “primary care practitioner” means
an individual—
(i) who—
(I) is a physician (as described in section
1395x(r)(1) of this title) who has a primary

334
specialty designation of family medicine, internal
medicine, geriatric medicine, or pediatric
medicine; or
(II) is a nurse practitioner, clinical nurse
specialist, or physician assistant (as those terms
are defined in section 1395x(aa)(5) of this title);
and
(ii) for whom primary care services
accounted for at least 60 percent of the allowed
charges under this part for such physician or
practitioner in a prior period as determined
appropriate by the Secretary.
(B) Primary care services
The term “primary care services” means
services identified, as of January 1, 2009, by the
following HCPCS codes (and as subsequently
modified by the Secretary):
(i) 99201 through 99215.
(ii) 99304 through 99340.
(iii) 99341 through 99350.
(3) Coordination with other payments
The amount of the additional payment for a
service under this subsection and subsection (m)
shall be determined without regard to any additional
payment for the service under subsection (m) and
this subsection, respectively. The amount of the
additional payment for a service under this
subsection and subsection (z) shall be determined
without regard to any additional payment for the
service under subsection (z) and this subsection,
respectively.

335
(4) Limitation on review
There shall be no administrative or judicial
review under section 1395ff of this title, 1395oo of
this title, or otherwise, respecting the identification
of primary care practitioners under this subsection.
(y) Incentive payments for major surgical
procedures furnished in health professional
shortage areas
(1) In general
In the case of major surgical procedures
furnished on or after January 1, 2011, and before
January 1, 2016, by a general surgeon in an area that
is designated (under section 254e(a)(1)(A) of this
title) as a health professional shortage area as
identified by the Secretary prior to the beginning of
the year involved, in addition to the amount of
payment that would otherwise be made for such
services under this part, there also shall be paid (on
a monthly or quarterly basis) an amount equal to 10
percent of the payment amount for the service under
this part.
(2) Definitions
In this subsection:
(A) General surgeon
In this subsection, the term “general
surgeon” means a physician (as described in section
1395x(r)(1) of this title) who has designated CMS
specialty code 02-General Surgery as their primary
specialty code in the physician’s enrollment under
section 1395cc(j) of this title.

336
(B) Major surgical procedures
The term “major surgical procedures” means
physicians’ services which are surgical procedures
for which a 10-day or 90-day global period is used
for payment under the fee schedule under section
1395w-4(b) of this title.
(3) Coordination with other payments
The amount of the additional payment for a
service under this subsection and subsection (m)
shall be determined without regard to any additional
payment for the service under subsection (m) and
this subsection, respectively. The amount of the
additional payment for a service under this
subsection and subsection (z) shall be determined
without regard to any additional payment for the
service under subsection (z) and this subsection,
respectively.
(4) Application
The provisions of paragraph 15 (2) and (4) of
subsection (m) shall apply to the determination of
additional payments under this subsection in the
same manner as such provisions apply to the
determination of additional payments under
subsection (m).
(z) Incentive payments for participation in
eligible alternative payment models
(1) Payment incentive
(A) In general
In the case of covered professional services
furnished by an eligible professional during a year
15

So in original. Probably should be “paragraphs”.

337
that is in the period beginning with 2019 and
ending with 2024 and for which the professional is
a qualifying APM participant with respect to such
year, in addition to the amount of payment that
would otherwise be made for such covered
professional services under this part for such year,
there also shall be paid to such professional an
amount equal to 5 percent of the estimated
aggregate payment amounts for such covered
professional services under this part for the
preceding year. For purposes of the previous
sentence, the payment amount for the preceding
year may be an estimation for the full preceding
year based on a period of such preceding year that
is less than the full year. The Secretary shall
establish policies to implement this subparagraph
in cases in which payment for covered professional
services furnished by a qualifying APM participant
in an alternative payment model—
(i) is made to an eligible alternative
payment entity rather than directly to the
qualifying APM participant; or
(ii) is made on a basis other than a fee-forservice basis (such as payment on a capitated
basis).
(B) Form of payment
Payments under this subsection shall be
made in a lump sum, on an annual basis, as soon as
practicable.
(C) Treatment of payment incentive
Payments under this subsection shall not be
taken into account for purposes of determining
actual expenditures under an alternative payment
model and for purposes of determining or rebasing

338
any benchmarks used under the alternative
payment model.
(D) Coordination
The amount of the additional payment under
this subsection or subsection (m) shall be
determined without regard to any additional
payment under subsection (m) and this subsection,
respectively. The amount of the additional payment
under this subsection or subsection (x) shall be
determined without regard to any additional
payment under subsection (x) and this subsection,
respectively. The amount of the additional payment
under this subsection or subsection (y) shall be
determined without regard to any additional
payment under subsection (y) and this subsection,
respectively.
(2) Qualifying APM participant
For purposes of this subsection, the term
“qualifying APM participant” means the following:
(A) 2019 and 2020
With respect to 2019 and 2020, an eligible
professional for whom the Secretary determines
that at least 25 percent of payments under this part
for covered professional services furnished by such
professional during the most recent period for which
data are available (which may be less than a year)
were attributable to such services furnished under
this part through an eligible alternative payment
entity.
(B) 2021 through 2024
With respect to each of 2021 through 2024,
an eligible professional described in either of the
following clauses:

339
(i) Medicare payment threshold option
An eligible professional for whom the
Secretary determines that at least 50 percent of
payments under this part for covered professional
services furnished by such professional during the
most recent period for which data are available
(which may be less than a year) were attributable
to such services furnished under this part through
an eligible alternative payment entity.
(ii) Combination all-payer and Medicare
payment threshold option
An eligible professional—
(I) for whom the Secretary determines,
with respect to items and services furnished by
such professional during the most recent period
for which data are available (which may be less
than a year), that at least 50 percent of the sum
of—
(aa) payments described in clause (i); and
(bb) all other payments, regardless of
payer (other than payments made by the
Secretary of Defense or the Secretary of
Veterans Affairs and other than payments
made under subchapter XIX in a State in which
no medical home or alternative payment model
is available under the State program under that
subchapter),
meet the requirement described in clause (iii)(I)
with respect to payments described in item (aa)
and meet the requirement described in clause
(iii)(II) with respect to payments described in
item (bb);

340
(II) for whom the Secretary determines at
least 25 percent of payments under this part for
covered professional services furnished by such
professional during the most recent period for
which data are available (which may be less than
a year) were attributable to such services
furnished under this part through an eligible
alternative payment entity; and
(III) who provides to the Secretary such
information as is necessary for the Secretary to
make a determination under subclause (I), with
respect to such professional.
(iii) Requirement
For purposes of clause (ii)(I)—
(I) the requirement described in this
subclause, with respect to payments described in
item (aa) of such clause, is that such payments
are made to an eligible alternative payment
entity; and
(II) the requirement described in this
subclause, with respect to payments described in
item (bb) of such clause, is that such payments
are made under arrangements in which—
(aa) quality measures comparable to
measures under the performance category
described in section 1395w-4(q) (2)(B)(i) of this
title apply;
and

(bb) certified EHR technology is used;

(cc) the eligible professional participates
in an entity that—

341
(AA) bears more than nominal financial
risk if actual aggregate expenditures exceeds 16
expected aggregate expenditures; or
(BB) with respect to beneficiaries under
subchapter XIX, is a medical home that meets
criteria comparable to medical homes expanded
under section 1315a(c) of this title.
(C) Beginning in 2025
With respect to 2025 and each subsequent
year, an eligible professional described in either of
the following clauses:
(i) Medicare payment threshold option
An eligible professional for whom the
Secretary determines that at least 75 percent of
payments under this part for covered professional
services furnished by such professional during the
most recent period for which data are available
(which may be less than a year) were attributable
to such services furnished under this part through
an eligible alternative payment entity.
(ii) Combination all-payer and Medicare
payment threshold option
An eligible professional—
(I) for whom the Secretary determines,
with respect to items and services furnished by
such professional during the most recent period
for which data are available (which may be less
than a year), that at least 75 percent of the sum
of—
(aa) payments described in clause (i); and
16

So in original. Probably should be “exceed”.

342
(bb) all other payments, regardless of
payer (other than payments made by the
Secretary of Defense or the Secretary of
Veterans Affairs and other than payments
made under subchapter XIX in a State in which
no medical home or alternative payment model
is available under the State program under that
subchapter),
meet the requirement described in clause (iii)(I)
with respect to payments described in item (aa)
and meet the requirement described in clause
(iii)(II) with respect to payments described in
item (bb);
(II) for whom the Secretary determines at
least 25 percent of payments under this part for
covered professional services furnished by such
professional during the most recent period for
which data are available (which may be less than
a year) were attributable to such services
furnished under this part through an eligible
alternative payment entity; and
(III) who provides to the Secretary such
information as is necessary for the Secretary to
make a determination under subclause (I), with
respect to such professional.
(iii) Requirement
For purposes of clause (ii)(I) –
(I) the requirement described in this
subclause, with respect to payments described in
item (aa) of such clause, is that such payments
are made to an eligible alternative payment
entity; and

343
(II) the requirement described in this
subclause, with respect to payments described in
item (bb) of such clause, is that such payments
are made under arrangements in which—
(aa) quality measures comparable to
measures under the performance category
described in section 1395w-4(q) (2)(B)(i) of this
title apply;
and

(bb) certified EHR technology is used;

(cc) the eligible professional participates
in an entity that—
(AA) bears more than nominal financial
risk if actual aggregate expenditures exceeds 16
expected aggregate expenditures; or
(BB) with respect to beneficiaries under
subchapter XIX, is a medical home that meets
criteria comparable to medical homes expanded
under section 1315a(c) of this title.
(D) Use of patient approach
The Secretary may base the determination of
whether an eligible professional is a qualifying
APM participant under this subsection and the
determination of whether an eligible professional is
a partial qualifying APM participant under section
1395w-4(q)(1)(C)(iii) of this title by using counts of
patients in lieu of using payments and using the
same or similar percentage criteria (as specified in
this subsection and such section, respectively), as
the Secretary determines appropriate. With respect
to 2023 and 2024, the Secretary shall use the same
16

So in original. Probably should be “exceed”.

344
percentage criteria for counts of patients that are
used in 2022.
(3) Additional definitions
In this subsection:
(A) Covered professional services
The term “covered professional services” has
the meaning given that term in section 1395w4(k)(3)(A) of this title.
(B) Eligible professional
The term “eligible professional” has the
meaning given that term in section 1395w4(k)(3)(B) of this title and includes a group that
includes such professionals.
(C) Alternative Payment Model (APM)
The term “alternative payment model”
means, other than for purposes of subparagraphs
(B)(ii)(I)(bb) and (C)(ii)(I)(bb) of paragraph (2), any
of the following:
(i) A model under section 1315a of this title
(other than a health care innovation award).
(ii) The shared savings program under
section 1395jjj of this title.
(iii) A demonstration under section 1395cc3 of this title.
law.

(iv) A demonstration required by Federal

(D) Eligible alternative payment entity
The term “eligible alternative payment
entity” means, with respect to a year, an entity
that—

345
(i) participates in an alternative payment
model that—
(I) requires participants in such model to
use certified EHR technology (as defined in
subsection (o)(4)); and
(II) provides for payment for covered
professional services based on quality measures
comparable to measures under the performance
category described in section 1395w-4(q)(2)(B)(i)
of this title; and
(ii)(I) bears financial risk for monetary
losses under such alternative payment model that
are in excess of a nominal amount; or
(II) is a medical home expanded under
section 1315a(c) of this title.
(4) Limitation
There shall be no administrative or judicial
review under section 1395ff of this title, 1395oo 17 of
this title, or otherwise, of the following:
(A) The determination that an eligible
professional is a qualifying APM participant under
paragraph (2) and the determination that an entity
is an eligible alternative payment entity under
paragraph (3)(D).
(B) The determination of the amount of the 5
percent payment incentive under paragraph (1)(A),
including any estimation as part of such
determination.

17

So in original. Probably should be preceded by “section”.

346
(aa) Medical review of spinal subluxation
services
(1) In general
The Secretary shall implement a process for
the medical review (as described in paragraph (2)) of
treatment by a chiropractor described in section
1395x(r)(5) of this title by means of manual
manipulation of the spine to correct a subluxation (as
described in such section) of an individual who is
enrolled under this part and apply such process to
such services furnished on or after January 1, 2017,
focusing on services such as—
(A) services furnished by a such a 1
chiropractor whose pattern of billing is aberrant
compared to peers; and
(B) services furnished by such a chiropractor
who, in a prior period, has a services denial
percentage in the 85th percentile or greater, taking
into consideration the extent that service denials
are overturned on appeal.
(2) Medical review
(A) Prior authorization medical review
(i) In general
Subject to clause (ii), the Secretary shall use
prior authorization medical review for services
described in paragraph (1) that are furnished to an
individual by a chiropractor described in section
1395x(r)(5) of this title that are part of an episode
of treatment that includes more than 12 services.
For purposes of the preceding sentence, an episode
of treatment shall be determined by the
1

So in original.

347
underlying cause that justifies the need for
services, such as a diagnosis code.
(ii)
Ending
application
authorization medical review

of

prior

The Secretary shall end the application of
prior authorization medical review under clause (i)
to services described in paragraph (1) by such a
chiropractor if the Secretary determines that the
chiropractor has a low denial rate under such prior
authorization medical review. The Secretary may
subsequently reapply prior authorization medical
review to such chiropractor if the Secretary
determines it to be appropriate and the
chiropractor has, in the time period subsequent to
the determination by the Secretary of a low denial
rate with respect to the chiropractor, furnished
such services described in paragraph (1).
(iii) Early request for prior authorization
review permitted
Nothing in this subsection shall be
construed to prevent such a chiropractor from
requesting prior authorization for services
described in paragraph (1) that are to be furnished
to an individual before the chiropractor furnishes
the twelfth such service to such individual for an
episode of treatment.
(B) Type of review
The Secretary may use pre-payment review
or post-payment review of services described in
section 1395x(r)(5) of this title that are not subject
to prior authorization medical review under
subparagraph (A).

348
(C) Relationship to law enforcement activities
The Secretary may determine that medical
review under this subsection does not apply in the
case where potential fraud may be involved.
(3) No payment without prior authorization
With respect to a service described in
paragraph (1) for which prior authorization medical
review under this subsection applies, the following
shall apply:
(A) Prior authorization determination
The Secretary shall make a determination,
prior to the service being furnished, of whether the
service would or would not meet the applicable
requirements of section 1395y(a)(1)(A) of this title.
(B) Denial of payment
Subject to paragraph (5), no payment may be
made under this part for the service unless the
Secretary determines pursuant to subparagraph (A)
that the service would meet the applicable
requirements of such section 1395y(a)(1)(A) of this
title.
(4) Submission of information
A chiropractor described in section 1395x(r)(5)
of this title may submit the information necessary for
medical review by fax, by mail, or by electronic
means. The Secretary shall make available the
electronic means described in the preceding sentence
as soon as practicable.
(5) Timeliness
If the Secretary does not make a prior
authorization determination under paragraph (3)(A)
within 14 business days of the date of the receipt of

349
medical documentation needed to make such
determination, paragraph (3)(B) shall not apply.
(6) Application of limitation on beneficiary
liability
Where payment may not be made as a result
of the application of paragraph (2)(B), section 1395pp
of this title shall apply in the same manner as such
section applies to a denial that is made by reason of
section 1395y(a)(1) of this title.
(7) Review by contractors
The medical review described in paragraph (2)
may be conducted by medicare administrative
contractors pursuant to section 1395kk-1(a)(4)(G) of
this title or by any other contractor determined
appropriate by the Secretary that is not a recovery
audit contractor.
(8) Multiple services
The Secretary shall, where practicable, apply
the medical review under this subsection in a manner
so as to allow an individual described in paragraph
(1) to obtain, at a single time rather than on a serviceby-service basis, an authorization in accordance with
paragraph (3)(A) for multiple services.
(9) Construction
With respect to a service described in
paragraph (1) that has been affirmed by medical
review under this subsection, nothing in this
subsection shall be construed to preclude the
subsequent denial of a claim for such service that
does not meet other applicable requirements under
this chapter.

350
(10) Implementation
(A) Authority
The Secretary may implement the provisions
of this subsection by interim final rule with
comment period.
(B) Administration
Chapter 35 of Title 44 shall not apply to
medical review under this subsection.
(bb) Additional payments for certain rural
health clinics with physicians or practitioners
receiving data 2000 waivers
(1) In general
In the case of a rural health clinic with respect
to which, beginning on or after January 1, 2019, rural
health clinic services (as defined in section
1395x(aa)(1) of this title) are furnished for the
treatment of opioid use disorder by a physician or
practitioner who meets the requirements described
in paragraph (3), the Secretary shall, subject to
availability of funds under paragraph (4), make a
payment (at such time and in such manner as
specified by the Secretary) to such rural health clinic
after receiving and approving an application
described in paragraph (2). Such payment shall be in
an amount determined by the Secretary, based on an
estimate of the average costs of training for purposes
of receiving a waiver described in paragraph (3)(B).
Such payment may be made only one time with
respect to each such physician or practitioner.
(2) Application
In order to receive a payment described in
paragraph (1), a rural health clinic shall submit to

351
the Secretary an application for such a payment at
such time, in such manner, and containing such
information as specified by the Secretary. A rural
health clinic may apply for such a payment for each
physician or practitioner described in paragraph (1)
furnishing services described in such paragraph at
such clinic.
(3) Requirements
For purposes of paragraph (1), the
requirements described in this paragraph, with
respect to a physician or practitioner, are the
following:
(A) The physician or practitioner is employed
by or working under contract with a rural health
clinic described in paragraph (1) that submits an
application under paragraph (2).
(B) The physician or practitioner first
receives a waiver under section 823(g) of Title 21 on
or after January 1, 2019.
(4) Funding
For purposes of making payments under this
subsection, there are appropriated, out of amounts in
the
Treasury
not
otherwise
appropriated,
$2,000,000, which shall remain available until
expended.
(cc) Specified COVID-19 testing-related services
For purposes of subsection (a)(1)(DD) :
(1) Description
(A) In general
A specified COVID-19 testing-related service
described in this paragraph is a medical visit that—

352
(i) is in any of the categories of HCPCS
evaluation and management service codes
described in subparagraph (B);
(ii) is furnished during any portion of the
emergency period (as defined in section 1320b5(g)(1)(B) of this title) (beginning on or after March
18, 2020);
(iii) results in an order for or administration
of a clinical diagnostic laboratory test described in
section 1395w-22(a)(1)(B)(iv)(IV) of this title; and
(iv) relates to the furnishing or
administration of such test or to the evaluation of
such individual for purposes of determining the
need of such individual for such test.
(B) Categories of HCPCS codes
For purposes of subparagraph (A), the
categories of HCPCS evaluation and management
services codes are the following:
(i) Office and other outpatient services.
(ii) Hospital observation services.
(iii) Emergency department services.
(iv) Nursing facility services.
(v) Domiciliary, rest home, or custodial care
services.
(vi) Home services.
(vii) Online digital
management services.

evaluation

and

(2) Specified outpatient payment provision
A specified outpatient payment provision
described in this paragraph is any of the following:

353
(A) The hospital outpatient prospective
payment system under subsection (t).
(B) The physician fee schedule under section
1395w-4 of this title.
(C) The prospective payment system
developed under section 1395m(o) of this title.
(D) Section 1395m(g) of this title, with
respect to an outpatient critical access hospital
service.
(E) The payment basis determined in
regulations pursuant to subsection (a)(3) for rural
health clinic services.
(dd) Special coinsurance rule
colorectal cancer screening tests.

for

certain

(1) In general
In the case of a colorectal cancer screening test
to which paragraph (1)(Y) of subsection (a) would not
apply but for the third sentence of such subsection
that is furnished during a year beginning on or after
January 1, 2022, and before January 1, 2030, the
amount paid shall be equal to the specified percent
(as defined in paragraph (2)) for such year of the
lesser of the actual charge for the service or the
amount determined under the fee schedule that
applies to such test under this part (or, in the case
such test is a covered OPD service (as defined in
subsection (t)(1)(B)), the amount determined under
subsection (t)).
(2) Specified percent defined
For purposes of paragraph (1), the term
“specified percent” means—
(A) for 2022, 80 percent;

354
(B) for 2023 through 2026, 85 percent; and
(C) for 2027 through 2029, 90 percent.

